APPENDIX

APPENDICES
APPENDIX A - Final Judgment – SDTX / 6-26-2020 ..........................................App. 1
APPENDIX B - Opinion & Order – SDTX / 6-26-2020 .........................................App. 2
APPENDIX C - Order Denying Injunction – 5th Circuit / 8-17-2020 ...................App. 6
APPENDIX D - CMS Notice of Suspension / 3-17-2020 .......................................App. 7
APPENDIX E - COVID-19 Response Plan / 3-13-2020 ......................................App. 10
APPENDIX F - Declaration of Binny Oonnoonny – 5th Circuit / 7-24-2020 ....App. 113
APPENDIX G - Declaration of Jan Spears – 5th Circuit / 7-22-2020 ...............App. 152
APPENDIX H - Abet Life’s Rebuttal to Suspension / 3-27-2020 .....................App. 158
APPENDIX I - CMS’s Response to Abet Life’s Rebuttal / 4-28-2020 ..............App. 165
APPENDIX J - Verified Complaint for Injunctive & Declaratory Relief—
SDTX / 4-1-2020 .......................................................................App. 171
APPENDIX K - Appellant’s Opposed Motion for Injunction Pending Appeal—
5th Circuit / 7-27-2020..............................................................App. 196
APPENDIX L - U.S. CONST. amend. V ...........................................................App. 226
APPENDIX M - Statutory Provisions Involved ................................................App. 227
APPENDIX N - Regulatory Provisions Involved ..............................................App. 246

i

Case 4:20-cv-01169 Document 21 Filed on 06/26/20 in TXSD Page 1 of 1
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ABET LIFE, INC.,
Plaintiff,
v.
SECRETARY ALEX M AZAR II
Defendant.

§
§
§
§
§
§
§
§
§

CIVIL ACTION H-20-1169

FINAL JUDGMENT
In accordance with the court’s order signed this date, Abet Life, Inc’s complaint (Dkt. 1) is
DISMISSED.
This is a final judgment.
Signed at Houston, Texas on June 26, 2020.

___________________________________
Gray H. Miller
Senior United States District Judge

App. 1

Case 4:20-cv-01169 Document 20 Filed on 06/26/20 in TXSD Page 1 of 4

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ABET LIFE, INC.,
Plaintiff,
v.
SECRETARY ALEX M AZAR II
Defendant.

§
§
§
§
§
§
§
§
§

CIVIL ACTION H-20-1169

MEMORANDUM OPINION AND ORDER
Pending before the court is plaintiff Abet Life, Inc.’s (“Abet Life”) motion for a temporary
restraining order (“TRO”) against defendant Secretary Alex M. Azar II (“Government”) (Dkt. 7) and
the Government’s motion to dismiss for lack of subject matter jurisdiction. The Government
responded to the TRO (Dkt. 13), Abet Life replied (Dkt. 14). Abet Life has not responded to the
Government’s motion. The court considered the TRO, evidentiary record, and the applicable law.
However after reviewing the complaint (Dkt. 1) and applicable law, the court finds it lacks subject
matter jurisdiction. Abet Life’s claims must be DISMISSED.
I. BACKGROUND
Abet Life is a Medicare home healthcare provider. Dkt. 1 at 11. On March 17, 2020, the
Government informed Abet Life that it had received a credible allegation of fraud, and pursuant to
42 C.F.R. § 405.371(a)(2), all Medicare payments would be suspended while the Government
investigated these allegations. Id. at 12. Abet Life provided a rebuttal statement to the Government
on March 27, 2020, thereby initiating the administrative review process under the Medicare Act.
Id. at 15. The Government responded to Abet Life’s rebuttal statement on April 28, 2020, and
affirmed its decision to suspend Medicare payments to Abet Life. Dkt. 10-3.

App. 2

Case 4:20-cv-01169 Document 20 Filed on 06/26/20 in TXSD Page 2 of 4

On April 1, 2020, Abet Life filed this suit claiming the Medicare payment suspension
violated its procedural due process rights under the U.S. Constitution and seeking an injunction
preventing the Government from suspending Medicare payments to Abet Life during the
Government’s fraud investigation. Id. at 16-17, 20.
II. LEGAL STANDARD
“Federal courts are courts of limited jurisdiction, and absent jurisdiction conferred by statute,
lack the power to adjudicate claims.” Stockman v. Fed. Election Comm’n, 138 F.3d 144, 151
(5th Cir. 1998). This court has an ongoing duty to examine its own subject-matter jurisdiction.
Cook v. Reno, 74 F.3d 97, 99 (5th Cir. 1996) (“Before ruling on the merits of the case, it is
imperative that the court first determine whether it has jurisdiction to hear the suit; if jurisdiction
is lacking, then the court has no authority to consider the merits.”). “If the court determines at any
time that it lacks subject-matter jurisdiction, the court must dismiss the action.”

FED. R.

CIV. P. 12(h)(3).
III. ANALYSIS
Abet Life seeks to enjoin the Government from withholding Medicare payments. “Medicare
cases usually are excluded from the general grant of federal-question jurisdiction in 28 U.S.C.
§ 1331 absent exhaustion of the agency appeals.” Family Rehab., Inc. v. Azar, 886 F.3d 496, 500
n.4 (5th Cir. 2018). “The Medicare act severely restricts the authority of federal courts by requiring
‘virtually all legal attacks under the Act be brought through the agency.’” Physician Hosps. of Am.
v. Sebelius, 691 F.3d 649, 653 (5th Cir. 2012) (quoting Shalala v. Ill. Council on Long Term Care,
Inc., 529 U.S. 1, 13 (2000)). “By statute, claims under Medicare must first be presented to the HHS
Secretary.” Id.

2
App. 3

Case 4:20-cv-01169 Document 20 Filed on 06/26/20 in TXSD Page 3 of 4

Nonetheless, claims may be brought before the court under the Medicare Act if (1) there has
been a presentment to the Secretary; and (2) the claimant has exhausted his administrative review.
Affiliated Prof'l Home Health Care agency v. Shalala, 164 F.3d 282, 284 (5th Cir. 1999). While
presentment to the Secretary may never be waived, a plaintiff need not exhaust his administrative
review if “(a) the claims are entirely collateral to a substantive agency decision, and (b) full relief
cannot be obtained at a post-deprivation hearing.” Family Rehab., 886 F.3d at 501) (internal
quotations omitted). This includes challenges to Medicare payment suspensions based on “credible
allegations of fraud” pursuant to 42 C.F.R. § 405.371(a)(2). See True Health Diagnostics, LLC v.
Azar, 392 F. Supp. 3d 656 (E.D. Tex. 2019).
In True Health Diagnostics, like here, a Medicare provider challenged a 42 C.F.R.
§ 405.371(a)(2) Medicare payment suspension as a violation of procedural due process. Id. at
659-60. After a thorough discussion of the Medicare Act, its administrative procedures and
remedies, and the narrow grant for judicial review, the district court decided that the dispute was not
properly before the court. The court reasoned that the plaintiff’s claims were not wholly collateral
to a substantive agency decision because the claim directly challenged the Government’s decision
to suspend payment pending its fraud investigation. Id. at 663-64. Thus, the court lacked subject
matter jurisdiction, and the claims were dismissed. Id. at 665-66.
Like the plaintiff in True Health Diagnostics, Abet Life asks for the Government’s Medicare
payment suspension to be lifted before Abet Life pursues the full administrative procedures available
to it. See Dkt. 1. But Abet Life’s claims also are non-collateral to a substantive agency decision,
so it cannot waive the exhaustion requirement. See True Health Diagnostics, 392 F. Supp. 3d at
663-64; see also Family Rehab., 886 F.3d at 501. Therefore, this court lacks subject matter
jurisdiction to hear Abet Life’s claims.
3
App. 4

Case 4:20-cv-01169 Document 20 Filed on 06/26/20 in TXSD Page 4 of 4

IV. CONCLUSION
For the foregoing reasons, the court finds that it lacks subject matter jurisdiction in this
matter, and Abet Life’s complaint (Dkt. 1) is DISMISSED.
Signed at Houston, Texas on June 26, 2020.

___________________________________
Gray H. Miller
Senior United States District Judge

4
App. 5

Case: 20-20399

Document: 00515529092

Page: 1

Date Filed: 08/17/2020

United States Court of Appeals
for the Fifth Circuit
_________
No. 20-20399
_________
ABET LIFE, INCORPORATED,
Plaintiff—Appellant,
versus
ALEX M. AZAR, II, SECRETARY, U.S. DEPARTMENT OF HEALTH
AND HUMAN SERVICES,
Defendant—Appellee.
____________________________
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:20-CV-1169
____________________________
Before Stewart, Higginson, and Graves, Circuit Judges.
Per Curiam:
IT IS ORDERED that Appellant’s motion for injunction pending
appeal is DENIED.

App. 6

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

.

CENTERS FOR MEDICARE & MEDICAID SERVICES

March 1 7 , 2020
Abet Life, Inc.
4502 Riverstone Blvd, Suite 502
Missomi City, TX 77459-5200
Re:

Notice of Suspension of Medicare Payments
Provider Medicare ID Number: 747811
Provider NPI: 1417239682
Record Identifier: PSP-200305-00002

Dear Abet Life, Inc.:
The purpose of this letter is to notify you of our detennination to suspend your Medicare payments
pursuant to 42 C.F.R. § 405.37l (a)(2). The suspension of your Medicare payments took effect on
March 12, 2020. Prior notice of this suspension was not provided, because giving prior notice would
place additional Medicare funds at risk and hinder our ability to recover any detennined overpayment.
See 42 C.F.R. § 405.372(a)(3).
The decision to suspend your Medicare payments was made by the Centers for Medicare & Medicaid
Services (CMS) through its Central Office. 42 C.F.R. § 405.372(a)(4)(iii). This suspension is based on
credible allegations of fraud. CMS regulations define credible allegations of fraud as an allegation from
any source including, but not limited to, Fraud hotline complaints, claims data mining, patterns
identified through audits, civil false claims cases, and law enforcement investigations. Allegations are
considered to be credible when they have indicia of reliability. 42 C.F.R. § 405.370. This suspension
may last until resolution of the investigation as defined under 42 C.F.R. § 405.370 and may be extended
under certain circumstances. 42 C.F.R. § 405.372(d)(3)(i)-(ii). Specifically, the suspension of your
Medicare payments is based on, but not limited to, information that you misrepresented services billed
to the Medicare program by submitting claims that did not meet the criteria for skilled nursing care.
More particularly, the documentation you submitted to support the claims did not support that the
services provided were of an inherent complexity that they could have only been performed safely
and/or effectively by or under the general supervision of a skilled nurse and/or therapist.
The following list of sample claims provide evidence of our findings and serve as a basis for the
determination to suspend your Medicare payments:
Claim Control

Date(s) of Service

Amount

21622104218207TXR

051291201 607/27/2 01 6

$1,646.53

21628801324507TXR

07/28/201 609/25/2016

$1 ,646.53

•
Qlarant •

•
•

Basis for Selected Claim

Paid

Number (CCN)

App. 7

14643 Dallas Parkway, Suite 400

•

Documentation does not support
the services billed met criteria for
skilled nursing care.
Documentation does not support
the services billed met criteria for

Dallas, Texas 75254-1613

•

www.qlarant.com

Unified Program Integrity Contractor

CMS

South Western Jurisdiction (UPICSW)

CfNTERS FOR MEDICARE & MEDICAID SERVICES

21806104303107TXR

12/14/201702/11/2018

$2,180.92

2 l812903346207TXR

02112120180411212018

$2,180. 92

218 l 7100750607TXR

04/13/201806/11/2018

$1,593. 06

skilled nursing care.
Documentation does not suppmi
the services billed met criteria for
skilled nursing care.
Documentation does not support
the services billed met criteria for
skilled nursing care.
Documentation does not support
the services billed met criteria for
skilled nursing care.

This list is not exhaustive or complete in any sense, as the investigation into this matter is continuing.
The infonnation is provided by way of example in order to furnish you with adequate notice of the basis
for the payment suspension noticed herein.
Pursuant to 42 C.F.R. § 405.372(b)(2), you have the right to submit a rebuttal statement in writing to us
indicating why you believe the suspension should be removed. We request that you submit this rebuttal
statement to us within 15 days. You should include with this statement any evidence you believe is
pertinent to your reasons why the suspension should be removed. Your rebuttal statement and any
pertinent evidence should be sent to:
Qlarant Integrity Solutions, LLC
Attn: Rebuttal and Suspension Department
14643 Dallas Parkway, Suite 400
Dallas, TX 75254
If you submit a rebuttal statement, we will review that statement (and any supporting documentation)
along with other materials associated with the case. Based on a careful review of the information you
submit and all other relevant information known to us, we will determine whether the suspension should
be removed, modified, or should remain in effect within 15 days of receipt of the complete rebuttal
package. However, the suspension of your Medicare funds will continue while your rebuttal package is
being reviewed. Thereafter, we will notify you in writing of our detennination to continue or remove
the suspension and provide specific findings on the conditions upon which the suspension may be
continued or removed, as well as an explanatory statement of the determination. 42 C.F.R. §
405.375(b)(2). This determination is not administratively appealable. 42 C.F.R. § 405.375(c).

If the suspension is continued, we will review additional evidence during the suspension petiod to
determine whether claims are payable and/or whether an overpayment exists and, if so, the amount of
the overpayment. See 42 C.F.R. § 405.372(c). We may need to contact you with specific requests for
fuiiher information. You will be informed of developments and will be promptly notified of any
overpayment detenuination. Claims will continue to be processed during the suspension period, and

Olarant·• :

App. 8

14643 Dallas Parkway, Suite 400

•

Dallas, Texas 75254-1613

•

www.qtarant.com

Unified Program Integrity Contractor

CMS

South Western Jurisdiction (UPICSW)

CENTERS FOR MEDICARE & MEDICAID SERVICES

you will be notified about bill/claim detem1inations, including appeal rights regarding any bills/claims
that are denied. The payment suspension applies to both current and future payments.
In the event that an overpayment is determined and it is detennined that a recoupment of payments
under 42 C.F.R. § 405.371 (a)(3) should be put into effect, you will receive a separate written notice of
the intention to recoup and the reasons. You will be given an opportunity for rebuttal in accordance with
42 C.F.R. § 405.374 from Palmetto GBA. When the payment suspension has been removed, any money
withheld as a result of this action shall be first be applied to reduce or eliminate the determined
overpayment and then to reduce any other obligation to CMS or to the U.S. Department of Health and
Human Services in accordance with 42 C.F.R. § 405.372(e). In the absence of a legal requirement that
the excess be paid to another entity, the excess will be released to you.
Should you have any questions, please contact Patrick Hughes in writing or via telephone at 972-3830000.
Sincerely,

S. Scott Ward, CFE, AHFT
Program Director
Qlarant Integrity Solutions, LLC
cc: Centers for Medicare & Medicaid Services

Olarant::

App. 9

14643 Dallas Parkway, Suite 400

•

Dallas, Texas 75254-1613

•

www.qlarant.com

PanCAP Adapted
U . S . Government
COVID - 19 Response Plan
March 13, 2020

SE CES
USA

HEOFALOFTH
MENT

UNCLASSIFIED

OFFICIAL USE ONLY IINOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 10

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Table ofContents
Situation . . .

Purpose ...
..
Background .

...

.. . .

Threat
Risk Assessment ..... .... .
Facts

. . .. . .

...

Assumptions.
Critical Considerations
Authorities
Guiding Doctrine ...
Mission ..... . . .
Senior Leader Intent..
Purpose and End States
.. .. .. ..

Strategic Objectives .. .
Scope

Roles and Responsibilities ........
Execution... .

.....

Concept ofOperations .............

Interagency Coordination Constructs ...... . .. .
Phase Indicators and Triggers .
Lines of Effort.......

..
.. .. .. .. .. . . . ..
.. . . . . . . . . . . . .

Key Federal Decisions .
Interagency Support.. .
Sustainment...

. .. . .. ..

Administration .... .......
Resources . .

......

..........
Communications, Coordination, and Oversight ........
Funding ...

...... .

..

... .

Communications
Coordination . . .... ..
Oversight. . . . ...... .

UNCLASSIFIED

OFFICIALUSEONLYI

... . . . .

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 11

.

PanCAPAdapted U.S. GovernmentCOVID- 19 ResponsePlan

Annex A . Task Organization .
Annex C . Operations ........ . .
USG Phasing Constructs ....... . .

.......

Transitions Between Phases ........
Preparing for Future Epidemic Trends
Containment ...

Striking Balance Between Mitigation and

Appendix 1. Surveillance ......

Appendix 2 . Communication and Public Outreach .. . ...... . .....

.. ... ..

Appendix 3 . Healthcare Systems Preparedness and Resilience..............
Appendix 4 . Medical Countermeasures Development .

. ... .

..

.. . . .

Annex D . Logistics ........ .....

Annex E. HHS Information Collection Plan ......... ...
Annex F. Federal Roles and Responsibilities .. . .
Annex G . RegionalOperational Coordination .
. .. ..
Annex X . Execution
Annex Y . Glossary .... ..

... ....

...

UNCLASSIFIED

.

OFFICIALUSEONLYI

.....

........

.. . .. .

Definitions....
Acronyms

....

.. . . .. . .

Appendix 5. Supply Chain Stabilization . . .. ...
Appendix 6 . Community Mitigation Measures ........
Appendix 7. Continuity of Operations & Essential Services

..

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 12

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Situation

Purpose
This plan outlines the United States Government(USG) coordinated federalresponse activities
for COVID -19 in the United States (U . S . ). The Presidentappointed the Vice Presidentto lead
the USG effortwith the Departmentof Health and Human Services (HHS) servingas the Lead
Federal Agency (LFA) consistentwith the Pandemic and All Hazards Preparedness Act
(PAHPA) and PresidentialPolicy Directive (PPD ) 44 . Under the NationalResponse Framework
(NRF) and the BiologicalIncidentAnnex (BIA ) to theResponse and Recovery Federal
Interagency OperationalPlans (FIOP), other federal agencieswill supportHHS through the
Emergency Support Functions(ESFs). The responsewill be carried out according to the NRF
and in accordance with established departmentalauthorities and standingpolicies and
procedures. This plan identifies anticipatedroles and responsibilitiesof HHS, other federal
departments and agencies, and supporting organizations, to establish lines of authority and avoid
overlap and duplication of effort.

Background
Late December 2019, authoritiesfrom the People s RepublicofChina (PRC) announceda
possible epidemic of pneumonia of unknownetiology centralizedon a locallarge seafood and
live animalmarketin Wuhan, China. Estimated case onset was early December. The clinical
syndromeincludes fever and difficulty breathingwith bilaterallung infiltrates on chest -rays.
Theviruswas identified as a novel coronavirus. Since identification, the virushas been named
“ SARS- CoV -2” and the disease it causeshasbeen named “ coronavirusdisease 2019
(abbreviated“ COVID - 19
Shortly afterwardsthe HHS Centers for DiseaseControland
Prevention(CDC) established a formal response in order to provide ongoing support in response
to the outbreak.
CDC establisheda COVID -19 IncidentManagementSystem on January 7 , 2020, and has been
operationalizingits pandemic preparednessand responseplans, workingon multiple fronts to
meet these goals, including specific measuresto prepare communitiesto respond to local
transmission. On January 10, PRChealth authoritiespreliminarily identifieda novel coronavirus
as the cause ofan outbreak ofpneumonia in Wuhan City, HubeiProvince, China. Most initial
patientcases in China had some link to a large localseafood and animalmarket, suggesting a
possiblezoonotic origin to the outbreak. HHS established a responseeffort from the Secretary s
OperationsCenter on January 24.
The first U . S . case ofCOVID- 19 was confirmed in Washington State on January 20 and was
travel-related. CDC deployed a multidisciplinary team to Washington to assist with case
identification, contacttracing, clinicalmanagement
, and communications. Additionalcases
continue to be identified and CDC continues to deploy multidisciplinary teamsto assisthealth
departments. On January 30, the InternationalHealth RegulationsEmergency Committeeof the
World Health Organizationdeclared the outbreak a public health emergency of international
On February 11, 2020, the World Health Organization announced an officialname for the disease that is causing
the 2019 novel coronavirusoutbreak, first identified in Wuhan, China. The new nameof this disease is coronavirus
disease 2019, abbreviated as COVID - 19. In COVID - 19, CO stands for corona,
disease. Formerly, this diseasewas referredto as “ 2019 novelcoronavirus” or “ 2019-

UNCLASSIFIED

OFFICIALUSEONLYI

virus, ' and D
.

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 13

for

PanCAP Adapted U . S. Government COVID - 19Response Plan

concern (PHEIC ). On January 31, the White House 2019 Novel Coronavirus Task Force
announced the implementation of new travel policies regarding entry into the U . S . On January
31, the HHS Secretary declared a Public Health Emergency (PHE) for the U . S . to aid the
nation' s healthcare community in responding. On February 10 , atHHSrequest, FEMA
established an embedded incident support team at HHS to support the response , providing
support for crisis action planning, situational awareness, and operational coordination . On
February 28, HHS requested ESFs 1 6 , 13, 14, and 15 activation.

Threat
COVID - 19 is in the same family as other human coronaviruses that have caused global
outbreaks, such as severe acute respiratory syndrome(SARS) andMiddleEastrespiratory
syndrome(MERS). Coronavirusescause respiratory tract illnesses, which can lead to pneumonia
and, in severe cases, death. Knowntransmission routes for coronavirusesinclude sustained
human- to -human transmission via respiratory dropletsproducedwhen an infectedperson coughs
or sneezes. Aswith allnoveland emerginginfectious agents, it is possiblethat continued spread
ofthe coronaviruscould result in a pandemic. The completeclinical picturewith regard to
COVID -19 is not fully understood. Reported illnesseshaveranged from mild symptomsto
severe illnessresultingin death.
Currentunderstanding abouthow the virus that causesCOVID - 19 spreads is thatit is mainly
from person-to -person, between peoplewho are in close contactwith one another (within about 6
feet) and through respiratory droplets when an infectedperson coughsor sneezes. Peoplemaybe
able to contractCOVID - 19 by touching a surfaceor object that has the viruson it and
touching their ownmouth, nose, or, possibly, eyes, butthis is notthoughtto be themain way the
virus spreads.

Risk Assessment
Outbreaks of novel virus infections amongpeople are always of public health concern . The risk
to the generalpublic from these outbreaks depends on characteristics of the virus, including how
well it spreads between people; the severity of resulting illness; and the medical or other
measures available to control the impact of the virus ( for example , vaccines or medications that
can treat the illness). That this disease has caused severe illness, including illness resulting in
death is concerning, especially since it hasalso shown sustained person-to -person spread in
several places. These factors meet two of the criteria of a pandemic. As community spread is
detected in more and more countries, the world moves closer toward meeting the third criteria ,
worldwide spread ofthe new virus.
This is a rapidly evolving situation and CDC ' s risk assessment will be updated as needed.
Current risk assessment as ofMarch 11: 2
For the majority of people , the immediate risk of being exposed to the virus that causes
COVID - 19 is thought to be low . There is not widespread circulation in most communities
in the United States .

2 The CDC COVID -19 risk assessment is updated regularly at https://www . .gov /coronavirus /2019
nCoV /summary .html.
UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 14

2

PanCAP Adapted U .S. Government COVID - 19 Response Plan

People in places where ongoing community spread ofthe virus that causes COVID -19
hasbeen reported are atelevated risk of exposure, with increase in risk dependent on the
location .
Healthcare workers caring for patients with COVID - 19 are at elevated risk of exposure.
Close contacts of persons with COVID - 19 also are at elevated risk of exposure .
Travelers returning from affected international locationswhere community spread is
occurring also are atelevated risk of exposure, with increase in risk dependent on
location
CDC has developed guidance to help in the risk assessment and management ofpeople with
potential exposures to COVID -19.
Pandemic Severity Assessment Framework3
Projection of COVID - 19 on the Pandemic Severity Assessment Framework (PSAF) willhelp
amplify why thetargeted layered mitigation actions are needed. Based on limited data to date,
placement of COVID - 19 is projection between quadrant B and D .

transmiblty
mSecaasluerd

2010 US population
100, 000

35, 000

,000

500 000
,

No
15,000

High

of
Cumulative

incidence

20

population
,

0.01

0.

0.05

0. 10
Case fatality ratio ,

0.25

0.5

Moderate

.

Low

Moderate

High

Scaled measure of clinical severity

Figure 1. CDC Pandemic Severity Assessment Framework
Facts
Facts are statements of known data concerning the situation that can be substantiated . The
following facts assisted in the development ofan operational environment for this plan .
1. State and local health departments and CDC are confirming COVID - 19 in the U . S . with
no links to travel history from

the PRC , excluding the special administrative regions of

3 Additional information about the CDC Pandemic Severity Assessment Framework is available here:
https://wwwnc .
. gov / eid / article /19/ 1/ 12 -0124 article .

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 15

PanCAP Adapted U .S. Government COVID - 19 Response Plan

Hong Kong and Macau, or any other foreign country or jurisdiction impacted with

community COVID - 19 spread .

2 . Travel advisories and travel health notices are being issued by the State Departmentand
the CDC in response to the COVID - 19 outbreak.

3.

COVID 19 vaccine research, development, production, and distribution are underrapid

developmentand willtake extended timeto develop.
4 . Clinicalresearch of effectivenessofexistingmedicationsas COVID - 19 antivirals
requires extended time for U . S. Food and Drug Administration (FDA) review and

Emergency Use Authorization (or other approval designation ).
5 . Department and agency continuity of operations ( COOP) plans include succession
planning and procedures forperformingessentialfunctions. COOP planning and

capabilities also providestrategiesfor managementand prioritization of function

performance during a pandemic.
Assumptions

In the absence of facts, planningassumptionsrepresentinformation deemed true. They are
necessary to facilitate planningdevelopmentefforts. Assumptionsset a baselinefor planning
purposesand do not take the place of specific activities or decision points thatwill occur during
a COVID - 19 outbreak. The followingplanning assumptionsassisted in the developmentof an
operationalenvironmentfor this plan.
1. Universalsusceptibility and exposure will significantly degradethe timelinesand

efficiency of response efforts.

2. A pandemic will last 18 monthsor longer and could includemultiplewaves of illness.
3. The spread and severity of COVID -19 willbe difficultto forecast and characterize.
4 . IncreasingCOVID -19 suspected or confirmed cases inthe U .S. willresultin increased
hospitalizationsamongat-risk individuals, straining thehealthcare system .

5.

States will request federal assistancewhen requirements exceed state , local, tribal, and
territorial (SLTT) capabilities to respond to COVID - 19. This may include requests for
assistance of HHS through the HHS Region based on the scope ofassistance available
through an emergency supplemental appropriation and may include additional assistance

under the Stafford Act.

6 . Supply chain and transportation impacts dueto ongoing COVID - 19 outbreak will likely
result in significant shortages for government , private sector, and individual U . S .
consumers .

As the federal response to COVID - 19 evolves beyond a public health andmedical
response , additional federal departments and agencies will be required to respond to the
outbreak and secondary impacts , thereby increasing the need for coordination to ensure a
unified, complete , and synchronized federal response.
4 For themostupto date traveladvisories issuedbythe State Department
, reference

https// travel. state. gov/content/travelhtml
. For themostup to date travelhealth noticesissued by theCDC, reference
https://www .cdc. gov/ coronavirus/2019-ncov/ travelers/ indexhtml
.

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 16

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

CriticalConsiderations
Critical considerations are key elements of information that plannersmusttake into account
when developing a plan. The following should be addressed when planning for COVID - 19.
1. COVID - 19 outbreaks or pandemic responserequire short-notice federalasset
coordination andresponse timelines and a national response that is scalable to the
severity of the incidentand the needs of the affected jurisdictions ( e. g. , SLTT -level

critical infrastructure and government).

2 . Response to COVID - 19 must involve vertical and horizontal integration between federal

interagency partners at the headquarters and regionallevels and with SLTT public health,

emergency managementofficials , and the private sector.

3. Different regions of the U . S. are in different operationalresponse phases depending upon

the COVID - 19 spread and illness severity in impacted communities.
4 . Aggressive containmentofexposed, suspected, and confirmed COVID -19 individuals
(both arrivingfrom foreign locationsand identified as part of domestic spread) may

continue while community mitigation efforts are implemented in the U .S .

5 . Critical resources need to be prioritized and directed to meet evolving demands and to
maximizemission effectiveness.
6.

Federalsupply chain managementshould includeprioritization and redirectionof
essential critical resources to meet evolving demands and to facilitate USG mission

effectiveness, public health, and safety.

7 . COVID - 19 outbreaks or pandemic will requiresocialdistancing and telework to continue
government operations, lengthening execution times for sometasks. Workplace controls

willbe implemented to the extent practical duringa pandemic.
8 . Implementation of community mitigation measuresmay adversely impact sustained
operations of U .S . healthcare facilities, critical infrastructure , and government.
9 . Clear and coordinated messages to key audiences (e . g., public health authorities
healthcare providers, SLTT governments, and private sector partners) are importantto
avoid confusion; to promptcustomizablepreventivemeasures atthe SLTT and private
sector level; to minimizeadverse impactsto criticalstructureand continuity of

operations; and to limitmisinformation.

10. Revisionsin the scenarios, modeling, and projectionsused to inform planning, and
consequent changes in planning, should bemade to accommodate changes in knowledge

about COVID- 19 characteristics affecting the parameters used for themodeling.

11. A COVID -19 pandemic environmentwill requiremodification to concurrent disaster
response operations (e . g ., increased levels ofpersonalprotective equipment

restrictedinteractionswith survivors and stakeholders, resource prioritization).
12. Planningand response activities should address protective actionsfor older personsand
those with underlyingmedicalconditions, who are particularly susceptibleto the effects
ofSARS-CoV - 2 during an outbreak.

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 17

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Authorities
Primary authorities are listed here. For a full list of authorities, reference the BIA or Pandemic
Crisis Action Plan (PanCAP) Annex A : Authorities.
1.

Public Health Service Act, Pub L . No. 78-410, 58 Stat. 682 ( 1944) (codified as
amended at 42 U . S . C .

2.

3.
4.

et seq.; 42 U . S .C .

$ 300hh - 1 and 16 ) .

Public Readiness and Emergency Preparedness Act, Pub. L . No. 109- 148 ( codified as

amended in the Public Health Service Act at 42 U . S . C .
-6d) .
Economy Act, Pub. L . No. 73 - 2 ( 1933) ( codified as amended at 31 U . S . C . $ 1535 ) .
Robert T . Stafford Disaster Relief and Emergency Assistance Act , Pub. L . No. 93
288 ( as amended at 42 U . S . C . $ $ 5121-5207) .

5.

Presidential Policy Directive 44 ( PPD 44 ), Enhancing Domestic Incident Response
(2016 ).

6.

HomelandSecurity PresidentialDirective5 (HSPD- 5 ) , Managementof Domestic
Incidents( 2003) .

Guiding Doctrine
The BIA to the FIOP , approved in January 2017, provides strategic guidance for the coordination
of the interagency during response to a biologic incident. The PanCAP, approved in January
2018, operationalizes the BIA with a focus on potential viral pandemic pathogens. The COVID
19 Response Plan outlines adapted federal response actions for the response to this disease .
Mission
HHS is the LFA and reports to the Office of the Vice President, which is the task force lead for
the whole of government response . In coordination with the interagency , HHS will take all
necessary action to leverage available USG resources to prepare for, respond to , and recover
from COVID - 19. Federal departments and agencies will coordinate activities to limit the spread
of COVID - 19 ; to mitigate the impact of illness , suffering , and death ; and to sustain critical
infrastructure and key resources in the U .S .

Senior Leader Intent
The National Security Council (NSC ) requested adaptation ofthe PanCAP to address the
ongoing threat posed by COVID -19 in support of the Administration s efforts to monitor,
contain , and mitigate the spread of the virus . The plan builds on objectives that prepare the USG
to implement broader community and healthcare -based mitigation measures, to accelerate
outreach to SLTT authorities , and to preserve and minimize disruptions to critical public and
private sector services .
The USG willmaintain unity of effort while developing and implementing operational plans that
enable state and federal partners to detect and contain the spread of diseases in the U . S . The USG
will implement a targeted , layered mitigation strategy with a phased approach to individual,
community , business, and healthcare interventions aimed at slowing transmission and
acceleration of disease ; minimizing morbidity and mortality ; preserving function ofhealthcare ,
workforce , and infrastructure ; and minimizing social and economic impacts.

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 18

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Purpose and End States
A nimble, effective COVID - 19 response with flexible sustainable capabilities will save lives and
mitigate social and economic disruption .
•

Federallifesaving and life- sustaining assistance addressing COVID - 19 has been provided
to SLTT and private sector entities.
SLTT governments and private healthcare facilities can provide individuals and families
with the means to rebound from the effects of COVID - 19 through sustainment of their
physical, emotional, social, and economic well-being.
Critical infrastructure capability and capacity , including adequate commodity availability ,
havebeen restored, or impactsminimized .
COVID - 19 response and recovery worker safety andhealth protectionmeasures have
been developed and compliancemeasures have been implemented .
Members of the public have been provided the necessary information to protect
themselves against or recover from COVID - 19, including at-risk individuals and
particularly susceptible populations
Practices for sustainable prevention of SARS- CoV - 2 transmission, identification of cases,
and treatment of COVID - 19 patients address all elements of communities, including
access and functionalneeds of children, older adults , people with English as a second
language, people with low literacy, and people with chronic conditions.
Federaland SLTT government continuity of operations plans are fully in place. If

appropriate , these plans are successfully executed to ensure primary mission essential
functions (MEFs) are maintained

Strategic Objectives5
Implementbroader community and healthcare-based mitigationmeasures.
Accelerate outreach to state and localauthorities.
Preserve andminimize disruptionsto criticalpublic and private sector services.

Scope
This plan outlinescoordinated federalresponseactivities for COVID - 19in the U .S .
Roles and Responsibilities
HHS is the LFA for this federal response. The Federal EmergencyManagementAgency
(FEMA) coordinates federalsupport for consequencemanagement. The federal interagency
supportsHHS, as requested, to assist SLTT partnerswith related preparednessand response
activities. For detailed descriptions of interagency roles and responsibilities, see Annex F:
FederalRoles and Responsibilities.
Execution
This plan outlineskey federal decisions, federal actions, and interagency coordinationstructures
thatmaybeused during the COVID - 19 response. Further detailregarding departmentand
5 These objectives were directed by the NSC Resilience DRG PCC on February 24 , 2020.

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 19

PanCAPAdapted U.S. GovernmentCOVID-19 Response Plan

agency responsibilities, activities, integration, synchronization, and phasing is outlined in the
annexes and appendices to this plan.
Concept of Operations
This concept of operations aligns interagency triggers to the CDC intervals for each phase and
groups key federal actions according to response phase. It also layers in the COVID-19
Containment and Mitigation Strategy developed by the NSC.
Interagency Coordination Constructs
As the LFA for this federal response, the HHS Secretary activated the Secretary’s Operations
Center (SOC) on January 24, 2020, as the center of gravity for interagency coordination. Within
HHS, CDC leads the public health response (e.g., epidemiology, countermeasures, assistance to
SLTT health departments). The HHS SOC supports interagency information management and
coordination. Other federal departments and agencies execute their related statutory
responsibilities and provide additional support to HHS on request.
On January 27, the President’s Coronavirus Task Force was formed and charged with leading the
USG response. The Task Force was initially led by the Secretary of Health and Human Services
and coordinated through the NSC. On February 28, the Task Force transitioned to the Office of
the Vice President (OVP). OVP leads and coordinates all federal communication and messaging,
both across the USG and internationally with the World Health Organization and affected
countries.
On February 10, at HHS request, FEMA embedded a team with ASPR to support crisis action
planning, situational awareness, and operational coordination. The DHS National Operations
Center (NOC), DHS Joint Incident Advisory Group (JIAG), and U.S. Coast Guard (USCG) have
liaison officers (LNOs) collocated with this team. Liaisons from Emergency Support Function
(ESF) #1 Transportation; ESF #6 Mass Care, Emergency Assistance, Temporary Housing, and
Human Assistance; ESF #13 Public Safety; ESF #14 Cross-Sector Business and Infrastructure;
and ESF #15 External Affairs are also activated in support of ongoing response operations. The
current coordination construct is displayed in Figure 2.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 20

8

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

USGOVERNMENTCOVID- 19 COORDINATION AND RESPONSE

WHITE HOUSE TASK FORCE

INTERAGENCYCOORDINATION

POLICY

ESFLG

NationalSecurityCouncil

WMD

BATS

OPERATIONS

UnifiedCoordination

Resilience

FEMA

HHSASPR

HHS CDC

Lead

Lead

Lead

Public HealthResponse
Epidemiology , Laboratory ,

Medical Countermeasures
HHS Augmentation

HHS SOC

NIH
PHS

CDC

OFPEIREATLIODNS

JIC

HHSSOC
FHCO

HHSIncident
Management
Team

Support for interagency coordination and information management

HHS

TASK FORCES
Repatriation
Supply Chain Management

Augmentation

Communications
MCM
Healthcare System Resilience

PHS
NDMS

SOC

CDC

DHSCMO

Coordination
WHO

:
ESF LN

USCG

Operations

Coordination

ASTHO
NACCHO

CDC - DOD

CSTE

DHS Screening

APHL
DHS

Quarantine

SLTT
International

Operations
TSA -CBP-CWMD-USCG

Interagency
Planning Cell

ASPR

, 13 , 14 , 15

CDC
FEMA Incident Support
Support forsituational awareness, reporting
crisis action planning, interagency coordination

FEMA
ESFLG Planners

Legend
HHS
Interagency

Figure 2. US Government COVID - 19 Coordination and Response
As the COVID - 19 response evolves , the coordination construct, location, and participants may
similarly be adapted to address interagency coordination and synchronization challenges .
If the impacts of COVID - 19 becomewidespread and require a coordinated federal response to
deliver substantial consequence management capabilities beyond those related to public health
and medical assistance, HHSmay, consistent with PPD -44 and/ or HSPD - 5 , request FEMA
coordination support to the overall federal response while HHS continues to lead the public
health and medical response to contain and mitigate the COVID - 19 virus. Potential coordination
structures for a Unified Coordination Group (UCG ) are depicted in Figure 3 .

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 21

PanCAP Adapted U . S. Government COVID - 19Response Plan

PotentialUCG Coordination Structures
Phases 2B and

- Domestic Transmission

UCG location should be based on center of gravity analysis as follows :
HHS SOC when response requires inter-agency coordination and information management exceeding CDC EOC capacity
FEMA NRCC when consequence management requirements exceeding HHS SOC capacity ( transportation , supply chain )

Legend

Activation of a UCG at the HHS SOCmay be necessary ifthe healthcaresystem burdenexceeds state
resource capabilitiesor there are state/ local request(s) for assistance that requiresfederal coordination

SOC

HHS SOC

at

UCG

Reporting
Coordination

SLTT
Coordination

ASTHO
NAOCHO
CSTE
APHL

LeadingUCG
HQ coordinationand informationmanagement

CDC
Response Focus

Interagency UCG
Reps
ASPR - CDC

ASPR DOD -

DHSOMO

OthersTBD

DODOthersTBD

International
Coordination

IM Support
ifrequested
Reporting
Planning

Finance
coordination

Activation of a UCG at FEMA may be necessary if there are long- term service disruptions or critical
infrastructure impacts or a Presidential Stafford Act declaration .

FEMA

at

UCG

UCG at FEMA NRCC
Consequence Management and Reporting
SLTT
Coordination
ASTHO
CSTE
APHL

CDC

HHSSOC

Response Focus

LeadingESF# 8

ASPR
DOD - FDA
OthersTBD

Interagency

Reps

ASPR - COC
ASPR - CDC
DHS

DHS - DOD
ESF

FEMA NRCC Staff
Situational Awareness
Planning
ResourcesSupport
External
Affairs

Others
TBD

International
Coordination

Pre-DecisionalDraft / / FOR OFFICIAL USE ONLY

Figure 3 . Potential UCG Coordination Structures
Phase Indicators and Triggers
The COVID - 19 Response Plan triggers are adapted from the PanCAP for this threat and are
harmonized with the Phases of U . S . Government Response to the 2019 Novel Coronavirus
(2019 ) , dated February 11, to provide a targeted , layeredmitigation strategy across the
federal government. The crosswalk shown in Figure 4 aligns the federal operational response
phases outlined in the Response FIOP and BIA with the CDC intervals outlined in the
Pandemic Intervals Framework (PIF ). The crosswalk also identifies triggers that move action
between the phases , and it is used to organize interagency response activities, as reflected in the
Synchronization Matrix (Annex X ). The PanCAP triggers that move action between the phases
have also been adapted by ASPR , CDC , and FEMA for COVID - 19.

6 The ResponseFIOP describes the response to an incidentacross three operationalphases (two for response, one for
recovery) . The two response phases are divided into three sub -phases. Formore information aboutthe federal
operationalresponse phases, reference the Response FIOP
7 The PIF describes the progression of an influenzapandemicusingsix intervals. This framework is used to guide
influenza pandemicplanningand providesrecommendationsfor risk assessment, decision making, and action in the
United States. These intervalsprovide a commonmethod to describepandemicactivity, which can inform public
health actions. The duration of each pandemic intervalmightvary depending on the characteristicsofthe virus and
the public health response. For further, referencethe PIF .

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 22

10

PanCAPAdapted U.S. GovernmentCOVID- 19ResponsePlan

Phase

2B

Activation,

Near
Operational

Certaintyor

Situational

Phase

Credible
Threat

Assessment
andMovement

Recognition

Initiation

CDC
Interval

Employment of

Intermediate Operations

Resources and Stabilization

Acceleration

COVID - 19
Containment
Mitigation

Containment

Aggressive
Containment

Transition from Containment to
Community Mitigation

Full Community Mitigation

Strategy

Confirmation
ofmultiple
human cases or
clusterswith
virus
characteristics

Triggers

Demonstration

of efficient and
sustained
human-to
human
transmission of

indicating
limited human
to - human

the virus

transmission
and heightened
potentialfor

Emergency
One ( 1) or more

pandemic
Determination
of a Significant

in the U . S .

Declarationof a
Public
Health

clustersof cases

Increasing number ofcases or increasing

States indicating established transmission ,

Healthcare system burden exceeds State

with long- term service disruption and
critical infrastructure impacts

resource capabilities
National healthcare supply chain
management unable to surge production
and/ or distributiontomeetdemand
/localrequestfor assistancethat

sectors
PresidentialStaffordActdeclaration

assistance to support cross - sector
operations
Greater than three ( 3 ) generations of

requires federal coordination

U . S . contiguous jurisdiction with evidence
that public health systems in that
jurisdiction are unable to meet the
demands for providing care

Emergency

Industry business continuity plans cannot
be executed due to insufficient personnel
leading to significant disruption across

requires federal coordination
Increasingprivate- sector request for

human- to - human transmission , or
detection of cases in the community
without epidemiologic links in a single

Potentialfor a
Public Health

• Increasingrate of infection in United

rate of infection in U . S .

State/local request for assistance that
Greater than three ( 3 ) generationsof
human - to -human transmission, or
detection of cases in the community
without epidemiologic links, two ( 2 ) or
more non -contiguous jurisdictions with
evidence that public health systemsin
those jurisdictions are unable to meetthe
demands for providing care .
Widespread transmission ofdisease

Figure4. Phase Indicators and Triggers
Lines of Effort
The COVID - 19 USG response is organizedalong seven linesofeffort (LOEs). These focusareas
include the core capabilitiesnecessary for mitigatingthe public health andmedicalimpacts and
other consequencesof a novelvirus outbreak. An effectivepublichealth response relies upon the
successfuluse ofmultiple mitigation strategies in a targeted layered approach. The Targeted
LayeredMitigation Strategy is a phased approach to individual, community, business, and
healthcare interventionsaimed to slow transmission and acceleration ofdisease; to minimize
morbidity and mortality; to preserve function ofhealth care, workforce, and infrastructure; and to
minimize socialand economic impacts. For additionaldetail, includingpurposeand end state,
objectives, primary coordinatingfederaldepartmentsand agencies, key federalresponsibilities,
operationalassessment, resources, potentialshortfalls, and criticalinformation requirements for
each line of effort, reference the appendices to Annex C . Operations.

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 23

11

PanCAP Adapted U . S. Government COVID - 19Response Plan

COVID - 19 Response Plan - Lines of Effort

SLT

USG

and
,

Fundi g

and

Fed ral

Medical
Countermeasures

Protect
Healthcare
System
Preparedness
and
Resilience

Developanddistributerapid diagnostictests. Conduct
trialofantiviralsanddevelopnew antiviral
vaccines
. Partner
with
pharmaceutical
industryto produceantiviralsand vaccines
. Distributerapid diagnostictests, antiviral
medications
, and
vaccinesformanaging
COVID-19.

Supply Chain
Stabilization

includingmedications,ventilators
, andrespiratoryprotectiondevices.

Community

Communication
and Public

Developguidancefor community
mitigation
measuresfor publichealthjurisdictions
and the publicbaseduponthe epidemiologic
situation
; coordinateacross
thewholeof government
, SLTTand commercial
sectorany
beforeimplementing
. Modify
geographicpublichealthmitigation
strategies
in response
to localsituations
andavailable
resources
orcapabilities
.

Continuity
of

appropriate
community
mitigation
strategies

Diagnostic tests, antivirals ,
and vaccines for COVID 19
developed , distributed , and

Protectionofthosemost
vulnerable to COVID- 19 while
preservingandprotecting
health system capacity to treat

allacuteconditions

Medical
supplychain
stabilized
andresilient
to meet
futurerequirements

Threat
ofCOVID
-19epidemic
transmission
minimized
and
risks
to public
healthno longer

evident

Providetimely, accurate
, clear, consistent
, credible, andactionableinformation andsafety andhealthmessagesthat protectthe
public and facilitatemanagement
of outbreak responseatall levelsof government
.

Outreach

Operations&
EssentialServices

capableofearly detectionof
new COVID- 19 cluster
to enact

administered

Provideguidanceon staff safety,monitoring
, and resource
management
; guidanceon EEls reporting
;
on alternative
mechanismsfor delivery of care. Developrecommendationsfor publichealth jurisdictionsto managecases and theircontacts.
Disseminateclinicalguidanceto HCP regardingpatienttreatmentandmanagement
.Disseminateinfectioncontrol guidancefor
HCWs. Supporthealthcaresystem to managemedicalsurgeDeployresourcesto affectedarea to supportSLTT.
Preparefor andaddresscritical supply chain vulnerabilitiesandshortages(e . g .,PPE, API
) ; identify and implement
mitigation
strategiesto resolve
mitigate shortfalls. Distributemedical
countermeasures
and suppliesfrom St

Mitigation
Measures &

StrategicObjectives
Operablesurveillance
network

.

AStakeholdrs uthories

,

Detectdisease
when andwhere ithappensto achievetimelyandaccuratenationalsituational
awarenessoftheevolvingdisease
and the impacton criticalsectors,
inform policy and operationaldecisions
. Stop disease beforeit spreads. Studythedisease
to strengthenthescience. Improvehow to preventandcontrol
the disease.

a

Intermediate
Objectives& Tasks

Surveillance

ENDS

Ways

-

Congresional

Lines of
Efforts

USG messagingunified across
the full range of media
Public information readily
available for implementation

Provideguidance on continuity of operations (COOP ); preserve functioning of critical infrastructureandkey resources
( CIKR) and mitigate impacts to economyand functioningsociety.

Mission - essential functions of
USG

,

Means

SLTT and businesses
sustained

Figure 5 . COVID - 19 Lines of Effort

Surveillance
The objective of this line of effort is timely and accurate national situational awareness and
monitoring critical infrastructure impacts . Surveillance promotes USG unity of effort by
providing a common baseline of information relevant to COVID - 19 impact to public confidence
in government and sustaining essential services. In addition, this line of effort aims to prevent,
delay , and mitigate introduction of additional cases to the U . S . through detection and
containment of viral transmission and disease spread in the U . S .
MedicalCountermeasures
Development

The objective of this line of effort is development , distribution , and administration of diagnostic
tests , antivirals , and vaccines for COVID - 19. This line of effort also includes :
•

Research and development of antiviral and other treatment regimens .

•

Development and maintenance of a stockpile of safe and effective vaccines.

Healthcare System Preparedness and Resilience
The objective of this line of effort is to protect those who are most vulnerable to hospitalization
and mortality during sustained transmission of COVID - 19 in the U . S . while preserving and
protecting health system capacity to treat all acute conditions . This line of effort also includes
developing and disseminating guidance on :

Recommendationsfor public health jurisdictions to manage cases and their contacts.
Clinicalguidance to healthcare professionals (HCP) regarding patient treatment and
management
Infection controlguidance for healthcare workers (HCWs).
Staff safety and monitoring.
Medicalsurgemanagement.
Alternative mechanisms for delivery of care.
Resource management, including supply chain shortage impacts and vulnerabilities.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 24

12

PanCAP Adapted U . S. Government COVID - 19Response Plan

•

Health care and medical response coordination in support of ESF- 8 (to include EEI
reporting)
Operational best practices and tools based on clinicalmanagement lessons learned .

Supply Chain Management
The objective of this line of effort is medical supply chain stabilization and ensuring resilience
for future requirements. This line of effort also includes :
Preparation for and response to critical healthcare supply chain vulnerabilities and
shortages ( e. g. , PPE , API) .
Distribution ofmedical countermeasures, including medications, ventilators , and
respiratory protection devices and other supplies from the strategic national stockpile
(SNS ).
Community Mitigation Measures and
The objective of this line of effort is to support SLTT and the private sector development and
implementation of community customized mitigation measures . This line of effort also includes :
Developing guidance for community mitigation measures for public health jurisdictions
•

and the publicbased upon the epidemiologic situation.
Coordinatingacross thewhole ofgovernment
, SLTT, and commercialsector any non
pharmaceutical interventions (NPIs) before implementing .

Establishing and operating a federalinformation plan.
Communication and Public Outreach
The objective of this line of effort is to ensureUSG facilitates accurate, coordinated, and timely
information to affected audiences, including governments , media, the private sector, and the
local populace:
Developing and amplifying lifesaving, life- sustaining information in coordination with
interagency partners.
Developing a transparent risk communication strategy plan for development, clearance,
and dissemination of clear, concise , accurate critical public health messages to both
targeted audiences and the generalpopulation.
Developing and disseminating messaging that reflects both unknown issues and facts as
they becomeacknowledged.
Continuity ofOperations & Essential Services
The objective of this line of effort is sustainment ofMEFs across USG , SLTT, and the private
sector. This line of effort includes:

Provide COOP guidance.
ImplementCOOP plans, if needed .
Preserve functioning of critical infrastructureand key resources (CIKR) and mitigate

impacts to economy and functioning society.

Key Federal Decisions
To date, the following Key FederalDecisions from the PanCAPhavebeen executed:

•

HHS Secretary declares a Public Health Emergency .

•

HHS requests supplemental funding.

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 25

13

PanCAP Adapted U .S. Government COVID - 19 Response Plan

HHS, DepartmentofHomelandSecurity ( DHS) , and the Departmentof State (DOS)

issue border measures and travelhealth notices and advisories.

The Presidentof the United States (POTUS) declares a National

.

AdditionalKey Federal Decisions at the federal levelmay include:
HHS initiates COVID -19 Vaccine Program and issues distribution and prioritization
guidance.

•

HHS provides funding to states.
HHS, in coordination with education departments and state health authorities, issues
recommendations for non -pharmaceutical interventions such as school dismissals and
cancellations ofmass gatherings.
HHS distributes Strategic National Stockpile ( e. g., antiviral drugs , ventilators , etc .) .
Depending on the resource in question, HHS/ interagency/NSC prioritize distribution of
essential resources.
NSC considers international donation / sharing of vaccine and othermedical
countermeasures request(s ).

HHS/ DHS/ Department ofDefense leverages Defense Production Act authorities .
Interagency Support
HHS may request interagency assistance from other departments and agencies , including ESF
activations , support for additional capability , operational coordination , planning, situational
assessment, logistics and supply chain management, and operational communications core
capabilities .
Sustainment
Administration
HHS is the LFA responsible for managing the federal response to COVID - 19. In the event of a
Stafford Act declaration , FEMA is responsible for coordinating federal support for consequence
management. The federal interagency supports HHS, as requested , to assist SLTT partners with
related preparedness and response activities .

Resources
Resources willbe prioritized for life safety , life sustainment, and workforce protection .
Departments and agencies will be responsible to provide for the logisticalrequirements of their
personnel and missions .

Funding
Departmentsand agenciesfund initialresponse activities out oftheir respective budgets. HHS
requestedsupplementalfundingbased on mission requirementsand may use the Economy Act to
reimburse incrementalcosts for activitiesrequired of other departments and agencies that are

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 26

14

PanCAP Adapted U .S. Government COVID - 19 Response Plan

specifically requested by HHS to provide supportduring the COVID - 19 response. In the event of
a Stafford Act declaration, response activities covered by the declaration cannot duplicate
supplementalappropriations provided by Congress for the COVID - 19 operations.
Reimbursement is through establishedmechanisms.
Communications, Coordination,

and Oversight

Communications
HHS leads and coordinates all federal communication, messaging, and release of public health
andmedical information both across the USG and internationally with theWorld Health
Organization and affected countries, jurisdictions, or areas.
The HHS Secretary's Operation Center is the primary national level hub for situational
awareness and information sharing related to this incident, publishing the Senior Leadership
Brief and hosting the Emergency Support Function Leadership Group (ESLFG ) VTC . In
addition , HHS develops and publishes key public messages and talking points to SLTT and
private sector/NGO stakeholders on COVID - 19 measures in synch with the described LOE.
The DHS National Operations Center is the primary national- level hub for domestic situational
awareness, a common operatingpicture, information fusion , and information sharing pertaining
to domestic incidentmanagement.
Coordination
HHS is the LFA responsible for managing the federal response to COVID - 19. The federal
interagency supports HHS, as requested, to assist SLTT partners with related preparedness and
response activities. Ongoing coordination actions include: (1) coordination calls with federal
partners to provide situational awareness and clarify priority federalresponse tasks and 2 )
interagency future planning for the COVID -19 response.
Oversight
The White House Coronavirus Response Task Force, led by the Vice President, will coordinate a
whole -of-government approach , including governors, state and local officials , andmembers of
Congress , to develop the best options for the safety , well -being, and health of the American
people. HHS is the LFA for coordinating the federal response to COVID - 19.

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 27

15

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan
Annex A

Annex A .

Task Organization

Task Organization

As the LFA for this federal response, HHS makes the initial determination that interagency
coordination beyond day -to -day processes is required . The interagency coordination structure ,
including participants, organization , and location (e. g. virtual or assembled ) will be identified by
HHS. If a pandemic threat evolves internationally , this organizational construct will integrate
foreign and domestic USG preparedness and response operations. As the threat evolves , the
coordination construct, location , and participants will similarly evolve to address interagency
coordination challenges .

Current Structure
The HHS Secretary activated the Secretary s Operations Center (SOC ) on January 24 , 2020 , as
the center of gravity for interagency coordination . Within HHS, CDC leads the public health
response (e. g., epidemiology , countermeasures , assistance to SLTT health departments ). The
HHS SOC supports interagency information management and coordination . Other federal
departments and agencies execute their related statutory responsibilities and provide additional
support to HHS on request.
On January 27, the President s Coronavirus Task Force was formed and charged with leading the
USG response. The Task Force was initially led by the Secretary of Health and Human Services
and coordinated through the NSC . On February 28, the Task Force transitioned to the Office of
the Vice President (OVP). OVP leads and coordinates all federal communication andmessaging,
both across the USG and internationally with the World Health Organization and affected
countries .
On February 10, at
HHS request, FEMA
embedded a team
with ASPR
support crisis action

USGOVERNMENT COVID -19 COORDINATIONAND RESPONSE

WHITE HOUSETASK FORCE

, situational
planning
awareness, and

operational
coordination . The

INTERAGENCY COORDINATION

POLICY

WMD

BATS

DHS NOC , DHS

FEMA
Lead

JIAG , and USCG

HHS CDC

Lead

Lead

Epidemiology
, Laboratory
,

Medical
Countermeasures

HHS
Augmentation

HHS SOC
TASKFORCES
Repatriation
SupplyChainManagement
Communications
MCM
Healthcare
SystemResilience

Emergency Support
Function (ESF) # 1
Transportation; ESF
# 6 Mass Care

Temporary Housing

HHS ASPR

PublicHealthResponse

NIH
PHS

CDC
JIC

OFPEIREATLIODNS

HHS SOC

FHCO

HHSIncident
Management
Team

Support
forinteragency
coordination
andinformation
management

collocated with this
team . Liaisons from

Emergency
Assistance,

CDC

Unified Coordination

Resilience

have

OPERATIONS

ESFLG

National Security Council

SLTT

HHS
Augmentation
PHS
NDMS

SOC

CDC
DHS CMO

International
Coordination
WHO

Coordination
ASTHO
NACCHO
CSTE
APHL

DHS

CISA
ESF LN

,

USCG

, 14, 15

Quarantine
Operations
CDC- DOD

DHSScreening

Operations

TSA -CBP- CWMD -USCG
Interagency
PlanningCell
ASPR
CDC

FEMA
Incident
Support
Support
for situational
awareness
, reporting
crisis
action
planning
, interagency
coordination

FEMA
Legend

ESFLG Planners

HHS
Interagency

Figure 6 . USGovernment COVID - 19 Coordination and

UNCLASSIFIED FOR OFFICIALUSE ONLY

Response

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 28

16

P
a
nC
A
PA
d
a
p
t
e
dU .S.G
o
v
e
r
nm
e
n
tCO
V
ID-1
9R
e
s
p
o
n
s
eP
l
a
n
A
n
n
e
xA

T
a
s
kO
r
g
a
n
i
z
a
t
i
o
n

andH
um
a
nA
s
s
i
s
tan
ce;ESF#1
3P
u
b
l
i
cSa
fe
t
y;ESF#14C
ro
s
sSe
c
to
rBu
s
ine
s
sand
I
n
f
r
a
s
t
r
u
c
t
u
r
e
;andESF#15E
x
t
e
r
n
a
lA
f
f
a
i
r
sa
rea
lsoa
c
t
i
v
a
t
e
dins
fo
u
p
p
o
r
to
n
g
o
i
n
gre
spon
se
o
p
e
r
a
t
i
o
n
s
.Thec
u
r
r
e
n
tUSG c
o
o
r
d
i
n
a
t
i
o
nc
o
n
s
t
r
u
c
tisd
i
s
p
l
a
y
e
di
nF
i
g
u
r
e6.TheHHSRe
spon
se
S
t
ru
c
tu
re isdep
i
c
tedbe
low i
s
d
i
s
p
l
a
y
e
di
nF
i
g
u
r
e7.

HHSRESPONSE
STRUCTURE

WHTF/
NSC

HHS S
e
c
r
e
t
a
r
y

ASPR
S
L
T

A
S
PR

ASH

D
i
r
e
c
t
o
r

/
C
h
i
e
f
D
e
p
u
t
y

O
f
f
i
c
i
a
l

ES
F

O
f
f
i
c
e
r

CBRNE

H
om
eTeam(

C
y
b
e
r
s
e
c
u
r
i
t
y

Em
e
r
g
e
n
t,
D
i
s
e
a
s
e

R
e
g
u
l
a
t
i
o
n
s
SOC

/

Med
ica
lSc
iences

Po
l
icy

Pr
ivacyand C
iv
i
lR
igh
ts

Eva
luat
ion andA
f
te
r

P
lann
ingSec
t
ion

E
v
e
n
t
s
)

D
i
s
a
s
t
e
r
R
e
c
o
v
e
r
y

HRS

I
n
f
o
rm
a
t
i
o
n

STAFF
D
IV

O
PD
I
V

A
d
v
i
s
o
r
s /SME
s(
A
sR
e
q
u
i
r
e
d)

I
n
f
o
rm
a
t
i
o
n

M
a
n
a
g
em
e
n
t
S
e
c
t
i
o
n
C
h
i
e
f

G
r
o
u
p

R
e
g
i
o
n
a
l

S
a
f
e
t
y

ESF13

D
i
s
a
s
t
e
r
L
e
a
d
e
r
s
h
i
p

C
o
o
r
d
i
n
a
t
i
n
g

D
e
p
u
t
y

T
a
s
k
F
o
r
c
e
s

SOC
D
i
r
e
c
t
o
r
D
e
p
u
t
y
D
i
r
e
c
t
o
r

W
a
t
c
h

F
e
d
e
r
a
lH
e
a
l
t
h

CDC

FEMA
NRCS

E
x
e
c
u
t
i
v
e
C
o
o
r
d
i
n
a
t
o
r

H
e
a
l
t
h

USPHS

R
e
s
o
u
r
c
e

A
dm
i
n
a
n
d

C
o
o
r
d
i
n
a
t
i
o
n
S
e
c
t
i
o
n
C
h
i
e
f

F
i
n
a
n
c
e
S
e
c
t
i
o
n

SOC
S
u
p
p
o
r
t
S
e
c
t
i
o
n
C
h
i
e
f

C
h
i
e
f

L
e
g
e
n
d
HHS

FEMAS
i
t
u
a
t
i
o
n
a
l
Aw
a
r
e
n
e
s
s

FEMAP
lann
ing

I
n
t
e
r
a
g
e
n
c
y

FEMA
R
e
s
o
u
r
c
e

S
u
p
p
o
r
t

S
u
p
p
o
r
t

NSC

F
i
g
u
r
e7.HHSR
e
s
p
o
n
s
eS
t
r
u
c
t
u
r
e

P
o
t
e
n
t
i
a
lUCG C
o
o
r
d
i
n
a
t
i
o
n S
t
r
u
c
t
u
r
e
s
Th
is inc
iden
t
may con
t
inuetoevo
lvein

Po
ten
t
ia
lUCG Coo
rd
ina
t
ion S
t
ruc
tu
res

u
n
i
q
u
ew
a
y
s,p
r
o
v
i
d
i
n
ga c
h
a
l
l
e
n
g
e fo
r

UCG l
o
c
a
t
i
o
n
shou
ldbe basedon c
e
n
t
e
ro
f
g
ra
v
i
t
yana
l
y
s
i
sas f
o
l
l
ow
s
:

P
h
a
s
e
s2B a
n
d

in
te
ragen
c
yc
o
o
r
d
i
n
a
t
i
o
n.A
sn
o
t
e
d

HHSSOC when re
spon
serequ
i
re
s
i
n
t
e
r
agency c
o
o
r
d
i
n
a
t
i
o
nand i
n
f
o
rm
a
t
i
o
n
m
a
n
a
g
em
e
n
te
x
c
e
e
d
i
n
gCDC EOC capa
c
i
t
y

sp
r
e
v
i
o
u
s
l
ys
ta
ted,as
f
e
d
e
r
a
l
agen
c
y.A
,the
ym
i
g
h
t
p
a
r
to
ft
h
a
t
i
n
i
t
i
a
l
re
spon
se

u
n
i
f
i
e
dc
o
o
r
d
i
n
a
t
i
o
ninth
i
sd
o
c
um
e
n
t

-

SOC

a
t

UCG

CDC

SLTT
C
o
o
r
d
i
n
a
t
i
o
n
ASTHO

R
e
s
p
o
n
s
eF
o
c
u
s

L
e
a
d
i
n
g
UCG
HQcoo
rd
ina
t
ion
andin
fo
rma
t
io
m
n
anagemen
t
I
n
t
e
r
a
g
e
n
U
c
C
y
G

R
e
p
s

CSTE
APHL

DOD-

DHS

O
t
h
e
r
sTBD

O
t
h
e
r
s

I
n
t
e
r
n
a
t
i
o
n
a
l
C
o
o
r
d
i
n
a
t
i
o
n

A
c
t
i
v
a
t
i
o
no
fa UCG a
tFEMA
m
a
yb
e
n
e
c
e
s
s
a
r
yi
f
t
h
e
r
e
a
r
el
o
n
g
-t
e
rms
e
r
v
i
c
ed
i
s
r
u
p
t
i
o
n
s
o
r
c
r
i
t
i
c
a
l
I
n
f
r
a
s
t
r
u
c
t
u
r
e
im
p
a
c
t
s
o
ra P
r
e
s
i
d
e
n
t
i
a
l
S
t
a
f
f
o
r
dA
c
td
e
c
l
a
r
a
t
i
o
n

FEMA

a
t

UCG

UCG a
tFEMA
NRCC
C
o
n
s
e
q
u
e
n
c
e
M
a
n
a
g
em
e
n
t
andR
e
p
o
r
t
i
n
g
SLTT
C
o
o
r
d
i
n
a
t
i
o
n
ASTHO

CSTE

CDC
R
e
s
p
o
n
s
e
F
o
c
u
s
LNOS

ASPR
O
t
h
e
r
s

HHSSOC
L
e
a
d
i
n
g

8

I
n
t
e
r
a
g
e
n
c
yUCGR
e
p
s

ASPR-

LNO
ASPRDHS

DHS
ESF

FEMA
NRCCS
t
a
f
f
S
i
t
u
a
t
i
o
n
a
l
Aw
a
r
e
n
e
s
s
P
l
a
n
n
i
n
g

S
u
p
p
o
r
t
R
e
s
o
u
r
c
e
s
E
x
t
e
r
n
a
l
A
f
f
a
i
r
s

O
t
h
e
r
s TBD

I
n
t
e
r
n
a
t
i
o
n
a
l
C
o
o
r
d
i
n
a
t
i
o
n

P
r
e-D
e
c
i
s
i
o
n
a
l
D
r
a
f
t/ FORO
F
F
IC
IA
L
USEON
L
Y

b
u
t
u
n
i
f
i
e
dc
o
o
r
d
i
n
a
t
i
o
nm
u
s
t adhe
reto
t
h
e
ba
s
i
ctene
t
so
fthe
N
a
t
i
o
n
a
l
(
N
IM
S
)
,s
c
a
l
e
da
p
p
r
o
p
r
i
a
t
e
l
yto

R
e
p
o
r
t
i
n
g
C
o
o
r
d
i
n
a
t
i
o
n

HHSSOC

shou
ldb
econ
s
ide
redas
t
a
r
t
i
n
gp
o
i
n
t
,

I
n
c
i
d
e
n
t
M
a
n
a
g
em
e
n
t Sys
tem

L
e
g
e
n
d

A
c
t
i
v
a
t
i
o
no
f
a UCG a
t
t
h
e
HHSSOCm
a
ybe n
e
c
e
s
s
a
r
yi
f
t
h
eh
e
a
l
t
h
c
a
r
es
y
s
tem b
u
r
d
e
ne
x
c
e
e
d
ss
t
a
t
e
r
e
s
o
u
r
c
e
c
a
p
a
b
i
l
i
t
i
e
s
o
r
t
h
e
r
e
a
r
es
t
a
t
e
/l
o
c
a
l
r
e
q
u
e
s
t
(s)f
o
r
a
s
s
i
s
t
a
n
c
et
h
a
t
r
e
q
u
i
r
e
s
f
e
d
e
r
a
l
c
o
o
r
d
i
n
a
t
i
o
n
.

b
eengag
ingw
i
th en
t
i
t
ie
se
x
t
e
r
n
a
lto
t
h
efede
ra
lg
o
v
e
r
nm
e
n
t
.The
re a
re
s
e
v
e
r
a
lc
r
i
t
i
c
a
ld
e
c
i
s
i
o
n
st
h
a
t
t
h
e
LFA
shou
ldm
a
k
e ea
r
l
y in thein
te
ragen
c
y
c
o
o
r
d
i
n
a
t
i
o
np
ro
ce
s
s.Thed
i
s
cu
s
s
ion o
f

capac
i
ty t
r
a
n
s
p
o
r
t
a
t
i
o
nsupp
l
ycha
in
,

NRCCwhen con
sequen
cem
a
n
a
g
em
e
n
tr
e
q
u
i
r
em
e
n
t
s
e
x
ceed
ingHHS

abo
ve,somedepa
r
tmen
t
so
ragen
c
ie
s
w
i
l
lb
er
e
s
p
o
n
d
i
n
gasp
a
r
to
f
t
h
e
i
r
s
t
a
t
u
t
o
r
ya
u
t
h
o
r
i
t
i
e
sb
e
f
o
r
eu
n
i
f
i
e
d
ythe
l
e
a
d
c
o
o
r
d
i
n
a
t
i
o
n isi
n
i
t
i
a
t
e
db

-D
om
e
s
t
i
cT
r
a
n
sm
i
s
s
i
o
n

F
i
g
u
r
e8.P
o
t
e
n
t
i
a
l
UCG C
o
o
r
d
i
n
a
t
i
o
n S
t
r
u
c
t
u
r
e
s

t
h
ei
n
c
i
d
e
n
t
r
e
s
p
o
n
s
e
.

UNC
LASS
I
F
IED

O
F
F
IC
IA
LUSEON
LYI

FORPUB
L
ICD
IS
TR
IBU
T
ION
OR RE
LEASE

App
.29

1
7

PanCAP Adapted U.S. Government COVID-19 Response Plan
Annex C. Operations

Annex C. Operations

The COVID-19 USG response is organized along seven lines of effort. This annex provides
detail for each line of effort, including objectives, end states, key federal responsibilities,
operational assessment, resources, shortfalls, and critical information requirements.
USG Phasing Constructs
Containment
Pandemic Crisis Action Plan Phase
The federal response will be implemented consistent with the Phase 1C (Near Certainty or
Credible Threat).
Trigger8
The trigger for the containment phase is uncontained human-to-human transmission in Hubei
Province, China.
Actions9
Foreign nationals who have been in PRC (excluding the Special Administrative Regions[SARS]
of Hong Kong and Macau) within 14 days prior to their actual or attempted entry into the U.S.
are ineligible for entry to the U.S. under Section 212(f) of the Immigrationand Nationality Act
(INA), subject to certain exceptions. U.S. citizens, lawful permanent residents (LPRs), and other
individualsnot covered by the 212(f) proclamation (1) who have been in Hubei province within
the past 14 days may be subject to 14-day mandatory quarantine; and (2) who have been in PRC
(excluding the SARS of Hong Kong and Macau), and outside Hubei province, within the past 14
days may be subject to medical screening and self-isolation for 14 days based on federal, state,
and local quarantine authorities. All flights carrying passengers who have recently traveled from,
or were otherwise present within, the PRC (excluding the SARS of Hong Kong and Macau) are
funneled to 11U.S. airports with enhanced CDC medical screening. U.S. Customs and Border
Protection (CBP) is referring to CDC all incoming passengers traveling by air, land, or sea and
who have been in PRC (excluding the SARS of Hong Kong and Macau) during the previous 14days. CDC is coordinating with state and local health care clinicians to identify domestic cases,
to isolate cases, and to conduct appropriate contact tracing.
Objectives
(1) Contain the outbreak at its source; (2) minimize domestic importation of additional cases; (3)
limit the potential for a domestic epidemic; (4) prepare domestic response mechanisms; (5) begin
outreach to state and local authorities to prepare for mitigation; (6) implement domestic
quarantine of imported and repatriated cases and contacts; and (7) begin federal planning to
prepare for mitigation.

8

Note: The use of “trigger” throughout is intended to provide a helpful tool to principals for when to consider

certain responsive actions and does not necessarily mean that a particular action is automatically required.
9
Updated information for travelers is available at https://www.cdc.gov/coronavirus/2019-ncov/travelers/index.html.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 30

18

PanCAP Adapted U.S. Government COVID-19 Response Plan
Annex C. Operations

Chokepoints/Critical Gaps
Potential chokepoints or critical gaps may be associated with the aims (1) for reliable and
accessible traveler tracking for monitoring or contact-tracing, (2) for sufficient quantities of
diagnostics and test kits for SARS-CoV-2, especially for medical facilities around the 11airports
and U.S. military bases, which are points of entry/care.
Messaging
Daily HHS and CDC briefings and on-camera task force briefings will be provided, as
appropriate, using coordinated top-line talking points.
Aggressive Containment
Pandemic Crisis Action Plan Phase
The federal response will be implemented consistent with the PanCAP Phase 2A (Activation,
Situational Assessment, and Movement).
Trigger
The trigger for the aggressive containment phase is sustained human-to-human transmission
(third generation) and exportation of cases to a non-U.S. area or nation beyond the level
described above in “Containment.” The public health infrastructure of the affected area(s) could
also be a relevant factor.
Actions
This phase involves transition from the federal government’s containment posture to one with
federal coordination, but execution primarily at state and local government levels. This execution
will include the application of quarantine and isolation measures to people, with or without
clinical symptoms, not covered by the existing or potential future INA 212 (f) proclamations, and
who have traveled to any additional countries, jurisdictions, or areas that meet the trigger criteria.
Symptomatic people with high-risk travel as noted will proceed to direct airport medical
screening first. Direct flights, as well as flights with passengers traveling indirectly from these
additional locations will be funneled to designated airports (11as of early March 2020) based on
airport capabilities and capacity to support additional passenger load, CBP targeting rules and
operational requirements, and enhanced CDC medical screening.
Objectives
(1) Limit the outbreak to the source and additional outbreak areas; (2) minimize importation of
additional cases; (3) limit the potential for a domestic epidemic; (4) undertake additional
preparation of the domestic response mechanisms and in some cases execute those plans; (5)
accelerate outreach to state and local authorities to prepare for mitigation, including widespread
distribution of newly developed diagnostic tests, and ensure that state and local public health labs
are properly equipped for testing capacity; and (6) slow the spread of the epidemic.
Chokepoints/Critical Gaps
Broad implementation of INA 212 (f) entry restrictions for foreign nationals may have
unintended consequences, including supply chain disruption, repatriation issues, and other
factors that could result in a direct transition to mitigation becoming the preferred option.
Assuming state and local health authorities have the capacity and capability, a shift from the
current CDC medical screening and quarantine posture will be heavily dependent upon the

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 31

19

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex C . Operations

ability to capture and operationalize accurate passenger data. Further, the United States
governmentmay need to modify and/ or expand the list of 11 airports to which flights are
funneled, depending on the location of the additional countries, jurisdictions, or areas meeting
the triggers above and the availability of screening and other public health resources. Airport
capabilities and capacity to support the additionalpassenger load, CBP targeting rules and
operational limitations, and enhanced CDC medicalscreening will likely becomemore
challenging in this posture.
Messaging
Using plain language and accessible formats, provide timely messaging with a focus on
foreshadowing potentialmitigation measures in a manner to mitigate the risk of causing
unnecessary alarm . The public will need to be assured and informed about the types ofmedical
countermeasures (e . g., vaccines, therapeutics ) and societalmeasures the government is
developing and recommending to maintain the highest level of health and safety for the
American public . Other focus areas should include amplifying the importance of good public
health hygiene and infection control (akin to flu mitigation measures), empowerment of state and
localpublic health services in preparation for future phases, and continued promotion of
everything the USG is doing to support Americans dealing with the virus and slow the spread to
others.

Transitions Between Phases
Transitionsbetween phasesare informed by plantriggersoutlined in thebase plan. The decision
tree below displays these transitions.
U . S . GovernmentResponse to SARS-

Decision Tree

Trigger
Sustained human- to -human

.

a

Trigger
Greater than three generations of human -to
human transmission , or detection of cases in
a community without epidemiological links
in single U . S jurisdiction with evidence that
public health or healthcare systems in that
jurisdiction are unable to achieve and
maintain containment while providing quality
care .

Community Mitigation
( Single Jurisdiction)

Aggressive Containment

transmission(third generation)
and exportation of cases in an

Trigger

area ornation, not theUnited
States.

Greater
thanthreegenerations
ofhuman
- to
humantransmission
, ordetection
of casesin the
community
without
epidemiological
links, in two
ormorenon- contiguous
jurisdictions
with
evidence
thatpublic
healthandhealthcare
systems
in thosejurisdictions
areunableto
achieveandmaintain
containment
while
providingqualitycare

Containment

Community Mitigation
(Multiple Jurisdictions)

Trigger

,

Greaterthan three generations
of human-to -human
transmission detectionof
casesin a communitywithout
epidemiological
links, in a single
U .S jurisdictionwithevidence

CommunityMitigation
( Single Jurisdiction)

thatpublic health or healthcare
systems
in that jurisdictionare
unableto achieve and maintain
containment
while providing
quality care.

Community Mitigation
(Multiple Jurisdictions )
Trigger
Greaterthan three generationsof human- to - human
transmission
, ordetectionofcasesin the

Transition to Containment
or Pre- Epidemic Posture
Triggers

communitywithoutepidemiological
links, in twoor
morenon- contiguousjurisdictions
with evidence
thatpublichealth and healthcaresystemsin those

Seasonality
Availability and Distributionof
Vaccines, Therapeutics
Reinfection
Fluctuationof Scale & Severity

jurisdictionsare unableto achieveandmaintain
containment
while providingqualitycare

UNCLASSIFIED / FOR OFFICIAL USE ONLY PRE- DECISIONAL AND DELIBERATIVE DRAFT

Figure 9 . U . S GovernmentResponseto SARS-

UNCLASSIFIED FOR OFFICIALUSE ONLY

2 Decision Tree

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 32

20

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex C . Operations

Transitioning from Containment to Community Mitigation Activities in Single
Affected Jurisdictions

PandemicCrisisAction Plan Phase
The federalresponse would be implemented consistentwith the PanCAP Phase 2B ( Employment
of Resources and Stabilization) and 2C (IntermediateOperations).

Trigger
The trigger for a transition from containment to community mitigation activities in a single
affected jurisdiction is recognition of greater than three generations of human -to - human SARS
-2 transmission , or detection of cases in the community without epidemiologic links, in a
single U .S . jurisdiction with evidence that public health or healthcare systems in thatjurisdiction
are unable to achieve andmaintain containment while simultaneously providing quality care.
Actions
Public health measuresmay need to be adjusted to accommodate for the changing epidemiology
and risk . CDC would likely recommend a phased transition from aggressive containment to an
approach focused on mitigation in places where evidence indicates ongoing human-to-human
transmission of SARS-CoV - 2 in the United States. If flights and/ or passengers from PRC
(excluding the SARS of Hong Kongand Macau) and/or other locations are still being funneled ,
the federal government will determine if existing measures need to continue or bemodified.
Those who are tasked to support the earlier phases for enhanced screening at points of entry
would likely need to be redirected to duties in support of the health system or public safety .
Those who remain at the ports of entry would provide education and guidance to ill travelers and
triage those who appear to be ill for immediate transport to a designated health center for
specialty care.

Objectives
Implement broader community and healthcare-basedmitigation measures proportionate to
disease severity and impact on healthcare systems in the jurisdiction of concern. Consideration
should be given to regional triggers and decisions, depending on the epidemiology , severity ,
capacity , and capabilities ofthe available public health resources.

Chokepoints/ CriticalGaps
Shortages of products may occur, impacting healthcare, emergency services, and other elements
of critical infrastructure. This includes potentially criticalshortages of diagnostics, medical
supplies (including PPE and pharmaceuticals), and staffing in somelocations. This could be due
either to illnesses or to exposure (requiring home quarantine) among public health and medical
workers, butmay also be due to fear of contracting the virus, exhaustion, or the need to take care
of sick family members and maintain homeisolation as a family unit. State and local
governments, as well as critical infrastructure and communications channels, willbe stressed and
potentially less reliable. These stressesmay also increase the challenges of getting updated
messages and coordinating guidance to these jurisdictions directly.
Messaging
Using plain language and accessible formats, provide timely messaging with a focus on keeping
the public service and healthcare providers assured and educated during this key period of
transition . Coremessage should bethat the USG and SLTT officials are carrying out pre-planned

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 33

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex C . Operations

responses to address the changing conditions. Messaging should highlight the role USG is taking
to support state and local partners, as they implement their own mitigation activities.
Internationalmessaging should underscore the active public health measures in place in the U . S.
and communicate the intentto minimize foreign restrictions on U . S . travelers and trade .
Transitioning from Containment to Community Mitigation Activities in Multiple
Jurisdictions Across the Nation

Pandemic Crisis Action Plan Phase
The federalresponse would be implemented consistentwith the PanCAP Phase 2B (Employment
ofResources and Stabilization) and 2C (IntermediateOperations).

Trigger
The trigger for a transition from containmentto communitymitigation activities in multiple
affected jurisdictions is recognition of greater than three generations ofhuman-to-human SARS
-2 transmission in each, or detection ofcases in the communities without epidemiologic
links, in two or more non-contiguous jurisdictions in the U . S . with evidence thatpublic health
systemsin those jurisdictions are unable tomeet thedemands to achieve and maintain
containmentwhile simultaneously providing quality care .
Actions
Continue to reinforce home isolation strategies and ensure that those who are most at risk and
severely illare able to receive care . Recommend significantly limiting public gatherings and
cancellation of almost all sporting events, performances, and public and private meetings that
cannotbe convened by phone Consider school closures. Issuewidespread “ stay at home”
directives for public and private organizations, with nearly 100 % telework for some, although
critical public services and infrastructure may need to retain skeleton crews. Law enforcement
could shift to focusmore on crime prevention , as routine monitoring of storefronts could be
important. Localhealth systems (e. g ., public health and local healthcare facilities )may need to
alter standards of care to “ contingency ” or “ crisis” standards of care, to conserve resources ,
including for illnesses and conditions that are not related to SARS - CoV - 2; altered standards of
care involve shifts in priority of care when resources are or are projected to be inadequate to
administer conventional standards of care . SLTT governments, in coordination with social
services providers, should identify courses of action to ensure at- risk individuals continue to
receive life-sustaining services. Consider removing INA 212 (f ) entry restrictions if the public
health benefits of such restrictions do not outweigh the costs. Funnelingwould likely be rolled
back given theneed to redirect personnelto engage in full domestic mitigation efforts.
Objectives
( 1) Reduce the acceleration of the number of cases ; ( 2 ) reduce the peak number of cases, which
also affects availability of hospitals and functionality of infrastructure ; and ( 3 ) preserve the

10 ( 1) Altevogt, BM ; C Stroud; SL Hanson; D Hanfling; LO Gostin, Editors, 2009, Guidance for EstablishingCrisis
StandardsofCare for Use in DisasterSituations: A Letter Report, Washington DC: NationalAcademiesPress, 160
pp. , availableathttps:/ /www. nap. edu /catalog/ 12749; ( 2 ) Hanfling D ; BM Altevogt; K Viswanathan; LOGostin;
Editors, Committee on Guidance for Establishing Crisis Standardsof Care, Institute ofMedicine, 2012, Crisis
Standards of Care: A SystemsFramework for CatastrophicDisaster Response, Washington DC: National
AcademiesPress, 516 pp ., available at http : // www . nap. edu/ catalog. php ?record id= 13351
.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 34

22

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex

Operations

functioning of critical infrastructure andmitigate impact to the economy and functioning of
society
Chokepoints/ CriticalGaps
Shortagesof productsmay occur, impactinghealthcare, emergency services, and other elements
ofcriticalinfrastructure. This includespotentially criticalshortagesofdiagnostics, medical
supplies ( including PPE andpharmaceuticals), and staffing in somelocations. This could be due
either to illnessesor to exposure (requiringhomequarantine among public health andmedical
workers, butmay also be due to fear of contracting the virus, exhaustion, or theneed to take care
of sick family members and maintain homeisolation as a family unit. State and local
governments, as well as criticalinfrastructure and communicationschannels, will be stressed and
potentially less reliable. These stressesmay also increase the challengesof getting updated
messages and coordinatingguidance to these jurisdictionsdirectly. Health systemsmay predict
running low on cash resources, andmay have difficulty paying (or promising to pay) staff and
logistics invoices, especially ifworkers have an expectation of considerable overtime.
Messaging
Using plain language and accessible formats , provide timely messaging with a focus on
encouraging citizens to listen to their state/ localhealth officials implementingmitigation
measures. Messaging should continue to promote everything theUSG is doing to support state
and localpartners. Messaging should also address protection of hospitals , continuity of
operations , and other critical infrastructure .

Preparing for Future Epidemic Trends

Striking Balance Between

Mitigationand Containment
Trigger

The trigger for preparing for future epidemic trends could include triggers such as seasonality of
the epidemic , availability of vaccines and therapeutics , and fluctuation of the scale and severity
of disease .

Actions
Actions could include vaccine deployment if available, modifications to the INA 212 ( ) foreign
national entry restrictions, quarantine, isolation, and reversible transition or “ deceleration” of
approach from full mitigation to a posture poised to facilitate enhanced recovery, resilience, and
readiness.
Objectives
Strikeappropriatebalance betweenmitigationand containmentpostures to minimizesocietaland
economic disruption while continuingto pursueactions to end the epidemic.

Chokepoints / CriticalGaps
Potentially critical shortages may occur of medical supplies ( including PPE and pharmaceuticals )
and staffing, due to illnesses among public health and medical workers , and potentially also due
to exhaustion . SLTT governments, as well as health systemswill be stressed and potentially less
reliable. Health systemsmay run low on resources inhibiting the ability to make timely
transitions between postures and maintenance of efficacy .

UNCLASSIFIED

OFFICIALUSEONLYI

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 35

23

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan
Annex C . Operations

Messaging
Public messaging would need to comport with potentially varying local and national status.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 36

24

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex C . Operations
Appendix 1. Surveillance

Appendix 1. Surveillance
Theobjectiveof this lineof effortis timely and accuratenationalsituationalawareness ofthe
disease andofthe impacton criticalinfrastructure, to inform policy and operationaldecisions.
SurveillancepromotesUSG unity of effortbyprovidinga commonbaselineof information
relevantto COVID - 19 impact(a ) to public confidencein governmentand (b ) to sustaining
essentialservices. This line of effortboth prevents, delays, and mitigatesintroduction of
additionalforeign-acquired casesto the U . S . and leveragesdetection and containmentto limit
domesticviraltransmission and diseasespread within the U . S .

Purpose and End State
In coordination with the CDC and with designated federal, SLTT , and private sector
healthcare / laboratory stakeholders , this line of effort ensures an operable surveillance network
capable of screening inbound foreign -acquired cases and early detection of new COVID - 19 cases
or clusters to enact appropriate community mitigation strategies .

Objectives
Key stakeholders will ensure that these objectives are accomplished to achieve the given end
state .
Update established surveillance methods for COVID - 19 in an effort to ensure early
identification and efficient reporting of new COVID -19 cases.

Communicate the updated COVID -19 surveillance methods to ensure a common
operating picture.
Monitorsurveillance networksto detect potentialclusters of COVID -19.
•

Evaluate the COVID - 19 surveillancemethodsand modify based on transmission
analysis .

Primary Coordinating FederalDepartments and Agencies
Designated Primary CoordinatingFederal

Specific Response Tasks

Departments
/ Agencieswithin Line of Effort
CDC

Epidemiologicalinvestigations
Development
, upgrades, review/ approval, and

CDC

distribution to SLTT public health and

FDA

academic / private - sector laboratory entities
Healthcare systems monitoring to include PPE and
otherhealthcaresupplies/equipment

ASPR

ASPR

Surveillanceofotherhealth resources

OPM

Federalworkforce
Private-sectorworkforce

DHS/CISA

Key FederalResponsibilities
In accordance with the Biological IncidentAnnex, the following federal roles and
responsibilities are designed to achieve the objectives and end-state :

•

Confirm

19 outbreak and diagnosis.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 37

25

PanCAP Adapted U .S. Government COVID - 19 Response Plan
Annex C . Operations

Appendix 1. Surveillance

The USG has a supporting role to SLTT and private sector healthcare / laboratory facilities
in the collection , presumptive determination , and confirmation of the SARS-CoV -2 virus
in infected individuals. This responsibility is executed in the following manner :
that clinical specimens collected , tested, and deemed positive for COVID

19 are reported (as either presumptive or confirmed , using reliable and FDA
approved test kits) promptly from the SLTT health authorities to the CDC in

accordance with CDC guidelines .
Epidemiological investigations of suspected , presumptive , or confirmed COVID

19 individuals include examination of travel history to /from impacted countries,
jurisdictions, or areas and, if appropriate, from U . S. communitieswith reported
COVID -19 cases) and contact- tracing for other individuals potentially exposed to
these primary cases.

OperationalAssessment
The followingassessmentcriteria willdetermineeffectiveness in achievingthe given end-state:
Establishmentand efficientoperation ofCOVID-19 surveillancemethods.
•

Adequate utilizationofthe surveillancenetwork to detect clusters (e. g., Integrated

Clinical Laboratory Network).

Identificationof COVID -19 clusterswith little to no delays from identification,
collection ,maintenance of chain -of- custody , sampling and laboratory quality assurance
and control compliance, and prompt laboratory reportingof the results .
Sustainment of a resilient COVID - 19 surveillance network , with minimal impacts from
resource or non -resource shortfalls from COVID - 19 outbreaks in the US communities.

Resources
The following resources can contribute to achieving the intermediate objectives and end-state
even though such resources apply to all reportable diseases other than
-19:
Surveillancenetworks include, butare notlimited to , the following elements to facilitate
information sharingand reportingof COVID - 19 cases :
' s Epidemic Information Exchange(Epi- X ) is a secure, web-based
network that serves as a powerful information exchange among authorized users.
Electronic Surveillance System for the Early Notification of Community
Based Epidemics ( ESSENCE) is the primary syndromic surveillance tool, and
practitioners across the surveillance community have used variations of

ESSENCE successfully for years .

The Epidemiological Intelligence Service ( EIS ) serves on the front lines of public health ,
protecting Americans and the global community ,while training under the guidance of
seasoned mentors. When disease outbreaks or other public health threats emerge, EIS
officers investigate , identify the cause, rapidly implement controlmeasures , and collect
evidence to recommend preventive actions .

UNCLASSIFIED

OFFICIALUSE ONLY I NOTFOR PUBLIC DISTRIBUTIONOR RELEASE

App. 38

26

PanCAP Adapted U . S. Government COVID - 19Response Plan
Annex C . Operations

Appendix 1. Surveillance
Career epidemiology field officers ( CEFOs) are CDC employees who assist state, local,
tribal, and territorial health departments in building and sustaining epidemiologic
capacity by serving in a variety of functions tailored to the needs of the individual state.
serve as liaisons between CDC (and other federal agencies and the

host-state health departments . The CEFOs' knowledge of epidemiology , and of

federal preparedness and response requirements , helps strengthen the states ' own
preparedness programs and enhance their ability to prepare for and /or respond to
acts or threats of terrorism , natural disasters, pandemics , and other public health

emergencies .
Epidemiologists at the SLTT public health departments develop and issue surveillance
guidance for their jurisdictions in adherence to CDC recommendations , but are tailorable
to the jurisdictional community .

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line effort s end
state and intermediate goals , and thus, are critical information requirements for the USG to
monitor and to appropriately respond with adequate augmentation and resourcing :
Personal protective equipment (PPE). Shortage in this commodity will lead to avoidance
of suspected or confirmed patients by public health epidemiologists , hindering their
capacity to conduct close -contact interviews.
Mitigation of a PPE shortage may include leveraging USG authorities and
businessincentivesfor U . S manufacturerseither to either initiate or to expand

production .
Laboratory diagnostic test kits: Shortage of SARS -CoV -2 viral test kits at the SLTT or
private sector laboratory will delay the confirmation of COVID -19 patients .
Development of additionaltests may be delayed formany reasons, including

approval for use, distribution difficulties, or validation testing. Continued
partnership between the public and private sectors is needed to develop,
distribute , and implement the necessary laboratory and diagnostic needs ofthis

response.

Although one mitigation measure is to send clinicalspecimens to the CDC , the
significantworkload and required staffingand resourcesat CDC will result in

backlog and delay in transmitting disease confirmation .

Mitigation measures for shortages of test kits may include business incentives for
U . S manufacturers either to initiate or to expand production to mass-produce

sufficient quantities of quality test kits for use at the SLTT and private sector

hospital/laboratory level.
and communications disruptions. Much ofthe surveillance and reporting depend on

an IT and communications infrastructure to share information among federal, SLTT and
private healthcare providers .
addition to identifying early disruptions of IT and communication capabilities ,
alternativemechanismssuch as manualreporting and mailing ofappropriate

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 39

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 1.Surveillance

forms (e.g., via first-class or priority status delivery) are required to ensure as
timely of COVID-19 surveillance reporting as possible.
•

Information-sharing channels. The information-sharing pathways described are wellestablished and used daily.
o

Federal, SLTT, and private sector healthcare/laboratory facilities should
collaborate on ensuring redundant systems are in-place and utilized to ensure
COVID-19 surveillance information is shared quickly among the appropriate
stakeholders to implement community mitigation strategies.

Critical Information Requirements
Based on the resources and potential shortfalls described, the following CIRs for this line of
effort inform key federal and SLTT decisions to address potential response gaps:
CIR#1 Do SLTT entities have adequate quantities of clinical test kits for presumptive (or
confirmatory) identification of SARS-CoV-2 virus in potentially exposed or ill individuals?
CIR#2 Do clinical test kits approved by FDA have adequate capabilities for presumptive or
confirmatory identification of SARS-CoV-2 infection?
CIR#3 Are SLTT public health laboratories, hospitals, or private laboratories able to adequately
test and report test results to the CDC, through the established networks, in a timely manner
given the volume of medical referrals for such testing?
CIR#4 Are adequate quantities of PPE available among SLTT and federal epidemiologists to
fully conduct investigations of COVID-19 contacts, as appropriate?
CIR#5 Is the production capacity for PPE, clinical test kits, and other required resources
sufficient to maintain adequate surveillance for extended periods (indefinitely) at the federal and
SLTT levels?
CIR#6 Is the CDC adequately staffed with trained/qualified epidemiologists and support
personnel to support epidemiological investigations and advise SLTT health authorities on public
health measures?
CIR#7 Are the SLTT public health departments adequately staffed with trained/qualified
epidemiologists and support personnel to lead epidemiological investigations and to develop and
implement public health measures within their jurisdictions?
CIR#8 Are the surveillance data received and evaluated at the headquarters level sufficient to
inform given triggers and operational phasing to guide USG COVID-19 response?

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 40

28

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 2. Communicationand Public Outreach

Appendix 2. Communication and Public Outreach
The objective of this line of effort is to ensure that the USG facilitates accurate, coordinated, and
timely information to affected audiences, including governments, media, the private sector, and
the local populace. The following activities contribute to this objective:
•

Develop and amplify lifesaving, life-sustaining information in coordination with
interagency partners.

•

Develop a transparent risk-communication strategic plan for development, clearance, and
dissemination of clear, concise, accurate, accessible critical public health messages to
both targeted audiences and the general population.

•

Develop and disseminate messaging that reflects newly developing issues and facts as
they become recognized and acknowledged.

Purpose and End State

Ensure USG unified messaging across the full range of media as well as public information
readily available for consumption and implementation.
Objectives

Key stakeholders will ensure that the following objectives are accomplished to achieve the given
end-state:

•

Provide preparedness information, the federal pre-cluster posture, and actions taken
through integration of public messaging staff at key federal and SLTT locations.

•

Continually communicate accurate and timely information to address public health
concerns about COVID-19 in the U.S.

•

Continually coordinate dissemination of unified public health information with SLTT
partners.

•

Continually amplify public health messaging to public and external stakeholders.

•

Continually message response actions and federal support to the public.

Primary Coordinating Federal Departments and Agencies
Specific Response Tasks
Joint InformationCenter (JIC)
Emergencymanagement
Business
Healthcare

DesignatedPrimary Coordinating Federal
Departments/Agencieswithin Line of Effort
CDC with Embedded ASPR. DHS/OPA,and FEMA
FEMA
DHS/CISA
CDC and ASPR

Key FederalResponsibilities
In accordance with the BiologicalIncident Annex, the following federal roles and
responsibilitiesof the LFA provide coordination with the federal interagency and as appropriate,
SLTT entities, to achieve the objectives and end-state:

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 41

29

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 2. Communicationand Public Outreach

•

Provide timely and coordinated messaging to the public for both warning and guidance
throughout the incident.

•

Provide behavioral health messaging to the public, healthcare workers, and responders to
the incident.

•

Coordinate associated messaging for all of the above activities through an interagency
process. Response and recovery outcomes for COVID-19 are significantly tied to public
reception and compliance with public health guidance on personal protective measures
and access to health and medical interventions.

Operational Assessment

The following assessment criteria will determine effectiveness in achieving the given end-state:
•

COVID-19 clusters in U.S. are being consistently reported as they develop. This includes
the following activities:
o Provide guidance on essential elements of information to report.
o Develop a risk communication strategic plan for development, clearance, and
dissemination of critical public health messages for multiple audiences.

•

Key points are being consistently distributed to staff and partners. This includes the
following activities:

o Release a CDC press release, which may include a CDC press briefing or possibly,
White House Office of Communications-driven press conferences.
o Promptly post information on CDC.gov and social media handles.
o For travel to/from the United States, update airline, cruise ship, or commercial
maritime commerce contact investigation communication materials.
o Inform and provide guidance to clinicians, the public health community, and labs.
•

Daily coordination is ongoing with the State Coordination Task Force. This includes the
following activities:

o Coordinate the Clinical Outreach and Communication Activity (COCA).
o Organize and execute federal and non-governmental organization (NGO) partner
calls, including calls with ASTHO, NACCHO, CSTE, NPHIC, DoD.
•

Updated COVID-19 related key points and information are being consistently distributed
to spokespersons informing the public. This includes the following activities:

o Monitor and assess news media, social media, and public inquiries.
o Brief with recognized spokespersons (e.g., news media assigned physicians and/or
public health spokespersons) to reinforce messaging.
•

Updated key points and information are being consistently distributed to the designated
LFA and federal partners. This includes the following activities:

o Update CDC travel notices and messaging at ports of entry, as needed.
UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 42

30

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations

•

Appendix 2. Communicationand Public Outreach

o

Provide information on COVID-19 trends impacting U.S. and foreign countries or
jurisdictions.

o

Provide CDC key messages related to preventive measures and context for the
emerging COVID-19 threat (e.g., reinforcing comparisons with seasonal influenza
in terms of disease transmission, and at-risk individuals for clinical severity).

Outreach is being consistently conducted with the business community through ESF-14
and the critical infrastructure protection partnership structure.

Resources
The following resources can contribute to achieving the intermediate objectives and end-state of
this line of effort:
•

Surveillance Networks. As described in the Surveillance line of effort, the following
networks are included among those tapped for informing the Communication and Public
Outreach line of effort:
o

The CDC’s Epidemic Information Exchange (Epi-X) is a secure, web-based network
that serves as a powerful information exchange among authorized users.

o

The Electronic Surveillance System for the Early Notification of Community-based
Epidemics (ESSENCE), developed by Johns Hopkins University (JHU), is the
primary syndromic surveillance tool, and practitioners across the surveillance
community have used variations of ESSENCE successfully for years.

•

State/territorial coordination task forces. These, formed by the state governor, as needed,
can provide jurisdictional situational awareness for adequate analysis and reporting of
validated and appropriate information.

•

Other federal agency (OFA) public information officers (PIOs). Other than HHS,
HHS/ASPR, and CDC, the following critical PIOs are among those who may engage in
supporting this line of effort:
o

DHS ESF-15

o

Department of Defense

o

U.S. Food and Drug Administration

o

National Institutes of Health (NIH)

•

National Joint Information Center (NJIC). An NJIC is established early, typically at the
CDC, and as the COVID-19 increasingly impacts U.S. citizens, the NJIC shall coordinate
public communications and messaging to SLTT and private-sector entities.

•

Incident communications conference lines
o

Generally, national/state/private-sector incident communications conference lines
(NICCL, SICCL, PICCL, respectively) aim to coordinate public communications and
messaging among information officers at the federal, state, and private-sector levels
to achieve consistent information shared across all jurisdictions and businesses related
to COVID-19.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 43

31

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 2. Communicationand Public Outreach

(a) For this incident, the NICCL has been replaced by the OVP communications
calls.
(b) For this incident, the PICCL calls are not being held. Instead, the NBEOC call
and Cybersecurity and Infrastructure Security Agency (CISA) calls disseminate
messaging to the private sector and industry partners. ESF-14 works in
conjunction with ESF-15 to develop messaging.
o
•

The LFA is responsible for determining the frequency and duration of these
conference lines in coordination with federal partner PIOs.

Social media communication
o

Listening. The LFA will create a federal interagency social media listening team
since large portions of population communicate with each other via various social
media platforms.

o

Transmitting. The LFA will use social media platforms to transmit appropriate, clear,
accurate, accessible, and succinct COVID-19 messages, as frequently as necessary, to
provide clear, accurate, accessible, and succinct messages frequently, to reinforce
information issued through other resources described, and especially to counter false
information or invalid health concerns.

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line of effort’s endstate and intermediate goals, and thus, inform critical information requirements for the USG to
monitor and to appropriately respond with adequate augmentation and resourcing:
•

PIOs. An inadequate quantity of qualified PIOs will be unable to meet the information
demand from the public, Congressional leaders, and the media.

•

Subject-matter experts. An inadequate quantity or subject range of federal or SLTT-level
subject matter experts will be unable to develop, to review, or to fully vet COVID-19
public messaging.

•

Message dissemination. Delays or inadequate distribution in publishing messages may
result in misinformation, outdated information, unfounded rumors, and false or negative
perceptions of the federal or SLTT government response to COVID-19.

Critical Information Requirements
Based on the resources and potential shortfalls described, the following CIRs for this line of
effort inform key federal and SLTT decisions to address potential response gaps:
CIR#1 Is the established NJIC adequately staffed to meet the public, media, and SLTT demands
for information on COVID-19 cases, public health measures, and assurances?
CIR#2 Are key stakeholders such as the healthcare providers, hospitals, nursing homes, home
health organizations, and other health-related institutions adequately informed of COVID-19
public health measures to prevent or mitigate exposures, disease and death?
CIR#3 Are LFA and CDC adequately staffed with subject-matter experts to review public
messaging to verify accuracy, clarity, and succinctness both for the general audience and for
UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 44

32

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 2. Communicationand Public Outreach

certain individuals that may benefit from tailored messaging (e.g., older adults, people with
disabilities and others with access and functional needs, people who speak English as a second
language)?
CIR#4 Are the LFA, CDC and engaged federal interagency partners adequately staffed with
PIOs to monitor news media, social media, and concerns from SLTT and private sector PIOs on
COVID-19?
CIR#5 Are public messages developed and released in a timely manner and with adequate
distribution by the LFA and CDC, particularly in response to open-source media reports of great
numbers of presumptive or confirmed cases in communities or in regions within the U.S., or any
associated impacts related to COVID-19 (e.g., commodity shortages).

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 45

33

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 3. HealthcareSystem Preparednessand Resilience

Appendix 3. Healthcare Systems Preparedness and Resilience
The objective of this line of effort is to protect those who are most vulnerable to hospitalization
and mortality during sustained transmission of COVID-19 in the U.S., while preserving and
protecting health system capacity to treat acute conditions and ensure continuity of care for
essential healthcare services, providers, suppliers and vendors. This line of effort also includes
developing and disseminating guidance on the following topics:
•

Recommendations for public health jurisdictions to manage cases and their contacts

•

Clinical guidance to HCP regarding patient treatment and management

•

Infection-control guidance for HCWs

•

Staff safety and monitoring

•

Medical surge management

•

Alternative mechanisms for delivery of care

•

Resource management, including supply chain shortage impacts and vulnerabilities

•

Health care and medical response coordination in support of ESF-8 (including EEI
reporting)

•

Operational best practices and tools based on clinical management lessons learned

Purpose and End State

Ensure SLTT healthcare systems are able to manage COVID-19 patient care, to mitigate spread
and community exposure, and to be resilient to future outbreaks.
Objectives

Key stakeholders will ensure that the following objectives are accomplished to achieve the given
end-state:

•

Inform and engage SLTT healthcare systems on official COVID-19 guidance and
resources available.

•

Assess potential shortfalls in SLTT capacity/capability to mitigate SARS-CoV-2
infection and COVID-19 illness.

•

Develop and monitor response-specific EEIs for SLTT healthcare systems.

•

Pushing out response EEIs and get feedback from SLTT requests for federal assistance.

•

Deploy resources to affected area to support SLTT capability/capacity.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 46

34

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 3. HealthcareSystem Preparednessand Resilience

Primary Coordinating Federal Departments and Agencies

Specific Response Tasks

Epidemiological investigations
Development, upgrades, review/approval and
distribution to SLTT public health and
academic/private-sector laboratory entities
Healthcare systems monitoring to include PPE and
other healthcare supplies/equipment
Surveillance of other health resources
Federal workforce
Private-sector workforce

Designated Primary Coordinating Federal
Departments/Agencies within Line of Effort
CDC

CDC
FDA
ASPR
ASPR
OPM
DHS/CISA

Key Federal Responsibilities
In accordance with the Biological Incident Annex, the following federal roles and
responsibilities of the LFA provide coordination with the federal interagency and as appropriate,
SLTT entities, to achieve the objectives and end-state:
•

•

Include the following elements in health services assistance/augmentation specific to
COVID-19:
o

Guidance

o

Tools to inform preparedness and response

o

Subject matter expertise/technical assistance

o

Assistance to integrate health services with non-medical disciplines (e.g., emergency
management, law enforcement)

o

Other support not already covered under other operational areas

Provide medical services assistance/augmentation.
o

Healthcare delivery is predominantly conducted in the private sector.

o

Delivery mechanisms exist within the federal government (e.g., Veterans Affairs
Medical Centers) that require integration and support as well.

o

The government can provide medical assistance in response to COVID-19 illness or
prevention of SARS-CoV-2 transmission in the following forms:
(a) Guidance
(b) Tools
(c) Resource support to healthcare facilities, including (but not limited to) support in
the following categories:
1. Personnel
2. Supplies (e.g., PPE, ventilators, pharmaceuticals)
3. Facilities
4. Patient transportation (e.g. movement of patient populations away from an
area of outbreak to open space for care of infected/ill individuals)

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 47

35

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 3. HealthcareSystem Preparednessand Resilience

o

In certain select cases related to COVID-19, the federal government may be primarily
responsible for services (e.g., the evacuation of federal government employees or
U.S. citizens under State Department authorities).
(a) The existence of interrelated international and domestic issues associated with
COVID-19 highlights the need for coordination of international and domestic
response activities.
(b) Support of behavioral health and mental health for communities may require
federal assistance.

Operational Assessment
The following assessment criteria will determine effectiveness in achieving the given end-state:
•

Regional Emergency Coordinators (RECs) and Hospital Preparedness program field
project officers are fully engaged with healthcare stakeholders in their jurisdictions on
COVID-19 preparedness and response activities.

•

Coordination and reporting communication channels are established and sustained with
healthcare stakeholders to report on appropriate COVID-19-specific EEIs.

•

The Surveillance line of effort described in this document applicable to healthcare
systems is operating, involving both prompt and accurate reporting and active/operational
enhanced surveillance activities.

•

Resource requests specific to COVID-19 preparedness and responses to achieve the
intermediate objectives and end-state for this line of effort are identified, processed and
assigned disposition.

•

Resources requested to augment healthcare systems are promptly deployed and actively
engaged in support of SLTT Partners.

Resources
The following resources can contribute to achieving the intermediate objectives and end-state of
this line of effort:
•

Federal or SLTT epidemiologists. As described, these professionals can conduct
epidemiological investigations of COVID-19 cases in healthcare facilities, and provide
guidance to healthcare providers and staff on effective mitigation measures, while also
balancing need for these systems to maintain effective operational continuity.

•

Laboratory Response Network (LRN). The LRN provides healthcare systems with
access to clinical testing kits and supplies for laboratory COVID-19 confirmation.

•

Surveillance Networks. Ensuring the resources described in the Surveillance line of
effort.

•

Regional emergency coordinators (RECs). The HHS RECs ensure that emergency
management coordination occurs seamlessly among public health authorities, healthcare
systems, and state emergency management agencies.

•

Disaster Medical Assistance Teams (DMATs), U.S. Public Health Service (USPHS), and
Commissioned Corps. These resources can augment healthcare systems significantly

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 48

36

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 3. HealthcareSystem Preparednessand Resilience

impacted by COVID-19 (e.g., staff shortages, due to overwhelming numbers of COVID19 [suspected, presumptive, or confirmed] patients and/or absenteeism).
•

ASPR TRACIE/CIP/HPP FPOs. These programs are trusted sources of technical
assistance for private-sector healthcare system stakeholders and can also be leveraged to
ensure coordination and communication between the federal government and the
healthcare system.

•

Strategic National Stockpile (SNS). The SNS includes medical equipment, supplies, and
medical countermeasures (MCMs). Personnel may accompany deployments.

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line of effort’s endstate and intermediate goals, and, thus, inform critical information requirements for the USG to
monitor and to appropriately respond with adequate augmentation and resourcing:
•

Epidemiologists. Insufficiency in quantities of qualified federal and SLTT
epidemiologists would result in inability to conduct sufficient prompt epidemiological
investigations.

•

Staffing support. Insufficient DMATs and USPHS personnel would result in inadequate
capacity to augment staffing for requesting healthcare facilities.

•

Medications and medical supplies. Insufficient or no availability of effective anti-viral
medications, other medical countermeasures, or medical supportive care equipment and
supplies (e.g., ventilators) in the SNS would result in shortfalls in care.

Critical Information Requirements
Based on the resources and potential shortfalls described, the following CIRs for this line of
effort inform key federal and SLTT decisions to address potential response gaps:
CIR#1 What SLTT authorities are requesting federal assistance for augmentation of healthcare
staff or capabilities in response to COVID-19?
CIR#2 What resource shortfallsare reportedby impactedhealthcarefacilities that significantly
degrade quality medicaland public health services to COVID-19-affectedcommunities(e.g.,
laboratorytesting)?
CIR#3 Do the LFA and the CDC have adequate staffing to research, develop, and publish
prompt and effective guidance on NPI and other mitigation strategies?
CIR#4 Are federal DMAT and USPHS capabilities and capacities adequate to meet the
requested federal assistance to support healthcare systems impacted by COVID-19?

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 49

37

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 4. MedicalCountermeasureDevelopment

Appendix 4. Medical Countermeasure Development
The objective of this line of effort is development, distribution, and administration of diagnostic
tests, antivirals, and vaccines for COVID-19. This line of effort includes the following activities:
•

Research and development of antiviral and other treatment regimens

•

Development and maintenance of a stockpile of safe and effective vaccines

Purpose and End State
Diagnostic tests, antivirals, and vaccines for COVID-19 are developed, distributed, and

administered.
Objectives

Key stakeholders will ensure that the following objectives are accomplished to achieve the given

end-state:
•

Develop and distribute rapid diagnostic tests.

•

Conduct trials of antivirals and vaccines to develop new antivirals and vaccines.

•

Partner with the pharmaceutical industry to mass-produce antivirals and vaccines.

•

Distribute rapid diagnostic tests and antivirals and vaccines for treatment of COVID-19.

Primary Coordinating Federal Departments and Agencies
DesignatedPrimaryCoordinatingFederal

Specific ResponseTasks

Departments/Agencies
withinLine of Effort

Researchto includeclinicalresearchas well as field

NIH

epidemiological
investigationsof the disease

CDC

Medicalproductsafety,efficacy andapproval

FDA

Developmentof product-specificrequirements,
acquisition,procurement,
andproduction

Distribution and dispensing

BARDA

ASPR

Key FederalResponsibilities
In accordance with the BiologicalIncident Annex, the following federal roles and
responsibilitiesof the LFA as well as all federal departments and agencies(whether supporting
the LFA or not) are designed to achieve the objectivesand end-state:
•

Researchand develop appropriate pharmaceuticalinterventionsfor COVID-19.

•

When available, deploy medical countermeasuresto address COVID-19,which includes
a layered approach using regional and national rapid MCM planning,in coordination
with SLTT public health departments and state emergency management agencies.

•

Develop courses of actions and appropriately implement formal agreements between
HHS and the pharmaceuticalretail industry to distribute safe and efficaciousmedical
countermeasures(e.g., antivirals,vaccines, when available) to impacted communities

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 50

38

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 4. MedicalCountermeasureDevelopment

under an HHS Secretary decision to execute the Public Readiness and Emergency
Preparedness (PREP) Act to provide liability protections to these private sector entities.
Operational Assessment
The following assessment criteria will determine effectiveness in achieving the given end-state:
•

Medical countermeasures for COVID-19 are determined to be efficacious and safe for
use on ill patients or, for vaccines, sufficiently safe and protective against SARS-CoV-2.

•

Pharmaceutical production capacities for medical countermeasures to COVID-19 are
adequate and product quality validated to meet the demand in the U.S. to treat and/or
protect against COVID-19.

•

The LFA, through the HHS RECs, has coordinated with both the SLTT public health
departments and state emergency management agencies on review of SLTT medical
distribution and dispensing plans for mass prophylaxis once efficacious medical
countermeasures to COVID-19 are available.

•

The LFA, in coordination with federal partners, has reviewed and validated federal
department and agency MCM requirements to vaccinate the federal workforce, including
for D/A-specific points of dispensing and distribution.

Resources
The following resources can contribute to achieving the intermediate objectives and end-state of
this line of effort:
•

Efficacious and safe MCM production capabilities and capacities.

•

MCM storage. At the federal and SLTT level (which includes private healthcare or retail
pharmacy chains), storage requirements are adequate to store the newly developed MCM
for distribution and dispensing.

•

Staffing, equipment, and supplies to distribute and dispense MCMs. At the federal and
SLTT level (which includes private healthcare or retail pharmacy chains), the staffing,
equipment, and supplies (both medical and non-medical items, including power and
potable water) are available to fully execute distribution and dispensing.

•

MCM guidance for dispensing. Based on limited MCM quantities initially, the LFA, in
coordination with the HHS operating divisions, national advisory groups, and federal
interagency partners, prioritizes those at greater risk associated with COVID-19 to
receive appropriate MCMs.

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line of effort’s endstate and intermediate goals, and, thus, inform critical information requirements for the USG to
monitor and to appropriately respond with adequate augmentation and resourcing:
•

MCM production capabilities and capacities. Insufficient MCM production capabilities
or capacities domestically would result in insufficient supplies of MCMs.

•

MCM imports. Insufficient MCM imports of MCMs manufactured in foreign countries
or jurisdictions would result in insufficient supplies of MCMs.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 51

39

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 4. MedicalCountermeasureDevelopment

•

Staffing, equipment, and supplies. Insufficient staffing, equipment and supplies at the
SLTT, federal and/or retail pharmacy level to conduct mass distribution and dispensing
would result in shortfalls in these activities.

•

Prioritization of MCM recipients. Inadequate guidance on prioritization of human
populations to receive MCMs may result in inefficiencies and/or unfairness in provision
of healthcare.

Critical Information Requirements
Based on the resources and potential shortfalls described, the following CIRs for this line of
effort inform key federal and SLTT decisions to address potential response gaps:
CIR#1 When is the projected window of availability of MCMs (e.g., antivirals and vaccines) for
COVID-19?
CIR#2 Are the SLTT public health departments’ plans for MCM distribution and dispensing
developed and in-place to conduct mass prophylaxis?
CIR#3 Do the federal D/A, or the USG, have a strategic plan to conduct prioritized MCM
distribution and dispensing for the federal workforce?
CIR#4 Based on the SLTT public health departments’ plans for MCM distribution and
dispensing, are SLTT jurisdictions requesting or likely to request federal assistance to augment
or to execute mass prophylaxis?
CIR#5 What are the federal policy, workforce, and resource gaps to augment SLTT requests to
augment MCM distribution and dispensing?

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 52

40

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization

Appendix 5. Supply Chain Stabilization
COVID-19 will impact supply chains across the globe.
The healthcare supply chains affecting PPE, devices, pharmaceuticals,and other components
contributing to the production, completion, and distribution are interdependent with other
commercial supply chains across the marketplace, inclusive of critical infrastructure function and
operational resilience of industry nationally in businesses of all sizes.
As such, the line of effort for Supply Chain Stabilization is segmented as follows:
A. Healthcare Supply Chain Stabilization
B. Cross-Sector Supply Chain Stabilization
Supply Chain Stabilization End State
Provide global strategic and focused domestic supply chain information to inform key leader
decisions intending to limit the effects of the COVID-19 on the U.S. population and to facilitate
stabilization of the healthcare and other commercial supply chains, to support economic
resilience nationally.
Primary Coordinating Federal Departments and Agencies
DesignatedPrimaryCoordinatingFederal

SpecificResponseTasks

Departments/Agencies
withinLine of Effort

Healthcaresupply chain

ASPR

Supplychainandeconomicassessment

FEMAandCISA

USGresourcemanagement

ASPR,FEMA,and DefenseLogisticsAgency

Industryengagement& integration

CISA andFEMA

Globalengagement

White HouseTrade Office,Commerce,State

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 53

41

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization

Healthcare Supply Chain Stabilization
The objective of this line of effort is medical supply chain stabilization and ensuring resilience
for meeting future requirements. This line of effort also includes the following activities:
•

Preparation for and response to critical healthcare supply chain vulnerabilities and
shortages (e.g., PPE, API)

•

Distribution of medical countermeasures, including medications, ventilators, and
respiratory protection devices and other supplies from the SNS

Purpose and End State
The healthcare supply chain is stabilized and resilient, able to meet future requirements.
Objectives
Key stakeholders will ensure that the following objectives are accomplished to achieve the given
end-state.
•

Assess critical healthcare supply chain requirements and engage stakeholders to identify
gaps and/or shortfalls.

•

Conduct clinical trials for therapeutics, antivirals, and vaccines to determine product
safety and efficacy.

•

Identify and implement strategies to resolve and mitigate gaps or shortfalls in production
and supply.

•

Obtain healthcare commodities for the Strategic National Stockpile (SNS) to meet future
requirements.

•

Develop contingency capacity and capability to address future gaps or shortfalls.

Key Federal Responsibilities
In accordance with the Biological Incident Annex, the following federal roles and
responsibilities of the LFA as well as all federal departments and agencies (whether supporting
the LFA or not, with the exception of federal agencies to which this section has no relevance) are
designed to achieve the objectives and end-state:
•

Research and develop pharmaceuticals and vaccines effective against COVID-19 and
SARS-CoV-2, respectively.

•

Provide recommendations and guidance on types of PPE for healthcare workers to use
while treating suspected or confirmed COVID-19 patients.

•

Support medical supportive equipment, supplies, and PPE needs through utilization of
appropriate federal authorities such as the Defense Production Act.

•

Provide resources for potential expansion of basic medical care support for COVID-19impacted individuals with disabilities and others with access and functional needs, to help
reduce burden on high-demand components of healthcare infrastructure.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 54

42

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization

•

Assist or augment SLTT medical supply chain management to identify and support
management and care of dependents at congregate care facilities when normal caregivers
are absent (e.g., nursing homes, prisons, and congregate animal facilities such as zoos).

Operational Assessment
The following assessment criteria will determine effectiveness in achieving the given end-state:
•

Identification, quantification, and communication is in progress for healthcare supply
gaps and shortfalls in both U.S. and foreign supply and production.

•

A federally executable healthcare supply chain management strategy is developed and
up-to-date to achieve the objectives and end-state described and includes prioritized
commodities to sustain the healthcare infrastructure.

•

Monitoring and/or reporting of measures is in place for external stakeholders (e.g.,
healthcare facilities, SLTT public health departments) receiving medical commodities to
meet patient needs associated with COVID-19.

•

Strategies are in place and being implemented, with tracking, to address potential or
anticipated future production and supply shortfalls, particularly those due to foreign
manufacturing being impacted by COVID-19 outbreaks.

Resources
The following resources can contribute to achieving the intermediate objectives and end-state of
this line of effort:
•

Healthcare sector input. Through the CDC, ASPR, SLTT public health departments, nongovernmental organizations (e.g., American Medical Association, healthcare coalitions)
and state emergency management agencies, the healthcare sector can communicate
resources required to meet the patient demand for treatment or prophylaxis either for
COVID-19 or for other illnesses, while operating in a COVID-19 disease environment.

•

Strategic National Stockpile (SNS). When available, vaccines, antivirals, and other
medical supportive care equipment and supplies are dispensed for COVID-19 patients.

•

Domestic production. This capability and capacity within the U.S. can significantly
contribute to providing sufficient MCMs to meet requirements for the USG (other
countries or jurisdictions impacted with COVID-19 may restrict exports to the U.S.).

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line of effort’s endstate and intermediate goals, and, thus, inform critical information requirements for the USG to
monitor and to appropriately respond with adequate augmentation and resourcing:
•

Production capacity. Insufficient production capacity would result in an inability to meet
demands of the healthcare supply chain.

•

Imports. Insufficient import of prioritized commodities from foreign manufacturers
would result in an inability to meet the demands of the healthcare supply chain.

•

Delivery systems. Effective and efficient delivery systems are important to provide the
prioritized commodities to healthcare facilities that need these supplies and equipment.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 55

43

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization

•

Staffing for points of dispensing. Inadequatestaffing of SLTT or healthcare-established
pointsof dispensing of efficaciousantivirals or vaccines, when available, would result in
inadequate provision to those that need the medical countermeasures.

•

Reporting. Delayed or inadequate reporting of healthcare facility resource needs would
result in an inability to inform the broader USG strategy, and consequently,to meet the
needs.

Critical InformationRequirements:HealthcareSupply Chain Stabilization
Based on the resourcesand potential shortfallsdescribed, the following CIRs for this line of
effort inform key Federal and SLTT decisionsto address potential response gaps:
CIR#1What are the reported medical equipment and supply shortages, by facility type (e.g.,
hospitals,nursing homes), to adequately address COVID-19 patient supportive care?
CIR#2 What are the reported PPE shortages, by facility type (e.g., hospitals,nursing homes) to
protect healthcare providers while treating suspected or confirmed COVID-19 patients?
CIR#3 What are the reported shortages of other pharmaceuticals,medical devices, and related
healthcare supply commoditiesindirectly impacted by COVID-19,but used to diagnose, treat,
and/or provide supportive care for other medical conditions?
CIR#4 Does the CDC have sufficient staff, space, and supplies to do national-leveltesting of
SARS-CoV-2in suspected patients in support of SLTT health departments and the private
healthcare sector?

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 56

44

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization

Cross-Sector Supply Chain Stabilization
The objective of this line of effort is to provide a pulse of private -sector operations; develop
understanding of economic considerations and impacts; frame the supply chains of concern
for which the federal government may be able to take action; and consolidate data and
reporting from multiple sources into a cross sector context. An associated objective is to
provide structure for unity of effort on interagency activities enabling cross sector operational
resilience to mitigate effects of COVID 19 calibrated with safe conduct of commercial
activity and supply chains supporting Community Lifelinesand National Critical Functions.
Purpose and End State
Commercial supply chains across business, industry, and infrastructure sectors are stabilized for
marketplace function, resistant and resilient to future disruption.
Objectives
Key stakeholders will ensure that the following objectives are accomplished to achieve the given
end-state:
•

Harmonize industry engagement for integration into planning and to enable private-sector
situational awareness for ongoing coordination with business, industry, and infrastructure
across USG throughout the crisis.

•

Provide understanding of economic impacts resulting from COVID-19 and the
subsequent aggressive containment and/or community mitigation abroad and/or
domestically (e.g., non-pharmaceutical interventions [NPIs]) implemented at the federal,
SLTT, and private-sector level.

•

Consolidate non-healthcare supply chain data from across the reporting spectrum of
federal, SLTT, and private-sector entities, and establish processes to achieve cross-sector
assessment and a common operating picture of non-healthcare supply chains.

•

Support whole-of-government resourcing alignment by identifying USG (and state
government) requirements (including standards) for PPE and other protective measures
dependent upon the healthcare supply chain; by closing policy gaps including DPA
enabling government intervention as needed; and by balancing workforce protection
measures with available, reasonable PPE requirements. Identify, prioritize, and address
indicators of degradation of critical infrastructure and supply chains that impact national
security and the national economy.

Key Federal Responsibilities
In accordance with the newly established COVID-19 Supply Chain Task Force, the following
key federal responsibilitiesare designed to achieve the objectives and end-state:
•

Activate ESF#14 Cross-Sector Business and Infrastructure.As the newest Emergency
Support Function, created as part of the update to the National Response Framework,
ESF #14 supports the coordination of cross-sector operations, including stabilization of
key supply chains and community lifelines, among infrastructure owners and operators,
businesses, and their government partners. Coordinated by CISA with FEMA designated
as a co-primary agency, ESF-14 is complementary to all other ESFs and to the following
sector-specific agencies (SSAs):

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 57

45

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization
o

Department of Agriculture

o

Department of Labor

o

Department of Commerce

o

Department of State

o

Department of Defense

o

Department of Transportation

o

Department of Energy

o

Department of the Treasury

o

Department of Homeland

o

Environmental Protection

Security
o

Agency

Department of Health and
Human Services

o

Department of Housing and
Urban Development

o

General Services Administration

o

Small Business Administration

o

U.S. Army Corps of Engineers

•

The National Business Emergency Operations Center (NBEOC) is FEMA's clearing
house built on operational trust for two-way information sharing connecting public and
private sectors during incidents. The NBEOC offers a consistent platform to share
information on COVID-19 impacts beyond supply chains, including operating status,
community mitigation challenges implementing NPIs, as well as access to information to
support business continuity, humanitarian needs, and support connecting states with
businesses as needed.

•

The National Risk Management Center (NRMC) supports CISA’s cyber and
infrastructure security mission by creating an environment in which government and
industry can collaborate within and across sectors to develop plans and solutions for
reducing cyber and other systemic risks to national and economic security. NRMC turns
analysis into action by developing risk-management solutions. CISA works in close
coordination with other federal agencies, the private sector, and other key stakeholders in
the critical infrastructure community to identify, analyze, prioritize, and manage the most
important strategic risks to the nation’s critical infrastructure.

Operational Assessment
The following assessment criteria will determine effectiveness in achieving the given end-state:
•

Information-sharing on non-healthcare supply chains between government and private
sector entities is well established and used regularly to inform key federal decisions.

•

In tandem with information sharing of data, risk analysis and projections are developed of
potential disruptions to the community lifelines and are used to inform course-of-action
development to mitigate COVID-19-related effects to achieve stability.

•

Coordinated prioritization of critical federal contracts of non-healthcare supplies (and
equipment) (e.g., Defense Production Act [DPA] synchronization) has occurred with a
broad input from federal departments/agencies.

•

Risk analysis and projections of COVID-19 impacts lead to appropriate international
trade actions (or arrangements) involving coordination among the State Department, the
Department of Commerce, and the U.S. Trade Office to sustain federal
department/agency mission requirements.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 58

46

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization

•

Through the above-described operational assessment activities, barriers to the
commercial supply chains, business continuity, and infrastructure resilience are
identified, with particular attention to limits on return to normalcy (affected by
implementationof domestic or international COVID-19 containment and/or community
mitigation measures).

•

Solutions are developed and priorities are established to integrate cross-sector capabilities
to achieve unity of effort, coordinated messaging, and stabilization neededfor effective
consequence management.

Resources
The following resources can contribute to achieving the intermediate objectives and end-state of
this line of effort:
•

Data models of the national and global supply chains. These can project scenarios of
shortfalls and economic impacts resulting from COVID-19 disease spread and from
implementationof aggressive containment abroad and/or community mitigation
measures.

•

A common operating picture (COP) of private-sector operations. A COP, for the private
sector both in the U.S. and abroad, can provide USG situational awareness inclusive of
non-healthcare supply chains impacting community lifelinesand the critical
infrastructure sectors.

•

National critical functions of concern. These may require USG attention, which as
appropriate, may implement intervention measures to prevent, minimize, or mitigate
significant disruptions of those functions.

•

Engagement of various industry sources/sectorsas part of the non-healthcare supply
chain analysis. Such engagement may contribute to the identification of “triggers” to
prompt USG actions or guidance issuance to federal, SLTT and private-sector level
entities to achieve positive impacts mitigating COVID-19 effects.

•

Sustained engagement with the business community. This type of engagement may help
identify how the business community can contribute to the domestic response at the
national, state, and local levels.

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line of effort’s endstate and intermediate goals, and thus, inform critical information requirementsfor the USG to
monitor and to appropriately respond with adequate augmentation and resourcing:
•

Production capacity. Insufficient production capacity could result in an inability to meet
needs for the given products.

•

Imports. Insufficient import of prioritized commodities from foreign manufacturers
could result in an inability to meet the needs for such commodities in the commercial
marketplace at the retail level and could result in a need for (some or additional) domestic
manufacturing.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 59

47

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 5. Supply Chain Stabilization

•

Delivery systems. Effective and efficient delivery systems are important to provide the
prioritized non-healthcare commodities to healthcare facilities that need these supplies
and equipment.

•

Staffing. Inadequate staffing of SLTT BEOCs could hamper private-public coordination.

•

Reporting. Delayed or inadequate reporting of private sector resource needs would result
in an inability to inform the broader USG strategy implementation, and, consequently, the
USG’s ability to help meet the resource needs.

•

ESF#14. As the newest emergency support function, ESF#14 has yet to achieve full
operational capability.

•

Community mitigation measures. Business and industry grappling with community
mitigation measures could create disruption to supply chains and business functions.

Critical Information Requirements: Commercial Supply Chain Stabilization
Based on the resources and potential shortfalls described, the following CIRs for this line of
effort inform key federal and SLTT decisions to address potential response gaps:
CIR#1 What the critical non-healthcare commodity shortages result from global or domestic
aggressive containment and/or community mitigation measures implemented in response to
COVID-19?
CIR#2 What critical data gaps can be identified to fully inform key federal decisions to achieve
this line of effort objectives and end-state?
CIR#3 What community lifelines are negatively impacted due to effects either on production
capabilities and/or on delivery systems of COVID-19 or of the federal, SLTT, or private-sectordirected containment and/or community mitigation measures?
CIR#4 What critical shortages of non-healthcare commodities required to sustain missionessential functions are reported by federal and SLTT authorities due to COVID-19 or due to the
resulting containment and/or community mitigation measures?
CIR#5 What limiting factors of normal operations across the 16 critical infrastructure sectors
result from global or domestic aggressive containment and/or community mitigation measures
implemented in response to COVID-19?
CIR#6 What anticipated commercial supply chain challenges arise for products that are reliant
on non-domestic manufacturing, including for raw materials, and especially for products with
key economic contributions?
CIR#7 What potential private sector solutions are available for innovative approaches to
continue commerce safely and effectively while NPIs are in effect nationally, with communities
potentially executing them inconsistently?
CIR#8 What administrative or policy barriers can be addressed to increase commercial
operational resilience and foster consistent economic output?

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 60

48

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 6. CommunityMitigationMeasures

Appendix 6. Community Mitigation Measures
The objective of this line of effort is to support SLTT and the private sector development and
implementation of community-customized mitigation measures. This line of effort includes the
following activities:
•

Develop guidance for community mitigation measures for public health jurisdictions and
the public based upon the epidemiologic situation.

•

Coordinate across the whole-of-government, SLTT, and commercial sector any NPIs
before implementing them.

•

Establish and operate a federal information plan.

Purpose and End State
The threat of COVID-19 epidemic transmission is minor or non-existent, risks to public health
are no longer evident, and economic, social, and business disruptions due to COVID-19 are also
minor or non-existent.
Objectives
Key stakeholders will ensure that the following objectives are accomplished to achieve the given
end-state:
•

Monitor emergence of the domestic threat for COVID-19 exposure and positive cases and
provide a public health strategy for containment.

•

Monitor and identify potential initial domestic clusters of COVID-19 cases and provide a
public health strategy for community mitigation measures.

•

Coordinate and refine public health mitigation strategies with impacted SLTT
jurisdictions.

•

Support SLTT authorities in implementation of social distancing mitigation measures
(e.g., school dismissals, workplace measures and closures, bans on public gatherings,
closures of public spaces) while factoring in the needs of the community (e.g., people
with disabilities or access and functional needs who need transportation to the doctor's
office, grocery stores, etc.).

•

Assess the prevalence of COVID-19 and modify functional and geographic public health
mitigation strategies commensurate with available resources and capabilities.

Primary Coordinating Federal Departments and Agencies
DesignatedPrimary Coordinating Federal

Specific Response Tasks

Departments/Agencieswithin Line of Effort

Guidance and technical assistance

CDC

Monitoring,implementation,and assuring

CDC with Embedded ASPR

effectiveness

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 61

49

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 6. CommunityMitigationMeasures

Key Federal Responsibilities

In accordance with the Biological Incident Annex, the following federal roles and
responsibilities of the LFA, in coordination with the federal interagency and, as appropriate,
SLTT entities, are designed to achieve the objectives and end-state:
•

Provide recommendations and guidance on research and development of PPE and
associated infection-control practices (e.g., cleaning/disinfection methods for healthcare
facilities, as well as for the transportation sector).

•

Assist SLTT authorities in prevention of intrastate COVID-19 disease spread among
communities by providing community mitigation guidance and advising SLTT on
customizable mitigation actions (based on that guidance) to minimize business,
economic, and social service disruptions.

•

Provide national-level mitigation guidance to businesses that operate across state lines.

•

Support long-term public health capacity to guard against the reemergence of disease.

Operational Assessment
The following assessment criteria will determine effectiveness in achieving the given end-state:
•

•

•

An updated and targeted layered mitigation strategy has been developed and issued, with
a phased approach to individual, community, business, and healthcare interventions
aimed to accomplish the following goals:
o

Reduce rate of transmission and acceleration of the disease.

o

Minimize morbidity and mortality.

o

Preserve functions of healthcare, workforce, infrastructure, and minimize social and
economic impacts.

o

Ensure coordination and reporting communication channels are established and
sustained with healthcare stakeholders to report on appropriate COVID-19-specific
EEIs.

Establish a multi-disciplinary decision-making process.
o

Although the decision to implement community mitigation measures is often based
on public health, the consequences of these measures and/or implementation of these
measures often is accomplished by or disruptive to other disciplines (e.g., public
safety, emergency management, volunteer organizations, education, social service
providers).

o

Communities should include multiple departments, agencies, and organizations in the
decision-making process for mitigation measures.

Consider community mitigation measures both in isolation and as groups of actions to
implement.
o

In some instances, based on incident parameters, actions can be tailored to meet the
need or the situation may require multiple mitigation measures to achieve the end
result.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 62

50

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 6. CommunityMitigationMeasures

o
•

As an example,closure of schools may achieve little to reduce spread of disease if
mass gatherings that host children continue.

Evaluateeach mitigationmeasure considered for implementationfor the following
considerations:
o

Scientific validity
(a) Determine if the current science and the parametersof COVID 19 outbreak in that
community provide a reasonablescientific chance of substantially diminishing
spread of the disease.
(b) Most community mitigationmeasuresstudied by the CDC demonstratesome
ability to reduce spread of the disease, but each needsto be evaluated in the
context of the particular outbreak situation in that community.
(a) For example,if the disease is already widespread in a community,mitigation
measures may require a more tailored approach focusing on protectingat-risk
individualsrather than imposingrestrictionson the entire population.

o

Ability to implement
(a) Determine if the considered measuresare feasibly implementableand are
sustainable.
1. Some measures have significant support requirements;require assistance from
other departments,agencies,or organizations; or are too costly from an
economic or societal impact standpoint to implement.
2. Decision-makersshould evaluate how long these measures can be sustained
before implementingthem (to discontinue a mitigationmeasure may be harder
once it is implemented).
3. Critical shortagesand gaps can occur with the implementationor sustainment
of any measure.

o

Trade-offs
(a) Determine if the considered measuresprovide enough return on investment for
the disruptions they will generate.
(b) Individualmitigationmeasuresare often easy to support (e.g., frequent handwashing), but community measures targeting social distancing or restrictionson
travel can be disruptive,and each community should evaluate the potentialgains
from those measures.
1. For example,before consideringsuspensionof service, the transit agency may
exercise its discretion and methodologyto advise passengers to decide
whether to use transit based on their knowledgeof their own risk level (e.g.,
immune-compromised,infected with COVID-19,whether symptomatic or
asymptomatic).
2. People with disabilities,people who are older, and people with access and
functional needs will have difficulty getting to necessary services, such as
doctor's appointmentsand other community services.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 63

51

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 6. CommunityMitigationMeasures

•

In the federal decision-making process to develop and to issue community mitigation
guidance, consider the following actions:
o

Identify other jurisdictions in close proximity performing activities to address
community mitigation.
(a) Although incident parameters may be different across jurisdictional boundaries,
uneven application of public health measures is often viewed critically by the
public when more or less restrictive compared to that of neighboring jurisdictions.
(b) If varying approaches are utilized, a component of messaging should include
reasoning as to why different approaches are being utilized in neighboring
jurisdictions.

o

Evaluate critically mitigation measures for the potential to cause unintended or
perceived inequities across populations.
(a) For example, restrictions on movement in a geographic area with poorer
populations could be perceived as inequitable.
(b) If incident parameters support the action, messaging will be critically important.

o

Prioritize protection of at-risk individuals.
(a) In early stages (as of early March 2020), those that are older or that have comorbidities appear more vulnerable to significant illness with COVID 19.
(b) Some mitigation measures can be targeted or tailored to protect these populations.

o

Prioritize protection of the healthcare workforce and first responders.
(a) Some mitigation measures can be targeted or tailored to protect these populations.
(b) Some measures, such as quarantine of exposures in this population, can have
significant impacts on the availability of the workforce.
(c) Alternative workarounds may have to be considered, depending on the extent of
the outbreak, to permit enough persons to staff these critical positions (e.g., use of
PPE to prevent asymptomatic spread, workforce active monitoring, limiting
access to at-risk individuals).

o

Provide messaging to impacted populations.
(a) Messaging will be a significant component of any community mitigation measure,
and early, consistent, accessible, and frequent plain-language messaging will be
required.
(b) A consistent message across the public sector will be vital to a successful
messaging campaign.
(c) As is frequently the case with public health messaging, advice may change based
on new understandings of the disease and its progress in a community.
(d) The public should be made aware in advance that community mitigation measures
and hence advice to the public may change as time progresses.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 64

52

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 6. CommunityMitigationMeasures

Resources
The following resources can contribute to achieving the intermediate objectives and end-state of
this line of effort:
• Federal or SLTT epidemiologists. These professionals, based on epidemiological
investigations conducted on COVID-19 cases, provide mitigation guidance to the
community, while also balancing need for these systems to maintain effective operational
continuity.
•

Regional emergency coordinators. The HHS RECs ensure that emergency management
coordination occurs seamlessly among public health authorities, healthcare systems, and
state emergency management agencies.

•

The Strategic National Stockpile (SNS). The SNS provides medical countermeasures
(MCMs) and supplies required to implement community mitigation measures.

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line of effort’s endstate and intermediate goals, and, thus, inform critical information requirements for the USG to
monitor and to appropriately respond with adequate augmentation and resourcing:
•

Epidemiologists: Insufficient federal and SLTT epidemiologists result in shortfalls in
development of community mitigation guidance.

•

Subject-matter experts. Inadequate technical assistance or unclear guidance to SLTT
jurisdictions or to the public on effectively tailoring federal community mitigation
guidance may result from a lack of enough qualified subject-matter experts.

•

MCMs. Insufficient MCM supplies can result in a failure to implement MCM-related
community mitigation measures effectively.

Critical Information Requirements
Based on the resources and potential shortfalls described, the following CIRs for this line of
effort inform key federal and SLTT decisions to address potential response gaps:
CIR#1 Is federally issued community mitigation guidance adequate for SLTT communities to
effectively customize implementation to achieve reduction of SARS-CoV-2 transmission while
minimizing business, social, and economic disruptions?
CIR#2 What resource shortfalls are reported by SLTT jurisdictions that prevent implementation
of effective community mitigation measures?
CIR#3 Do the LFA and the CDC have adequate staffing to research, develop, and publish
prompt and effective guidance on NPI and other mitigation strategies?
CIR#4 Are business, social, and economic impacts monitored to determine if community
mitigation guidance at the SLTT communities requires appropriate adjustment while preventing
or minimizing SARS-CoV-2 spread?

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 65

53

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 7. Continuityof Operationsand EssentialServices

Appendix 7. Continuity of Operations and Essential Services
The objective of this line of effort is sustainment of national essential functions (NEFs), primary
mission-essential functions (PMEFs), and mission-essential functions (MEFs) across the USG,
SLTT jurisdictions, and the private sector. This line of effort includes the following activities:
•

Provide guidance on continuity of operations programs and plans.

•

Implement continuity of operations plans, if necessary.

•

Preserve functioning of critical infrastructure and key resources (CIKR) and mitigate
impacts to the economy and to functioning society.

Purpose and End State

Maintain NEFs, PMEFs, and MEFs of the USG and continue to support SLTT and external
stakeholders.
Objectives

Key stakeholders will ensure that the following objectives are accomplished to achieve the given
end-state:

•

Assess requirements and conditions for adoption and dissemination of USG continuity of
operations (COOP) implementation.

•

Alert the USG for potential COOP directives to implement plans.

•

Prepare the USG for continuity of operations in areas of concern (AOCs), validate the
notification process, and report status.

•

Adopt and distribute a continuity of operations posture for the USG in AOCs in
accordance with the federal department and agency continuity plans.

•

Preserve functioning of NEFs, PMEFs, and MEFs and key federal resources; mitigate
future disruptions to operations; and monitor degradation of continuity status and
situational awareness.

•

Prepare to transition to new normal or return to primary operating status from a dispersed
posture.

Primary Coordinating Federal Departments and Agencies
DesignatedPrimaryCoordinatingFederal

Specific ResponseTasks

Departments/Agencies
withinLine of Effort
FEMA
NationalSecurityCouncil

Federaldepartments/agencies
Key FederalResponsibilities

In accordancewith the BiologicalIncidentAnnex,the followingfederalrolesand
responsibilitiesof the LFA as well as all federaldepartmentsand agencies(whethersupporting
the LFAor not) are designedto achievethe objectivesand end-state:

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 66

54

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 7. Continuityof Operationsand EssentialServices

•

Coordinate activities to ensure continuity across the USG, which includes the following
actions:
o

Identify tasks and individuals,including non-healthcare-criticalmissions,that require
PPE, and prioritize PPE resources,as needed.

o

Coordinate messagingto ensure consistency for the federal workforce.

o

Issue NPI implementationto the federal workforce specific to workplace activities
(e.g., daily office environment,telework, Joint Field Office or other field locations).

o

Exercise continuity plans to prompt revision and implementationfor operating in a
COVID-19 environment.

In accordance with Federal Continuity Directive 1, federal departmentsand agencies address the
pandemic threat as part of preparednessand continuity planning.
•

Review existing standard operating proceduresthat establish the activitiesexecuted to
support HHS and/or relate to a pandemic,including workforce and personal protective
equipment policies and procedures.

•

Determine which employeesare required to have remote access capabilities,ensure these
employeeshave been issued the necessary equipment,and maintain their accounts for
remote access.

•

Develop plans to ensure continued contractor support during a pandemic,with emphasis
on those who perform or support medium-exposure-riskoperationsand/or missioncritical services within the parameters of the terms and conditions of already existing
contracts.

•

Identify appropriate backup essential personnel,includingthose in different geographic
locations,by position and ensure that all personnel needed to perform those essential
functions receive continuity training and any agency-specificpandemic training.
Consider on-the-job training requirementsto allow non-mission-criticalpersonnel to
perform mission-criticalfunctions in extreme circumstances.Incorporatetransportation
requirementsof dispersed personnel supporting headquarterscrisis operations into
continuity planning.

•

Plan for the sustained operations of essential functions based on business process analysis
factors for maximum downtime.

•

Identify appropriate social distancing protective measures by personnel category or
function, including assignment to alternate facilities, telework locations,or shift work, in
accordance with direction provided by public health and medical officialsand the Office
of PersonnelManagement(OPM),in coordination with HHS, FEMA,and other
departments and agencies.

•

Adjust execution of essential functions during the period of pandemic upon receipt of
guidance from the OPMor HHS.

•

Address the distribution of personnel to alternate sites or varied shifts to enact social
distancing protective measures,in accordance with the plan developed in Phase 2C.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 67

55

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 7. Continuityof Operationsand EssentialServices

Operational Assessment
The following assessment criteria will determine effectiveness in achieving the given end-state:
•

Federal D/A continuity plans fully addresses sustained workforce absenteeism greater
than 25 percent.

•

Continuity guidance is reviewed and vetted by NSC, OPM, the LFA (due to potential
federal-to-federal requests for assistance, and DHS/FEMA as the lead for national
continuity programs.

•

Federal D/A leadership, personnel, facilities, and communications (IT) are ready to
operate in a continuity-of-operations posture as determined by the White House NSC,
OPM, the LFA, and DHS/FEMA.

•

When directed or upon meeting of COVID-19 triggers described in this COVID-19
Response Plan, the USG is promptly activated, relocated, and operational.

•

FEMA/NCP may change the frequency with which federal D/A continuity status reports
are submitted and continuity calls occur with the aim to achieve the following aims.

•

o

No degradation to continuity status

o

Monitoring of absenteeism

o

No gaps or shortfalls in delivery/availability of PMEFs, MEFs, and government
services

The COVID-19 disease outbreak ultimately reaches a level that returns the USG to
Operational Phase 1, allowing federal departments and agencies to begin reconstitution
and resume normal operations.

Resources
The following resources can contribute to achieving the intermediate objectives and end-state of
this line of effort:
•

IT and communications network. These capabilities are critical to ensure messaging
pathways for the federal workforce, and for the workforce to execute telework or
operations from continuity sites /alternate work locations to sustain MEFs

•

Continuity plans and policies. Federal departments and agencies are responsible for their
own continuity plans and policies, in adherence to WH NSC and OPM policies and
guidance, which require frequent and consistent exercise among designated missioncritical personnel.

•

Personal protective equipment (PPE). Part of continuity of operations may entail
performing PMEFs and MEFs in and around COVID-19-impacted communities (e.g.,
disaster-support activities in a Stafford incident; law enforcement and physical security
functions at federal facilities; or special security events).

•

Hygiene supplies and equipment. At both field and fixed federal department and agency
facilities, hygiene supplies and equipment to conduct adequate handwashing and/or
sanitizing are critical non-pharmaceutical interventions to keep a workforce healthy and
safe against COVID-19.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 68

56

PanCAPAdaptedU.S.GovernmentCOVID-19Response Plan
Annex C. Operations
Appendix 7. Continuityof Operationsand EssentialServices

•

Social distancing. This can be implemented using alternate facilities, telework, shift
work, and other practices.

Potential Shortfalls
The following potential resource shortfalls are tied to the achievement of this line of effort’s endstate and intermediate goals, and, thus, inform critical information requirements for the USG to
monitor and to appropriately respond with adequate augmentation and resourcing:
•

Continuity plans and policies. Insufficient federal department and agency continuity
plans and policies to address operating in a COVID-19 environment (both in normal dayto-day facilities and field locations) can lead to insufficient performance of federal
functions during the incident.

•

PPE and hygiene supplies. Insufficient PPE and hygiene supplies and equipment to
protect the mission critical personnel implementing continuity of operations can result in
unnecessary illness and absenteeism in the mission-essential workforce.

•

IT and communications systems. Disruptions in these systems due to the overload of
“last mile” may delay execution of MEFs.

Critical Information Requirements
Based on the resources and potential shortfalls described, the following CIRs for this line of
effort inform key federal and SLTT decisions to address potential response gaps:
CIR#1 What specific federal department and agency continuity-of-operation activities and
policies are NOT currently adequate to address the COVID-19 environment?
CIR#2 What PPE and hygiene supplies/equipment shortages reported by federal departments
and agencies hamper performance of PMEFs and MEFs by mission-critical personnel?
CIR#3 When implemented, what is the federal department and agency continuity status for
NEFs, PMEFs, and MEFs?

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 69

57

PAN CAP Adapted U.S. Government COVID-19 Response Plan
Annex D. Logistics

Annex D. Logistics

Purpose
The purpose of this annex is to describe the National Logistics Systems (NLSs) for response
operations to support Health and Human Services (HHS) as the Lead Federal Agency (LFA)
with resources in response to COVID-19.
Scope
The scope of this annex describes the logistics concept of support in collaboration with HHS,
CDC, interagency partners, and the private sector, for strategically developed coordinated plans.
An additional aim is to delineate efforts during response operations (stabilization and restoration
of lifelines), with oversight and coordination with the Cybersecurity and Infrastructure Security
Agency (CISA) for ESF #14. FEMA and its interagency partners may be asked to coordinate
with regions and state, local, territorial, and tribal (SLTT), and insular area governments to
execute a coordinated plan of action for managing the efficient distribution of logistics supplies
and services in support of HHS as the lead federal Agency (LFA)
Situation
See COVID-19 Base Plan.
Mission
Delineated by HHS-LFA, the Whole Community may be requested to mobilize, manage end-toend, and deliver governmental, nongovernmental, and private sector resources within the
designated area(s) to stabilize, save, and sustain lives and to facilitate a successful transition
return to steady state.
Mission Objectives
•

Coordinate planning and operational analysis among LFA, governmental,
nongovernmental, and private sector entities.

•

Analyze, prioritize, allocate, and mobilize public and private resources to support SLTT
jurisdictions and to facilitate a transition to long-term recovery.

•

Coordinate and implement international assistance resources and capabilities.

Execution
Concept of Support

The HHS SOC manages the coordinated delivery of essential resources, equipment, and services
to impacted communities and survivors in support of HHS, including emergency power and fuel
support, with state requests for assistance processed through the HHS Regions. This core
capability also synchronizes logistics capabilities and enables, to the extent legally appropriate or
stipulated, the support for stabilization, sustainment, and restoration of impacted supply chains.
Planning support critical tasks are as follows:

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 70

58

P
ANC
A
PA
d
a
p
t
e
dU .S.G
o
v
e
r
nm
e
n
t
CO
V
ID-1
9R
e
s
p
o
n
s
eP
l
a
n
A
n
n
e
xD

L
o
g
i
s
t
i
c
s

M
o
b
i
l
i
z
etocoo
rd
ina
tethe
de
l
i
ve
r
yo
fgo
ve
rnmen
ta
l
,
nongo
ve
rnmen
ta
l
,andp
r
i
va
tese
c
to
r
resou
rcesw
i
th
in andou
t
s
ideo
ftheimpa
c
ted
a
reatosa
veandsus
ta
inl
i
ve
s
,
mee
tba
s
i
chuman
needs,se
tcond
i
t
ion
s
,s
tab
i
l
i
zethein
c
iden
t
,andfa
c
i
l
i
ta
teat
ran
s
i
t
iontos
teadys
ta
te
.Th
i
s
in
c
lude
s
a
l
te
rna
tecou
rseso
fa
c
t
ion(
COA
s
)fo
rinc
reasedso
c
ia
ld
i
s
tan
c
ing
.
ESF#7(
L
o
g
i
s
t
i
c
sandSupp
l
yCha
in Managemen
t)imp
lemen
t
s
anin
te
ragen
c
yendto-end(
E2E)
supp
l
ycha
insys
tem fo
raCOV
ID19 responseasde
l
inea
tedb
ytheLFA.
lemen
t
andsus
ta
inthe
TheNLSma
in
ta
in
sresou
rcesuppo
r
tcapab
i
l
i
t
y,w
i
th the
ab
i
l
i
t
ytoimp
ope
ra
t
iona
ltempo responseope
ra
t
ion
s
.Th
isl
ine
o
f
e
f
fo
r
tu
se
so
rgan
ic capab
i
l
i
t
ie
sin
c
lud
ing
con
t
ra
c
t
s
,as w
e
l
lastheresou
rceso
fo
the
rfede
ra
l
agenc
ies(
)
,ESF#6 w
i
l
lco
l
labo
ra
tew
i
th
nongo
ve
rnmen
ta
l
o
rgan
i
za
t
ion
s(
NGO
s
)
,vo
lun
ta
r
yo
rgan
i
za
t
ion
sa
c
t
i
veind
i
sa
s
te
r
s(
VOAD
s)
,
fa
i
th
basedo
rgan
i
za
t
ion
s(
FBO
s
)
,andp
r
i
va
tesec
to
rpa
r
tne
r
s
.Add
i
t
iona
l
l
y,th
roughin
c
lu
s
ion
ESF# 14,i
t
in
teg
ra
tesandengagesbo
ththe
FEMAN
a
t
i
o
n
a
lBus
inessEme
rgencyOpe
ra
t
ion
s
Cen
te
r(
NBEOC)
,andC
ISA N
a
t
i
o
n
a
lR
i
s
kManagemen
tCen
te
r(
NRMC)tofa
c
i
l
i
ta
te
bu
s
ine
s
s
led
,go
ve
rnmen
t
-suppo
r
tedi
n
c
i
d
e
n
t
responseandtos
tab
i
l
i
zecommun
i
tyl
i
fe
l
ine
s
toop
t
im
i
ze
su
r
v
i
vo
raccesstoc
r
i
t
i
c
a
lse
rv
icesandbu
s
ine
s
scommun
i
t
y.
Supp
l
ycha
inmanagemen
tin
teg
ra
tesna
t
iona
lsupp
l
ycha
inp
rocessesw
i
th thosea
ts
ta
teandl
o
c
a
l
le
ve
l
s
,f
romp
lann
ingfo
rcu
s
tome
r
d
r
i
venrequ
i
remen
t
sfo
rresou
rcesandse
rv
icestore
sou
r
ce
de
l
i
ve
r
ytod
isas
te
rsu
r
v
i
vo
r
sandresponde
rs
.F
igu
re
sD -1
andD 2 dep
i
c
tre
la
t
ion
sh
ip
s
be
tween
COV
ID19ope
ra
t
iona
lresponsephasesandthe
ba
s
i
csupp
l
ycha
inapp
roach.
Phase

2B

O
p
e
r
a
t
i
o
n
a
l
P
h
a
s
e

N
e
a
r

A
c
t
i
v
a
t
i
o
n
,

C
e
r
t
a
i
n
t
yo
r
C
r
e
d
i
b
l
e

A
s
s
e
s
sm
e
n
t
,a
n
d

S
i
t
u
a
t
i
o
n
a
l

T
h
r
e
a
t
CDCI
n
t
e
r
v
a
l

I
n
t
e
rm
e
d
i
a
t
e
O
p
e
r
a
t
i
o
n
s

M
o
v
em
e
n
t

R
e
c
o
g
n
i
t
i
o
n

COV
ID19
C
o
n
t
a
i
nm
e
n
/
t
M
i
t
i
g
a
t
i
o
n

Em
p
l
o
ym
e
n
t
o
f
R
e
s
o
u
r
c
e
s
a
n
dS
t
a
b
i
l
i
z
a
t
i
o
n

C
u
r
r
e
n
t
P
o
s
t
u
r
e

S
t
r
a
t
e
g
y

A
c
c
e
l
e
r
a
t
i
o
n

I
n
i
t
i
a
t
i
o
n

T
r
a
n
s
i
t
i
o
nf
r
om C
o
n
t
a
i
nm
e
n
t to C
omm
u
n
i
t
y

A
g
g
r
e
s
s
i
v
e
C
o
n
t
a
i
nm
e
n
t

M
i
t
i
g
a
t
i
o
n

F
u
l
lC
omm
u
n
i
t
yM
i
t
i
g
a
t
i
o
n

F
i
g
u
r
eD -1
: COV
ID-19 P
h
a
s
eI
n
d
i
c
a
t
o
r
s
OPERA
T
IONA
L PHASES

PHASE 1

PHASE 2

P
re-In
c
iden
t
Ope
ra
t
ion
s

PHASE 3

Po
s
tI
n
c
i
d
e
n
t
O
p
e
r
a
t
i
o
n
s

Re
co
ve
r
y andRe
s
to
ra
t
ionOpe
ra
t
ion
s

M
o
n
i
t
o
r Th
rea
t

1b

1
c

E
le
va
ted

C
red
ib
le

T
h
r
e
a
t

T
h
r
e
a
t

2b
A
c
t
i
v
a
t
i
o
n
a
n
d
Imm
e
d
i
a
t
e
R
e
s
p
o
n
s
e

PRE-INC
IDENT
OPERAT
IONS

STAB
I
L
IZAT
ION

D
i
s
a
s
t
e
r
S
u
s
t
a
i
n
e
d
P
r
o
g
r
am
S
u
s
t
a
i
n
e
d
C
omm
u
n
i
t
y
l
o
s
e
o
u
t
R
e
p
o
p
u
l
a
t
i
o
n O
e
l
i
v
e
r
y
C
o
n
t
i
n
u
e
sO
p
e
r
a
t
i
o
n
s C
p
e
r
a
t
i
o
n
s D

SUSTA
INMENT

RESTORAT
ION

LONG TERM RECOVERY

I
d
e
n
t
i
f
y

L
o
g
i
s
t
i
c
s
R
e
q
u
i
r
em
e
n
t
s

S
e
tC
o
n
d
i
t
i
o
n
sf
o
r

Ba
lan
ce

Log
is
t
ics
I
d
e
n
t
i
f
y
R
e
s
o
u
r
c
e
s

L
o
g
i
s
t
i
c
a
l
Re
sou
r
ce
s

D
i
sa
s
te
r

S
t
a
b
i
l
i
z
a
t
i
o
n
P
re-S
tage
Log
i
s
t
i
ca
l

Aga
in
s
t
Re
sou
r
ce
s
Requ
i
remen
t
s

JFO P
r
o
g
r
am D
e
l
i
v
e
r
yC
o
n
t
i
n
u
e
s
P
r
o
v
i
d
e
s
tab
l
ish andMa
L
o
g
i
s
t
i
c
sE
in
ta
in Ongo
ing
w
i
thde
l
i
ve
r
yo
fTTHU &
R
e
s
p
o
n
s
e
t
o
S
u
s
t
a
i
nm
e
n
t
C
o
n
t
i
n
u
e
d
S
u
s
t
a
i
n
e
d
O
p
e
r
a
t
i
o
n
s
I
n
c
i
d
e
n
t

&
Log
i
s
t
i
c
s

Re
co
ve
r
y
A
f
t
e
rIn
c
iden
t

SUPPLYCHAIN APPROACH
F
i
g
u
r
eD2:O
p
e
r
a
t
i
o
n
a
lP
h
a
s
e
s

UNC
LASS
I
F
IED FORO
F
F
IC
IA
LUSEON
LY

FORPUB
L
ICD
IS
TR
IBU
T
ION
ORRE
LEASE

App
.71

59

PAN CAP Adapted U . S . GovernmentCOVID - 19 Response Plan
Annex D

Logistics

Key Resource Support Systems
The objective of logistics/ resource support is to facilitate a more rapid response for deploying the
most commonly requested resources.
Community Lifelines
A lifeline enables the continuous operation of government and criticalbusiness and is essential to
human health and safety or economic security . Lifelines are designed to highlight priority areas
and interdependencies , focus attention on actions being taken, communicate coordination efforts
towards stabilization , and integrate information .

Safetyand
Security

Food , Water
Shelter

Energy
(Power& Fuel)

Healthand
Medical

Communications

Transportation

Hazardous
Materials

Figure D - 3: Community Lifelines

Staged Resources
The primary locations for pre- staged resources is the HHS Strategic National Stockpile with
mass care and other lifesaving/ life sustaining resources available from the FEMA Distribution
Centers (DCs) and partners storage areas or vendors.
Allocation and Adjudication ofResources
Resource requests from the States are processed through the HHS Region and determined by the
HHS ASPR headquarters for consideration for sourcing and employment . The allocations will
need to be adapted based on the actual incident impact assessment and planning factors .

CriticalConsiderations
Resources phasing considers the critical considerations in Figure D -4 for the movementof
resources.
Time
the timerequired
fordeveloping
resource
requests
, theordering
andassembling
ofresources
, anddecision
-makingas wellas thetimeneededforaccommodating
the
distanceandspeeds
requiredformoving
resources
from pointsof embarkation
to points
ofdebarkation
Includes
thetimeneededfor assessing
transportation
infrastructure
post
-

Capability
Identificationof thebestresourceformeetingthe request
Availability
/percentage of totalnumbers of resourcesavailable versus the totalnumbers
available at specific times

ThroughputCapacity
amountofresourcesthatcan be deliveredduringa givenperiod
mixtureofenablersto supportand/or expandthroughput
Mode/Source(s) of Transport
Routing
Identification of potentialtransportation chokepoints, impediments, or other
obstacles that exist and how to overcomethem
Priorities

needs
- sustainingneeds

Figure D - 4 : Resource Movement Critical Considerations

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 72

60

PAN CAP Adapted U . S . GovernmentCOVID - 19 Response Plan
Annex D

Logistics

Considerationsfor SourcingNational- levelResourcesto AchieveLifelines
Sourcing national
- levelresourceswill prioritize Strategic NationalStockpile(SNS) distribution
to those areas of intense SARS-CoV- 2 transmissionwhile preservingan appropriate allocation
availability for allaffected states and balancingthe need to maintain a standing strategic reserve
atthe Strategic NationalStockpile.
Logistics relies on an integrated, interagency approach to effectively source and allocate
resources during catastrophic and non-catastrophic incidents to support requirements driven by
Lifelines. ESF # 7 has capabilities for supporting other ESFsthat serve a primary role in an
incident, depending upon the nature of the incident and resources required through the sourcing
of the Resources Management Group ; ESF # 7 depends upon other ESFs for support in incidents
where ESF # 7 has a primary role. In allcases , numerous factors could impact the allocation and
adjudication of resources. Figure D -5 highlights themajor factors that ESFs should consider in
coordinating theallocation of national-level resources to the community lifelines in Figure D -3 .
Major ESF # 7 Considerations
All
ESF # 1
Transportation

ESF # 2
Communications

ESF # 3
PublicWorks
and Engineering

of statesaffected
Affectedpopulation
Majorhighways
/bridges/ airports
/ ports damaged
/ closedto traffic

Estimated time to repair / restore transportation critical infrastructure
Transportation infrastructure assessments

of deployed ISB/ FSA teams
Support to IMATs and state EOC( )
Support to IOF and JFO
Majortransportationrouteswith non- functioningequipment
, e. g.
traffic lights
transportation routes blocked by debris

of power grid / critical facilities and estimated time until

restoration; generatorrequirements
of navigation infrastructure

ESF # 6
Mass Care,
Emergency
Assistance
,
TemporaryHousing
and HumanServices

requiringlifesaving/ life - sustainingsupport, to include
food and emergency supplies
populations
:
Survivorsrequiringfood/meals,water, and sheltering
requiring only food /meals and water
Commodity requirements for shelter- seeking population , as

determined by ESF # 6
of responders requiring shelter support

ESF # 7
Logistics

of generators required for supporting critical infrastructure
Maintenance of situational awareness and management of logistical
movements
Integration ofprivate sector capabilities and resources
disaster survivor resource support needs

ESF # 8
PublicHealth and
MedicalServices

of injured that requiremedicalcare; demandfor
consumable
medicalsupply (CMS) and durablemedical
equipment(DME)
of fatalities
; bodybag demand
Numberof potentially exposed individualswho may require
prophylaxis

Figure D - 5: Major Considerations for Allocation ofNational-Level Resources

NationalLevel
The HHS SOC serves as the single integrator for federal logistics resources. This position
synchronizes federal logistics efforts with those of other federal agencies, NGOs, faith -based
organizations, andnational VOADs (NVOADs), NGOsand ESF # 6 during response and
recovery operations as part of a unity of effort.

UNCLASSIFIED

OFFICIALUSE ONLY I NOTFOR PUBLIC DISTRIBUTIONOR RELEASE

App. 73

61

PAN CAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex D . Logistics

NORTHCOM and the U . S. Pacific Commandrepresentthe DOD and coordinate Defense
Supportof Civil Authorities(DSCA) support. HHSmay requestDOD supportto assist in the
augmentation of logisticssupportsites or operationalcapabilities.
HHSmay also use PSMAs/MAs directed to the GeneralServicesAdministration(GSA) to
provide emergency leasing servicesfor space. Typicalrequests includesites for JFOs, ISBs,
FSAs
, or RSCs.

Office of Business, Industry, and Infrastructure Integration (

)

Our increasingly interdependent society requiresboth public and private sectors to share risk and
responsibility before, during, and after disasters. Effective cross-sector collaboration for all
hazards is critical and can foster operational resilience for survivors and their communities
during disaster response and recovery. This requiresa transformation of how private-public
partnerships develop, collaborate, and align to confrontsocietal shared all hazards risks.
FEMA has established the Office of Business, Industry, andInfrastructure Integration (B3I)
aligned in the LogisticsManagementDirectorate (LMD), to build unity of effort that is more
inclusive of non- governmental capabilities as described in the fourth edition of the National
Response Framework (NRF) and the establishment of Emergency Support Function (ESF) # 14 Cross-Sector Business and Infrastructure. B3I's mission is connecting private and public sector
capabilities
, during, and after disasters , enabling efficient response operations, and
shaping community economic resilienceand recovery .
B3I will advance the FEMA Strategic Plan goals in three areas:
1. Community Lifelines. Stabilize Community Lifelines to expedite recovery by establishing
the necessary business- related relationships, processes, and doctrinebefore, and effective

public and privatealignmentafter disasters.
. Cross-sector Collaboration. Serve as the FEMA lead for ESF- 14 as a primary agency to
fulfillthe outcomes listed in theNRF ESF -14 Annex.
3 . Agency Operations. Ensureagency-wide cohesion for supporting non- procurement
business/ industry/ infrastructure- related partnership activities to enable effective economic

response and resilience for impacted communities .
The DHS Cyber Infrastructure Security Agency (CISA ) as the co-primary agency with FEMA as
ESF -14 leads play a key role in supporting coordination , information sharing, and analysis and
reporting on matters of infrastructure and cybersecurity . They manage and coordinate with
stakeholders through the NationalRisk Management Center and the Protective Security Advisor
Program .
Forrecovery efforts, the primary recovery support functions (RSFs) that would require
assistance from FEMA Logistics would be these:

Health and Social Services
Economic
Infrastructure Systems

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 74

62

PAN CAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex D . Logistics

The CISA Integrated Operation Coordinating Center ( CIOCC ) currently works with 16 Critical
Infrastructure sectors and serves as the coordinating mechanism for critical infrastructure and the
private sector. Other coordinating structures include the NBEOC , the Small Business
Administration , and chambers of commerce .

Regional Level
HHSregions are integrated decision makers for all logistics functions prior to , during, and
following an incident. Regionalpersonnel staff JFOsand ISBs/ staging areas and identify,
develop , and coordinate the distribution ofregional resource requirements and capabilities with
SLTT responders.

Administration and Support
Each Federal department/agency that supports ESF # 7 will follow its own standard protocols for
activation, notification , deployment, and deactivation while continuing to execute itsroles and
responsibilities provided for within federal laws and regulations.
During a catastrophic incident, under provisions of the Trade Agreement Act ( 19 U . S. C . 2501) ,
the President has delegated the waiver for the Buy American Act to the U . S. Trade
Representative for eligible products . FederalAcquisition Regulation (FAR ) Part 18 gives
flexibility to acquisition offices during a Stafford Act declaration to procure needed items from
sources other than U . S. manufacturers during a response.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 75

63

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan
Annex D

Appendix

1 to Annex

Logistics

D . Critical Transportation

Transportation

Purpose
The purpose of this appendix is to describe the delivery of the Critical Transportation core
capability within the FEMA responsemission area.
Critical Transportation provides transportation (includinginfrastructureaccess and accessible
transportation services) for response priority objectives, includingthe evacuation of people and
animals and the delivery of vitalresponse personnel, equipment, and services into the affected
area. Critical Transportation capabilities are coordinated through the FEMANRCC utilizing the
Movement Coordination Center (MCC ), Response Operations, Department of Transportation
(DOT), and other interagency partners.
Critical Transportation Critical Tasks are as follows:
Establish physicalaccess through appropriate transportation corridors and deliver required
resources to save lives and meet theneeds of disaster survivors in support of the LFA.
Ensure basic human needs aremet, stabilize the incident, facilitate a transition to recovery, and
restorebasic services and community functionality in the affected area .
The Critical Transportation supports themovement of life-saving and life- sustaining resources
and services through its support of assessment and reconstitution of the transportation
infrastructure to meet operational response priorities. Criticalto assessment support is the ability
for core capability stakeholders to mobilize assessment teamsprior to full deploymentof
resources for the response. All requirements will be delineated by HHS asthe LFA.

Mission
Within the affected area, federalinteragency partners willestablish physical access through
appropriate transportation corridors to deliver the required resources to save and sustain lives and
facilitate a seamless transition to Recovery , in conjunction with state and local whole community
partners, as appropriate .
Transportation Tasks

•

Coordinate planning and operational analysis to deliver Transportation requirements .

•

Conduct assessments of the condition and safety of transportation routes and plan
accordingly .

Prioritize the restoration of damaged /unusable routes, identify alternate routes, and
coordinate rapid repairs to facilitate responderaccess and provide basic services .
Assess resource requirements to support the reconstitution of the transportation
infrastructure
Prioritize, adjudicate, and allocate resources for the delivery of Transportation

requirements .

Support the evacuation of disaster survivors.
UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 76

64

PanCAP Adapted U . S . GovernmentCOVID - 19 Response Plan

Annex D . Logistics

•

Provide delivery of vital response personnel, equipment, and services into the affected
area

Respondto, coordinate, and prioritizethe delivery ofresourcesto disastersurvivors and
respondersin the affectedarea.

Administration and Support
Each federaldepartment or agency that supports the Critical Transportation will follow their own
standard protocols for activation, notification, permits and waivers, deployment, and deactivation
while continuing to maintain their roles and responsibilities provided for within Federal laws and
regulations.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 77

65

PanCAP Adapted U . S . GovernmentCOVID- 19 ResponsePlan
Annex E . HHS Information Collection Plan

Annex E . HHS Information Collection Plan
HHS COVID - 19 Information Sharing & Decision-Making Flow Chart
Doesnew info change our posture?
Are there data gaps?

Identify

INFORMATION COLLECTION

PLAN

New Info
Data
Gaps

Whathas been accomplished?
“ Task Tracker

Data

Tracking
Tasks

Collection

Outcomes

What do we collect/ report
" Information Collection Plan
CriticalInformation Requirements( CIRs)
Essentialelements of information (

Decision

Response

Making

Phase

What are the
courses of action ?

-

What Phase of the
response are we in ?

USEONLYNOTApp. 78 DISTRIBUTION OR RELEASE

UNCLASSIFIED
/ FOR OFFICIALUSEONLY

FOR PUBLIC DISTRIBUTION
OR RELEASE

66

PanCAP Adapted U . S . GovernmentCOVID- 19Response Plan
F. FederalRolesand Responsibilities

Annex

F . Federal Roles and Responsibilities

The Department ofHealth andHuman Services (HHS) is theLead Federal Agency (LFA) for
this incident. The federal interagency supports HHS, as requested, to assist state , local, tribal, and
territorial (SLTT) partners with related preparedness and response activities as outlined below .

Departmentof Agriculture (USDA)
USDA conducts surveillancefor disease in livestock andpoultry, aswell as for viruseswith
pandemicpotential
. USDA willdeterminewhich animalproducts or live animals have the
potentialto introduceor spread a pandemic virus and which animalsmustbe quarantined and
inspected prior to entry into the United States. " USDA will also determinewhich live animals
mustundergoUSDA-supervisedquarantine and health examination prior to final entry into the
United States. USDA ensures the safety of theNation s supply ofmeat, poultry, and processed
egg products through inspection. USDA, in coordination with Departmentof the Interior (DOI),
monitorswild bird and animalpopulationsthroughoutthe United States for indications of viral
activity. The Centers for Disease Control(CDC) coordinateswith USDA, as required, to assist in
identifying, sequencing, and confirminglaboratory findings and containmenteffortsas required.
Additionally, USDA will

Provide personnelto the RegionalResponse Coordination Center (RRCC) and/or
NationalResponse Coordination Center (NRCC) to perform duties of Emergency
Support Function (ESF) # 11 Agriculture and NaturalResources, in support ofpre- or
post-declaration support.
Provide U . S . ForestService personnelto theNRCC and/or RRCC to coordinate support
agency duties identified in the ESF Annexes ofthe NationalResponse Framework
(NRF)
Providepersonnelfor area joint information centers.
Providepersonnelto ensure controlagainst the spread of animaldisease agents in support
of disaster operations.
Provide personnel and technical expertise to planning and preparation efforts for event
specific food safety inspectionsof the FoodSafety and Inspection Service (FSIS)
regulated product, if necessary.
Provide goods and services for the states to meet regulatory requirements if resources and
USDA FSIS personnel are available.
Providepersonnel, equipment, and supplies, as needed and if available, primarily for
communications, aircraft, andbase camps for deployed federalpublic health and medical
teams, as identified in the ESF # 8 Annex of the NRF.
•

Develop plans to maintain continuity of operations for other Stafford Act declarations.

11Informationregardingforeign animaldisease/veterinary response is available at:
https: //www. aphis. usda. gov/ aphis/ ourfocus/ animalhealth/ emergency-management
/

UNCLASSIFIED FOR OFFICIALUSE ONLY

fadprep.

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 79

67

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

•

Collaborate with HHS and DOI to deliver an effective, multisector "One Health"
response that includes coordinated human, animal, plant, and environmental health
messaging.

•

Provide technical expertise in support of animal and agricultural emergency management.

•

Provide support to the states regarding waivers to the school lunch and other nutrition
assistance programs.

•

Provide personnel to ensure control against the spread of animal disease agents in support
of disaster operations.

•

Coordinate with federal departments to prevent the importation of infected birds and
animals into the United States.

Department of Commerce (DOC)
In coordination with the Department of Homeland Security (DHS), DOC works with private
sector, research, academic, and government organizations to promote sustaining infrastructure
and mitigating impact to the economy and functioning of society, including using its authority
under the Defense Production Act to ensure the timely availability of industrial products,
vaccines, antiviral drugs, materials, and services to meet homeland security requirements. DOC
coordinates as needed with HHS/CDC to expedite export licenses of strains, test kits/equipment,
and technology to specified destinations in order to allow rapid identification of strains, and
provide on ground support to contain/mitigate a pandemic. The CDC works with DOC and its
governmental, nongovernmental, business, and alliance partners to ensure pandemic response
includes all critical entities to minimize the economic impact of the pandemic.
Department of Defense (DOD)
DOD conducts medical surveillance and detection domestically and abroad, for the primary
purpose of force health protection and support to National Defense Missions, in coordination
with HHS and the CDC. DOD will, consistent with statutory authority, provide support in
response to a pandemic when requested by HHS or another federal department or agency, when
approved by the Secretary of Defense or as directed by the President. This assistance may
include support to reduce the spread of a pandemic disease as well as mitigate pandemic
consequences to the public. DOD operations are conducted under the control of the geographic
and functional commanders in accordance with the NRF domestically and Department of Stateled processes and procedures internationally based on the overall global threat environment. The
CDC works with DOD to plan and coordinate epidemiological surveillance, laboratory surge,
and support for Strategic National Stockpile (SNS) transportation and security when required to
minimize travel disruptions and consequent impact on economic activity. Examples of other
potential DOD support activities include these:
•

Enhance global surveillance efforts and detection of human infections with new and
unknown subtypes.

•

Augment public health and medical surveillance, laboratory diagnostics and confirmatory
testing.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 80

68

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

•

Deploy available personnel, including public health and medical personnel, to maintain
operation of the highest priority critical health care infrastructure and key resources (e.g.
hospitals) and points of distribution.

•

Provide available deployable medical facilities and personnel to temporarily augment
hospital emergency department and medical treatment capacity in overwhelmed critical
areas.

•

Provide logistics (e.g., transportation) and distribution of SNS assets.

•

Provide available fatality management assistance capabilities including victim
identification, remains transport, and mortuary affairs processing.

•

Provide available medical and other health screening capability at priority ports of entry.

•

Provide public health and medical surveillance, laboratory diagnostics, and confirmatory
testing (e.g., Armed Forces Health Surveillance Branch, Defense Laboratory Network) in
coordination with HHS and CDC’s Laboratory Response Network.

•

Provide modeling assistance.

•

Provide a liaison representative to the HHS Secretary’s Operation Center (SOC) as
needed.

•

Provide support as described in the NRF.

DOD National Guard Bureau (NGB)
State-controlled National Guard military operations are conducted under the control of the
Governors. The Chief, National Guard Bureau, is responsible for communications between the
states and the Secretary of Defense for matters involving National Guard forces.
•

Provide liaisons to HHS (and FEMA, if activated)

•

Provide support per the NRF.

Department of Education (ED)
ED coordinates with HHS/DHS and public and private education entities to collect and
disseminate model pandemic plans for adoption at the state levels, as well as information on
exercises and training, and monitors and shares information on pandemic impacts. The CDC will
coordinate with ED to ensure public information response actions include information to schools
about disseminating health information; planning for staff and student absences, school closures
or early dismissals; and maintaining a learning environment.
Department of Energy (DOE)
The Department of Energy’s mission is to ensure America’s security and prosperity by
addressing its energy, environmental and nuclear challenges through transformative science and
technology solutions. Within DOE, the National Nuclear Security Administration (NNSA)
protects the American people by maintaining a safe, secure, and effective nuclear weapons
stockpile; by reducing global nuclear threats; and by providing the U.S. Navy with safe,
militarily-effective naval nuclear propulsion plants.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 81

69

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

The Office of Environment, Health, Safety and Security, is DOE’s pandemic lead through its
role as chair and coordinator of the Department’s Biological Event Monitoring Team (BEMT).
The BEMT ensures DOE readiness in the event of a pandemic or other biological threat.
DOE is a science mission agency that stewards 17 National Laboratories which have served as
the leading institutions for scientific innovation in the United States for more than 70 years. The
DOE National Laboratories have provided decades of biodefense expertise and world class
capabilities in many relevant technology areas including chemistry, computational biology,
materials science, high-performance computing, modeling and simulation, and risk analysis.
DOE’s world class analytical capabilities are being used to characterize biological samples to
inform the rapid development of detection assays, and for the development or repurposing of
medical countermeasures that are needed for an effective response to emerging biological
threats. DOE user facilities and other scientific assets are used by the Department of Defense, the
National Institutes of Health, and non-government entities such as universities and companies.
DOE, in coordination with interagency and industry partners, works to monitor and manage the
Nation’s energy infrastructure and execute incident management responsibilities, as the
coordinating agency for Emergency Support Function #12, under the National Response
Framework, and as the Sector Specific Agency for the energy sector, to include responding to
energy infrastructure disruptions, and assisting in the rapid recovery of energy supplies.
General Services Administration (GSA)
In a co-lead capacity under ESF#7 and in a supporting role under ESF#8, GSA provides logistics
and real estate acquisition, management, and disposal support services. GSA ensures that facility
operations in public buildings and leased space under GSA’s custody and control--which house a
substantial portion of the federal workforce--incorporate the means and methods necessary to
reduce risk of infection as defined by the CDC. Additionally, GSA allows eligible ordering
entities to access all Federal Supply Schedules for the purchase of supplies and services, when
expending federal grants funds in response to Public Health Emergencies. Information at this
link: https://www.gsa.gov/acquisition/purchasing-programs/gsaschedules/state-and-localgovernment-customers/public-health-emergencies-program. GSA's PMEF is to lead and
coordinate Federal Government physical reconstitution efforts, including acquisition and
provisioning of real property, commercial goods, information technology and contract services.
•

Provide resource support for ESF #6, #7 and #8 requirements as requested by the FEMA
Logistics Management Directorate (LMD) to meet the needs of the affected population.
Other government agencies, including HHS, may request GSA ESF #6, #7 and #8
resource support through the FEMA LMD.

•

Determine accessibility status for GSA owned/leased buildings.

•

Provide design, construction, and project management services.

•

Provide facilities management, energy management, damage assessments, fire protection,
and environmental management services.

•

Provide emergency provisioning of real estate, leasing, and asset disposal functions.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 82

70

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

Department of Health and Human Services (HHS)
HHS is the U.S. Government’s (USG) principal agency for protecting the health of all Americans
and provides essential human services, especially for those who are least able to help themselves.
During a pandemic, the HHS intent is to stop pathogen transmission within U.S. borders; ensure
the affected population is receiving treatment, appropriate medical countermeasures, or other
interventions to protect or restore health; and provide federal assistance to SLTT and private
sector entities to enable and restore activity to meet the demand of the population.
In addition to federal statutes, a number of National Strategies and Presidential Directives
establish HHS as the lead federal department responsible for the protection of the health of the
civilian population against both intentional and accidental or naturally occurring threats. It is also
responsible for coordinating with other federal agencies and impacted SLTT, private sector, and
nongovernmental partners, as appropriate, in responding to a biological incident. HHS leads
public health efforts to advance the behavioral health of the Nation and maximize the
independence, well-being and health of older adults and people with access and functional needs.
The Secretary of HHS leads all federal public health, medical, and human services response to
public health and medical emergencies covered by the NRF and the NDRF. HHS may request
related to support from other departments and agencies, including additional, planning support,
information management support, supply chain sustainment, and external affairs support.
Assistant Secretary for Preparedness and Response (ASPR)
ASPR leads the nation and its communities in preparing for, responding to, and recovering from
the adverse health effects of public health emergencies and disasters. Key activities during a
pandemic include these:
•
•

•

•
•
•
•
•
•
•

Manages the Incident Response for the Department through the Secretary’s Operations
Center and Incident Support Team.
Leads the Public Health Emergency Medical Countermeasures Enterprise, which
comprises the CDC, the National Institutes of Health, the Food and Drug Administration,
and interagency partnerships with the Department of Veterans Affairs (VA), DOD, DHS,
and USDA.
Provides federal support to augment state and local capabilities during an emergency or
disaster, including the provision of medical professionals through ASPR's National
Disaster Medical System, technical assistance to healthcare system stakeholders, and
resource coordination.
Implements and operationalizes pertinent authorities authorized by the Public Health
Service Act.
Distributes required medical equipment and supplies (e.g., PPE) from the Strategic
National Stockpile (SNS), as required/directed.
Supports the development and sustainment of Healthcare System Resilience
Supports of the Healthcare and Public Health (private) sector
Lead ESF #8.
Manages the International Health Regulations (IHR) National Focal Point, which serves
as the official pathway for notifications to the World Health Organization.
Leads the Health and Social Services Recovery Support Function.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 83

71

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

•

Provides support and funds through ASPR Hospital Preparedness Program (HPP),
including technical assistance from Field Project Officers (FPOs).

Administration for Children & Families (ACF)
The ACF is an operating division of HHS that promotes the economic and social well-being of
families, children, individuals and communities with funding, strategic partnerships, guidance,
training and technical assistance. Significant responsibilities during the Coronavirus response
include these:
• Lead planning and execution of emergency and non-emergency repatriation operations of
US citizens and dependents of US citizens that are identified by the Department of State
as having returned, or been brought, from a foreign country or jurisdiction to the United
States.
• Provide guidance and recommendations to STTL and federal partners to support the
continued provision of human services.
• Providing relevant risk communications and mitigation strategies developed by CDC to
grantees providing services to at-risk individuals (i.e. children, pregnant women, 65+
population).
• Collaborate with partners to identify and mitigate gaps and shortfalls of human services
provided to at-risk individuals.
• Provide technical assistance to block grant recipients (ex., states) for re-allocation of
funding to support state mitigation strategies (when requested by a grantee);
• Collaborate with ACF grantees to monitor capacity to continue providing human services
to at-risk individuals. This includes, but is not limited to, collaborating with grantees of
the following ACF offices: Office of Child Care, Office of Head Start, Office of Refugee
Resettlement, and the Family and Youth Services Bureau;
Centers for Disease Control and Prevention (CDC)
CDC is an operational component of HHS that is responsible for the nation’s health protection.
The CDC’s administration, scientists, and staff track diseases, research outbreaks, and respond to
emergencies to protect the nation from health, safety, and security threats, both foreign and in the
United States. The following critical functions may be executed by the CDC to effectively
prepare for, respond to, and recover from a pandemic:
•
•
•
•
•
•
•

Conduct epidemiologic and surveillance activities to define cases and identify the
populations at risk.
Provide laboratory support for the identification, confirmation, characterization, and drug
susceptibility of the pathogen.
Provide guidance on identification, diagnosis, and clinical management of human cases.
Provide guidance on use of NPIs that may be utilized for prophylaxis and treatment.
Develop effective infection control practice recommendations for healthcare settings.
Prevent the entry of communicable disease into the United States through quarantine
orders and isolation measures that may be used at U.S. ports of entry.
Provide guidance on non-pharmaceutical mitigation strategies to assist with the
containment and control of infectious agents.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 84

72

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

•

•
•

•
•

•

•

Conduct assessments and identify mitigation solutions for worker safety and health issues
related to exposure to the biological agent and other hazards workers face during
response and recovery options.
Provide technical assistance to SLTT, federal, and international partners to support public
health activities.
Disseminate key public health and risk mitigation messages to the public to provide
timely, accurate, clear, consistent, credible, and easily accessible information relevant to
needs of all stakeholders.
Work with appropriate agencies to assess threats to human health from exposed animals
and develop policies for appropriate control measures in animal populations.
Provide rapid and sustained public health assessment, leadership, expertise, and support
by deploying personnel both to the impacted area for select issues and to the CDC
Emergency Operations Center (and other emergency operation centers) for technical and
administrative mission.
Provide technical assistance to USDA as they assess if programmatic changes to school
lunch and other programs are warranted to reduce secondary effects of pandemic
mitigation measures.
Coordinate with the Occupational Safety and Health Administration regarding guidance
for use of personal protective equipment (PPE) in healthcare settings and other workplace
settings.

Food and Drug Administration (FDA)
FDA regulates, licenses, and approves vaccines, antiviral drugs, and diagnostic tests and oversees the
Nation’s medical products to protect and promote public health during public health emergencies. FDA
conducts the following activities during a pandemic:
•
•
•
•
•
•

Conduct surveillance of the medical product supply chain, including potential disruptions to
supply or shortages of critical medical products in the U.S.
Provide FDA inspections and monitoring compliance of FDA products manufactured
overseas.
Monitor, evaluate, and approve all imported shipments of FDA-regulated products.
Create a cross-agency task force dedicated to closely monitoring for fraudulent products and
false claims related to COVID-19.
Provide regulatory advice, guidance, and technical assistance to advance the development
and availability of vaccines, therapies, and diagnostic tests for COVID-19.
Evaluate and issue emergency use authorization (EUA) or emergency dispensing orders
when appropriate.

National Institutes of Health (NIH)
NIH is an operational component of HHS and lead agency for the U.S. biomedical research
response. NIH conducts research on emerging and re-emerging infectious diseases and
facilitates the discovery and development of MCMs including diagnostics, therapeutics, and
vaccines to prevent, treat, and control diseases in the U.S. and globally. NIH’s critical
functions contributing to pandemic response include the following activities:
•

Conduct research to understand the pathogenesis of COVID-19 and the virology of its
causative agent, SARS-CoV-2.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 85

73

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

•
•
•

•

Developand make available to the researchcommunity reagents (includingviral isolates)
and animal models.
Conduct preclinicaland clinical researchto develop and evaluate medical
countermeasures,includingdiagnostics,therapeutics,and vaccines.
Understandthe ecology and natural history of COVID-19,understandingits spread and
clinical manifestationsto informdevelopmentand evaluationof medical
countermeasures.
Providecare for COVID-19patients at the NIHClinicalCenter under a researchprotocol
and build our understandingof disease pathogenesiswhile simultaneouslymaintaining
the safety of other patientsand continuingthe importantresearchbeing conductedthere.

Department of Homeland Security (DHS)
The Secretary of DHS is the principalfederal official for domestic incident management.The
Secretary is responsiblefor coordinatingfederal operations within the UnitedStates to prepare
for, respondto, and recover from terrorist attacks,major disasters,and other emergencies,
includingbiologicalincidents.The DHSSecretary coordinatesthe federal responseas provided
in HSPD-5.
Chief Medical Officer
The Chief Medical Officer servesas the Department’sprimary point of contact with HHS and
other federal departmentsor agencies on medicaland public health issues.
Customsand Border Protection
Per the Biological IncidentAnnex, for biologicalincidentssuspectedor detected inside or at U.S.
borders or those individualsthat may travel to the UnitedStates from abroad,CBPmay detain
and/or quarantineindividualsuntil medical authoritieshave been alerted.CBP may deny the
admissionof an alien not lawfully admittedfor permanentresidence who is infectedwith
COVID-19,as with any reportablecommunicabledisease of public health significance.
•

Analyze passenger travel data relevant to the movementof persons from impacted
internationallocationswith COVID-19and provide this informationto the interagency,
in conjunctionwith operationalconsiderations,to help informthe selectionof U.S.
airports for enhancedhealth screeningfor coronavirus.

•

Implementtargeting rules relatingto travel from PRC (excludingthe SARSof Hong
Kongand Macau)or other impactedCOVID-19areas, per State Departmentand CDC
Travel Advisoriesto identify travelersmeetingthe criteria of the proclamation,while
havinga minimalimpact to operations.

•

For COVID-19,assess persons at, or between,POEs (legal or unlawful entry) for travel
history in PRC (excludingthe SARSof Hong Kongand Macau)or other designatedarea
(per State and CDC) within the past 14 days and/or showing signs or symptomsin
accordancewith CDC guidance.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 86

74

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

Cybersecurity Infrastructure Security Agency (CISA)
•

Coordinates with private sector and government partners to provide situational awareness
and assist in recommending guidelines, best practices, and mitigating activities to
promote infrastructure sustainment.

•

Assist in identifying, analyzing, and managing consequences to national critical
functions.

•

Execute ESF #2 and ESF #14 responsibilities.

Federal Emergency Management Agency (FEMA)
FEMA is an operational component of DHS that coordinates ESFs, Recovery Support Functions
(RSFs), and funding support to impacted areas during Stafford Act disasters. FEMA’s
Administrator is the principal advisor to the President, the Secretary of Homeland Security, and
the Homeland Security Council regarding emergency management. The FEMA Administrator’s
duties include advising the President in carrying out the Stafford Act; operating the NRCC;
supporting all ESFs and RSF’s; and preparing for, protecting against, responding to, and
recovering from an all-hazards incident. A Federal Coordinating Officer, appointed by the
President in a Stafford Act declaration, coordinates federal activities in support of the states and
tribal and territorial governments. Reporting to the Secretary of Homeland Security, the FEMA
Administrator is also responsible for managing the core DHS grant programs that support
homeland security activities. FEMA develops, with the Office of Personnel Management and
federal departments and agencies, DHS Surge Capacity Force personnel requirements.
During a pandemic, FEMA—
•

Supports HHS requests for interagency planning and coordination through ESF #5 and
consistent with PPD-44 and HSPD-5.

•

Reports the status of National Essential Functions to the White House in accordance with
PPD-40.

•

If the President invokes the Stafford Act, FEMA will coordinate federal support for
consequence management through the National Response Coordination Center.

Federal Protective Service (FPS)
•

Coordinate with the Facility Security Committee and/or Designated Official to implement
and enforce any new requirements as necessary, this included restricting access or closing
the facility.

National Operations Center (NOC)
•

Serve as the primary national-level hub for domestic situational awareness, common
operating picture, information fusion, information sharing, communications and strategiclevel operations coordination.

•

Maintain situational awareness and the common operating picture via the Homeland
Security Information Network.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 87

75

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

Transportation Security Administration (TSA)
TSA is an operational component of DHS with broad authority to protect aviation safety,
security in all modes of transportation, and national security. The Administrator is responsible
for security in all modes of transportation, an authority that includes assessing threats to
transportation; developing policies, strategies, and plans for dealing with threats to transportation
security; and carrying out such other duties, relating to transportation security as the
Administrator considers appropriate, to the extent authorized by law. Pursuant to this statutory
authority, TSA issues emergency amendments (EAs) to foreign air carriers and security
directives (SDs) to domestic carriers. If the Administrator decides that a particular threat cannot
be addressed in a way adequate to ensure, to the extent feasible, the safety of passengers and
crew of a particular flight or series of flights, he may cancel the flight or series of flights. During
a pandemic, TSA uses its authority to mitigate the spread of disease, as well as maintain
continuity of transportation security operations at commercial airports to mitigate impact on
commerce and travel.
U.S. Coast Guard
The Coast Guard is the principal Federal agency responsible for maritime safety, security, and
environmental stewardship in U.S. ports and waterways. The Coast Guard, working in
cooperation with CDC, CBP and other government agencies and port stakeholders, will assess
maritime vessel situations on a case-by-case basis. If necessary, the Coast Guard can issue a
Captain of the Port order to restrict a vessel's movement and/or withhold entry to establish best
course of action prior to allowing entry.
•

In accordance with the Biological Incident Annex, the USCG will conduct ports and
waterways coastal security, search and rescue, and marine safety missions during a
COVID-19 disease outbreak.

•

These missions include exercising of port control authorities, enforcement of security
zones, alien migrant interdictions, and counter terrorism operations.

•

For COVID-19 and any other highly infectious disease outbreaks, the USCG under its
cognizant authority shall enforce quarantines, per the direction of the CDC, in the
maritime environment.

U.S. Department of the Interior (DOI)
DOI, in coordination with the U.S. Forest Service, monitors wild bird and animal populations
throughout the United States for indications of viral activity disease and offers advanced
capabilities to detect, identify and characterize newly emerging pathogens of wildlife. It provides
permits and inspects wildlife and wildlife products being imported into and exported out of the
United States. DOI enforces and publicizes wildlife border controls and, if appropriate, utilizes
them, permitting authorities to restrict the import or export of wild birds. In addition, DOI
manages federal lands in which humans and animals engage in a wide variety of activities and
interact. DOI also provides personnel to manage zoonotic disease risk from wildlife on DOI
lands. DOI collaborates with HHS and USDA to deliver effective "One Health" response that
integrates human, animal, plant and environmental health messaging.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 88

76

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

Department of Justice (DOJ)
•

Provide security for the SNS, secure movement of inbound medical equipment, supplies,
blood, and tissues.

•

In conjunction with SLTT partners, provide security for vaccine production facilities.

•

Provide credible threat information regarding SNS transportation and vaccine
distribution.

DOJ – Department of Alcohol, Tobacco, and Firearms
•

Provide personnel to designated operations center to perform duties of ESF #13 – Public
Safety and Security, if requested.

Department of Labor (DOL)
DOL fosters, promotes, and develops the welfare of the wage earners, job seekers, and retirees of
the United States; improves working conditions; advances opportunities for profitable
employment; and assures work-related benefits and rights.
DOL – Occupational Safety and Health Administration (OSHA)
OSHA assures safe and healthful working conditions by setting and enforcing standards and by
providing training, outreach, education, and assistance. Before and during pandemics, OSHA
provides compliance assistance and guidance for workers and employers, including information
about control measures to prevent pandemic diseases in the workplace. OSHA also can provide
specialized expertise to other federal agencies and state, local, territorial, tribal, and insular
governments, including state-run occupational safety and health programs (state plans), as
requested.
OSHA leads implementation of the NRF Worker Safety and Health Support Annex preparedness
and response actions to protect response workers. OSHA can provide specialized expertise to
protect response and recovery workers, including through the following: Risk assessment and
management; identification, assessment, and control of health and safety hazards; development
and oversight of health and safety plans; worker exposure monitoring, sampling, and analysis;
PPE selection, including respirator fit-testing, and decontamination; and incident-specific worker
safety and health training.
Corporation for National and Community Service (CNCS)
•

Provide personnel to RRCC and/or NRCC in support of various emergency support
functions (e.g., Mass Care, Emergency Assistance, Housing, and Human Services, etc.).

American Red Cross (ARC)
•

Support mass care requests.

•

Coordinate with HHS and/or local public health authorities for the medical screening of
sheltered populations and the provision of limited, outpatient medical support to sheltered
populations.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 89

77

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

•

Provide for disaster-relatedhealth and behavior health needs through direct services
and/or referrals,based on volunteer staff availability.

•

Provide a liaison to HHS.

•

Provide close coordination with other nongovernmental organization volunteers who may
not be aware of the technicalitiesof the pandemic.

Small Business Administration (SBA)
•

Execute pandemic elements of continuity plan and consider any actions that may be
required to effect long-termrecovery from a pandemic.

Department of State (DOS)
•

Carry out diplomatic activitiesand internationalU.S. government messagingrelated to
disease outbreaks—whetherdomestic, regional,or global—in coordination with other
U.S. agencies and international partners, as appropriate.

•

Draft and revise policies and plans for the potential donation of anti-viral,vaccine,
diagnostic tests, and medical equipment and suppliesto internationalpartners, in
coordination with HHS and National Security Council.

Department of Transportation (DOT)
DOT coordinates transportation sector efforts and works to ensure that appropriate,coordinated
actions are taken by the sector to limit the spread and impact of a pandemic while preserving the
movement of essential goods and services.
•

Coordinate through the appropriate interagency processes and partners to identify and
discuss threat-specific policy considerations and decisions.

•

Provide Emergency Medical Services (EMS) technical assistance, and guidance for 911
public safety answering pointsto Interagency partners, the Federal Interagency
Committee on EMS,and the NationalEMS Advisory Council.

•

Coordinate with HHS and CDC to address the equities and needs of the EMS community.

Performs Emergency Support Function#1(ESF-1) responsibilitiesin accordance with the
NationalResponse Framework,ESF-1- TransportationAnnex, and the InteragencyPandemic
Crisis Action Plan SynchronizationMatrix in Annex X. Supportingactions include,but are not
limited to, these:
•

ProvidingDOT personnel to fill positionsin operations centers and emergency response
teams and other entities, as necessary.

•

At the request of Interagencypartners, providing technical support to assist logistical
movement operations.

•

Assisting FEMA/HHS,or other interagency partners, to identify alternative,accessible
transportation solutions for those who require assistance to access medical care.

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 90

78

PanCAP Adapted U.S. Government COVID-19 Response Plan
F. Federal Roles and Responsibilities

•

Facilitating the movement of first responders and other FEMA, or Lead Federal Agencyidentified teams, through regulatory relief and routing assistance.

•

Assisting FEMA/HHS to identify alternative methods to transport contaminated solid
materials, Category A Infectious Substances, or suspected biohazard contaminated
substances.12

Department of the Treasury (TREAS)
TREAS monitors and evaluates the economic impacts of a pandemic, helps formulate the
economic policy response and advises on the likely economic impacts of containment/mitigation
efforts. The Secretary of the Treasury is also responsible for preparing policy responses to
pandemic-related international economic developments; for example, leading the federal
government’s engagement with the multilateral development banks (MDB) and international
financial institutions (IFI), including encouraging the MDB and IFI efforts to assist countries to
or jurisdictions address the impact of an pandemic. The CDC will work with TREAS to facilitate
medical countermeasure production and procurement.
Department of Veterans Affairs (VA)

12

•

Provide PPE fit-testing, medical screening, and training for ESF #8 and other federal
response personnel.

•

Provide VA staff as ESF #8 liaisons to FEMA Incident Management Assistance A Teams
deploying to the state emergency operations center.

•

Provide VA planners currently trained to support ESF #8 teams.

•

Provide vaccination services to VA staff and VA beneficiaries in order to minimize stress
on local communities.

•

Furnish available VA hospital care and medical services to individuals responding to a
major disaster or emergency, including active duty members of the armed forces as well
as National Guard and military Reserve members activated by state or federal authority
for disaster response support.

•

Provide ventilators, medical equipment and supplies, pharmaceuticals, and acquisition
and logistical support through VA National Acquisition Center.

•

Provide burial services for eligible veterans and dependents and advises on methods for
interment during national security emergencies.

•

Designate and deploy available medical, surgical, mental health, and other health service
support assets.

•

Provide one representative to the NRCC during the operational period on a 24/7 basis.

Currently, the USG’s classification recommendation is that the 2019-nCoV is a Category B infectious substance,

that is “not in a form generally capable of causing permanent disability or life-threatening or fatal disease in
otherwise healthy humans.” If the classification remains Category B, existing processes at hospitals and landfills can
handle waste transport and disposal without a special permit, under exceptions for regulated medical waste (RMW).

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 91

79

PanCAP Adapted U . S . Government
COVID- 19 ResponsePlan

Annex G . RegionalOperationalCoordination

Annex G . Regional OperationalCoordination
The concept for the receipt, adjudication , and delivery of federal assistance should follow normal
operational coordination mechanisms to the greatest extent possible . The types and level of
Federal assistance provided may be adjusted based on the impact of the outbreak across the
Nation. See corresponding Messaging Factsheet for external affairs guidance .

Limited COVID - 19 Spread within the United States (Phase 1c)
The HHS and FEMA Regionsmaintain coordination with their respective State and Territory
public health and emergency management counterparts , with the FEMA regions amplifyingHHS
public health messaging and guidance to do the followingasneeded :
•

Deliver and promulgate community mitigation and medicalcaremessaging including:
o Community Intervention Guidance
o Medical TreatmentGuidance
o

HHS ASPR / CDC

(in coordinationwith

department and agencies)

MedicalCareSurge Operations

Guidance

Status on S / L
Capacity, Support

Receiveandprocessto the HHS

Requirements, and

nationalIncident
Management
Team

Limiting Factors

( IMT) and Incident Support Team ( IST)
established at the Secretary s Operation
Center( SOC) all Federal
/ State/Local

Communications
,

Operational

Guidance, Assistance
Partnership for Public Health
& NationalAssociations

RegionalOffices

(NACHO , NEMA, NACO , etc)

requests for information , requests for
assistance , and limiting factors

States / Territories

Provide subject matter expertise and

planning guidance

Logistics supply chain analysis
Support HHS/ASPR Region - led SLTT and health sector engagement on Virus Mitigation

Preparations (see guidance below )

CDC will provide technical support and guidance directly to SLTT public health
agencies, and facilitate timely information exchange and resourcesupportin coordination
with HHSand their RegionalEmergencyCoordinators( RECs)

Confirmed
of COVID - 19 Spread in Select Areas ( i. e . , few
clusters , Phase 2 a )
Should the outbreak spread to multiple locations, some federalmedical team capabilities (e. g.,
HHS IncidentManagement Teams,
Medical Assistance Teams)may be deployed to
support specific mission requirements. These requirements may include additional repatriation ,
quarantine, isolation , case investigations , and SLTT medical care augmentation . These missions
are expected to decrease as the overall response posture adjusts to the spread of cases in
communities .

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 92

PanCAP Adapted U . S . Government
COVID- 19 ResponsePlan

Annex G . RegionalOperationalCoordination

States and territories may be expected to request federal assistance through HHS including, but
not limited to , these items:

•

Funding to augment enhanced health and medical operations
Waivers to increase flexibility ( e. g. , CMS
Operational guidance
Expert technical assistance

1135)

Emergency medical care (limited deployable federal resources as these may be tasked
with response in their home jurisdiction or agencies)
Temporary medical facilities

Purchase and distribution of food, water, medicine, and other consumables
Movementof supplies and persons
Security, barricades fencing, and warning devices
Communicating health and safety information to the public
Technical assistance on disaster management and control

Support to medical examiners andmass mortuary services (limited deployable federal
resources as these may be tasked with response in their home jurisdiction or agencies )
Regionalized Posture for Response Operational Support
The ASPR RegionalResponse Plan (Annex C to the Incident Management Framework ) affirms
that the fundamental purpose of the ASPR Regional Offices is to assess evolving incidents ,
coordinate with (F ) SLTT and NGO partners , give technical assistance / guidance regarding
relevant federal support , and provide notification and analysis of such incidents to ASPR
leadership and the SOC . ASPR Regional Administrators (
)
responsible for making
recommendations to the Director of Emergency Management and Medical Operations (EMMO )
and Federal Health Coordinating Officers/ Incident Managers (FHCO / IM ), if designated , for
additional staffing and resource requirements for public health /medical incidents and events .
CDC will provide technical support and guidance directly with public health agencies to
facilitate information exchange and resource support.
Coordinated asnecessary by the ASPR RA, HHS Regional Offices will provide support to their
impacted states and healthcare coalition partners , leveraging the individual agency capabilities of
HHS operating divisions (OPDIVs ) and Staff Divisions (STAFFDIVs), including flexibilities of
granting mechanisms already established with the states .
In coordination with the ASPR RA , other HHS regional leaders may utilize their established
relationships to enhance communications with SLTT leaders (e . g ., the Regional Director RD
the governor mayor or executive branch officials ; Regional Health Administrator (RHA) to
public health and medical officials ).
ASPR Regional Emergency Coordinators (RECs) who remain in the Regions may virtually
deploy to State EOCs or Health Department Operations Centers as Agency Representatives to
coordinate requests for assistance through a procedure established by the ASPR RA. The ASPR
RA will submit appropriate requests for information (RFIs and Requests for Resources (RFRs)
through the established process to the national IMT for adjudication and assignment / deployment
of approved resources . The ASPR RA will establish a procedure to ensure the communication of
the disposition of such requests to the originator .

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 93

81

PanCAP Adapted U . S . Government
COVID- 19 ResponsePlan

Annex G . Regional Operational Coordination

The applicable FEMA RegionalResponse Coordination Center (s) (RRCC ) may be activated to
augment HHS coordination . In each Region , the FEMA RA and ASPR RA will establish a joint
unified coordination group (UCG ) and a task organization comprised of ASPR and FEMA
personnel to facilitate the planning and implementation of collaborative response efforts.
FEMA may activate a Response Operations Cell (ROC ) at its National Response Coordination
Center (NRCC ) to coordinate emergency management guidance and messaging, liaise with HHS,
and facilitate headquarters intra - or inter- agency coordination .
The FEMA Crisis Action Task Force presence atHHS headquarters will remain and ensure
headquarters - level coordination among FEMA and HHS.
The FEMA Region may deploy its pre-rostered IMAT-Advance personnel to the State EOCs or
RRCCs to help facilitate multi-agency coordination and information sharing upon requestby the
receiving state to the respective Regional Administrator with approval from the FEMA ORR
Associate Administrator . IMAT- A personnel may be employed by the Region to participate in
readiness activities prior to activation ( e. g. , training, exercises, planning).

Nationwide Spread of COVID 19 ( Phase 2b / 2c )
During this Phase, theremay be widespread illness and scarce resources available across the
Nation. Assumingmost, ifnot all, states are impacted and are requesting assistance, federal
supportmay be limited to these activities :
Funding to augment enhanced medical operations and execution of emergency protective
measures through existing mechanisms
Operational guidance and reach -back support
•

Expert technical assistance

•

Emergency management coordination and liaison support (e. ., IMAT- A ), as needed

Regionalized Posture for Response Operational Support
The HHS Incident Management Team ( IMT) remains the lead for coordinating support to
impacted states , leveraging HHS mechanisms already established through the Regions as well as
national assets. The HHS IMTwill facilitate the prioritization and adjudication of ESF - 8 support
in a national response , should widespread transmission create competing needs in a scarce
resource environment . The joint ASPR -FEMA UCG and task organization in applicable FEMA
RRCCs may serve to augment HHS -coordination and provide consequence management support.
State COVID - 19 responses and declarations have the following characteristics :
Ledby respective joint ASPR -FEMA UCGs, the RRCCs will function as the primary
source of incident support to facilitate the provision of any requested emergency
protective measures for their state partners, communicating directly with impacted states.
The FEMA NRCC will function as the source of incident support to the ten Regions to
facilitate the prioritization and adjudication of emergency protectivemeasures support,
coordinate guidance and messaging, and facilitate headquarters inter - and intra -agency
coordination .
FEMA IMAT- Advance personnel may be deployed to the impacted states to provide
emergency management operational coordination and liaison support at State EOCs.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 94

82

PanCAP Adapted U . S . GovernmentCOVID- 19Response Plan
Annex G . RegionalOperational Coordination

PanCAPPhase 2 Detailed
PandemicCoordinationStructure

Cordinat

Headqurts

National Unified Coordination Group
HHS SOC

CDC

interagency
coordination

responding

InteragencyPartners

Cordinato

RRCC

HHS REC
coordination

Regional

Response

FEMA
consequencemanagement

FEMA Region
coordination

* Replicatedacross
affected regions

State UnifiedCoordinationGroup

State

StatePublic

Health
Officer

State EM
Director

* Replicated across
IMAT

affected states

State Presence
IMAT- A personnel at affected states and territories have the following purposes:
Achieve unity of effort with HHS field elements and the State / Territory .
Manage information and provide non -public health andmedical situational awareness.
Coordinate State / Territory resource requirements to the RRCC .

Provide consistency and clarification offederalmessaging.
An IMAT- A team is comprised of fourFEMA personnelserving in the positionsofTeam
Leader ExternalAffairs, Logistics, and Planningto conductthe following functions:
Team Leader. Responsible for all aspects of team management including serving as a
liaison to state officials including public health leadership and the Emergency
Management Director, and providing an analysis of the State/ Territory s efforts to the
joint ASPR -FEMAUCG at the RRCC . Prior to a declaration, the leader performs Federal
Resource Coordinator duties within the State / Territory s Emergency Operation Center
EOC) and a FederalCoordinating Officer may be appointed in the event the President
issues an Emergency Declaration.
Logistics. Responsible for analyzing andmaintaining visibility on the State/ Territory ' s
resource status to stabilize lifelines with a focus on identifying potential State/ Territory
shortfalls. If internal team support or an expanded FEMA presence is required in the
State/ Territory, Logistics will coordinate ordering, delivery ,management, and
transportation functions.
Planning. Establish andmaintain a clear and consistent reporting of non-public health and
medical situational status using standard situational reporting format to the HHS SOC
and FEMANRCC, and participate in regular situational awareness synchronization calls.
Develop planning factors for resource requirements and help project future operations for
the next and subsequentoperational periods.

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 95

83

PanCAP Adapted U . S . Government
COVID- 19 ResponsePlan

Annex G . RegionalOperational Coordination

External Affairs. Ensures consistency and clarity of HHS- generated messaging using the
standard ESF # 15 construct and provides situational awareness on all aspects of External
Affairs (EA). Assists HHS and State / Territory External Affairs leadership , ifrequested ,
providing cleared national releases and facilitates media opportunities . Refers
state / territory , local, and congressional inquiries to HHS and assists with response
coordination if requested . Ensures responses to national media queries are coordinated

with HHS and the National- Joint Information Center.

IMAT-A teamsmay remain help coordinate issues associated with state/ territory support for
any stand up of traditionalFEMA Response and recovery operations for traditional disasters
(e . g., flood, hurricane).
Determination of Response Effectiveness in Impacted Communities
In a biological incident, community lifelines serve as the USG indicators of the effects of the
incidentaswell as the effectiveness of response actions.
HHS, through its ESF# 8 Primary Authority and its supporting agencies, are charged with
determining the Health andMedicalLifeline of both the nation and impacted communities.
Medicalcare, public health, patientmovement,medical supply chain , and fatality management
are the five components comprising the Health andMedical lifeline. HHS/ASPR Regional
Administrators and other HHS OPDIV and STAFFDIV leaderswill monitor, through SLTT
engagement, these various components and to report their status to the HHS Assistant Secretary
for Preparedness and Response (ASPR ).
FEMA, as coordinator for consequencemanagementpreparations for all-hazard threats, is
charged with determining the overallmanagement of tracking and reporting of all seven
community lifelines in coordination with the respective FederalDepartment and Agency primary
authorities, per the NRF.FEMA, through itsRegionalAdministrators or deployed Incident
Management Teams – Advanced personnel (e g., Regionaland/ or Nationallevels , in
coordination with HHS ASPR RegionalAdministrators for Public Health andMedicalLifeline)
and other Federalpartners for remaining community lifelines), will assess and report to
headquarterssenior leadership on the status, impacts, response actions, limiting factors , and
estimated to achieve (ETA ) green ” conditions for all lifelines.
Useful factors for assessing Public Health/Medical impacts include these:
Establishmentand use of alternative care facilities for less critically ill patients that
exceeds capabilitiesofAuthority Having Jurisdiction (AHJ)

State medical officer availability
Percentage of government or first responder absenteeism

Jurisdictions issuingNon-PharmaceuticalIntervention (NPI) Orders that require
assistance to comply with NPI
NationalGuard deployment
Inability to conduct adequate surveillance (data collection, analysis and reporting)
Telemedicine requirements to keep minimally symptomatic out of the healthcare system

that AHJcannot support
Inability to manage fatality case loads
Impacts to
lifelines at state/locallevels such as supply chain indicators ( e.g.
shortage of critical supplies (medical, food, fuel), transportation, etc .)
UNCLASSIFIED

OFFICIALUSE ONLY I NOTFOR PUBLIC DISTRIBUTIONOR RELEASE

App. 96

84

PanCAP Adapted U . S . Government
COVID- 19 ResponsePlan

Annex G . RegionalOperational Coordination

Implementation of crisis standards of care at the local, county , and/ or state/territory level
Health and Medical Community Lifeline elements includingmedical care ( e. g., hospital
status, dialysis , pharmacies, long term care facilities, VA health system , veterinary
services, and home care), public health , patientmovement, emergency medical services,

fatality management, and medicalsupply chain

Region - Facilitated State, Local, Tribal, and Territorial and Sector
Engagement Support
The following is a template for HHS-led and FEMA-supported engagement for adaptation or
specialization to meet the unique needs of each Region .
HHS-FEMA Region Coordination
Designated points of contacts among Regional Office and State / Tribe/ Territory public
health and emergency management officials

Weekly operations tempo and engagement schedule
•

Participation in HHSHQ-Regionalcoordination calls
Process for transferring public health/medicalrelated requests for information , requests
for assistance , or situational updates to the HHS SOC through theHHS Region
Process for transferring emergency protectivemeasure related requests for information ,
requests for assistance , or situationalupdates to the FEMA Regional Watch
Center/RRCC
Synchronization of HHS- generated community and sector virus mitigation guidance and
messaging
Process for compiling and sharing answers to RFIs and FAQs related to HHS virus

mitigation guidance messaging and engagements
State / Local / Sector Engagements
•

to be adjusted per pending WH IGA Strategy )

Identification of State, Territory , Tribe , and major city Public Health Officer and
Emergency Management POCs.
Regular engagement with SLTT public health officials by CDC to provide technical
assistance.

Weekly outreach schedule for Regional States , Tribes , and Territories .
Weekly outreach schedule for Regional ESF and interagency partners .
Linkage of HHS POC for all applicable NSSE and SEAR event coordinators .
Rostermaintenance and linkage of IMAT-Advance personnel with respective
States/ Territories.

Routine coordination of workforce protective measures and business continuity with local
Federalagency partners through applicable FederalExecutive Boards (FEB ).

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 97

85

PanCAP Adapted U . S . Government
COVID- 19 ResponsePlan

Annex G . RegionalOperationalCoordination

Engagement Objectives

• Assessmentof operationalrequirements, readiness capacity , and limiting factors.
•

Effective robustcommunication ofHHSMitigationGuidance, situationalupdates.

• Manage requests for information and correctmythsand rumors.
•

Directrequests and information flow through appropriate HHSand other D /A channels
based on the function and subjectmatter.

Synchronize workforce protection and business continuity measures.
•

Provide technicalexpertise and planning assistance.
Ensure unified coordination among the public health /medicalmission with the emergency
managementmission.

Share bestpractices and lessons learned across the regionsthat could havean immediate
positive impact on containment and mitigation .

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 98

86

Phase

Execution

-

Threat

cause significanthuman disease and

pandemic

Certainty or CredibleThreat

virus characteristics indicating

potential for pandemic

CDC )

Movement

identify

personnel to

staff

FEMA IMAT- A

Emergency

Coord

UNCLASSIFIED
/ FOR OFFICIALUSEONLY

pandemic
threat

partners
(HHS
mayassist
)

of Resources
and

App. 99

that public health

systemsin

those jurisdictions
areunable
to meet
the

with evidence

in thecommunity
without
epidemiologic
links
,
two ( 2 ) or
more
non
- contiguous
jurisdictions

to -human
transmission
, ordetection cases

Greater than three (3 ) generationsof human

federal coordination

Presidential
Stafford
Actdedaration

to significant disruption across sectors
State/ localrequestfor assistance that requires

activation(IAA or SA) as leadfor

HHS may request NRCC Level

declarations

RRCC to Level 2

elevation of the ActivationLevelof

and/ or state

Deploy
team memberson request
of HHS

Region /

authorities

use
ofDefense
Production
Act( DPA
)

Make
determinations
, asneeded
, to enable

other disaster and emergency

facilitate continuity of FEMA response to

Evaluate and implementactionsthat

stations ), as needed

workforce
( in thefieldor regular
duty

Implement protective measures for FEMA

optimize support to states and tribes

evaluate and adjust deployed staffingto

and missions

and

87

Level
ofRegion
/ RRCCtoLevel1

Consider elevation of theActivation

medical
requirements

impacts beyond public

and infrastructure
management

forassistance
andFed
to Feddeployments
interagency
coordination
consequence

activation(IAA )to supportstaterequests

HHS may request NRCC Level

unableto meetthedemands
for
providing
care

demands for providing care .

a single

and critical infrastructure

executed due to in sufficientpersonnel leading

Industry businesscontinuityplans cannotbe

Widespreadtransmissionof disease

links in

service disruption

impacts

public health systems in that jurisdiction are

without epidemiologic

Intermediate
Operations

Increasing rate of infectionin USindicating
establishedtransmission with long term

2C

U .S. contiguous
jurisdiction
withevidence
that

community

humantransmission
, ordetection
ofcasesin the

support
- sectoroperations
Greater than three( ) generationsof human to

Increasingprivate sector request for assistanceto

federal coordination

State/ localrequestfor assistancethatrequires

meetdemand

unable to surge production and /or distribution to

Nationalhealthcaresupply chain management

resource capabilities

Healthcaresystem burdenthat exceed state

Increasing numberof cases or increasing rate of
infection in US

Stabilization

FOR PUBLIC DISTRIBUTION
OR RELEASE

in impactedregionsin supportofHHSRECS
Deployregional
team memberson requestof
HHS and/ or state

by severityofeventsandactivationlevelof
state
ConsideractivationofFEMARRCCto level3

Orient
regional
team members
onemerging

Regional

IMAT- A

Staff

Consider
briefing
tostate( s ), tribe
( s) and

teams

identify regionalpersonnelto staff

(NRCC Support
, IT , WebEOC
)

transportation , MCC) , Liaisons, Support

Resource Support Section( log, comptroller,

Planning
Section
(most
positions
)

GIS
)
positions
including

Situational Awareness Section (most

(IAA )

HHSmay requestNRCC LevelIII activation

SituationalAwareness)

Future
Planning
, Mass
Care
, Recovery
,

FEMA
Enhanced
Watch
( Logistics
,

FEMA Continuity of Operations Plan

(COOP
)

Review

pandemicthreat

Orient
team
members
on emerging

teams

Pre

of a Public Health

1) or more clusters of casesin the U . S .

Declaration

human- to -humantransmissionofthe virus

and sustained

Activation
, SituationalAssessment
, and

and partners

Monitorand coordinatewith state ( s ), tribe( s )

Office ofHealth Affairs

(ASPR ,

FEMAFuture Planning

Cell

Consider
Activation
of
Interagency
Planning

awareness brief

Administrator
' s callto providesituational

initialand periodic FEMARegional

awareness
brief

ESFLGinitial
andperiodic
situational

( recurring
as necessary
)

FEMA, HHS/ ASPR , HHS / CDC leadership

-

Demonstration of efficient

2A

ConsiderEnhancedWatch or L3 determined

partners

Monitorandcoordinatewith state(s ), Tribe(s ), and

parameters

and

initialcoordinatingcallbetween

as
known

on disease

federal partners

partners

FEMA leadership

Monitor
andcoordinate
withRegion
( s)

Determination of a Significant Potentialfor a
PublicHealth Emergency

heightened

limited
human
- to-human
transmission
and

clusters with

Confirmation
ofmultiplehumancasesor

1C

Monitor
and
coordinate
withRegion
( s) and federal

potential
forpandemic

infectionanywhere
with potential
to

case of a novel or re - emerging virus

Identificationof a confirmedhuman

-

1B Increased Likelihood or Elevated

threat of

No specific

Operations

1A Normal

FEMA

Coord

FEMA

Trigger

Phase

Interagency
PandemicCrisis Action Plan (PanCAP
) Synchronization
Matrix - COVID - 19
* All activitiesare on orderand at the directionof theSecretaryofHHS. StaffEstimatesare based on worstcase forecast. Pleaserefer to the BiologicIncidentAnnexfor specificson coordinating
mechanisms
. Finally, though this matrix
covers domesticoperations
, linkswith international
responsewillbe requiredin anticipationofdisease entry into US.
2
Phase1

Annex X . Execution

Annex X

PanCAP Adapted U . S . Government COVID- 19Response Plan

Execution

Coord.

HHSHQ

cause significant human disease and

strategy for the response

pandemic -related

(MCM )

activation
Level
2 -

coordinationw

/ CDC

,

ASPR RECSmonitorand engage withSLTT Partners- State

HHS FHCO designated and national IMT rostered

risk communicationin

HHS ASPA Lead clearance public health messaging and

theresponse

Situational
Awareness
meetings
to approve
strategy
for

Initiate ASPRSeniorLeadersTeam ( SLT) Coordinationand

leadership and coordination

Group
( DLG
) convened
for
policy

CDCCDCLNO

HHS
Disaster

ASPRLNO

HHS
designated
LFA -

requested

HHS

SMES

of a Significant Potential for a

PublicHealth Emergency

Determination

heightened potential for pandemic

limited
human
- to
- human
transmission
and

clusterswith virus characteristics
indicating

Confirmation ofmultiple human cases or

Certainty
or CredibleThreat

components
CDC leadership

calls between FEMA,

( recurring as needed )

vaccine and antivirals

or more

clusters

to support

of cases in

/ FPO

engage

WHIGA Stakeholder

/ FEMA

Conduct vaccine

studies
)

clinical trials

Evaluate / develop therapeutics ( Remdesavir

testing capacity to STTL

Expandproductiondistributiondiagnostic

Engagement
Plans

Executeon HHS

coordination
conceptw

STTLhealth
officials
and execute
regional

HHS Regional
staff( RECS/

Modeling
and
predictive
analysis
projecting
short- term impacts and requirements

Calls andweekly FederalInteragencyVTCS
and activate ESF-8 resourcesas needed

) andpartnerships

GHSI
andNAPAPI
) for coordination
of

coordination
of
HHSapproved
riskcommunication

Disseminate
, promote
and
facilitate
interagency

personnel

health

evidence

SOC IST

Level
1

-human

w /

are

Federal
Interagency

for providing care

with

the community without

to HHS)

stockpiling
andallocationofRPDsandotherPPE

FEMA

providehousing,

quarantine
activities

transportation
andother
support
for

Coordinate with

guidance
, and
overall
outbreak
status

available
resources
, current
clinical
and
other

communities
to ensureknowledge
of

( IHS) staff
, Tribes
, and clinical
provider

Conduct
outreach
to Indian
Health
Service

to

an

to

support

surge requirements

Distribute
emergency
funding
to STTL

guidance

Monitor
healthcare
system
stress
and
provide

App. 100

2C

Intermediate
Operations

with

term

service

disruption

sectors

and

plans cannot
beexecuted
personneleadingto

-

ofhumanto

1with all ESFs and

regionalemergency

producecritical

MCM therapeutics when

available

Prepare for allocation , distribution

continue monitoring stress

system surge
guidance
and

Considerupdated
health care

outcomes

outcomes
of severe
disease

clinical
strategies
andthe

Monitoranddisseminate effective

medical
material

vulnerabilities
to

Re-assess supply chain

identify
gapsorshortfalls

risk individuals being provided and

access and functionalneeds of at

behavioral
healthservicesandthe

information
sharingregarding

Facilitate
coordination
and

personnel
/ teams

Rotate
andresupplyHHS

RenewPHE
declaration

management
partners

informationto

provide
coordination
and

( supplementalvs SA

Reevaluatefundingmechanisms

and CIKR

management , impacts to Lifelines

FEMA
coordinating
consequence

NRCC

restructure
as necessary

coordination
mechanismand

Reevaluate
interagency

transmission
of

are unable

, two

ofcases
in the

jurisdictions with evidence that

de

publichealth systemsin those
to meet the demands for providing care .

more

communitywithout

human

Greater
than
three(

coordination

State / local request for assistance that requires federal

Presidential
Stafford
Act
declaration

due to

industrybusiness

critical infrastructure impacts

transmission

Increasing rate of infection in USindicating established

88

Medicare
/Medicaid
waivers
asrequested

Distribute SNS materielas needed

supplies

criticalpharmaceutical
, medicalequipmentand

and
surge
production
, procurement
and

flexibilities ,waivers) , clinical guidance

training
ofhealth
professionals
( e .

and mothers

HIV /

, pregnant women

program
participants
/ grantees
- FQHCS

Continue
medical
supplychain
analysis
, sourcing

services to children and families

providing childcare and Head Start and other

Monitor
ACF
grantees
capacity
to continue

capabilityand capacitybuilding

assistancein identifyingneeded resourcesfor

ProvideEMS
, hospitals
, and healthcare
coalitions

implementation
of NPI
' s)

STTLpublic health responses( e . .

under EconomyAct

Supplementalbudgets funding ESF support thru

Crisis Action Team

and restructure or relocate as needed ( e .g . FEMA

Reevaluate interagency coordination mechanism

coordinate/ validate

virtually deployed to State EOCs to

monitoring
lifelines

ESFs
activated
supporting
HHS
SOCand

resources

coordinatingassignments
anddeployment
of

FHCO
and
national
IMT
deployed
at
HQ

supportand

.

systemsin thatjurisdiction

unable to meet the demands

that

in

single

of cases

3 ) generations of

, or detection

operations

epidemiologic

transmission

Greater than three

to surge

assistance to support

assistance that requires federal

private sector request

coordination

State / local request

production
and/or distribution
tomeet
demand

FOR PUBLIC DISTRIBUTIONOR RELEASE

Conduct
enhanced
screening
atdesignated
airports
(F
11
) to delay

Activate NDMS and

ACF/ ASPR/ CDC DOD/ DOS

Repatriation
evacuation
of
AMCITs

elevated
response

CDCand ASPR discussmodifiedtriggers/ conditions
for

testing
products
already
approvedforother indications
)

medical
countermeasures
developing
newproducts
and

messages
Development
ofdiagnostic
tests andstrainspecific

guidance
on service
provision
to HRSA

Programmatic
technical
assistance
and

recommendations
andprotocolsfor the appropriate
implementation
and
use
of countermeasures
including

updatingtheir action plans / care protocols .

primary care, guidancein establishing

medical
treatment
facilities
, home
care
, and

hospitals
, healthcare
coalitions
, other

Promote and facilitate interagency coordination of CDC

preparedness
, information
sharing
, andpolicy
development
.

Provideemergency
medical
services( EMS
)

agency coordinationconstruct

Embassies
, andmultilateral
institutions
(e .

)

Evaluateneedforenhanced
federalinter

outreach
to China
andother
foreigngovernments
, State
,

through formal channels (

support if no Stafford Dec)

International
outreach
: HHS
/OGA, CDC
, and ASPR

executeFed
-to- Fed

supplemental
or

Acquire
funding
to meet
projected
mission
requirements
( consider
request
for

monitorPHEIC designation( CDCconsultantsdeployed)

Engage
with
WHO
forinternational
coordination
,

protocol
reporting
casesin U . S .

state resource

chain managementunable

burden that exceed

Nationalhealthcare

capabilities

Healthcare system

ESF
- 8 Public
Health
and
Medical
Coordination

HHSSec declares
PHE w / authorities
and
flexibilities

national response

SOCIST activation

the U . S .

One ( 1 )

Emergency

Declarationofa PublicHealth

of the virus

human - to - human

transmission

sustained

Demonstration of efficient and

Stabilization
Increasing numberofcasesor increasing rate of infection in US

2B - Employment
ofResourcesand

, Situational
2A - Activation
Assessment
, and Movement

International
Health
Regulation
( IHR
) notification
Alert
staff
regarding
potential
deployments

Determine availability SNS,MCM

Senior
Leader
Briefs
(SLBS
) to HHS
Secand
WH

,/

Interagency planning coordination
HHS / ASPR

FOR OFFICIALUSE ONLY

partners( federaland SLTT) and HHS

authoritiesfor situationalawareness

information
flow
between
regionalHealth
Departments
, and
other
Federal
regional

and facilitatebidirectional

UNCLASSIFIED

countermeasures

othermedical

drugs
, vaccines
, and

stockpile antiviral

Developand

diagnostics)

( antivirals
, vaccines
,

review submissions

sponsors
and

guidance to

Provideregulatory

infectious
diseases

of emerging

Maintain awareness

information

health
and
medical

releaseofpublic

communication and

federal

Lead and coordinate

maintain situationalawareness

awareness
meetings
toapprove

activities

Coordinationand situational

preparedness
for

HHS
Senior
Leaders

Group ( DLG )

convening
Disaster
Leaders

potential for pandemic

health andmedical

agency
public

Coordinate inter

for health issues

pandemic

infection
anywhere
with
potential
to

caseofa novel
orre- emerging
virus

confirmed
human

Threat

Operations

Identification
ofa

1B - Increased Likelihoodor Elevated

1A - Normal

of
No
specific
threat

Trigger

Phase

Interagency Pandemic Crisis Action Plan ( PanCAP) Synchronization Matrix - COVID - 19
*All activities are on order and at the direction of the Secretary of HHS Staff Estimates arebased on worst case forecast. Pleaserefer to the Biologic
Annex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations,links with internationalresponse willbe required in anticipation of disease entry into US.
Phase 2
Phase 1

Annex X

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Execution

Coord .

CDC HQ

Trigger

Phase

for applicability

|

2A

- Activation, Situational

diseasein humans

expertsto implementrisk
assessmentsas appropriate(e . g. the
InfluenzaRisk AssessmentTool
(IRAT))and assessthe potential
for
thestrain to cause significant

WorldHealth Organization
(WHO), conveneinternational

with stakeholders

and localities to carry out response

messaging(including
) and
update guidancefor detection,
diagnosis, andtreatment
Travel
Advisories

controlswith DHS
andprovidenew risk

regardinginternationalborder

screeningmay preventdiseaseentry,
coordinateactions/ guidance

In rare instanceswhere border

applicability of possession and
transfer regulations for this pathogen

with USDA to determinethe

available, for SLTT response

guidanceasneeded
UpdateTravelAdvisories

and disseminaterisk messagingand

systems

Supportstate andtribalsurveillance

available

antigen- specificpandemicvaccine is

stockpiled pandemic or newly developed

App. 101

FOR PUBLIC DISTRIBUTION
OR RELEASE

Identify a source of financial support for states

outreach plan

national
vaccinecampaign
Developor updatea media relationsand

care with scarce resources
Establishdecision framework for initiating

Review optionsfor provisionofmass health

Develop or update risk
communicationmessagesand

guidance, and share information

andtravelers' activities

pandemic plans

Initiateaction to award funds, as

accordingto perceivedrisk , adjust or develop
medicalcountermeasuresand
' s as needed
Provideupdated guidancefor borderhealth

course and treatment
response
vaccine distribution as appropriate

Implement
andmonitorexisting

Continuedisease characterizationand

targeted studies of clinical

diagnoseinfections

reagentsto public healthlaboratoriesto

partnersforreviewingand updating

Providetechnicalassistanceto

preparednessactivities

communitymitigation

documentsas needed

and update all guidance

adverse events

Develop, qualify, anddistribute diagnostic

Implement vaccination campaign if

Monitor antiviraluse, effectiveness, and

disseminate data regarding
transmission, treatment, and
prognosis

diagnostickits to detecthumaninfectionsor
theneed todevelopnoveltechnologies

vaccine candidate development
,

virusessubmittedby states

Transition virologic testing to a samplingof

establishedby ASPR
Conductanalyses andfield studies

severe disease and syndromicsurveillance

appropriate, transitionsurveillanceto

CDC IMSactivation

CDC AccelerationInterval

unable
tomeet
thedemands
forproviding
care

epidemiologic
links
in a single
UScontiguous
jurisdiction
with
evidence
that
public
healthsystems
in thatjurisdiction
are

Greater
thanthree( 3) generations
ofhuman
- to-human
transmission
, ordetection
ofcases
in thecommunity
without

Increasing
private
sector
request
forassistance
to support
operations

Increasing
number
of casesor increasing
rateofinfection
inUS
Healthcare
systemburden
thatexceed
state
resource
capabilities
National
healthcare
supply
chain
management
unable
tosurge
production
and
/ or distribution
tomeet
demand
Statelocal
forassistance
thatrequires
federal
coordination

Stabilization

2B - Employment of Resources and

coordinating mechanism as

Integratewith interagency

CDC IMSactivation

CDC Initiation Interval

theU . S .

1) or more clustersof cases in

Emergency

Declarationofa Public Health

transmissionofthevirus

sustainedhuman- to -human

Demonstration of efficient and

Assessment
, andMovement

manufacture, and/ or stockpiling

Assesstheneed for initiation of

Assess performance of commercially available

human infections

UNCLASSIFIED
/ FOR OFFICIALUSEONLY

predetermined NPI

supplies
Research
, develop,
andimplement
guidanceon theuse
ofNPI
Review

includingvaccine
,
therapeuticdrugs
andmedical

includingvaccines
Maintaina stockpile
of critical
countermeasures
,

Supportongoing
development
and
improvement
of
relevantMCM

domesticallyand
internationally
, to
evaluationofrisk to
publichealth

nationwide

Provide laboratory confirmation of

Conduct enhancedsurveillancefor infections

Consider CDC Incident Management Structure

( IMS) activation

•

diseasein humans

cases and assess the potentialfor

CDC RecognitionInterval

PublicHealthEmergency

heightened potential for pandemic
Determination of a Significant Potential for a

limited human- to -human transmission and

clusters with virus characteristicsindicating

Confirmation
ofmultiplehuman casesor

1C - Near Certainty or Credible Threat

the strain to cause significant

Enhance surveillance for human

CDC Investigation Interval

health authorities
Conductbaseline
monitoring
and
surveillance
activities

with state

infectionanywhere
withpotentialto
causesignificanthumandiseaseand
potential
for pandemic

Identification
of a confirmedhuman
case of a novelor re-emergingvirus

Threat

1B - Increased Likelihoodor Elevated

andtribalpublic

pandemic

No specific threat of

Operations

1A - Normal

service

disruption

and

inUSIndicating
established

89

risk messaging and guidance , as
needed

Continueto updateand disseminate

protocols, etc.

for controlmeasures
, surveillance

updated recommendations

antiviraluse, and adverse events

ContinueCDC IMSactivation
Monitorvaccinationcoveragelevels,

CDC AccelerationInterval

transmission
of

public
healthsystemsin those jurisdictions
are unable
to meetthe demandsfor providingcare

community
withoutepidemiologiclinks
, two 2 ) or
more non jurisdictions
with evidencethat

Greaterthan three(
generations
of human- to
human transmission
, or
casesin the

coordination

dueto insufficient
personnel
leading
to significant
acrosssectors
Presidential
Stafford
Act
declaration
localrequest
forassistance
thatrequires
federal

critical infrastructure
impacts
businesscontinuityplans cannot
beexecuted

, with long term

Intermediate
Operations

transmission

Increasing
rateof

2C

Interagency Pandemic Crisis Action Plan ( PanCAP) Synchronization Matrix - COVID - 19
*All activitiesare on order and at the direction of the Secretary of HHS. Staff Estimates are based worst case forecast. Pleaserefer to the Biologic Incident Annex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations, links with international responsewillbe required in anticipation of disease entry into US.
Phase 2
Phase 1

Annex X

PanCAP Adapted U . S . Government COVID- 19Response Plan

Execution

ESF# 5

ESF# 4

# 3

ESF # 2

# 1

Trigger

Phase

human

disease

and potential
for pandemic

significant

potential
to cause

Significant

Potential

Public Health Emergency

of a

(

1)

or more

clusters

of cases

in

the

Emergency

that public health

systems in that jurisdiction

single

with

are unable

of cases in the community without

to meet the demands for providing care

evidence

linksin a

transmission , or detection

Greater
thanthree( 3 ) generations
ofhuman
- to-human

Increasing private sector request for assistance to support
operations

National
healthcare
supplychainmanagement
unable
tosurge
production
and/ordistribution
tomeet
demand
State
request
for assistance
thatrequires
federal
coordination

Healthcaresystem burdenthatexceedstateresourcecapabilities

Increasing
number
ofcases
or increasing
rateofinfection
inUS

Stabilization

2B - Employment
ofResources
and

IntermediateOperations

of cases in

without epidemiologic

links, two

from , and within the incident area and on

Widespread transmission of disease

providing
care
.

partners , to identify alternative , accessible transportation solutions forthose who require assistance to access

as the LFA to develop overall incident situational awareness, including information collection , information management , modeling and

App. 102

FOR PUBLIC DISTRIBUTION
OR RELEASE

90

Facilitatetheprovision
of non- health emergency
federal
supportto states, with orwithouta Stafford
Act declaration
Developplanstomaintaincontinuity
ofoperations
for otherStafford
Actdeclarations

Collect
, analyze, and disseminate
non healthrelatedcapabilityandrequirements
/ shortfall
information
from states

SupportHHSas theLFA in theupdateoffederal
plansto manage
andsupportincident
activities
coordination
withHHS, ensureintegration
ofdomestic
operations
with international
operations

analysis
, and development
ofreports
andinformation
analysis(statusof operations
andimpacts
)

Support

MonitorCIKR impacts
FEMA:

Maintainssituationalawarenessand review existingplans ( air, land, maritime
) to delay entry of a virus to the US ( as appropriate)

DHS :

health and medicalteams, as identified in the ESF # 8 Annex of the NRF
, train , and deploy personnelto supportIMAT- A teams
Develop plansto maintain continuity ofoperationsforother Stafford Act declarations

Providepersonnel
, equipment, and supplies
, asneeded and if available, primarilyfor communications
, aircraft, andbase camps for deployedfederalpublic

and other ESF annexes of the NRF

Provide . S . Forest Servicepersonnelto NRCC/ RRCC (if activated
) to coordinateprimaryagency andsupportagencydutiesidentifiedin the ESF # 4 Annex

Developand maintain continuityofoperationsplans tomaintain USACEmission essentialfunctionsandmeetnationalengineeringrequirements

responseteamsas directedby FEMAmission assignments

ESF # 3 lead
, supportFEMAconcerning
impacts
to thepower
grid, water, wastewater
, and othercritical
infrastructure

Monitorforand redressimpactsto criticalUSACEinfrastructure
resultingfrom incapacitated
employeesbeingunable to perform projectsiteduties

Developplanstomaintaincontinuityofoperations
for otherStaffordAct declarations
Coordinate
with communications
government
andindustrypartnersto exchangesituational
awareness
, planning
, andsupportactivityexecution

Develop strategiesto supportincreased communications
with separation of populations

ProvidetacticalcommunicationssupportthroughMobile EmergencyResponse Support(MERS)

Provideregulatoryreliefto transportationindustrywhen appropriate

contaminatedsubstances

Assist FEMA / HHS to identify alternative methods to transport contaminated solid materials , Category A Infectious Substances, or suspected biohazard

assistance

Facilitatethemovementoffirstrespondersandother FEMA, or Lead FederalAgency- identifiedteams,through providingregulatoryrelief and routing

2 )

generations
of
human
tohuman
transmission
, or

the community

in those jurisdictions are unable to meet the demands for

or morenon contiguousjurisdictionswith evidence that publichealth

detection

Greater
than
three
(3)

State / localrequestforassistancethatrequires
federalcoordination

Presidential Stafford Act declaration

personnel
leadingto significantdisruptionacross sectors

Industry businesscontinuity planscannotbeexecuted due to insufficient

long
termservice
disruption
and
critical
infrastructure
impacts

requestofInteragencypartners
, providetechnicalsupportto assist logistical
movementoperations

medicalcare

Assist FEMA/ HHS, or other interagency

At

Maintainand revisecontinuityofoperationsplan, asneeded

Provideguidanceon non- pharmaceutical
interventions
that impact orrestricttransportation

availabilityofaccessibletransportation

2C

Increasing
rateofinfection
in US indicating
established
transmission
, with

Provide technical assistance to federal and SLTT to determine the most viable transportation networks to

U . S.

One

Declaration of a Public Health

virus

human- to - human transmissionof the

Demonstration
ofefficient
and sustained

andMovement

2A - Activation, Situational
Assessment

UNCLASSIFIED
/ FOR OFFICIALUSEONLY

level
operationscoordination

operatingpicture
, informationfusion, informationsharing, communicationsand strategic

DHS serves astheprimary national-levelhub for domestic situationalawareness, common

Monitorandcoordinatewith partners

Monitor
and coordinate
with partners

Monitorand coordinatewith partners

for a

Determination

for
pandemic

and heightened potential

transmission

infection
anywhere
with

Monitor and coordinate with partners

pandemic

threatof

novel
orre-emerging
virus

or clusterswith virus characteristics

Confirmation
of
multiple
human
cases

1C - NearCertainty
or CredibleThreat

limited
human
-to-human
indicating

confirmedhumancase of a

Identification
of
a

or Elevated Threat

Operations

Nospecific

1B - Increased Likelihood

1A - Normal

Interagency Pandemic Crisis Action Plan (PanCAP ) Synchronization Matrix - COVID - 19
*All activities are on order and at the direction of the Secretary of HHS. Staff Estimates arebased on worst case forecast. Please refer to the Biologic IncidentAnnex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations,links with internationalresponse willbe required in anticipation of disease entry into US.
Phase 2
Phase 1

Annex X

PanCAPAdapted U . S. GovernmentCOVID -19ResponsePlan

Execution

ESF # 6

Trigger

Phase

Threat

for pandemic

Determination
of a Significant
Potential
for a PublicHealthEmergency

potential to cause significant

humandiseaseandpotential
for

pandemic

UNCLASSIFIED

FOR OFFICIALUSE ONLY

transmission
and
heightened
potential

indicating limited human - to - human

or clusters
with virus characteristics

ofmultiple human cases

Near Certainty or Credible

Confirmation

1C

virus
infection
anywhere
with

case of a novel or re - emerging

confirmed

Monitor and coordinate with partners

threat
of

No specific

Identification of a

Elevated Threat

IncreasedLikelihoodor

human

Operations

Normal

1A

declared

6

information

states,

and determine

need

of additional Mass

Care supplies

Facilitate
ESF
# 6 information
coordination

Deploy
staff
and
resources
as

required

Declaration event and Pandemic

concurrentsupportfor Stafford Act

Convenea MassCare Task Force to address

( SLTT)

tribe, territory , and localgovernments

App. 103

FOR PUBLIC DISTRIBUTIONOR RELEASE

experiencing
pandemic conditions

servicesfor other incidents in an area

deliveryofmass care and human

support to HHSrequirements for

congregate shelteringneedsin

Determine congregate and non

between federal agencies, NGOs , and state ,

requirements

supplies

requestedbyHHS

US indicating

thosejurisdictions
are unable

that support ongoing Mass Care

the event

of an

g .,

declaration ,

Department
of

91

CSS programs ( e . g ., CCP services for first responders).

Provide support to existing response structures using

Execute programsas described above with partners.

communications
are accessible
.

Ensure
that
allcall
-outs
andsocially
distanced

not
bombarded
bycalls
.

Labor press releases, hotline numbers , etc . )
Coordinate closely with NPSC to ensure survivors are

public informationdistribution ( e.

forcemultiplierfor

Individual Assistance

Territorial government .

utilize partner resourcesas a

In

local, State , Tribal and

CommunityServices
/ HumanServices:

sector entities; and the shifting goals and prioritiesof

capabilities
ofresponse
organizations
andprivate

evolving
needs
ofsurvivors
; the
fluctuating

Gather
andmaintainsituational
awareness
onthe

identified shortfalls .

Monitor
andrespond
to resource
requests
to meet

Determine
thetargeted
Mass
Care
capability
.

operations
.

all components

State , Tribal, Territorialandnationalorganizations on

ProvideongoingguidanceandsupporttoRegions,

Widespreadtransmission of disease

to meet
thedemands
for providing
care
.

publichealth systems
in

morenon
- contiguous
jurisdictions
with evidence
that

community without epidemiologic links, two ( 2 ) or

human transmission
, ordetectionofcases in the

thanthree ( 3 ) generations
ofhuman
- to

federal coordination

State
/local
request
forassistance
that
requires

Presidential
StaffordAct declaration

disruption
across
sectors

dueto insufficient
personnel
leading
to significant

Industry business continuity plans cannot be executed

disruption and critical infrastructure impacts

established
transmission
, withlong
term service

Increasing
rate ofinfection

Intermediate Operations

Mass Care /Emergency Assistance :

Determine congregate and non -congregate

HHS

Deploystaff and resourcesas requested
by

availability

Coordinate with Logistics regarding

with modified MC/ EA activities

states
, anddetermine
needforsupport

support
MC
/ EArelated
requests
from

Coordinate with Regionsto monitor and

effects
onMass
Care
service
delivery

Assess
supply
chainimpacts
and
their

Declarationevent and Pandemic

concurrent support for Stafford Act

Convene a Mass Care Task Force to address

during a pandemic ( e . g. , social distancing)

Begin planningfor StaffordDeclaration

unable to meetthe demands for providing care

sheltering needs in support to HHS

for

contiguous
jurisdiction
with evidence

that
public
health
systems
in that
jurisdiction
are

singleU . S

availability of additional Mass Care

EA

of cases in the

community
without
epidemiologic
linksin a

human transmission , or detection

to supportcross- sectoroperations
Greaterthanthree( 3 ) generations
of human
- to

Increasingprivatesector request for assistance

federal coordination

State / local
request for assistancethatrequires

to meet demand

unable to surge productionand/ or distribution

National
healthcare
supplychainmanagement

resource capabilities

Healthcare
systemburden
thatexceed
state

infectionin US

Increasing number of cases or increasing rate of

Stabilization

2B - Employment of Resources and

Coordinate with Logistics regarding

activities

supportwith modifiedMC
/

from

and supportMC/ EA related requests

Coordinate with Regions to monitor

effects
onMass
Careservice
delivery

Assess
supply
chainimpacts
andtheir

(SLTT) as required

territory , and local governments

agencies
, NGOs
, andstate
, tribe
,

coordination
between
federal

Facilitate ESF #

socialdistancing)

disasterduringa pandemic(e. .

a

planning for Stafford
Declaration due to

U .S

One( 1 ) ormoreclustersof casesin the

Declaration of a Public Health Emergency

virus

human
-to-human
transmission
ofthe

Demonstration
ofefficient
and sustained

and Movement

2A - Activation, Situational
Assessment

Interagency Pandemic Crisis Action Plan (PanCAP ) Synchronization Matrix - COVID - 19
*All activities are on order and at the direction of the Secretary of HHS Staff Estimates arebased on worst case forecast. Pleaserefer to the Biologic
Annex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations,links with internationalresponse willbe required in anticipation of disease entry into US.
Phase 1
Phase 2

Annex X

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Execution

ESF# 7

Trigger

Phase

1B

potential
for pandemic

humandiseaseand

to cause
significant

anywhere
with potential

emerging
virus infection

caseofa novel
or re

confirmed
human

UNCLASSIFIED

Monitorand coordinatewith partners

pandemic

threat of

Nospecific

orElevated
Threat

- Increased Likelihood

Identification
ofa

Operations

Normal

1A
Certainty
orCredible
Threat

Activation
, Situational
Assessment
, and
Movement

of the virus

to determine
PPE requirements
fordeployedstaff and

Analysisregarding Defense

and safety of transportation routes and
andwithinthequarantine
area
. ICW ESF1.

# 6 and commercial transportation

providers to determine

number
of casesorincreasing
rateofinfection
inUS

Employment
ofResources
andStabilization

. contiguous

App. 104

-human
transmission
that

areunable
tomeet
thedemands
for

with evidence

to Incident Support

Base and other

Analysis

staff (and disposal

) and Joint Field

2C-

Operations

personnel
leading
to significant

, or detection

of cases in the

ESH and OCFO / comptroller

areunavailable

GSAprovides

Coordinate
withOffice
ofPolicy
andProgram
Analysis
regardingDefense ProductionAct

Monitor
thevarious
supplychains
through

infected personnel -

bu

transit

IfrequiredsupportESF# 6 with themovement
ofsupportand

of Transportation
requirements

Prioritize adjudicate , and allocate resources for thedelivery

infrastructure
anddistribution
pipeline

personnel) to supportthe transportation

92

responderstheaffected
area

delivery of resources
to disastersurvivorsand

Respond
to , coordinate
, andprioritize
the

equipment and services into the affected area

Provide
delivery
ofvital
response
personnel

Infrastructure
, and Integration
(OB

LMD ' s Office of Business Industry

event/ natural disaster
Assessresource
requirements
( trucks
trailers
, MHE

response
resources
in supportofthe

Prioritizetransportationroutes andidentify control
measures

implementation

Whenrequired
, initiatedeployment
of
initial

Coordinatewith Office ofPolicy and Program Analysis
regarding
Defense
Production
Actimplementation

requested
tomeet
needs
ofaffected
population

requirements
as

GSA provides
resource supportforESF

affected population

requirements
asrequested
to meet
needs
of

resourcesin supportofthe event/ naturaldisaster

required
, initiate
deployment
of initial
response

Identify
alternate
shipping
meansif

support
for ESF 8

Identify
alternate
shipping
meansif
truckers

to entrants

areunavailable

to entrants
underGSA jurisdiction
, custodyor control
are safe to
remainopen andwhichshould be closed and keptofflimits

andwhich should
be closedandkeptoff
GSA determines
whichfederally
owned
andleased
buildings

custody
, or controlare safetoremain
open

leased
buildings
underGSA' s jurisdiction

GSA determines which federally owned and

operations
for otherStafford
Act

Executeplansto maintain continuityof

requirements throughout affected area

)

state EOC)

activated
Implement
logistics
actions
to support

andJoint
FieldOffice

Supportinitialoperatingfacility

affected
population

logistics
support
to Mass
Care services
for the

Care requirements
forimplementation
of

Coordinate with ESF # 6 for projected Mass

for funding

Coordinate
with

Develop
retrograde
operationsplan

Infrastructure
, and Integration
(OB31
)

LMD' s Office
ofBusiness
Industry

Monitor
thevarious
supplychains
through

are unable

with evidencethat
for providing care

transmissionof disease
to meet the demands

( 2)

thanthree
( 3 )generations
ofhumanto
transmission

public
health
systems
in those

morenon

communitywithoutepldemiologiclinks
,

human

coordination

State/ localrequestfor assistance that requiresfederal

PresidentialStaffordAct declaration

disruption

dueto

cannotbe executed

term servicedisruption
and

infrastructure
impacts
Industry
businesscontinuity

transmissionwith

Increasing
rateofinfectioninUSindicating
established

throughoutaffectedarea

Implement
logistics
actions
to support
requirements

Officeif activated

Support initial operating facility (

Coordinate
withESHandOCFO
/ comptroller
forfunding

requirementsifany

determine PPE requirements fordeployed

Coordinate
with Environmental
, Safety
, and Health
, ESH ) to

MassCareservices
for theaffected
population

requirements
for implementation
oflogistics
support
to

Coordinatewith ESF# 6 for projectedMassCare

regardingDefense ProductionAct implementation

)

Office of

BusinessIndustry
, Infrastructure
, and Integration

Coordinate with Office of Policy and Program

centers
operating

distribution

Monitorthevarioussupply chains through

locations

or vendors

When required, deploy resources

resources
in support
oftheeventnatural
disaster

Whenrequired
, initiate
deployment
ofinitial
response

providing care

systems that

a single U .

-

the communitywithoutepidemiologic

3 )generations

or detection of cases

Greater
than

sector operations

Increasing
privatesector requestfor assistance
to support

that requires federal coordination

to meet demand

State / local request for assistance

production and / or

National
healthcare
supply
chainmanagement
unable
to surge

Healthcare
system burdenthatexceed
state
resource
capabilities

2B -

FOR PUBLIC DISTRIBUTIONOR RELEASE

engagements
for those enteringquarantinearea

PPErequirements
, followuppersonnel
assessments
, andrules
of

Coordinate with

GSA: Provide
public
lands
or facilities
to serve
as temporary
medical
facilities

quarantine
or isolation
)

GSA : Providepublic lands or facilities for the purpose of temporary interment

planaccordingly
. Include

Conduct assessments of the condition

requirements

Coordinate
planning
and
operational
analysis
to deliver
Transportation

national
logistics
requirements

Continueto monitor
, assessand balancewhole community
resources
with

Production
Actimplementation

Coordinate with Office ofPolicy and Program

needs
ofaffected
population

GSAprovides
resource
support
for ESF# 8 requirements
as requested
to meet

transportation

personnel
and support
personnel
to includefood
, shelter
, fuelandground

allnon
-medical
logistics
andbaseoperating
support
fordeployed
medical

Provide
Operational
Staging
Area support
including
retail
fueldistribution
and

Identify
alternate
shipping
means
if truckers
areunavailable

dosed
andkept
off limits
to entrants

or control are safe to remain open and which should be

GSAdetermines
whichfederallyowned
andleased
buildings
under
GSA'

declarations

Develop initialplans to maintain continuity of operations for other Stafford Act

Execute
logistics
actions
to support
requirements
throughout
affected
areas

Support
initial
operating
facility stateEOC
) andJointFieldOffice
ifactivated

population

for theaffected

forprojected
Mass
Care
requirements
for

implementation
oflogistics
support
to MassCare

Coordinate
with ESF

Coordinate
with ESH and OCFO comptrollerforfunding

disposal
requirements
if any )

andHealth,

Infrastructure
, and Integration
(OB31
) Coordinate
with Environmental
Safety

Monitor
thevarious
supplychains
throughLMD s Officeof
Business
Industry
,

locations

Monitor
to alertactivate
, andinitiatedeployment
ofresourcespre- incident

Alertactivate
, andinitiate
deployment
ofresources
to pre-incident
locations

One( 1) ormoreclustersof cases in the U . S .

Declaration
of a PublicHealth Emergency

transmission

Demonstration
ofefficient
and
sustained
human
- to- human

2A -

FOR OFFICIALUSE ONLY

for a PublicHealthEmergency

Determinationof a Significant
Potential

for pandemic

transmission
and heightened
potential

indicating
limited
human
-to-human

or clusterswith virus characteristics

Confirmation
ofmultiplehuman cases

1C

Interagency Pandemic Crisis Action Plan (PanCAP) Synchronization Matrix - COVID - 19
*All activities are on order and at the direction of the Secretary of HHS Staff Estimates arebased on worst case forecast. Pleaserefer to the Biologic
Annex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations,links with internationalresponse willbe required in anticipation of disease entry into US.
Phase2
Phase 1

Annex X

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Execution

1A

Normal

No specific

Operations

ESF # 8

public

cause significant

information

stakeholders

for

pandemic

threats

Enhance
surveillance
for
human

community

novel viruses for the interagency

Model and forecast impact of

Level 2

.

antiviral

and

antiviral and

S .

/ DOH

required

airports with IA

contiguous

or detection

to meet the demands for providing care

with evidencethatpublichealthsystems
in thatjurisdictionareunable

single
U .

ofhuman - to - human transmission

sector
operations

across
sectors

links, two

Widespread
transmission
of
disease

stress and surge

RotateandresupplyESF # 8 personnel
and teams

based medicaland alternate care facilities

available personnel to provide technical assistance

health/medicalresponse operations

Provideacquisitionand logistic support to public

major disaster or emergency

Furnish
available
VAhospital
careand
medical
services
in a

remains

Provideavailabletemporarymedicalfacilitiesto

FOR OFFICIALUSE ONLY

Enhance
VA facilitysurveillance

App. 105

victims, or ill patients

93

decompress
hospitalemergency
department
surge

locations
operatedfor exposed
populations
, incident

points of distribution , hospitals or clinics , ormedical care

Provide
available
medical
supplies
andmateriel
for useat

Provide available fatality management assistance ,
preparation of remains and temporary interment facilities

telemedicine , and otherspecialized medical support

Provide
available
epidemiological
and
occhealth
support
,

security ) to public health /medical response ops

measures

FOR PUBLIC DISTRIBUTIONOR RELEASE

referrals

Provide available logisticalsupport (e .g ., transportation,

needsthrough directservices

Providefor disaster relatedhealth and behaviorhealth

ARC:

Health
Support
Annex
(
there
is a
Stafford
Act
declaration
)

mission
assignment
to
implement
the
Worker
Safety
and

agencies and the private sector through an IAA with HHS or a

DOLcoordination
of safety and healthassetsof cooperating

If worker
safetyand health supportis neededbeyondwhat

DOL/ OSHA provides under its authoritiesand funding, facilitate

DOL

and/ ormedicalsupport

DOD

emergency
coordination
entities

Provide liaisonsas ESF # 8 assetsto federaland state

health
, andother
health
service
support
resources

Designateand deploy availablemedical
, surgical
, mental

Providemortuary assistancein the intermentof human

Monitor
health
sector
CIKR
for
early
warning
shortages
VA
:

capabilityand potential
need forFederalassistance

care system

Deploy available ESF - 8 assets to supplement community

Monitor for health

screening

to assess effectiveness

Support point of distribution (POD ) operations and medical

HHS
continue
actions
from
prior
phases
and
:

to STTLon implementing
control
VA :

2

human
transmission
, or

of cases in the community without epidemiologic

in thosejurisdictions
areunableto meetthe demands
for providingcare.

more
non contiguous
jurisdictions
with
evidence
that
public
healthsystems

detection

generations
of
human

State / local request for assistance that requires federalcoordination
Greater
than three 3

Presidential
StaffordActdeclaration

personnel
leadingto significant

Implementrecommended controlmeasures and begin

Deploy
resources

service
disruption
and
critical
infrastructure
impacts

indicating
established
transmission
, with

Operations

Industry
business
continuity
plans
cannot
beexecuted
due
to insufficient

long term

Increasing
rateofinfection
in

2C

Provide guidance and assistance

regarding
the pandemic
DOD
, FEMA
, VA, ARC
, DOJ
, FEMA
)

Identify and request interagency LNO (
to support the HHS SOC in the SOC ( e .g .

campaign and public messaging

Act declarations

operations
for
other
disasters
or Stafford

Greater than three (
of cases
in the
community
without
epidemiologie
links
in a

HHS
continue
actions
fromprior
phases
and

VA

Develop
plans
to
maintain
continuity
of

designated

Coordinate
enhancedentryscreening
at

scarce resources

alternatecare facilities
, allocationof

surge capacity, crisisstandards
ofcare

Provide guidance to health care

providerson strategies/ protocolsfor

communications
messages

Disseminateupdatedrisk

control
measures

Updaterecommended infectiousdisease

needed

Coordinate
HHS
federal
assistance
as

virtuallyto State

Provide ESF # 8 Liaison Officers ( LNO )

appropriate

Publish ESF - 8 Operations Orders as

interagency
coordination

HHS
SOC
at
level
1 activation
for

.

the risk communications

U

support

State
/ local
request
forassistance
that
requires
federal
coordination

distribution
to meetdemand

healthcare supply chain managementunableto surgeproductionand/ or

Healthcare
systemburden
thatexceed
state
resource
capabilities

Increasing
number
ofcases
orincreasing
rateofinfection
in US

2B - Employment of Resources and Stabilization

Public
Health
EmergencyIncreasing
privatesector
request
forassistance

One( 1 ) ormore
clusters
ofcases
in the

of
a

human
-to -humantransmission
of the virus

Demonstration
of
efficient
and
sustained

and Movement

2A - Activation, Situational
Assessment,

medical guidance that informs

Provide
public
health
and

messages

distribution
, usage, and safety

monitoring, etc.)
Disseminate risk communication

vaccineprioritization
, allocation
,

measures;

( PPE) use; communitymitigation

personalprotective equipment

treatment
andprophylaxis
;

control
measures(

Develop
/ update
guidance
for

humanto humantransmission

UNCLASSIFIED

confirmatory testing

diagnostics
and

surveillance

laboratory

for

Augmentpublic

health andmedical

emerging

•

virus

ce

surveillan

Conduct

DOD
:

messagesand share

guidance

planning

Public
Health

HHS
SOC
normal
operations

HHS
:

Emergency

Potential
fora

Determination
of a Significant

communication
cases
and
assess
potential
for

Developrisk

expertise

and

operations(Level )

state normal

(EMG) at steady

Management Group

Emergency

HHS

potential
forpandemic

human
disease
and

to

heightened potential for pandemic

human
-to -humantransmission
and

potential

emerging
virusinfection

anywhere with

characteristics indicating
limited

cases
or
clusters
with
virus

Confirmation
of
multiple
human

Threat

Certaintyor Credible

case of a novel or re

confirmedhuman

Identification
ofa

medical

and

health

Increased

Threat

Likelihood or Elevated

Provides

HHS

pandemic

Trigger
threat
of

Phase

Interagency Pandemic Crisis Action Plan (PanCAP ) Synchronization Matrix - COVID - 19
*All activities are on order and at the direction of the Secretary of HHS Staff Estimates arebased on worst case forecast. Pleaserefer to the Biologic
Annex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations,links with internationalresponse willbe required in anticipation of disease entry into US.
Phase 1
Phase
2

Annex X

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

Execution

1A

Normal

No specific

Operations

#

# 9

1B - Increased

confirmed

pandemic

disease
andpotential
for

cause significant
human

anywhere
with potentialto

emergingvirus
infection

case of a novelor re

human

Identificationof a

Threat

Likelihood or Elevated

Significant
Potential

continuityofoperations

supportas availableand
missionassigned
Implementplansto maintain

for a Public Health Emergency

Determination
ofa

for
pandemic

transmission
and
heightened
potential

indicating limitedhuman - to -human

clusters
with virus characteristics

Confirmationof multiplehuman cases or

Threat

1C - Near Certainty or Credible

andMovement

- Activation, SituationalAssessment

to - human transmission

of the virus

.

S .

or
more
clusters
of
cases
in the

2B - Employment
of ResourcesandStabilization

to meetdemand

tomeetthe demands
forproviding
care

Ensureavailability of adequatesupply ofrespiratoryPPE

anyother requiredPPE

Maintain situation awarenessand coordinationwith affected Regions

Develop plansto maintain continuityofoperationsfor other Stafford Act declarations

2C

Intermediate Operations

state, tribal, local governments

App. 106

FOR PUBLIC DISTRIBUTION
OR RELEASE

Coordinatewith ESF # 8 on managementofzoonoticdiseaseand on animal/veterinary issues
Considerrequestsforassistancefrom stateand tribes

94

Ensureongoing coordinationwith ESF# 8 , that animal/ veterinaryhealth issues includingboth diseasemanagementandmedicalmanagement
) are supported

integrateshuman, animal
, and environmentalhealth

Coordinatewith HHS InteragencyTask Force( s ) and SOC activatesto ensure theUSDA and DOIcollaborationwith HHSto deliver effective" onehealth response that

Coordinatewith statesto supportnutrition assistance
, includingapprovingrequested
waiversand flexibilitiesto nutritionassistanceprograms

Providetechnicalexpertisein supportofnutrition assistanceprograms

: Providepubliclandsorfacilitiesfor the purposeoftemporaryinterment( . g , quarantineorisolation)

USGSidentifiesand characterizes
virusesin wildlifethathavepandemicpotentialand workswith USDA' APHISregardingwildlife zoonoticdisease

surveillanceand emergencyresponsefor diseasesof concernin wildlife

USDAAPHIS coordinates
with Federal
, State andlocalagenciesprovidinga comprehensive
, nationallycoordinatedsystem throughoutthe US in conducting
disease

USDA coordinates with federal departments to prevent importation of infected birds and animals into US

Developplansto maintain continuity of operationsfor other Stafford Actdeclarations

Providetechnicalexpertise in support of animaland agriculturalemergencymanagement

Providepersonnelto ensure controlagainst the spread of animaldisease agents in support of disaster operations

Coordinatewith ESF # 8 if virus hasanimalhost and develop and assist states and Regions implement animal controlmeasuresas applicable

Contributeto publichealthmessagesregardinganimal
/ veterinaryand / or foodsafety

Develop planstomaintaincontinuityofoperationsfor otherStaffordAct declarations
Providepersonnelto RRCC/NRCC HHSSOC, Task Force/
(if activatedorfundedunderEconomyAct, an IAA, StaffordAct orother federal
-to-federalapproved
fundingmechanism) to perform dutiesofESF # 11, Agricultureand Natural
Resources
Coordinatewith allRegions) regarding
planningfor potentialESF # 11MissionAssignmentsformulti
-regionresponses
Maintainsituationawarenesswith affectedRegions

ImplementCrisis CommunicationPlan

Initiate appropriateportions of COOP plans/ policiessuch as social distancing includingreduced staffing of HQ and RegionalEOCs

Considerrequests for assistance from

Support the NRCC and RRCCsas requested

Support ESF # 10 Mission Assignments and other ESFs as requested

systems

in those jurisdictions
areunableto meetthedemandsfor providingcare.

Wide spread transmission ofdisease

non - contiguous jurisdictions with evidence that public health

detectionofcases
in thecommunity
withoutepidemiologic
links
, two( 2 ) or

Greaterthan three (3 )generations
ofhuman - to -human transmission
, or

State/ localrequestfor assistancethatrequires
federalcoordination

Presidential
Stafford Actdeclaration

personnel leading to significant disruption across sectors

Industry
business
continuity
plans
cannot
beexecuted
dueto insufficient

long
term service
disruption
and
critical
infrastructure
impacts

Increasing
rate of infection in US indicatingestablishedtransmission, with

Coordinatewith allRegion(s ) in the US regardinglogistics, planning, potentialMission Assignmentsin support ofother ESFs, andSA

elevatedoperationalstatusof HQ EOC

single
U . S

jurisdictionwith evidencethatpublichealthsystems
in thatjurisdiction
areunable

a

generations
ofhuman
- human
transmission
, or
detection

of cases
in the community
without
epidemiologic
links
in

Greater
than
three
( 3

Increasing
private
sectorrequest
for assistance
to support
cross-sectoroperations

State
/ local
request
for
assistance
that
requires
federal
coordination

distribution

Nationalhealthcare supply chainmanagement
unable to surgeproductionand / or

Healthcare
systemburden
thatexceed
state
resource
capabilities

Increasingnumberof cases or increasing rate of infection in US

Monitor impacts of pandemic on search and rescue force readiness

U

1 )

Declaration
ofa
Public
Health
Emergency

human

Demonstration
of
efficient
and
sustained

2A

UNCLASSIFIED
/ FOR OFFICIALUSEONLY

Monitorandcoordinatewith partners

Monitor and coordinatewith partners

Monitor and coordinate with partners

pandemic

Trigger threat
of

Phase

Interagency Pandemic Crisis Action Plan (PanCAP ) Synchronization Matrix - COVID - 19
*All activities are on order and at the direction of the Secretary of HHS. Staff Estimates arebased on worst case forecast. Please refer to the Biologic IncidentAnnex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations, links with international responsewillbe required in anticipation of disease entry into US.
Phase2
Phase 1

Annex X

PanCAPAdapted U . S. GovernmentCOVID -19ResponsePlan

Execution

#

ESF # 13

ESF #

Trigger

Phase

Increased

pandemic

potential for

human disease and

cause significant

with potentialto

infection anywhere

emergingvirus

Threat

Certainty or Credible

DisseminateHHSinitialrisk
communicationmessagestoall
internaland externalstakeholders

of the virus

1 )

clusters

teams as needed

ormore

of cases in
the

2B - Employment
of ResourcesandStabilization

jurisdiction

evidence that public

the demands for providing care

health
systems
in thatjurisdiction
areunable
tomeet

contiguous

community without epidemiologic links in a single U . .

human transmission, or detection ofcases in the

Greater than three ( 3 ) generations of human -to

support cross - sector operations

Increasing private - sector request for assistance to

coordination

State / local request for assistance that requires federal

to surge production and/ or distributionto meet
demand

chain management unable

burdenthat exceed state resource

National healthcare supply

capabilities

Healthcare system

infectionin US

Increasing
numberof casesor increasingrate of

IntermediateOperations

continuity plans cannot be executed due

jurisdictions are unable to meet the

transmission of disease

demands
forproviding
care
.

systems in those

contiguousjurisdictionswith evidencethat public health

without epidemiologic links , two (2 ) or more non

transmission
, or detection ofcases in the community

Greaterthanthree (3 ) generations
ofhuman-to- human

coordination

State / localrequest for assistance that requires federal

Presidential Stafford Act declaration

across sectors

to insufficient personnel leading to significant disruption

Industry business

infrastructure
impacts

transmission
, with longterm servicedisruptionandcritical

Increasingrate of infection in US indicatingestablished

2C

App. 107

FOR PUBLIC DISTRIBUTION
OR RELEASE

95

CoordinatewithHHSto conductsociallisteningand createpublicsentimentreportsas requested
requestedbyHHS and State/ Territorial
government
, deployan External
AffairsLiaisonwith an IncidentManagement
Action Team (

EnsureUnifiedCoordination
GroupESF # 15 activitiesare coordinatedwith the OfficesofPublicAffairswithinHHS and DHS( . . , NJIC)

local
, state, tribal
, territorial
, andinsularareaelectedand appointedofficialson responseefforts andrecoveryprograms
Coordinateincidentinformation
, publicaffairsactivities
, andmediaaccessto information
regarding
the latestdevelopments

Promotefederalinteractionandimplementinformationsharingwith local
, state, tribal, territorial
, andinsularareagovernments

briefingsand congressionalvisits, as required

)

Support HHS in establishing contact with congressional , SLTT offices representing affected areas to provide information on the incident and organize congressional

languagesto individuals
, householdsbusinesses
, and industriesdirectlyor indirectly affectedby the incident

Disseminateand amplifyHHS-clearedmessagingto provideincident-related informationthrough themedia and otherplatformsin accessible formatsand multiple

Conductnationaland state communicationcoordination calls to exchange criticalinformation

Developplansto maintain continuityofoperationsfor otherStaffordActdeclarations

Provide security for the transport and distribution of SNS and vaccine

Provide credible threat information regarding SNS transportation and vaccine distribution

Develop plans to maintain continuityofoperationsfor other Stafford Act declarations

U . S.

ofa Significant
Determination

Potential for a Public Health

to - human transmission

Declarationof a Public Health Emergency

human -

One

Emergency

and Movement

- Activation, SituationalAssessment

Demonstrationofefficientand sustained

2A

potential for pandemic

transmissionandheightened

limited human - to - human

characteristicsindicating

cases or clusterswith virus

Confirmation
ofmultiplehuman

1C

UNCLASSIFIED
/ FOR OFFICIALUSEONLY

Monitorandcoordinate
with partners

Monitor andcoordinatewith partners

Monitor and coordinate with partners

pandemic

threat of

No specific

case of a novel or re

confirmed human

Identificationof

Threat

1B

Likelihood or Elevated

Normal

Operations

1A

Interagency Pandemic Crisis Action Plan (PanCAP ) Synchronization Matrix - COVID - 19
*All activities are on order and at the direction of the Secretary of HHS. Staff Estimates arebased on worst case forecast. Please refer to the Biologic IncidentAnnex for specifics on coordinatingmechanisms. Finally, though this matrix
covers domestic operations, links with international responsewillbe required in anticipation of disease entry into US.
Phase 1
Phase2

Annex X

PanCAPAdapted U . S. GovernmentCOVID -19ResponsePlan

Execution

Trigger

Phase

novel
or re-emerging

and

is appropriate

UNCLASSIFIED

messaging

Coordinate
potential

with
partners

assessmentof situation

Continuemonitoringand

messaging

Support HHS and CDC

sector

determine scale of private

Cross Partnersto

coordinate

ESF

of a

Significant Potential

assist planning for containment and mitigation .

COVID19 & National Critical Functions of concern .

Disseminate guidance for business continuity

functions , business

continuity , and

FOR OFFICIALUSE ONLY

and Lifelinesstabilization

commercialcontinuity, commodity resupply

Identify
private
sector
plans
and
activities
for

chain
disruption
.

Obtain
indicators
and
estimates
ofHCsupply

distribution
based
onASPR
scenarios

Identify
alternate
sources
of production
and

chain
disruption

Obtain
indicators
andestimates
ofHCsupply

related
to mitigation

capabilitiesand operationallimiting factors

Build understandingof private sector capacity ,

App. 108

services

Lifeline

stakeholders and consistent
, open

deliveringmessaging to

mechanisms
as
platforms
for

Continue providing ESF # 14

situational
awareness

privatesectoroperationsfor

Continue
consolidating
status
of

National Critical Functions.

options
foralleviating
disruption
to

Continue assessingNationalCritical
Functionsof concern and provide

ongoing
alignment
into
operations

economic viability ; facilitate

activity , commodity resupply , and

Convene Economic Assessment Group

stabilizationof communitylifelines.

Notify interagency economic stakeholders ,
develop indicators and triggers relevant to

consideration
for tradeoff
consideration

effectsofmitigationmeasures under

Identify economicconsequencepotential

with targetsof stabilizationas required

96

capabilityasneeded.

awareness ofviable commercial

decisions
with
situational

Government
procurement

Continue
informing
Whole
of

stabilization

economic
indicators
for

timeline
forsupply
chains
and

Develop
anticipated
restoration

ofcommunication
.
andcommunity
lifeline
interdependencies lines

Identify business andsupply chain impacts

jurisdictions
Convene ESF - 14 coordinating calls as
appropriate with Primary and Supporting
Agencies to develop priority actions

Identify commercialcapabilitiesenabling
communitymitigationin support ofaffected

and identifyoptionsfor stabilization

resource
shortages
andassociated
impacts

Providestatus reportson commercial

decision support with ESF- 5 .

Enable
resource
allocation
and adjudication

sector mitigation plans for alignment with
Federal and State planning efforts.

activities
to restore
commercial

for Community

Develop
understanding
ofindustry
and

Stabilization

and

Identify
private
sector
plans
and

global economic

interests are safeguarded through supply
chain stabilization

FOR PUBLIC DISTRIBUTIONOR RELEASE

Lifelines
.

and
commercial
activity
supporting
Community

andcourses
ofaction
forrealigning
supply
chains

Identify
cascading
effects
ofmitigation
measures

Economic
Council
and
Council
of
Economic
Advisors

communities
in coordination
withNational

challenges
andeconomic
risks
to impacted

Develop
estimate
oflong
-termbusiness
recovery

and criticalcomponents to CONUS

Identify trade barriers impedingflow of HC product

domestic
andinternational
trade

levers that will need to be addressed inclusive of

Office to develop potential COAS for industry
support

Identify
datasetsuseful
forassessing
economic

program posturesand supportrequired

state
private
sector
programs
to identify
SLTT

Conduct information sharing call with Regions &

Functions
ofConcern

Outlook Briefing as

NationalCritical

Infrastructure

appropriatefor COVID

NRMC produces

Coordinate
with
FEMA
OPPA
DPAProgram

report for incidentand updateas needed

produce
PULSE
business
landscape

containment and potential mitigation

return
to normalcy
impacting
domestic

infrastructureresilience- identifyinglimits on

Council
asappropriate

Convene SCC /GSS and Cross Sector Coordinating

Channelhumanitarian and other offers of assistance
NRMC
produces
Infrastructure
Outlook
Briefing
for

scenarios

forresponse
in coordination
withMass
Care
( ESF- 6 )

ASPR

Federal
government
cantake

on

operational
resilience
challenges
, and
actions

based

ensuring USG

private
sector
restoration
ofgoods

distribution

on

development
of solutions
to enable

Commerce

requirements
; support

cyber) vulnerabilitiesand threats

environment
to infrastructure( or

impactsof changesin the operating

Departmentof StateandDepartmentof

PULSE
economic
datasources
andanalytics

and jurisdictions

coordination
with

Monitor, analyze , and assess

Federal family

movementin

Assist
in facilitating
commercial

Widespread transmission of disease

to meet
thedemands
forproviding
care

are
unable

jurisdictions with evidence that

,

2 ) or

of human

the

three

health
systems
those

Identify business resumption

awareness of containment /mitigation actions

Identify
barriers
to normal
supplychain

operations

Compile reports and assess business status,
supply chain impacts , and vulnerabilities

SLTT

ResponseCoordination Center supporting

ESF- 14 activated as needed for Regional

systems
in thatjurisdiction
areunable
tomeetthe
demands
for
providing
care

evidence that public health

more non

human transmission
, or detection of casesin
community without epidemiologic

Greater than

coordination

to significant

Coordinate
withNational
Economic
Council
,

Identify
alternate
sources
ofproduction
and

coordination with HHS ASPR , CDC

generations
ofhuman -to- human transmission

single U .S. contiguous Jurisdiction

Greaterthan three (

sector
operations

or detection of cases in the community without epidemiologic links

personnel
sectors

State/ local
requestfor assistancethatrequiresfederal

PresidentialStafford Act

mitigation
planning
andimplementation

or anticipatedsupply chain concerns including

dashboard

in

requires federal coordination

critical
Infrastructure
dueto

Industry
business
continuity
plans
cannot
be
executed

Regions
, and SLTTwith community

Production
Act ( DPA) .

shape

State/localrequest for assistance

Increasing private sector request for assistanceto support

Operations

termservice
disruption
and

platform implemented to assist interagency

specific current

information
sharing throughNBEOC

to

management
unable
to surge

production
and
/ ordistribution
tomeet
demand

healthcare
supply

Healthcare
systemburden
thatexceed
state
resource
capabilities

2C -

transmission
with

Increasing
rate
ofinfection
in USindicating
established

Convene industry stakeholderson

alleviating
tension
with
use
of
the
Defense

Develop RFIS for each critical sector

of Resources
andStabilization

Increasing
number
of cases
or increasing
rateof infectioninUS

informglobal
supply
chaininsights
.

reinforce
HHS
ASPR
and
CDC
messaging
and

identifyprivatesector challengesand

NBEOCactivated conductingcalls weekly to

Identify
private
sector
response
plans
.

expertise
anddata- driven dynamicproducts
to

impacts .

analysis
.

chain

scenarios to

Assist CDC and HHS APR with subject matter

supply

supply chainsand develop supply chain

Coordinate supply chain and economic impact

Lifeline and

Begin analysis on potentialcross sector

nodes
forpotential
realignment
activity
ofglobal

viability of key supply chain

assessments
, collaboration
andmessaging
.

assess

the U . S .

of a PublicHealthEmergency
1 ) or more clustersof cases in

Identify and

One

humantransmissionof the virus

Coordinate cross sector engagement,

14 activated at requestof LFA

Public
Health
Emergency

fora

pandemic

pandemic

for

transmission andheightenedpotential

indicating
limitedhuman
- to-human

Activation
, Situational
Assessment
, and
Movement

Demonstration
ofefficient
and
sustained
human
- to

or
clusters
with
virus
characteristics

Determination

Coordinate with

with partners

Certainty
or CredibleThreat

Confirmation
of
multiple
human
cases

1C

human disease and potential
for

potentialto cause significant

virus infectionanywhere
with

case ofa

human

Identification
of
a
confirmed

Elevated
Threat

1B - Increased Likelihood or

Monitorand

pandemic

threatof

Nospecific

Operations

1A - Normal

Matrix - COVID - 19
Interagency
PandemicCrisis Action Plan ( PanCAP) Synchronization
*Allactivitiesare on orderand at the directionofthe Secretary ofHHSStaffEstimatesare based on worstcase forecast. Pleasereferto the BiologicIncidentAnnexfor specificson coordinatingmechanisms
. Finally, thoughthis matrix
covers domesticoperations, linkswith international
responsewillbe requiredin anticipationof diseaseentry into US.
Phase 1
Phase 2

Annex X

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan

PanCAPAdapted U . S . GovernmentCOVID - 19 Response Plan
Annex Z . Distribution

Annex Y . Glossary

Definitions
For additionaldefinitions, reference the BIA .
Investigation
humans .

Pandemic interval reflecting investigation of cases of novel virus infection in

Recognition Pandemic interval reflecting recognition of increased potential for ongoing
transmission of a novel virus.
Initiation

Pandemic interval reflecting the initiation of a pandemic wave.

Isolation – The restriction of movement of persons having or suspected of having a
communicable disease in order to minimize contact with susceptible persons.
Mitigation - The Mitigation Phase, often referred to in CDC doctrine as community
mitigation , leverages individual and community nonpharmaceutical interventions (
) to
help slow the spread of respiratory virus infections. Early , targeted , and layered use of
multiple NPIs should be initiated early in a pandemic before local epidemics grow
exponentially , be targeted toward those at the nexus of transmission (in affected areas where
the novel virus circulates ), and be layered together to reduce community transmission as
much as possible . These include actions an individual or family can take, actions our
healthcare system can take , and actions our community (schools , faith -based organizations ,
businesses ) can take. Examples of NPIs include voluntary home isolation of ill persons
( staying home when ill); respiratory etiquette and hand hygiene ; self-monitoring for illness
and understanding homecare and knowing when to seek care ; taking infection control
measures when caring for patients who may be ill; telecommuting and remote -meeting
options in workplaces ;mass gathering modifications , postponements , or cancellations ; and
routine cleaning of frequently touched surfaces and objects in homes , child care facilities ,
schools, and workplaces .

UNCLASSIFIED FOR OFFICIALUSE ONLY

FOR PUBLIC DISTRIBUTIONOR RELEASE

App. 109

97

PanCAP Adapted U.S. Government COVID-19 Response Plan
Annex Z. Distribution

Acronyms
ASPR
BIA
CDC
CIKR
CIR
CNCS
COOP
DHS
DLG
DOC
DOD
DOH
DOI
DOL
DOT
DPA
ED
EEI
EMG
EOC
ESFLG
FEMA
FIOP
FPO
FSIS
GIS
GSA
HAZMAT
HHS
HPP
IHR

Assistant Secretary for Preparedness and Response (HHS)
Biological Incident Annex
Centers for Disease Control and Prevention (HHS)
Critical Infrastructure Key Resources
Critical Information Requirement(s)
Corporation for National and Community Service
Continuity of Operations
Department of Homeland Security
Disaster Leaders Group
Department of Commerce
Department of Defense
Department of Health (state)
Department of Interior
Department of Labor
Department of Transportation
Defense Production Act
Department of Education
Essential Element(s) of Information
Emergency Management Group
Emergency Operations Center
Emergency Support Function Leaders Group

Federal Emergency Management Agency
Federal Interagency Operational Plan
Field Project Officer
Food Safety and Inspection
Geospatial Information Systems
General Services Administration
Hazardous Materials
Department of Health and Human Services
Hospital Preparedness Program

International Health Regulations

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 110

98

PanCAP Adapted U.S. Government COVID-19 Response Plan
Annex Z. Distribution

IAA

Interagency Agreement

IATAC

Individual Assistance Technical Assistance Contract

IMS

Information Management Structure

IRAT
FIOP

Influenza Risk Assessment Tool
Federal Interagency Operations Plan

JIAG

Joint Incident Advisory Group

LFA

Lead Federal Agency

LFO

Lead Federal Official

LNO
MC/EA

Liaison Officer
Mass Care/Emergency Assistance

MCM

Medical Countermeasures

MDB

Multilateral Development Bank

MERS

Mobile Emergency Response Support

MERS
MCC

Middle East Respiratory Syndrome
Movement Coordination Center

NDMS

National Disaster Medical System

NGB

National Guard Bureau

NJIC

National Joint Information Center

NRCC
NRF

National Response Coordination Center
National Response Framework

NOC

National Operations Center (NOC)

NPI

Non-pharmaceutical intervention

NSC

National Security Council

NSS
OPM

National Shelter System
Office of Personnel Management

OSHA

Office of Safety and Health Administration

PanCAP

Pandemic Crisis Action Plan

PHE

Public Health Emergency

PHEIC
PIF

Public Health Emergency of International Concern
Pandemic Intervals Framework

PIO

Public Information Officer

POTUS

President of the United States

PUI

Person Under Investigation

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 111

99

PanCAP Adapted U.S. Government COVID-19 Response Plan
Annex Z. Distribution

PPE

Personal Protective Equipment

REC

Regional Emergency Coordinator

RRCC

Regional Response Coordination Center

SARS
SHRM

Severe Acute Respiratory Syndrome
Safety, Health, and Medical Readiness

SLB

Senior Leader Brief

SLTT

State, Local, Tribal, and Territorial

SNS

Strategic National Stockpile

SOC
TREAS

HHS Secretary’s Operation Center
Department of Treasury

UCG

Unified Coordination Group

U.S.

United States

USCG

United States Coast Guard

USDA
USG

United States Department of Agriculture
United States Government

VA

Veterans Affairs

UNCLASSIFIED // FOR OFFICIAL USE ONLY // NOT FOR PUBLIC DISTRIBUTION OR RELEASE

App. 112

100

Case: 20-20399

Document: 00515504825

Page: 1

Date Filed: 07/27/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

ABET LIFE, INC.,

§
§
§
§
§

Plaintiff - Appellant,
vs.

§

ALEX M. AZAR II, Secretary,
UNITED STATES
DEPARTMENT OF HEALTH
AND HUMAN SERVICES,

§
§

DOCKET NO.

§
§

Defendant - Appellee.

§

DECLARATION UNDER PENALTY OF PERJURY OF BINNY OONNOONNY
I, Binny Oonnoonny, hereby declare:
1.

"My name is Binny Oonnoonny. I am competent to make this declaration. The

facts stated in this declaration are within my personal knowledge and are true and correct.
2.

I am the President of Abet Life, Inc. (Abet Life), which is a home health agency

located in Missouri City, Texas, and have acted in that capacity at all times relevant to the issues
underlying the lawsuit.
3.

Abet Life is a home health agency that participates in the Medicare program. It has

been in operation in the Houston-area for over seven years. It employs some 30 bilingual care
givers and has a diverse census of approximately 35 patients. The provider derives approximately
90% of its revenue from Medicare payments, and it has an estimated value of approximately $2.1
million.
4.

Many of Abet Life's patients have recently experienced hospitalization or frequent

emergent care treatment before their admission to the provider. These are patients suffering from
serious and chronic conditions such as heart disease, lung disease (COPD), hypertension, diabetes,

App. 113

Case: 20-20399

Document: 00515504825

Page: 2

Date Filed: 07/27/2020

cancer, neurological diseases (strokes) and other serious illnesses complicated by the presence of
other co-morbidities that require monitoring by skilled professionals. Interventions performed by
the home health team often include procedures that were previously performed only in institutional
care settings, but now are provided to the patient within the home setting. Examples of these are
complex wound care treatments, medications administered through IV therapy and other invasive
procedures.
5.

In October 7, 2019, Qlarant, a UPIC, issued its letter informing Plaintiff it would

be conducting a review of selected claims it had submitted to Medicare and/or Medicaid. (A true
and correct copy is attached hereto as Exhibit A). The letter explained that the records it was
requesting include any and all documentation to support the medical necessity of services billed
for the specified dates of service on an attached list plus the proceeding 60 days. Essentially, the
request asked Plaintiff to produce all records that related to and supported the subject Medicare
claims, including records maintained by the patient's physician or hospital documentation (during
the qualifying period). Many of these documents the home health agency is not required to have
or otherwise does not possess in the ordinary course of business.
6.

Abet Life was sold to its current ownership who acquired all of the stock of the

corporation on May 31, 2018, and substantially all claims reviewed by Qlarant concerned dates of
service that occurred prior to the acquisition of the provider.
7.

On or about November 1, 2019, Plaintiff produced all pertinent records available

to the provider that were responsive to Qlarant's records request.
8.

In February 2020, the novel Coronavirus outbreak and the ensuing COVID-19

epidemic began to impact the United States, including Texas home health agencies in the greaterHouston area.

Page 2 of 9

App. 114

Case: 20-20399

9.

Document: 00515504825

Page: 3

Date Filed: 07/27/2020

President Donald Trump declared on March 13, 2020 a national emergency because

of the COVID-19 pandemic.
10.

Governor Gregg Abbott also declared a state of disaster in Texas due to COVID-

19 on March 13, 2020.
11.

When the national emergency was declared, the U.S. Government COVID-19

Response Plan was issued outlining the coordinated federal response activities for COVID-19.
The Government's response plan makes two things clear: ( 1) the pandemic "will last 18 months
or longer" and (2) the COVID-19 outbreak will result in the implementation of drastic measures
to contain its spread throughout the nation. Society as a whole is now faced with strict
containment and social distancing measures for an extended period of time.
12.

Dr. Deborah Birx, White House Coronavirus Response Coordinator, has reported

that U.S. deaths cause by COVID-19 may be catastrophic. She said that Dr. Anthony Fauci,
National Institute of Allergies and Infectious Diseases, has predicted U.S. deaths could range from
1.6 to 2.2 million in a worst- case scenario and projects 100,000 to 200,000 in a best-case scenario.
With the surge of confirmed coronavirus cases, America's hospitals are being overwhelmed. And
it is having a cascading effect on ancillary providers and practitioners, including home health
agencies.
13.

On March 17, 2020, Qlarant issued to Abet Life a notice of suspension of Medicare

payments. (A true and correct copy is attached hereto as Exhibit B). The suspension took effect
on March 12, 2020, because CMS had asserted that prior notice would have placed additional
Medicare funds at risk. The suspension action was brought under 42 C.F.R. §405.371(a)(2) and
alleges a "credible allegation of fraud." As a result of the suspension action, all Medicare payments
owed to the provider are being withheld pending resolution of the ongoing investigation.

Page 3 of 9

App. 115

Case: 20-20399

14.

Document: 00515504825

Page: 4

Date Filed: 07/27/2020

CMS based its decision to suspend upon its belief that "the documentation you

submitted to support the claims did not support that the services provided were of an inherent
complexity that they could have only been performed safely and/or effectively by or under the
general supervision of a skilled nurse and/or therapist." However, the list of sample claims
indicates that the basis for the payment suspension is that "Documentation does not support the
services billed met criteria for skilled nursing services."

The garbled recitation indicates

insufficient documentation as the underlying reason for the action.
15.

It is my understanding that CMS could have found good cause exists not to suspend

the provider's Medicare payments where Medicare beneficiaries' access to items or services would
be so jeopardized by a payment suspension as to cause a danger to life or health. This is based
upon the federal regulation at 42 C.F.R. §405.37l(b)(l)(ii) which states that CMS may find that
good cause exists not to suspend payments or not to continue to suspend payments to an entity
against which there is a credible allegation of fraud if it is "determined that beneficiary access to
items or services would be so jeopardized because such a payment suspension in whole or part as
to cause danger to life or health." (A true and correct copy is attached hereto as Exhibit C).
16.

Because approximately 90% of Abet Life's revenues are from Medicare, the

suspension of its Medicare payments will soon force the provider to close and file bankruptcy.
The business is now being financed with personal assets and within less than a month these monies
will be exhausted.
17.

Under the present circumstances, I believe good cause exists to not impose the

suspension against Abet Life, especially when the COVID-19 pandemic and the surge of
confirmed coronavirus cases is having an overwhelming impact on America' s healthcare system,
including home health agencies, like Abet Life, and when the suspension will force the provider

Page 4 of 9

App. 116

Case: 20-20399

Document: 00515504825

Page: 5

Date Filed: 07/27/2020

to go out of business and it jeopardizes patients' access to essential healthcare services under the
Medicare program.
18.

Further, it is my understanding that Abet Life has a constitutional property interest

in payments for services rendered and now indefinitely suspended during the investigation into the
adequacy of its documentation. CMS violates Due Process of law by imposing the adverse action
during the COVID-19 pandemic and national emergency without extending to the provider notice
and an opportunity for a hearing to contest the Medicare payment suspension. There obviously is
a high risk that the home health agency will be erroneously deprived of its property interest in
Medicare payments it has earned for services rendered and indefinitely withheld by suspension,
pursuant to 42 C.F.R. §405.371(a)(2), because the provider is not entitled under the available
process to an administrative appeal to dispute and contest the suspension, and there is absolutely
no established time frame for resolving the investigation of its documentation.
19.

It also is my understanding that the patients at Abet Life have a constitutional Due

Process right (consistent with principles of equal protection) to access safe and reliable services
under the federal Medicare program. HHS violates the patients' right to access such healthcare by
imposing the suspension during the COVID-19 pandemic and national emergency. Due to the

COVID-19 outbreak securing such services is an uncertainty. The Medicare suspension should
not be imposed under the present circumstances because it jeopardizes the health and safety of
Abet Life's patients and their access to essential healthcare services.
20.

Abet Life is the assignee (pursuant to 42 C.F.R. §405.902) of the appeal rights

transferred by Medicare beneficiaries who received home health services delivered through the
provider.

However, the provider is not entitled to an administrative appeal to contest the

suspension or HHS' s abuse of discretion in not finding good cause to not impose the adverse action

Page 5 of 9

App. 117

Case: 20-20399

Document: 00515504825

Page: 6

Date Filed: 07/27/2020

during the COVID-19 national emergency. Consequently, the Medicare payment suspension will
render Abet Life unable to deliver to its patients the services they need or protect them from loss
of access to these essential services.
21.

A Rebuttal Statement was presented by Abet Life to Qlarant on March 27, 2020

informing the UPIC that imposing the Medicare suspension during the COVID-19 epidemic and
national emergency was improper because, among other things, (1) it violates Plaintiffs
constitutional right in payments for services rendered by failing to give notice and an opportunity
for a hearing while payments are indefinitely suspended during the pendency of an investigation
into the adequacy of its documentation, and (2) it violates the provider's patients' constitutional
right to access essential healthcare services. (A true and correct copy is attached hereto as Exhibit
D).

22.

CMS failed to issue within 15 days a written rebuttal determination in accordance

with 42 C.F.R. §405.375 justifying the suspension. The written rebuttal response from CMS was
issued April 28, 2020. CMS kept the suspension in place against the provider. (Exhibit E).
23.

On March 27, 2020, Abet Life gave formal Presentment of its Claim to Defendant

informing HHS that imposing the Medicare suspension during the COVID-19 epidemic and

national emergency was improper because, among other things, (1) it violates Plaintiffs
constitutional right in payments for services rendered by failing to give notice and an opportunity
for a hearing while payments are indefinitely suspended during the pendency of an investigation
into the adequacy of its documentation, and (2) it violates the provider's patients' constitutional
right to access essential healthcare services. (A true and correct copy is attached hereto as Exhibit
F).

Page 6 of9

App. 118

Case: 20-20399

24.

Document: 00515504825

Page: 7

Date Filed: 07/27/2020

To date, HHS has not responded to the Presentment of Claim and request that the

suspension be lifted.
25.

On July 2, 2020, CMS requested an additional 42 charts from this provider for

review even while the suspension continues.
26.

When Congress made monies available for business through the CARES Act, Abet

Life applied for assistance, and was awarded $40,157 from the CARES Act, and $112,500 through
the Paycheck Protection Program (PPP) of the CARES Act. The loan money went to support Abet
Life's operations and to allow it to keep key employees on staff and care for its patients a bit
longer. Abet Life's eligibility for the program has ended.

The PPP loan and a willingness of

employees to be flexible and receive paychecks later than normal has allowed the small business
to continue.
27.

Since the suspension began, and through the present, I have provided loans to the

business from personal assets to help cover business expenses. I have dipped into savings and
provided Abet Life with $32,700 in loans from my 401K account. I have deferred mortgage
payments and car payments. In July, I took last available personal savings money and have enough
to last another 2-3 weeks in business.

28.

Because of the payment suspension, Abet Life has been unable to continue to

maintain its previous census rate of 30 patients. Currently, Abet Life is down to 15 Medicare
patients on service, at least for the next 2-3 weeks. The company has generated as much income
as possible from other sources, but it cannot operate at this level ofloss, but for another 2-3 weeks.
Afterwards, the business will be forced to close and enter into bankruptcy.
29.

Abet Life is unable to grow by receiving new patients from its referral sources

Page 7 of 9

App. 119

Case: 20-20399

Document: 00515504825

Page: 8

Date Filed: 07/27/2020

because it cannot maintain the necessary staff and other vendors to support the new patients and
provide the skilled services needed. These referral sources, that Abet Life has built and fostered
over time, will have to shift their businesses to accommodate the loss of Abet Life as a home health
provider. Abet Life tends to provide services to an ethnic population and I believe there will be a
significant void if the agency fails.
30.

Further, current patients of Abet Life will require transfer to another agency should

the provider fail. To begin again with an agency upsets the patient and the trust build by Abet
Life's staff with the beneficiary must be rebuilt by the new provider for the beneficiary. The
transfer process is both significant and time consuming and we will begin it in another week or so
unless the suspension is lifted.
31.

When a provider ceases providing services to the community, it is deemed a

cessation of business. A cessation of business activities by a provider will ultimately result in the
termination of both its Medicare and Medicaid privileges pursuant to 42 C.F.R. § 489.52(b)(3).
Once that happens, there will be no way to revive the business, even through bankruptcy.
32.

I am proud to be the owner of a minority owned small business. I made personal

guarantees on loans previously taken out to purchase and operate Abet Life because I believed that

the agency could provide services to a portion of the population that has been neglected by
healthcare providers. Because of these personal guarantees, if Abet Life fails, I will have to declare
personal bankruptcy. My wife's business has also been used collateral to repay the loans. Abet
Life's failure will not only adversely affect me, personally, but my wife, her business, and my

10th

grade son, and his future educational needs.
33.

CMS has imposed the suspension even though its impact will force Abet Life's

closure and despite the fact it jeopardizes the health and safety of the provider's patients as well

Page 8 of 9

App. 120

Case: 20-20399

Document: 00515504825

Page: 9

Date Filed: 07/27/2020

as their access to essential healthcare services under the Medicare program. During the current

healthcare crisis, these patients may only be able to access essential healthcare through their Abet
Life's home health agency.
34.

The impact of the Medicare payment suspension threatens to force Abet Life's

closure and filing of bankruptcy. Because the provider is not being paid by Medicare for the

services it provides to program beneficiaries, it will soon be compelled to fire its employees as
well and cease operations. Abet Life may be forced to close within the next 14-21 days.
I declare under penalty of perjury that the foregoing is true and correct."

EXECUTED

o:S~ 2-~ ,2020.

Page9 of9

App. 121

Case: 20-20399

Document: 00515504825

Page: 10

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

Delivery Method: Hand Delivery
October 7, 2019
Abet Life Inc.
4502 Riverstone Blvd., Suite 502
Missouri City, TX 77459-5200
Re: On-site Records Request
ProviderNwnbers: NPI: 1417239682; PIN: 747811
Internal Tracking Number: CSE-190507-00037 MR
Dear Abet Life Inc.:
This letter is to inform you that Qlarant Integrity Solutions, LLC ("Qlarant") will be conducting a
review of selected claim·s you have submitted to Medicare and/or Medicaid. As a Unified Program
Integrity Contractor (UPIC), Qlarant, under its contract with the Centers for Medicare and Medicaid
Services (CMS), is responsible for conducting reviews of providers' records to ensure that Medicare
and/or Medicaid claims have been billed and paid in the appropriate manner. Qlarant is visiting your
facility today to perform an onsite review. As part of this review, we may interview staff and request
documentation concerning Medicare and/or Medicaid billing and payment. Under federal regulations, at
42 CPR § 424.5(a) (6), providers are required to furnish sufficient information to justify payment as a
basic condition for Medicare and Medicaid payment. We appreciate your cooperation in completing this
review.
\Ve understand that our request for documentation, including patient records, may raise questions about
the disclosure of protected health information. The review that we are conducting today is consistent
with the Health Insurance Portability and Accounta.bility Act (HIPAA) Privacy Ruk. The HIPAA
Privacy Rule (45CFR § 164.501-512) permits disclosure of protected health infonnation without
beneficiary authodzation to carry out treatment, payment or health care operations. When Medicare
beneficiaries enroll in the program, they arc informed of Medicare's use of their protected health
information to carry out health care operations, and the same is true for Medicaid beneficiaries enrolling
in Medicaid. Unified Program Integrity Contractors, including Qlarant, perform health care operations
as business associates of CMS with respect to the HTP AA Privacy Rule. Providing the requested
documentation does not violate the minimum necessary provision of the HIPAA Privacy Rule and does
not require beneficiary authorization.
Qlarant is authorized to reopen claims due to the rules cited in 42 C.F.R. § 405.986. Good cause for
reopening may be established when new and material evidence was not available or known at the time
of the original determination or decision and may result in a different conclusion, or the evidence that
was considered in making the determination or decision clearly shows on its face that an obvious error
was made at the time of the determination or decision.

14643 Daf/as Parkway, Suite 400 • Dallas, Texas 75254-1613 •

App. 122

EXHIBIT

A

Case: 20-20399

Document: 00515504825

Page: 11

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

For this review we have chosen specific claims from the universe of your claims. Included in the
universe were only those beneficiaries for whom you were paid by Medicare and/or Medicaid. The
chosen claims were selected from a set of claims that met specific criteria.
Please provide us with the applicable medical records for each beneficiary on the attached list. To assist
with processing of these medical records, please do not submit double sided copies, stapled or bound
records.
The provider agreement to participate in the Medicare and/or Medicaid program requires you to submit
all information necessary to support your claims for service. In this respect, if certain records supporting
the services rendered are at another facility, as the billing provider you a.re responsible for obtaining
those records for our review.
Part A- Home Health Documentation Request
Description of documentation requested:

NOTE: The records we are requesting include any and all documentation to support the medical
necessity of services billed for the specified dates of service on the attached list plus the preceding 60
days.
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

OASIS documentation (certifications, recertifications, follow-ups and significant change).
Documentation of face-to-face encounter.
Signature attestation of all personnel providing services.
Therapy progress notes and orders (including physical, occupational and speech/language if
applicable).
Nurses' notes.
Plan(s) of care for the specified dates of service plus two prior qualifying periods.
Physician's orders and progress notes.
Ancillary services notes (if applicable).
RAP (Request for Anticipated Payment).
Hospital documentation (during qualifying period).
Physician certification/recertificaiton for the specified dates of service plus two prior qualifying
periods.
Discharge orders.
Laboratory reports (if applicable).
Medication administration record.
Consultation notes and/or reports.
Procedure notes (if applicable).
60-day summary/case conference notes.

14643 DaUas Parkway, Suite 400 • Do/las, Texas 75254-1.613 • www.qlarant.com

App. 123

Case: 20-20399

.

Document: 00515504825

Page: 12

Date Filed: 07/27/2020

-

MS

Unified Program Integrity Contractor

waro FO• MfDICAOf & MIDICAID S!R\10-S

South Western Jurisdiction (UPICSW)

Failure to provide the requested documentation will result in a determination that an overpayment has
been made.
The requested documentation should be submitted to the Qlarant representatives.

OR

Requested information may be sent to Qlarant h1tcgrity Solutions, LLC by esMD or Mail (no drop off or
hand deliveries).
ESMD: Qlarant Integrity Solutions, LLC accepts requested documentation from providers via electronic
submission of medical documentation by the es MD mechanism. Include a copy of this letter on the front
of the requested documentation and submit via esMD. For more information about esMD, refer to
www.CMS.gov/esMD
Mail: Attach a copy of this letter to the front of the requested documentation and send by mail via
hardcopy or password protected CD (send the password separately to ensure compliance with HIPAA
regulations) to:

Qlarant Integrity Solutions, LLC
Attn: P~trick Hughes
14643 Dallas Parkway Suite 400
Dallas, TX 75254
We cannot accept this documentation by email. There are no exceptions. You must not send Protected
Healthcare Information (PI-IT) by email because it \VOttld be in violation of federal HIP AA statutes.
You should be aware that failure to provide the requested documentation or to permit examination a11d
duplication of records necessary to verify the information may result in:
•

A determination that an Overpayment has been made.

•

Any overpayment identified in a Statistically Valid Random Sample (SVRS) may be projected
to the universe of claim5 processed during the time frame described above.

•

A request for suspension of your Medicare and/or Medicaid payments in accordance with 42
C.F.R. § 405.371(a)(l).

•

A decision being made by the Office of Inspector General, DHHS, to exclude you and/or your
organization from Medicare, Medicaid and all Federal heahh care programs in accordance with
§ l 128(b) (11) of the Social Security Act.

Authorization for the release of this information is included in Section 1893 of the Social Security Act
[42 U.S.C . 1395ddd), Item 6 of the Fann CMS-1491 (SC) (01-89), and Item 12 of the Form CMS-1500
(12-90).

:14643 Dallas Parkway, Suice 400 • Dallas, Texas 75254-:1.613 • www.qlarant.com

App. 124

Case: 20-20399

.

Document: 00515504825

Page: 13

Date Filed: 07/27/2020

··-·-

MS

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CfNTf.RS IOR MEDICARE .C. ~UOICA10 5fRW(:1S

Our clinical staff will review the documentation you submit for each of the claims to determine if the
services billed are reasonable and necessary and meet all other requirements for Medicare and/or
Medicaid coverage. Along with our claims payment determination, we will make a determination of
liability decision for services that are subject to the provisions § 1879 of the Social Security Act ("the
Act'') and a determination in accordance with § 1870 of the Act (as to whether you are without fault for
any overpayments).
You will be informed of the audit results in our Medical Review Findings Letter. We will include a list
of all claims reviewed, and the specific reasons for any denial or re-coding of the claims. You will be
provided with an explanation of how any overpayment amount was determined, the reason you are
responsible for the incorrect payment, and the amount of the overpayment.
Thank you for your cooperation. If you have any questions I may be reached at (972) 383-0000, Monday
through Friday, 8 a.m. to 4 p.m. CT.

o::+el<Anthony Rose
Investigator

Enclosure(s): Beneficiary list
for Abet Life Inc. - NPI: 1417239682
cc: File

0MB #093 8-0969

Qlarar1t·

l4643 Dallas Parkway, Suire 400

App. 125

•

Dallas, Texas 75254-1613 • www.qJaranLcom

Case: 20-20399

Document: 00515504825

Page: 14

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

?J:,~~S~ ·>'. ,' .:.:~~_.;~!· ·-·~ B~f!CS~Hfr .~~~7 ,!~~!~, ;~-F ~.. .-~~ -:~
Abet Life · PIN 74781 1; NPI 1417239682

)(l()()(X8983A
:xxxxxa9e~iXXXXX8983A
!XXXXX8983A --1XX)()(X8983A
:)()(J()(X697202

'J

1XXXXXXER7NM98
~ X ER7NM9B
-~XE!imM98
;XXXXX-XE~
/XXXXXXER7NM98
iXXXXXX

!j

~
mo~
,xxxxx91soA

. :icx~x~.
,xxxxxx

- '~XXXXMC9WC_SJ

:~ XX9iso~.
XXXXX9180A

,XXXXXX
1
XXXXXXERSGJ68

•XXXXX9180A
iXXXXX9-iSOA .

1XXX)OO(ERSGJ68
;XXXXXXER5GJ68

,icxxxxTtioii .
IXXXXX9180A

5oixxx"6i690

IXXXXX6169D

;XXXXX61690
l)OO(XX6mD

. 'xxixxxcirnF36

!"iixxxsi69o-.. ---·

·XX:XXXXQTSJF36

;~XXQT9~F.~6-

'XXXXXX
:XXXXXX
,XXXXXXJW7KFS2

;XXXXX0524A

;xxxxxo524A
:xxxxxOSl4A

fioooo<OS24A

[xiooo<os24A

lxxiixli"1s.t1

,XXXXXXJW71CF52
:XXXXXXJW7KF52
·- ,XXXXXXJW7KF52

__

p

l

p
p
.p
p

,w

'w-

'XXXXlCll16A

:xx~X!(

w

XXXXX1216A
iXXXXX1216A

-XXXXXXMV9TA51
;xxxXXXMV9TA51

f~xxi~:i,sA

;X)(J()(x121i;11 _.
iXXXXX0052A

;icxxxxoos2A
ixxxxxoosiA

;XXXXX0052A

xxxxxx

·xxxxxx

:xxxxxx

:xxxxxXYfONP95

·--. . .. . lXXXXXXVFONP95

' XXXXXXYFONP95

Qlarant

,W

w

w

w
L

:l

..-~. ..
L

01/30/2018'

\ .

0112s12016: 0912s12ol6;

12/14/2017 : _ _02/11/2~

!

06/12/ 2018!

!

:~l!B .:.__ . -·+-

~--:STRAUGHAN

..

'
j

-

.STRAUGHAN

_ ERAU~~!l.

l -.

,TAYLOR

-;-- .;::

:TAV~~--

_.THOMAS ·-·...
THE._MAS
(T!:!9~A~
THOMAS

_rffo,.:;,~

!

1
1

lliOMAS
THOMAS

WIWAMSJR
WIWAMSJR

w1tLiAMS If - ·- ·

--12/19/2018!'

.
:.
'.

l-

i

08/21/~-

02/17/201;

,

'

,

i'

•

04/18/2019 '

OS/10/2017!

07/09/2017
04/06/2018·
06/05/2018 1
08/04/2018!

02/D./2018.

i.o7'i9/20li

·olii"Gizoii;
04/17/20.19'.

06/16/2019

07/08/2017·,
O~C!!/2017 ' •
06/04/2018.
08/03/2018 ,
10/02/2018 '

Ol/30/2~

i

12102tio1s7°

.[

02/25/2017-1 04/21,120111

,i __ 1012a;2016i _ 12/26/2016;
: 12/27/2016 _02/24/2°-E.J
' 10/:11/2017 ,
1
.~ _ _1.iij~lj_°§l.?;
\

02/2S./l018 :

04/29/2018 .

·' --'

14643 Dallas Parkwr,y, Suire 400 • Dallas, Texas 75254-1.6~ •

App. 126

~/Ol/2017l

1

02/07/2031!,:

'

.J:!:_AYLOR .
,TAYLOR

j ~YL~- - :TAYLOR

07/05/2019'

06/02/20174 07/26/2017 j
::.-10110/20171 . 12/0Bi.!0_12)
_ 12/09/2017
~~/201!!:

- ··-·,--- ,- .

·- ·-:STRAUGHAN

08/08/2018'

01/07/2019; 03/07/2019:
03iOS/2019 j __.OS/06i2019:

_ _ 05/07/2019j_
_ 04/03/20171

}·

.. iSTRAUGHAN

WILLIAMSJR

04/12/2018:
06/11/2018'

02/12/2018'

04/13/2018'

SMITH
SMITH

;STRAUGHAN
;STRAUGHAN

03/27/2018 : •

_ os_/29/2016; __ 01121tio~'.

:SMITH

. ;STRAUGHAN

06/20/201?.J

!__ ~~@lli-.. ~~~~~:~\

T

•. - -STRAUGHAN-

'. o

:ill19/201~- 03/1Sig •

- ··sr.i,rn-

.

05/24/~. • 07/22/2018 .
01/2s1201si 09/201201&;
09/21/2018! 11/19/ 2018 ;
11/20/2018! • 01/18/ 2019'

f . 04/ 22/2~

i

To . -

!O

•

----~~T:._

.

-D

tl<Xxixx - - ---· ..

1

1

:r,

;)()(~~

iXXXXX1216A

:

isM_I!!-!_-__ _

A
'A
.D

'0

.__

1

·TsMITH ·

-A
.A
A

·;XXXXXXQT9JF36

L~~XX~_!~9D.
;J()()()(l(OS24A

· · ..TsMmi

'A

i XXXXXXQT9JF36 - ·

..

•scon

A

-:0 .
:xxxxxxQr9ITTs· ·- [o.

Jicxxxx61690. .

;~~~~

!°A

,XXXXXXER5GJ68
•)OO()()(X
iXXXXXX
! XXXXXX
- ..

iXlOOO<fil690 .

;

'PITTMAN

,A

- - ·· i~X!XX£~~J~ .

1XXXXX61690

;PITTMAN·

. 'SCOTI --

~

.~xx_~~S§!~

iXXXXX9180A-

1_

!°PJTTM~

,M

J¥x~~--- _____]__

i.XXXXX~972Di

--:PITTMAN • ·

j

[~::;{%i

J_ -

:PITIMAN

lj

12/Z~/ZOl7;

_@f!/1011!.;

04/28/2018.
06/27/2018 •

i2/ll/2017 · oi/09/2018
021ioiio1s 04/l<l/iOlS

04/ii/2018 . cisi09/2018.

06/10/"f:°1_8

08/08/20~!1

www.9tarant.com

Case: 20-20399

Document: 00515504825

Page: 15

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CtNTHlS l'Oll MIOICA&f &. MEIJICAtO SQVJ(f\

March I 7, 2020
Abet Life, Inc.
4502 Riverstone Blvd, Suite 502
Missouri City, TX 77459-5200

Re:

Notice of Suspension of Medicare Payments
Provider Medicare JD Number: 747811
Provider NPI: 1417239682
Record Identifier: PSP-200305-00002

Dear Abet Life, [nc.:
The purpose of this letter is to notify you of our detern,ination to suspend your Medicare payments
pursuant to 42 C.F.R . § 405.3 71 (a)(2). The suspension of your l\.1edicare payments took effect on
March l 2, 2020. Prior notice of this suspension was not provided, because giving prior notice would
place additional Medicare funds at risk and hinder our ability to recover any determined overpayment.
See 42 C.F.R. § 405 .372(a){3).
The decision to suspend your Medicare payments was made by the Centers for Medicare & Medicaid
Services (CMS) through its Central Office. 42 C.F.R. § 405 .372(a)(4)(iii). This suspension is based on
credible allegations of fraud. CMS regulations define credible allegations of fraud as an allegation from
any source including, but not limited to, Fraud hotline complaints, claims data mining, patterns
identified through audits, civil false claims cases, and law enforcement investigations. Allegations arc
considered to be credible when they have indicia of reliability. 42 C.F.R. § 405.370. This suspension
may last until resolution of the investigation as defined under 42 C.F.R. § 405 .3 70 and may be extended
under certain circumstances. 42 C.F.R. § 405.372(d)(3)(i)-(ii). Specifically, the suspension of your
Medicare payments is based on, but not limited to, information that you misrepresented services billed
to the Medicare program by submitting claims that did not meet the criteria for skilled nursing care.
More pa1ticularly, the documentation you submitted to support the claims did not support that the
services provided were of an inherent complexity that they could hav e only been performed safely
and/or effectively by or under the general supervision of a skilled nurse and/or therapist.
The following list of sample claims provide evidence of our findings and serve as a basis for the
determination to suspend your Medicare payments:

Claim Control

,

Number CCN

i

21628801324507TXR

1

I21622104218207TXR I
I

Qlarant·

i

.

Date(s) of Service
05/29/201607/27/2016
07/28/201609125/2016

Amount
Paid
$1,646.53
$1,646.53

-----~

Basis for Selected Claim

Documentation does not support
the services bi !led met criteria for
skilled nursing care.
Documentation docs not support
the services billed met criteria for

14643 Dallas Parkway, Suite 400 • Dal/as, Texas 75254 -1613 •

I

EXHIBIT

······- -·-·- - - - - -"----.,

App. 127

Case: 20-20399

Document: 00515504825

Page: 16

Date Filed: 07/27/2020

Un ified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

2 l 806 I04303107TXR
2 I 812903346207TXR

21817 l 00750607TXR

12/14/201702/1 1/2018
02/l 2i201804/12/2018
04/13/201 806/1 li2018

I

------,

L _ skilled nursing care.
I
I
$2, l 80.92
Documentation does not support
. I
the services billed met crite1~a for
skilled nursing care.
$2,180.92
Documentation does not support
I
the services billed met criteria for
II ·skilled nursing care.
I
S 1,593.06
Documentation does not support
the services billed met criteria for
_
skilled nursi~5are. _____ _
1
I

I
l
I
I
__L _________
I

i

I
I
Ij
I

II

I

I

i
i

_!

This list is not exhaustive or complete in any sense, as the investigation into this matter is continuing.
The info1111ation is provided by way of example in order to furnish you with adequate notice of the basis
for the payment suspension noticed herein.
Pursuant to 42 C.F.R. § 405 .372(b)(2), you have the right to submit a rebuttal statement in writing to us
indicating why you believe the suspension should be removed. We request that you submit this rebuttal
statement to us within 15 days. You should include with this statement any evidence you believe is
pe1tinent to your reasons why the suspension should be removed. Your rebuttal statement and any
pertinent evidence should be sent to:
Qlarant integri ty Solutions, LLC
Attn: Rebuttal and Suspension Department
14643 Dallas Parkway, Suite 400
Dallas, TX 75254
If you submit a rebunal statement, we \•.'ill review that statement (and any supporting documentation)

along with other materials associated with the case. Based on a careful review of the information you
submit and all other relevant information known to us, we will dete1mine whether the suspension should
be removed, modified, or should remain in effect within 15 days of receipt of the complete rebutta l
package. However, the suspension of your Medicare funds will continue while your rebuttal package is
being reviewed. Thereafter, we \,·iii notify you in writing of our detennination to continue or remove
the suspension and provide specific findings on the conditions upon which the suspension may be
continued or removed, as well as an explanatory statement of the determination. 42 C.F.R. §
405.375(b)(2). This determination is not administratively appealable. 42 C.F.R. § 405 .375(c).
If the suspension is continued, we will review additional evidence during th e suspension period to
detem1ine whether claims are payable and/or whether an overpayment exists and, if so, the amount of
the overpayment. See 42 C.F.R. § 405.372(c). We may ne ed to contact you with specific requests for
further infom1ation. You will be informed of deve lopments and will be promptly notified of any
overpayment dete1111ination. Claims will continue to be processed during the suspension period, and

Olarant

14643 Dallas Parkway, Suite 400 • Dai/as, Texas 75254-1613 • www.qlarant.com

App. 128

Case: 20-20399

Document: 00515504825

Page: 17

Date Filed: 07/27/2020

,.,.,,3-, ..,, .... ::

t'CMS

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CTNTH.S fOR MlOICAaf 6 MIOIC.A 10 SOlVICE!

you will be notified about bill/claim detem1inations, incl uding appeal rights regarding any bills/claims
that are denied. The payment suspension applies to both cuffent and future payments.
In the event that an overpayment is determined and it is detennined that a recoupment of payments
under 42 C.F.R. § 405.3 71 (a)(3) should be put into effect, you will receive a separate written notice of
the intention to recoup and the reasons. You will be given an opportunity for rebuttal in accordance with
42 C.F.R. § 405.374 from Palmetto GBA. When the payment suspension has been removed, any money
withheld as a result of this action shall be first be applied to reduce or eliminate the dete1mined
overpayment and then to reduce any other obligation to CMS or to the U.S. Department of Health an~
Human Services in accordance with 42 C.F.R. § 405 .372(e). In the absence of a legal requirement that
the excess be paid to another entity, the excess will be released to you.
Should you have any questions, please contact Patrick Hughes in writing or via telephone at 972-3830000.
Sincerely,

S. Scott Ward, CFE. AHFI
Program Director
Qlarant Integrity Solutions, LLC
cc: Centers for Medicare & \\1edicaid Services

Olarant ·.

14643 Dallas Parkway, Suire 400

App. 129

•

Dallas, Texas 7525/r 1613

•

www.qlarant.com

Case: 20-20399

Document: 00515504825

Page: 18

Date Filed: 07/27/2020

AIJTHENTICATE9
US. OOVERNMENT
INFORMATION

CPO

Centers for Medicare & Medicaid Services, HHS
Vacate means to set aside a previous

action.

[61 FR 63745, Dec. 2, 1996, as amended at 74
FR 47468, Sept. 16, 2009; 76 FR 5961, Feb. 2,
2011]
§ 405.371

Suspension,
offset,
and
recoupment of Medicare payments
to providers and suppliers of services.

(a) General rules. Medicare payments
to providers and suppliers, as authorized under this subchapter (excluding
payments to beneficiaries), may be(1) Suspended, in whole or in part, by
CMS or a Medicare contractor If CMS
or the Medicare contractor possesses
reliable information that an overpayment exists or that the payments to be
made may not be correct, although additional information may be needed for
a determination;
(2) In cases of suspected fraud, suspended, in whole or in part, by CMS or
a Medicare contractor if CMS or the
Medicare contractor has consulted
with the OIG, and, as appropriate, t he
Department of Justice, and determined
that a credible allegation of fraud exists against a provider or supplier. unless there is good cause not to suspend
payments; or
(3) Offset or recouped, in whole or in
part, by a Medicare contractor if the
Medicare contractor or CMS has determined that the provider or su.pplier to
whom payments are to be made has
been overpaid.
(b) Good cause exceptions applicable to
payment suSPensions. (1) CMS may find

that good cause exists not to suspend
payments or not to continue to suspend payments to an individual or entity against which there are credible allegations of fraud i f (i) DIG or othe1· law enforcement
agency has specifically requested that
a payment suspension not be imposed
because such a payment suspension
may compromise or jeopardize an investigation;
(ii) It is determined that beneficiary
access to items or services would be so
jeopardized by a payment suspension in
whole or part as to cause a danger to
life or health;
(iii) It is determined that other available remedies implemented by CMS or
a Medicare contractor more effectively

§405.371

or quickly protect Medicare funds than
would implementing a payment suspension; or
(iv) CMS determines that a payment
suspension or a continuation of a payment suspension is not in the best interests of the Medicare program.
(2) Every 180 days after the initiation
of a suspension of payments based on
credible allegations of fraud, CMS
will-

(i) Evaluate whether there is good
cause to not continue such suspension
under this section; and
(ii) Request a certification from the
DIG or other law enforcement agency
that the matter continues to be under
investigation warranting continuation
of the suspension.
(3) Good cause not to continue to suspend payments to an individual or entity against which there are credible allegations of fraud must be deemed to
exist if a payment suspension has been
in effect for 18 months and there has
not been a resolution of the investigation, except CMS may extend a payment suspension beyond that point if(i) The case bas been referred to, and
is being considered by, the DIG for administrative action (for example, civil
money penalties); or such administ rative action is pending or
(ii) The Department of Justice submits a written request to CMS that the
su.spension of payments be continued
based on the ongoing investigation and
anticipated filing of criminal or civil
action or bo th or based on a pending
criminal or civil action or both. At a
minimum, the request must include
the following:
(A) Identification of the entity under
suspension.
(B) The amount of time needed for
continued suspension in order to conclude the criminal or civil proceeding
or both.
(C) A statement of why or how criminal or civil action or both may be affected if the requested extension is not
granted.

(c) Steps necessary for suspension of
payment, offset, and r ecou.pment. (ll Ex-

cept as provided in paragraph (d) of
this section, CMS or the Medicare contractor suspends payments only after
it has complied with the procedural requirements set forth at § 405.372.

101

EXHIBIT

C

App. 130

Case: 20-20399

Document: 00515504825

§405.372

Page: 19

Date Filed: 07/27/2020

42 CFR Ch. IV (10-1-11 Edition)

(2) The Medicare contractor offsets or
recoups payments only after it has
complied with the procedural requirements set forth at§ 405.373.

(i) In consultation with OIG and, as
appropriate, the Department of Justice, determines whether to impose the
suspension and if prior notice is appropriate;
(ii) Directs the Medicare contractor
as to the timing and content of the notification to the provider or supplier;
and
(iii) Is the real party in interest and
is responsible for the decision.

(d) Suspension of payment in the case
of unfiled cost reports. (1) If a provider

has failed to timely file an acceptable
cost report, payment to the provider is
immediately suspended in whole or in
part until a cost report is filed and determined by the Medicare contractor
to be acceptable.
(2) In the case of an unfiled cost report, the provisions of §405.372 do not
apply. (See § 405.372(a)(2) concerning
failure to furnish other information.)

(b) Rebuttal-(1) lf prior notice is required. If prior notice is required under

paragraph (a) of this section, the Medicare contractor must give the provider
or supplier an opportunity for rebuttal
in accordance with §405.374. If a rebuttal statement is received within the
specified time period, the suspension of
payment goes into effect on the date
stated in the notice, and the procedures and provisions set forth in
§ 405.375 apply. If by the end of the period specified 1n the notice no statement has been received, the suspension
goes into effect automatically, and the
procedures set forth in paragraph (c) of
this section are followed.

[76 FR 5961, Feb. 2, 2011]
§ 405.372

Proceeding for suspension of
payment.
(a) Notice of intention to suspend-(1)
General rule. Except as provided in

paragraphs (a)(2) through (a}(4) of this
section, if the Medicare contractor, or
CMS has determined that a suspension
of payments under § 405.37l(a)(l} should
be put into effect, the Medicare contractor must notify the provider or
supplier of the intention to suspend
payments, in whole or in part, and the
reasons for making the suspension .
(2) Failure to furnish information . The
notice requirement of paragraph (a)(l)
of this section does not apply if the
Medicare contractor suspends payments to a provider or supplier in ac-

(2) Jf prior notice is not required. If,

under the provisions of paragraphs
(a)(2) through (a)(4) of this section, a
suspension of payment is put into effect without prior notice to the provider or supplier, the Medicare contractor must, once the suspension is in

cordance with section 1815(a} or section
1833(e) of the Act, respectively, because
the provider or supplier has failed to
submit information requested by the
Medicare contractor that is needed to
determine the amounts due the provider 01· supplier. (See §405.37l(c} concerning failure to file timely acceptable cost reports.)
(3) Harm to trust funds. A suspension
of payment may be imposed without
prior notice if CMS, the intermediary,
or carrier determines that the Medicare Trust Funds would be harmed by
giving prior notice. CMS may base its
determination on an intermediary's or
carrier's bel1ef that giving prior notice
would hinder the possib111ty of recovering the money.
(4) Fraud. If the intended suspension
of payment involves credible allegations of fraud under § 405.37l(a)(2),
CMS--

effect, give the provider or supplier an
opportunity to submit a rebuttal statement as to why the suspension should
be removed.
(c) Subsequent action. (l) If a suspension of payment is put into effect under
§ 405.37l(a)(l), CMS or the Medicare
contractor takes timely action after
the suspension to obtain the additional
information it may need to make a determination as to whether an overpayment exists or the payments may be
made.
(i) CMS or the Medicare contractor
makes all reasonable efforts to expedite the determination.
(ii) As soon as t he determination ia
made, CMS or the Medicare contractor
informs the provider or supplier and, if
appropriate, the suspension is rescinded or any existing recoupment or
offset is adjusted to take into account
the determination.

102

App. 131

Case: 20-20399

Document: 00515504825

Page: 20

Date Filed: 07/27/2020

Via FedEx Delivery
March 27, 2020
Qlarant Integrity Solutions, LLC
A rrN: Rebuttal and Suspension Department
14643 Dallas Parkway, Suite 400
Dallas, TX 75254
RE:

Rebuttal to Suspension of Medicare Payments
Provider Medicare ID Number: 747811
Provider NPI: 1417239682
Record Identifier: PSP-200305-00002

Dear Sir or Madam:
Our firm represents Abet Life, Inc. (hereinafter "Abet Life"), a Medicare home care provider
located in Missouri City, Texas. We have been retained to respond to the March I 7, 2020 Notice of
Suspension of Medicare payment that became effective on March 12, 2020. A copy is enclosed. We also
enclose an Appointment of Representative. This is a rebuttal to the suspension of Medicare payments.
As explained below, we request that HHS temporarily rescind the payment suspension during the
COVID-19 national emergency. Due to the exigent circumstances caused by the COVID-19 pandemic,
we will be forced to file a lawsuit in federal district court asserting the collateral constitutional claim and
seeking injunctive and declaratory relief on Monday, March 30, 2020. However, we are presenting this
rebuttal in our hope of obtaining an amicable resolution and your agreement to temporarily rescind the
suspension during the COVID-19 national emergency.

Background Information
On March 17, 2020, CMS issued its Notice of Suspension of Medicare Payments. The
suspension took effect on March 12, 2020. The suspension was brought under 42 C.F.R. §405.371 (a)(2)
and alleges a "credible allegation of fraud." However, the list of sample claims indicates that the basis for
the payment suspension is that "Documentation does not support the services billed met criteria for
skilled nursing services." The garbled recitation apparently indicates insufficient documentation as the
reason for the action. As a result of the suspension action, all Medicare payments owed to the provider
are being withheld pending resolution of the ongoing investigation.
Unfortunately, the suspension action could not come at a worse time. President Donald Trump
declared a national emergency over the COVID-19 outbreak on March 13, 2020. The surge in confinned
coronavirus cases is overwhelming our nation's hospitals. And it is having a cascading effect on ancillary
providers and practitioners as well. Recently, CMS issued Guidance for Infection Control and Prevention
Concerning Coronavirus Disease 2019 (COVID-19) in Home Health Agencies (HHAs). Suffice it to say,
Medicare home care providers will face tremendous challenges as they attempt to treat an ever-growing
patient base and at the same time screen patients at risk for having COVID-19 infection.
The impact of the Medicare payment suspension threatens the very viability of Abet Life. The
provider derives almost some 90% of its revenues from treating sick and elderly Medicare patients.
Obviously, if the provider is not paid for these home health services, it cannot pay its employees, the care
givers to these very needy patients. Consequently, Abet Life will soon be forced to shut down and file
bankruptcy.

12222 Merit Drive. Suite 1750 • Dallas, Texas 75251 • ph. 214.445.0740 • fx . 972.661.9320

markkennedylaw.com

App. 132

EXHIBIT

()

Case: 20-20399

Document: 00515504825

Page: 21

Date Filed: 07/27/2020

If Abet Life is forced to close, the home care provider's patients will have to obtain home health
services elsewhere. Due to the COVID-19 outbreak securing such services is an uncertainty. In fact,
home care agencies in Texas are now in crisis due to the pandemic. Recently, National Association for
Home Care & Hospice President William Dom bi commented that "This is one of those times when the
home health agencies have to figure out where the balance is to be struck between the safety of their staff
and caring for the patients that they have." Indeed, with the prospect of burgeoning post-hospital
coronavirus stays combined with an agency's achieving this perfect balance, it will undoubtedly result in
a scramble to obtain home care services because of COVID-19.

Issues & Contentions
At issue in this case is HHS's improper use of suspension under 42 C.F.R. §405.37I(aX2). We
contend that HHS's use of suspension in the midst of the national COVID-19 emergency is improper for
the following reasons:
I.

Payment suspension is improper in the midst of the COVTD- 19 outbreak because it threatens
the viability of Abet Life and jeopardizes the health and safety of its patients. It is especially
so where the basis for the suspension is insufficient documentation. At this time, home health
services are especially critical to patients confined to their homes during the ongoing
COVID-19 pandemic because it may become the only mode of healthcare for such patients
due to the shelter in place restrictions and limited access to hospitals as well as other
providers and practitioners.

2. Importantly, Federal regulations provide that CMS may find good cause exists not to suspend
a provider's Medicare payments over credible allegations of fraud where it is determined that
beneficiary access to items or services would be so jeopardized by a payment suspension in
whole or in part as to cause a danger to lite or health. 42 C.F.R §405.37l(b)(l)(ii). It is a
clear abuse of discretion for CMS to not find that good cause exists here where the COVID19 pandemic and the surge of confirmed coronavirus cases will soon overwhelm our nation's
hospitals and have a cascading effect on ancilla1y providers, including home health agencies
like Abet Life. Indeed, it not only will force Abet Life to shut down, it will place an even
greater burden on our healthcare community that is already on the brink of collapse.
3. Abet Life has a constitutional right in payments for services rendered and now indefinitely
suspended. HHS violates Due Process of law by imposing the action during the COVID-19
pandemic and emergency without extending to the provider notice and a right to a hearing to
contest the Medicare payment suspension. There is a high risk that Abet Life will be
erroneously deprived of its property interest in Medicare payments it has earned for services
rendered and indefinitely withheld by suspension, pursuant to 42 C.F.R. §405 .37l(a)(2),
because the provider is not entitled under the available process to notice and an opportunity
for hearing to dispute and contest the suspension, and there is absolutely no established time
frame for resolving the investigation of the claims underlying its imposition.
4.

Patients at Abet Life have a constitutional right to access safe and reliable services under the
federal Medicare program. HHS violates these patients' right to access such healthcare by
imposing the suspension during the COVID-19 pandemic. Since President Donald Trump
declared a national emergency because of COVID-19 on March 13, 2020, the surge of
confirmed coronavirus cases is overwhelming our nation's hospitals. And it is having a
cascading effect on ancillary providers and practitioners as well. The government' s illadvised suspension will essentially deprive Abet Life's patients of their constitutional right to
access healthcare.

21Pag e

App. 133

Case: 20-20399

Document: 00515504825

Page: 22

Date Filed: 07/27/2020

Conclusion
For these reasons, we are presenting this rebuttal to the suspension of Medicare payments.
Critically, the ultra vires actions ofl-IlfS threaten the very viability of the home care provider. It also
jeopardizes the health and safety of the provider's patients as well as deprives them of their constitutional
right to access healthcare. Accordingly, we request that HHS immediately temporarily rescind the
Medicare payment suspension and place the provider in payment status during the COVfD.J 9 national
emergency. Home care providers are a crucial component in responding to this health emergency, and
imposing suspension based on allegations of insufficient documentation only exacerbates the existing
crisis. Indeed, 42 C.F.R. §405.37 l(b)(ii) contemplates that suspension should not be imposed under these
circumstances. Due to the exigent circumstances caused by the COVID-19 pandemic, we will be filing a
lawsuit in federal district court asserting our collateral constitutional and statutory claims and seeking
injunctive and declaratory relief on Monday, March 30, 2020. Again, we are presenting this rebuttal in
our hope of obtaining an amicable resolution and your agreement to temporarily rescind the suspension
during the COVID-19 national emergency.
Please contact my office immediately so that we can amicably resolve this matter. We look
forward to your prompt response.
Sincerely,

~5(~7
Mark S. Kennedy
Enclosures
cc:

Abet Life, Inc.

3IPag e

App. 134

Case: 20-20399

Document: 00515504825

Page: 23

Date Filed: 07/27/2020

Form Approved
0MB NI>. 09l8~S0

DEPARTMENr OF HEALTH AND HUMAN SERVICES

CENTE11S FOR MEDlCARE l MEDICAID SIRVlc;ES

Name of Party · ·

APPOINTMENT OF REPRESENTATIVE

Medicare Number (benefidary as party) or National Providt!f Identifier
Number (provider as party)

Abet Life, Inc.

1417239682

Section 1: Appointment of Representative
Medicare be eficlary. the provider or the supplier):

To be completed by the pa

I appoint this individual.
to act as my representative in connection with my
claim or asserted right under Title XVIII of the Social Security ct (the ~Act") and related provisions of lltle XI of the Act. I
authorize this individual to make any request; to present or to elicit evidence; to obtain appeals information; and to receive
any notice in connection with my appeal, wholly in my stead. I understand that per!ional medical information related to my
appeal may be disclosed to the representative indicated below.

State

City

TX

Missouri City

Zip Code

77459

Section 2: Acceptance of Appointment
. hereby accept the above appointment. I certify that I have not been
disqualified, suspended, or prohibited fro practice before the Department of Health and Human Services (OHHS); that I am
not, as a current or former employee of ttie United States, disqualified from acting as the party's representative; and that f
recognize that any fee may be subject to review and approval by the Secretary.
I am a / an
attorney

I,

ip to the party, e.g. attorney. relati11e, etc.)

Phone !\lumber !with Area Cade)

(214) 445-0740

St«te

TX

lip Code

75251

Section 3: Waiver of fee for Representation

Instructions; Thit section must be completed if the represen atlve Is required to, o, ch oases to waive their fee for
representation. (Note that provtders or suppliers that are representing a beneficiary and furnished the items or services may
not charge a fee for representation and must complete this section.)

I waive my right to charge and collect a fee for representing _ _ _ _ _ _ _ _ _ _ _ _ _ before the Secretary of
DHHS.
Signature

Section 4: Waiver of Payment for Items or Services at lssue
lnstruclions: Providers or suppliers serving as a representative for a beneficiary to whom they provided hems or services
must complete this section if the appeal involves a question ot liability under section 1B79(a)(2) of the Act. (Section 1879{a}
(2) generally addresses whether a provider/supplier or beneficiary did not know, or could not reasonably be e11pected to
know. that the items or services at issue would not be covered by Medicare.)
I waive my right to collect payment from the beneficiary for the items or services at issue in this appeal if a determination of
liability under §1879(a)(2) of the Act ls at issue.
Sign.iture

Form CMS::1696 (1111S) .

App. 135

Case: 20-20399

Document: 00515504825

Page: 24

·cMS

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UP!CSW}

March 17, 2020
Abet Life, Inc.
4502 Riverstone Blvd, Suite 502
Missouri City, TX 77459-5200

Re:

Notice of Suspension of Medicare Payments
Provider Medicare JD Number: 747811
Provider NPI: 1417239682
Record l dentifier: PSP-200305-00002

Dear Abet Life, Inc.:
The purpose of this letter is to notify you of our detennination to suspend your Med icare payments
pursuant to 42 C.F.R. § 405 .37l(a)(2). The suspension of your Medicare payments took effect on
March 12, 2020. Prior notice of this suspension was not provided, because giving prior notice would
place additional Medicare funds at risk and hinder our ability to recover any determined overpayment.
See 42 C.F.R. § 405.372(a)(3).
The decision to suspend your Medicare payments was made by the Centers for Medicare & Medicaid
Services (CMS) through its Central Office. 42 C.F.R. § 405.372(a)(4)(i ii). This suspension is based on
credible allegations of fraud. CMS regulations define credible allegations of fraud as an allegation from
any source including, but not limited to, Fraud hotline complaints, claims data mining, patterns
identified through audits, civil false claims cases, and law enforcement investigations. Allegations are
considered to be credible when they have indicia of reliability. 42 C.F.R. § 4 05.370. This suspension
may last until resolution of the investigation as defined under 42 C.F.R. § 405 .370 and may be extended
under certain circumstances. 42 C.F.R. § 405.372(d)(3)(i)-(ii). Specifically, the suspension of your
Medicare payments is based on, but not limited to, information that yo u misrepresented services billed
to the Medicare program by submitting claims that did not meet the criteria for skilled nursing care.
More particularl y, the documentation you submitted to support the claims did not support that the
services provided were of an inherent complexity that they could have only been performed safely
and/or effectively by or under the general supervision of a skilled nurse and/or therapist.
The following list of sample claims provide evidence of our findings and serve as a basis for the
determination to suspend your Medicare payments:

Claim Control
Number (CCN)
216221042 l 8207TXR

Date(s) of Service

i

l

i

Basis for Selected Claim

Documentation does not support
the services billed met criteria for
.!__ ___ ··-- ---·-·-·-- ____ ____ _____ 1 •
ski Iled nursi ng care. -·-·-2 I62880 l 324 507TXR \,
07/28/20\6: $1.646 .53
Docum~ntati?ndoes not _s u~port •
1
09/25/2016
:
. the services btl led met en ten a for
1

L _________

05/29/201607/27/2016

Am~unt
Paid
$ l ,646.53

l

Qlarant

r

J

14643 Dallas Parkway, Suire 400 ~ Dallas, Texas 75254-1613 • www.qlarant.com

App. 136

Case: 20-20399

Document: 00515504825

CMS

Page: 25

-·

21806104303107TXR

2 I8 l 2903346207TXR

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW}

l 2/ 14/201702/11/2018
02/ 12/201804/ l 2/2018

r
l

1

I
I

- , ~ -- skilled nursing care. _
J
$2,180.92 Ii Documentation does not support
the services billed met critelia for
skilled nursing care.
-$2,180.92 I Documentation does no_t_s_up_p_o_rt_

I

· ~services billed met criteria for

f--------------i-----------+----2 l 817 ! 00750607TXR
04/13/2018$1,593 .
06/11/2018

_ ________________ _J_ _ _ _ __
_

skilled nursing care.
ocumentation does not support
e services billed met criteria for
skilled nursing care.

I _ _____

This list is not exhaustive or complete in any sense, as the investigation into this matter is continuing.
The info1mation is provided by way of example in order to furn ish you with adequate notice of the basis
for the payment suspension noticed herein.
Pursuant lo 42 C.F.R. § 405.3 72(b)(2), you have the right to submit a rebuttal statement in writi ng to us
indicating why you believe the suspension should be removed. We request that you submit this rebuttal
statement to us within I 5 days. You should include with this statement any evidence you believe is
pe11inent to your reasons why the suspension should be removed . '(our rebuttal statement and any
pertinent evidence should be sent to:
Q!arant [n tegrity Solutions, LLC
Attn: Rebuttal and Suspension Department
J 4643 Dallas Parkway, Sui te 400
Dallas, TX 75254
If you submit a rebuttal statement, we will review that statement (and any supporting documentation)
along with other materials associated with the case. Based on a careful revievv of the information you
submit and all other relevant information known to us. we will dete1mine \Vhether the s uspensi on should
be removed, modified, or should remain in effect within 15 days of receipt of the complete rebuttal
package. However, the suspension of your Medicare funds will continue while your rebuttal package is
being reviewed. Thereafter, we will notify you in writing of our detennination to continue or remove
the suspension and provide speci fie findings on the conditions upon which the suspension may be
continued or removed, as welt as an explanatory statement of the determination. 42 C.F. R. §
405 .375(b)(2). This determination is not administratively appealable. 42 C.F.R. § 405.3 75(c).
If the suspension is continued, we will review additional evidence during the suspension period to
determine whether claims are payable and/or whether an overpayment exists and, if so, the amount of
the overpayment. See 42 C.F.R. § 405 .372(c) . We may need to contact you with specific requests for
further information. You wi ll be informed of developments and will be promptly notified of any
overpayment determination. Claims will continue to be processed during the suspensi on period, and

Olarant

14643 Dallas Parkway, Suite400 ° Do/las, Texas 75254-1613 .. www.qlaront.com

App. 137

Case: 20-20399

Document: 00515504825

·cMS

Page: 26

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

you will be notified about bill/claim determinations, including appeal rights regarding any bills/claims
that are denied. The payment suspension applies to both current and future payments.
In the event that an overpayment is determined and it is determined that a recoupment of payments
under 42 C.F.R. § 405.37I(a)(3) should be put into effect, you will receive a separate written notice of
the intention to recoup and the reasons. You will be given an opportunity for rebuttal in accordance with
42 C.F.R. § 405.374 from Palmetto GBA. When the payment suspension has been removed, any money
withheld as a result of this action shall be first be applied to reduce or eliminate the determined
overpayment and then to reduce any other obligation to CMS or to the U.S. Depa11ment of Health an•
Human Services in accordance with 42 C.F.R. § 405.372(e). In the absence of a legal requirement that
the excess be paid to another entity, the excess will be released to you.
Should you have any questions, please contact Patrick Hughes in writing or via te]ephone at 972-3830000.
Sincerely,

S. Scott Ward, CFE. A HFT
Program Director
Qlarant Integrity Solutions, LLC
cc: Centers for Medicare & Medicaid Services

Olarant: .,

14643 Dallas Parkway, Suire 400 • Dallas, Texas 75254-1613 • www.qlaront.com

App. 138

Case: 20-20399

Document: 00515504825

CMS

Page: 27

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CENTBIS FOR MEDICARE& MEDICAID SERVICES

April 28, 2020
Mark Kennedy, Esq.
Kennedy Attorneys & Counse]ors at Law
12222 Medt Drive, Suite 1750
DaUas, TX 75251
Re:

Abet Life, Inc.
Provider Medicare ID Nmnber(s): 747811
Provider NPI: 1417239682
Record Identifier: PSP-200305-00002
Rebuttal Response

Dear Mr. Kennedy:
This letter is in response to the suspension rebuttal statement (rebuttal), dated March 27, 2020, you
submitted to Qlarant Integrity Solutions, LLC (Qlarant), the Unified Program Integ1ity Contractor
(UPIC) for Medicare Program Integrity in Texas, regarding the suspension of Medicare payments to
Abet Life, Inc. (Abet Life), which took effect on March 12, 2020. Prior notice of the suspension was not
provided because giving plior notice would place additional Medicare funds at risk and hinder the
ability of the Centers for Medicare & Medicaid Services (CMS) to recover any determined
overpayment. See 42 C.F.R. § 405.372(a)(3). On March 27, 2020, Qlarant received Abet Life's rebuttal
and forwarded it to CMS for review. CMS is responsible for determining if a suspension of Medicare
payments is warranted under applicable federal regulations and, as appropriate, whether and when a
suspension may be rescinded. See 42 C.F.R. § 405.375.
As stated in the Notice of Suspension (Notice), dated March 17, 2020, the suspension of Abet Life's
Medicare payments is based on credible allegations of fraud. See 42 C.F.R. § 405.37l(a)(2).
Specifically, the suspension of your Medicare payments is based on, but not limited to, information that
Abet Life misrepresented services billed to the Medicare program by submitting claims that did not meet
the criteda for skilled nursing care. More particularly, the documentation Abet Life submitted to
support its claims did not support that the services provided were of an inherent complexity that they
could have only been performed safely and/or effectively by or under the general supervision of a skilled
nurse and/or therapist.

In your rebuttal, you assert, on behalf of Abet Life, the following statements for consideration:
1. "The impact of the Medicare payment suspension threatens the very viability o(Abet Life. The
provider derives almost some 90% ofits revenues from treating sick and elderly Medicare
patients .... ifthe provider is not paid [or these home health services, it cannot pay its
employees .... Consequently, Abet Life will soon be forced to shut down and fi/,e bankruptcy."
While we understand the operational difficulties that CMS's decision to suspend Medicare payments
may cause to providers, once it is dete1mined that credible allegations of fraud exist, and that an
investigation is therefore warranted, payment suspension enables CMS to protect pro,~!.lll,dA,whi]e

Qlaran t

o~~a.RWmftn

.. I

14643 Dallas Parkway, Suite400 • Dallas, Texas 75254 -1613B;.,

App. 139

EXHIBIT

~

I:'-,

Case: 20-20399

Document: 00515504825

CMS

Page: 28

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW}

Cl'NJERS FOR MEDIC~RE & MEDIC.4.10 SQl\'IC8

the government completes its investigation. Because of the potential impact of a payment suspension,
CMS takes great care when assessing whether to impose or continue a payment suspension. CMS has
determined that the continued suspension of Abet Life's Medicare payments is w:manted during the
ongoing investigation.

2. "If Abet Life is forced to close. the home care provider's patients will have to obtain home health
·
services elsewhere. Due to the COVID-19 outbreak securing such services is an
uncertainty....Indeed, with the prospect of burgeoning post-hospital coronavirus stays combined
with an agency's achieving this perfect balance ['between the safety of their sta(fwid caring for
the patients that they have'[. it will undoubtedly result in a scramble to obtain home health
services because of COVID-19."
"At this time, home health services are especially critical to patients ... because it may become the
only mode of healthcare for such patie11ts due to the shelter in place restrictions and limited
access to hospitals as well as other providers and practitioners."
" ... Federal regulations provide that CMS may find good cause exists not to suspend a provider's
Medicare payments over credible allegations of fraud where it is determined that beneficiary
access to items or services would be so ieopardized by a payment suspension in whole or in part as
to cause a danger to life or health. 42 C.F.R. § 405.371(b)(l )(ii). It is a clear abuse of discretion
for CMS to not find that good cause exists here where the COVfD.J9 pandemic and the surge of
confirmed coronavirus cases will soon overwhelm our nation's hospitals and have a cascading
effect on ancillary providers, including home health agencies like Abet Life."
"Patients at Abet Life have a constitutional right to access safe and reliable services under the
federal Medicare program.... The government's ill-advised suspension will essentially deprive
Abet Life's patients of their constitutional right to access healthcare."
CMS is very sensitive to the needs of Medicare beneficiaries and has reviewed beneficiary access to
home health care services in the areas served by Abet Life. Abet Life is a home health agency located in
Missouri City, Texas, which is in Fort Bend County. The home health market area consists of Fort Bend
County and its adjacent counties (Austin, Brazoria, Hanis, Waller and Wharton County in Texa<;).
There are 510 similar providers active in the market area. There are 384 similar providers located within
a 20-mile, straight-line radius of Abet Life, Inc. Abet Life, Inc. had 0.15% of beneficiaries, 0.15% of
claims, and 0.16% of payments for home health market share in the market area. Based on CMS's
assessment of access to care due to the operation of other home health care agencies in the areas served
by Abet Life, CMS has determined that the payment suspension will not jeopardize the ability of Abet
Life's patients to obtain home health care services from other providers in the market area if Abet Life is
unable to provide beneficiaries with services. Therefore, CMS declines to find good cause to terminate
the suspension under 42 C.F.R. § 405 .371 (b)( I )(ii).

3. "Payment suspension is improper in the midst of the COVID-19 outbreak because it threatens the
viabilit}' of Abet Life and ieopardizes the health and safety of its patients. It is especially so where
the basis for the suspension is insufficient documentation."

Qlarant

14643 Dallas Parkway, Suite 400 • Dallas, Texas 75254 -1613 • www.qlarant.com

App. 140

Case: 20-20399

Document: 00515504825

Page:29

CMS

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

ctNlERS FOR MEOICAllt J MEDICJ\ID SDVIC6

CMS has used its authodty granted under section l 8 I 2(f) of the Social Security Act to take proactive
steps respond to the 2019 Novel Coronavirus Disease (COVID-19) emergency. CMS has issued
waivers allowing regulatory flexibilities to help healthcare providers contain the spread of COVID-19. 1
CMS has also issued blanket waivers that relax certain requirements for Medicare providers and
suppliers - including home health providers - from March 1, 2020 through the end of the COVID-19
emergency declaration. 2 While CMS has issue waivers regarding borne health requests for anticipated
payments, reporting, initial assessments, and onsite aide supervision to respond to COVID-19, 3 CMS
has not issued waivers that eliminate the statutory and regulatory requirements for home health services
or stopped home health payment suspensions based on credible allegations of fraud.
CMS can only pay for home health services that comply with Medicare statutes and regulations. Those
statutes and regulations require that the documentation provided to support claims demonstrate that the
services provided were reasonable and necessary and met Medicare crite1ia for coverage. Qlarant's
review indicates that there have been ongoing concerns related to Abet Life's documentation of services
billed to Medicare. The Medicare administrative contractor first denied claims following its review
because documentation did not support the medical necessity for therapy services and/or the Plan of
Care (POC) was not submitted with the requested documentation in 2016 and 2019. Abet Life
subsequently received education on appropriate billing on May 1, 2016. and again. on May 10, 2019.
Qlarant's subsequent post-payment review of claims in 2019 also indicated that, with respect to billed
skilled nursing services, the documentation did not support the services bi1led or meet the criteria for
skilled nursing care, and, with respect to billed therapy services, documentation received did not meet
the guidelines for continued therapeutic activity that required the skills of a qualified therapist.
Qlarant conducted a second post-pay medical review in January 2020 for ten (10) beneficiaries and 44
claims were reviewed, of which 43 were denied resulting in a 97 .7% error rate. Qlarant's reviewers
found that the documentation submitted did not support that the services billed met Medicare guidelines
for home health services. Specific examples of these findings are as follows:
The signatures of the home health agency employees, therapist and beneficiaries were
reported to be saved electronically; however, there were no time stamps to suppoI1 that
the signatures on the majority of the documentation was an electronically saved
signature. Electronic signatures did not include an e-signature declaration statement;
The skilled nurse visit forms contained check boxes, which were observed to be the
same/redundant infomrntion with the majority of the visit. Much of the additional
information recorded did not change from one visit to the next, per beneficiary record,
related to their diagnosis and assessment comments.
Home health aide notes were in a check box format without additional comments added;

1
lnformation regarding CMS's COVID-19 waivers and flexibiliti es can be viewed at ht1ps://www.cms.gov/aboutcms/emergency-preparednes~-response-operations/cun-cnt-crnergencies/coronavirus-waivers.
2
A list of CMS's blanket waivers as of April 9. 2020 can be viewed at htlps://www.cms.gov/liles/document/summary-covid19-emergency-<leclaration-wai vers.Qdf.
~ See https://www.cms.gov/files/document/surnmary-covid-19-emergencv-declaration-w,1ivers.pdf at page 14.

Qlarant

14643 Dallas Parkway, Suite 400

App. 141

•

Dallas, Texas 75254 -16,.3 • www.qlarant.com

Case: 20-20399

Document: 00515504825

CMS

Page: 30

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

C!NTElt5 FOii /,ITOICARE & MEDICAID SUVICES

The documentation did not clearly indicate the beneficiary had a recent exacerbation of a
chronic illness, decline in function and/or an inpatient stay that required additional
observation, monitoring or education;
-

The documentation did not support the services were of an inherent complexity that they
could have only been performed safely and/or effectively only by or under the general
supervision of a skilled nurse and/or therapist;
Many of the beneficiary records did not include required face-to-face documentation to
support the home health services or the beneficiary was eligible to receive services under
the Medicare home health benefit, or the records did contain face-to-face encounter
forms, but the documen'ts did not include a brief narrative describing how the patient's
clinical condition, as seen during that encounter, supported the patient's need for skilled
services;
The majority of the records did not include documentation from the certifying physician
to corroborate the need for the home health services nor did the records include additional
information related to the most recent hospitalization or decline in health/function to
support the services as billed; and

-

Multiple inconsistencies related to the beneficiaiies· functional abHities were found
throughout the review where the OASIS, physician/hospital documentation, nursing notes
and therapy documentation were not consistent with ability to ambulate, transfer or
bedbound status. For example, a beneficiary was noted to be unable to ambulate or was
bedbound, yet therapy evaluation or nursing notes would document ability to
walk/transfer/toilet oneself with use of a rolling walker and supervision.

-

The nursing notes included in the records, related to wound care, did not include up to
date measurements for the wounds;
When the beneficiaries had diagnosis of hearL and/or kidney disease, with or without
diuretics, the nursing notes did not regularly include cmTent weight for the date of
service. It was noted many times throughout multiple records that the beneficiary was
unable to stand on the scale so the home health staff wac; unable to obtain a weight.

-

The majority of the nursing notes included a statement of "progressing, but behind
schedule", yet did noL include an explanation of the lack of progress or plateau in
progression toward the goals; and
Multiple electronic physician visit/encounter notes did not include a signature or
electronic signature on the record.

Qlarant

14643 Dallas Parkway, Suite 400 • Dallas, Texas 75254 -1613 • www.qJarant.com

App. 142

Case: 20-20399

Document: 00515504825

CMS

Page: 31

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

0:NTE85 FOR MEDIG\Rf & MEDICAID 5EltVla5

Furthermore, CMS received an OIG fraud hotline complaint against Abet Life alleging that Abet Life
~srepresented services billed to Medicare by falsifying documents related to home health claims.
Accordingly, CMS has determined that it will continue the payment suspension because it has received
credible allegations of fraud that Abet Life misrepresented services that it billed to the Medicare
program from a fraud hotline complaint, claims data mining and patterns identified through provider
audits.

4. "Abet Life has a constitutional right ill payments for services rendered and now indefinitely
suspended. HHS violates Due Process of law by imposing the action during the COVID-19
pandemic a11d emergency without exte,iding the provider notice and a right to a hearing to contest
the Medicare payment suspension. There is a high risk that Abet Life will be erroneously deprived
of its property interest in Medicare payments it has earned for services re,idered and indefinitely
withheld by suspension, ... because the provider is 11ot entitled under the available process to
notice and an opportunity for hearing to dispute and contest the suspension, and there is
absolutely no established time frame for resolving the investigation of the claims underlying its
imposition."
It is the Medicare Act, and not the U.S. Constitution that authorizes CMS to pay Abet Life for home
health services rendered to Medicare beneficiaries. The Medicare Act authorizes payment for home
health services only if those services meet the requirements of 42 U.S.C. § 1395f(a)(2)(C). To receive
payment for .home health services, that statute requires that a physician has a face-to-face encounter with
the beneficiary and documents the need for home health services, those services are provided under the
care of the physician and that the beneficiary receives skilled nursing care. As explained above, we have
credible allegations that the home health services that Abet Life is currently providing do not meet the
statutory requirements.
The Medicare Act also allows CMS to suspend Medicare payments to Abet Life until the government
completes its fraud investigation. Pursuant to 42 U.S.C. § l 395y(o), if CMS receives a credible
allegation of fraud, it may suspend payments to a provider pending an investigation of a credible
allegation of fraud . Payment suspension is authorized to enable CMS to protect Medicare program
funds while the government completes its investigation of providers for which credible allegations of
fraud exist. Pursuant to 42 C.F.R. § 405 .372(a)(3), a payment suspension may be imposed without prior
notice if CMS, the intennediary, or carrier determines that the Medicare Trust Fund would be harmed by
giving prior notice. While the payment suspension action is not appealable, if CMS ultimately
determines that Abet Life bas received an overpayment, Abet Life has the opportunity to appeal the
overpayment determination through five levels of administrative adjudication as well as judicial review.
Also, payment suspension terms, where there are credible allegations of fraud, are not indefinite, as you
have asserted. Payment suspensions are temporary and do not continue if CMS finds good cause not to
continue the suspension under 42 C.F.R. § 405.371 (b ), or after the resolution of an investigation as
defined in 42 C.F.R. § 405.370.

5. " ... we request that HHS temporarilv rescind the payment suspension during the COVID-19
national emergency."

Qlarant

14643 Dallas Parkway, Suite 400 • Dallas, Texas 75254 -1613 • www.qlarant.com

App. 143

Case: 20-20399

Document: 00515504825

CMS

Page: 32

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

As CMS is aware of credible allegations of fraud related to Medicare claims submitted by Abet Life,
CMS must exercise its authority to protect the Medicare program funds and conduct further
investigation of Abet Life's Medicare billing, and has determined that suspension of Abet Life's
Medicare payments is warranted during the ongoing investigation.
6. "Due to the exigent circumstances caused by the COVID-19 pandemic, we will be filing a lawsuit
in fed.era/ district court asserting our collateral constitutional and statutory claims and seeking
iniunctive and declaratory relief. ... "
Your assertions regarding the potential impact on Abet Life due to the COVID-19 national emergency
may be considered within the ongoing investigation into Abet Llfe' s billing. However, the COVID- 19
national emergency does not justify terminating the suspension. Particularly, when the suspension is
based on credible allegations of fraud. CMS has determined that in order to protect the Medicare Trust
Fund, suspension of Abet Life's Medicare payments is necessary during the ongoing investigation into
these credible allegations of fraud.

In conclusion, after a careful review of Abet Life's rebuttal, consideration of the documents submitted, the
OIG fraud hotline complaint, Abet Life's billing history, prior education and the absence of access to care
issues, CMS has decided to continue the suspension of Abet Life's Medicare payments due to credible
allegations of fraud. See 42 C.F.R. § 405.375. While CMS's determination to continue the suspension is
not appealable, CMS will consider any additional information and/or evidence Abet Life may submit.
Please contact the undersigned in writing should you have any questions about this matter.

d~

Sincerely,

S. Scott Ward, CFE, AHFI
Program Director
Qlarant Integrity Solutions, LLC

Qlarant

14643 Dallas Parkway, Suite 400 • Dallas, Texas 75254-1613 • www.qlarant. com

App. 144

Case: 20-20399

Document: 00515504825

~~ Vou!Jo~J;!Y
March 27, 2020

Page: 33

Date Filed: 07/27/2020

Via FedEx Delivery

Alex M. Azar II, Secretary
U.S. Dept. of Health & Human Services
Hubert Humphrey Building
200 Independence Avenue, S.W.
Washington, D.C. 20201
RE:

Presentment of Claim
Notice of Suspension of Medicare Payments
Provider Medicare ID Number: 747811
Provider NPI: 1417239682
Record Identifier: PSP-200305-00002

Dear Secretary Azar:
Our finn represents Abet Life, Inc. (hereinafter" Abet Life"), a Medicare home care provider
located in Missouri City, Texas. We have been retained to respond to the March 17, 2020 Notice of
Suspension of Medicare payment that became effective on March 12, 2020. A copy is enclosed. We also
enclose an Appointment of Representative. This is to give formal notice of presentment of our client's
collateral constitutional and statutory claims. As explained below, we request that HHS temporarily
rescind the payment suspension during the COVID-19 national emergency. Due to the exigent
circumstances caused by the COVID-19 pandemic, we will be filing a lawsuit in federal district court
asserting the collateral constitutional claim and seeking injunctive and declaratory relief on Monday,
March 30, 2020. However, we are presenting our claims in our hope of obtaining an amicable resolution
and your agreement to temporarily rescind the suspension during the COVID-19 national emergency.
Background Information
On March 17, 2020, CMS issued its Notice of Suspension of Medicare Payments. The
suspension took effect on March 12, 2020. The suspension was brought under 42 C.F.R. §40S.37l(aX2)
and alleges a "credible allegation of fraud." However, the list of sample claims indicates that the basis for
the payment suspension is that "Documentation does not support the services billed met criteria for
skilled nursing services." The garbled recitation apparently indicates insufficient documentation as the
reason for the action. As a result of the suspension action, all Medicare payments owed to the provider
are being withheld pending resolution of the ongoing investigation.
Unfortunately, the suspension action could not come at a worse time. President Donald Trump
declared a national emergency over the COVID-19 outbreak on March 13, 2020. The surge in confirmed
coronavirus cases is overwhelming our nation's hospitals. And it is having a cascading effect on ancillary
providers and practitioners as well. Recently, CMS issued Guidance for Infection Control and Prevention
Concerning Coronavirus Disease 2019 (COVID-19) in Home Health Agencies (HHAs). Suffice it to say,
Medicare home care providers will face tremendous challenges as they attempt to treat an ever-growing
patient base and at the same time screen patients at risk for having COVID-19 infection.
The impact of the Medicare payment suspension threatens the very viability of Abet Life. The
provider derives almost some 90% of its revenues from treating sick and elderly Medicare patients.
Obviously, if the provider is not paid for these home health services, it cannot pay its employees, the care
givers to these very needy patients. Consequently, Abet Life will soon be forced to shut down and file
bankruptcy.

-·-····----··---~----!_

12222 Merit Drive, Suite 1750 • Dallas, Texas 75251 • ph. 214.445.0740 • Ix. 972.661 .9320
markkennedylaw.com

App. 145

EXHIBIT

I f

Case: 20-20399

Document: 00515504825

Page:34

Date Filed: 07/27/2020

If Abet Life is forced to close, the home care provider's patients will have to obtain home health
services elsewhere. Due to the COVID-19 outbreak securing such services is an uncertainty. In fact,
home care agencies in Texas are now in crisis due to the pandemic. Recently, National Association for
Home Care & Hospice President William Dombi commented that "This is one of those times when the
home health agencies have to figure out where the balance is to be struck between the safety of their staff
and caring for the patients that they have." Indeed, with the prospect of burgeoning post-hospital
coronavirus stays combined with an agency's achieving this perfect balance, it will undoubtedly result in
a scramble to obtain home care services because of COVID-19.

Issues & Contentions
At issue in this case is HHS's improper use of suspension under 42 C.F.R. §405.37l(a)(2). We
contend that HHS's use of suspension in the midst of the national COVID-19 emergency is improper for
the following reasons:
1. Payment suspension is improper in the midst of the COVID-19 outbreak because it threatens
the viability of Abet Life and jeopardizes the health and safety of its patients. It is especially
so where the basis for the suspension is insufficient documentation. At this time, home health
services are especially critical to patients confined to their homes during the ongoing
COVID-19 pandemic because it may become the only mode of healthcare for such patients
due to the shelter in place restrictions and limited access to hospitals as well as other
providers and practitioners.
2. Importantly, Federal regulations provide that CMS may find good cause exists not to suspend
a provider's Medicare payments over credible allegations of fraud where it is determined that
beneficiary access to items or services would be so jeopardized by a payment suspension in
whole or in part as to cause a danger to life or health. 42 C.F.R. §405.371 (b)(l)(ii). It is a
clear abuse of discretion for CMS to not find that good cause exists here where the COVID19 pandemic and the surge of confirmed coronavirus cases will soon overwhelm our nation's
hospitals and have a cascading effect on ancillary providers, including home health agencies
like Abet Life. Indeed, it not only will force Abet Life to shut down, it will place an even
greater burden on our healthcare community that is already on the brink of collapse.
3. Abet Life has a constitutional right in payments for services rendered and now indefinitely
suspended. HHS violates Due Process of Jaw by imposing the action during the COVID-19
pandemic and emergency without extending to the provider notice and a right to a hearing to
contest the Medicare payment suspension. There is a high risk that Abet Life will be
erroneously deprived of its property interest in Medicare payments it has earned for services
rendered and indefinitely withheld by suspension, pursuant to 42 C.F .R. §405 .3 71 (a)(2),
because the provider is not entitled under the available process to notice and an opportunity
for hearing to dispute and contest the suspension, and there is absolutely no established time
frame for resolving the investigation of the claims underlying its imposition.
4. Patients at Abet Life have a constitutional right to access safe and reliable services under the
federal Medicare program. I-IBS violates these patients' right to access such healthcare by
imposing the suspension during the COVID-19 pandemic. Since President Donald Trump
declared a national emergency because of COVlD-19 on March 13, 2020, the surge of
confirmed coronavirus cases is overwhelming our nation's hospitals. And it is having a
cascading effect on ancillary providers and practitioners as well. The government's illadvised suspension will essentially deprive Abet Life' s patients of their constitutional right to
access healthcare.

21Page

App. 146

Case: 20-20399

Document: 00515504825

Page:35

Date Filed: 07/27/2020

Conclusion
For these reasons, we are giving presentment of our client's collateral constitutional and statutory
claims. Critically, the ultra vires actions of HHS threaten the very viability ofthe home care provider. It
also jeopardizes the health and safety of the provider's patients as well as deprives them of their
constitutional right to access healthcare. Accordingly, we request that HHS immediately temporarily
rescind the Medicare payment suspension and place the provider in payment status during the COVID-19
national emergency. Home care providers are a crucial component in responding to this health
emergency, and imposing suspension based on allegations of insufficient documentation only exacerbates
the existing crisis. Indeed, 42 C.F.R. §405.371 (b)(ii) contemplates that suspension should not be imposed
under these circumstances. Due to the exigent circumstances caused by the COVID-19 pandemic, we
will be filing a lawsuit in federal district court asserting our collateral constitutional and statutory claims
and seeking injunctive and declaratory relief on Monday, March 30, 2020. Again, we are presenting our
claims in our hope of obtaining an amicable resolution and your agreement to temporarily rescind the
suspension during the COVID-19 national emergency.
Please contact my office immediately so that we can amicably resolve this matter. We look
forward to your prompt response.
Sincerely,

Mark S. Kennedy
Enclosures
cc:

Abet Life, Inc.

3IPage

·--- --···-·~·

-

.~-·-- --- - -

App. 147

Case: 20-20399

Document: 00515504825

Page:36

Date Filed: 07/27/2020

DEPARTMENT OF HEALTH ANO HUMAN SERVICES
CENTERS FOR MEDICARE & M&OICAIO SERVICES

Fiwm Approw:d

0MB No. 0938-o950

APPOINTMENT OF REPRESENTATIVE

Medicare Number (beneficiary as party) or National Prollider Identifier
Number (provider as party)

Name of Party

1417239682

Abet Life, Inc.

Section 1: Appointment of Representative
To be completed by the pa

edlcare beneficiary, the provider or the supplier):

to act as my representative in connection with my
I appoint this individual,
claim or asserted right under Title XVIII of the Social Security ct (the "Act") and related provisions of Tttle XI of the Act. I
authorize this Individual to make any request; to present or to elicit evidence; to obtain appeals information; and to receive
any notice in connection with my appeal, wholly in my stead. I understand that personal medical information related to my
appeal may be disclosed to the representative indicated below.

City

State

TX

Missouri City

Zip Code

77459

Section 2: Acceptance of Appointment
o be co plet,cf by !be.rep

T
1

entative:

/

--f-+-J.ll>l..._...;L;::::..~J~--'-.1.....'>~...:....:...u.J.L.:.~- , hereby accept the above appointment. I certify that I have not been

disqualified, suspended, or prohibited fr
practice before the Department of Health and Human Services {DHHS); that I am
not, as a current or former employee of tKe United States, disqualified from acting as the party's representative; and that I
recognize that any fee may be subject to review and approval by the Secretary.
I am a / an
attorney
ip to the party, e.g. attorney, relative, etc.)

Street Address

Phone Number (with Area Code)

12222 Merit Dr., Suite 1750
State

City

TX

Dallas

(214) 445-0740
Zip Code
75251

Section 3: Waiver of fee for Representation
Instructions: This section must be completed If the representative Is required to, o, chooses to waive their fee fOf
representation. (Note that providers or suppliers that are representing a beneficiary and furnished the items or services may
not charge a fee for representation and must complete this section.)
1waive my right to charge and collect a fee for representing
DHHS.

before the Secretary of

Signature

Section 4: Waiver of Payment for Items or Services at Issue
Instructions: Provlder5 or suppliers serving a5 a representative for a benefidary to whom they provided items or servkes
must complete this section if the appeal Involves a question of liability under section 1879(a)(Z) of the Act. (Section 1879(a)
(2) generally addresses whether a provider/supplier or beneficiary did not know, or could not reasonably be expected to
It now, that the items or services at issue would not be covered by Medicare.)
I waive my right to collect payment from the beneficiary for the items or services at issue in this appeal if a determination of
liability under § 1879(a}(2) of the Act is at issue.
Signature

Form CMS-1696 (11/15)

App. 148

:~

Case: 20-20399

Document: 00515504825

Page: 37

Date Filed: 07/27/2020

Unified Program Integrity Contractor

South Western Jurisdiction (UPICSW)

March I 7, 2020
Abet Life, Inc .
4502 Riverstone Blvd, Suite 502
Missouri City, TX 77459-5200

Re:

Notice of Suspension of Medicare Payments
Provider Medicare ID Number: 747811
Provider NPl: 1417239682
Record Identifier: PSP-200305-00002

Dear Abet Life, inc.:
The purpose of this letter is to notify you of our dete1111ination to suspend your Medicare payments
pursuant to 42 C.F.R. ~ 405.37 l (a)(2). The suspension of your Medicare payments took effect on
March 12, 2020. Prior notice of this suspension was not provided, because giving prior notice would
place additional Medicare funds at risk and hinder our ability to recover any determined overpayment.
See 41 C.F.R. § 405.372(a)(3) .
The decision to suspend your Medicare payments was made by the Centers for Medicare & Medicaid
Services (CMS) through its Central Office. 42 C.F.R . ~ 405.372fa)(4°)( iii). This suspension is based on
credible allegations of fraud . CMS regulations define credible allegations of fraud as an allegation from
any source including, but not limited to, Fraud hotline complaints, claims data m ining, patterns
identified through audits, civil false claims cases, and law enforcement investigations. Allegations are
considered to be credible \vhen they have indicia of reliability. 42 C.F.R. § 405.370. This suspension
may last until resolution of the investigation as defined under 42 C.F.R. § 405 .370 and may be extended
under certain circumstances. 42 C.F.R. § 405 .372(d)(3)(i)-(ii). Specifically, the suspension of your
Medicare payments is based on, but not limited to, information that yo u misrepresented services billed
to the Medicare program by submitting claims that did not meet the criteria for skilled nursing care.
More particularly, the documentation you submitted to support the claims did not support that the
services provided were of an inherent complexity that they could have only been performed safel y
and/or effectively by or under the general supervision of a skilled nurse and/or therapist.
The following list of sample claims provide evidence of our findings and serve as a basis for the
determination to suspend your Medicare payments:

;~:~~;7~~i)

\ 2!622l042.18207TXR

Date(s) of Service

~646~ocumentation does not support ;
j theservicesbilledmetcriteriafor !
I
_J
f
skilled nursing care.
'121628801324507TXR
07 /28/2016- - 1-·-$ 1,646 .53··t
Documentationdoesnotsuppon
I
the services billed met criteria for
1...._ _ _ _ __ _ _..1..1_ __ 0_9_1_'2_5_!2_0_1_6 __
1·

I

Qlarant

05/29/201607/27/2016

I A;;;"'T _ Basis for Selected Clain;- ~

I

_j_ ____

14643 Dallas Parkway, Suire 400 • Dallas, Texas 75254 -1613 • www.qlarant.com

App. 149

Case: 20-20399

Document: 00515504825

Page: 38

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)
CfNTtR5 FOIi M!DKARf & MEOKAID SEC\'ICE!i

21806104303107TXR

12/14/201702/11/2018

2 l 8 l 2903346207TXR· t i

02/ 12/20 1804/12/201 8

21817100750607TXR \

04/13/201806/1 J /20 I 8

!
j

ll

skilled nursing care.
Documentation does not support
the services billed met criteria for
skilled nursin care.
1
$2, 180.92 -·T Documentation does not support
the services billed met crite1ia for
skilled nursino care.
·,
$ 1,593 .06
Documentation does not support i
the services billed met criteria for \
sk illed nursing care.
!
$2,180.92

I

l

l

' - - - - ' -I- - - - - - -·~

This list is not exhaustive or complete in any sense, as the investigation into this matter is continuing.
The information is provided by way of example in order to furn ish you with adequate notice of the basis
for the payment suspension noticed herein .
Pursuant to 42 C.F .R. § 405.372(b)(2), you have the right to submit a rebuttal statement in writing to us
indicating why you believe the suspension should be removed. We request that you submit this rebuttal
statement to us within J 5 days. You should include with this statement any evidence you believe is
pe,tinent to your reasons why the suspension should be removed. Your rebuttal statement and any
pertinent evidence should be sent to:
Qlarant Integrity Solutions, LLC
Attn: Rebuttal and Suspension Department
14643 Dallas Parkway, Suite 400
Dallas, TX 75254
If you submit a rebuttal statement, we will review that statement (and any supporting documentation)
along with other materials associated with the case. Based on a careful review of the information you
submit and all other relevant i nfonnation known to us, we wil l determine whether the suspens ion should
be removed, modified, or should remain in effect within 15 d ays of receipt of the complete rebuttal
package. However, the suspension of your Medicare funds will continue while your rebuttal package is
being reviewed. Thereafter, we will notify you in writing of our dete1mination to continue or remove
the suspension and provide specific findings on the conditions upon which the suspension may be
continued or removed, as well as an explanatory statement of the detennination. 42 C.F.R. §
405.375(b)(2). This determination is not administratively appealable. 42 C.F .R. § 405.375(c).
If the suspens ion is continued, we wil I review additional evidence during th e suspension period to
determine whether claims are payable and/or whether an overpayment exists and, if so, the amount of
the overpayment. See 42 C.F.R. § 405 .3 72(c). We may need to contact you with specific requests for
further information. You will be informed of developments and will be promptly notified of any
overpayment dete1mination. Claims will continue to be processed during the suspension period, and

Olarant·.·
- - - ------·

_____________________

24643 Dallas Parkway, Suite
400 • Dallas, Texas 75254-1613 • www.qtarant.com
·- .....

App. 150

Case: 20-20399

Document: 00515504825

tCMs

Page: 39

Date Filed: 07/27/2020

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW}

~"tNlUIS fOR MfDICAlE 6 MEDIC.MO Sfll'i!Cl'S

you will be notified about bill/claim determinations, including appeal rights regarding any bills/claims
that are denied. The payment suspension applies to both cu!1"ent and future payments.
In the event that an overpayment is determined and it is determined that a recoupment of payments
under 42 C.F.R. § 405.37l(a)(3) should be put into effect, you will receive a separate written notice of
the intention to recoup and the reasons. You will be given an opportunity for rebuttal in accordance with
42 C.F.R. § 405.374 from Palmetto GBA. When the payment suspension has been removed, any money
withheld as a result of this action shall be first be applied to reduce or eliminate the determined
overpayment and then to reduce any other obligation to CMS or to the U.S. Department of Health and
Human Services in accordance with 42 C.F.R. § 405.372(e). [n the absence of a legal requirement that
the excess be paid to another entity, the excess will be released to you.
Should you have any questions, please contact Patrick Hughes in writing or via telephone at 972-3830000.
Sincerely,

S. Scott Ward, CFE. AHFT
Program Director
Qlarant Integrity Solutions, LLC
cc: Centers for Medicare & Medicaid Services

Olarant;:

14643 Dallas Parkway, Suite 400 • Dallas, Texas 75254 -1613 • www.qlaranc.com

App. 151

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
ABET LIFE, INC.,
Plaintiff,
vs.
ALEX M. AZAR II, Secretary,
UNITED STATES
DEPARTMENT OF HEALTH
AND HUMAN SERVICES,
Defendant.

§
§
§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 4:20-cv-1169

DECLARATION UNDER PENALTY OF PERJURY OF JAN SPEARS
I, Jan Spears, hereby declare:
1.

“My name is Jan Spears. I am competent to make this declaration. The facts stated

in this declaration are within my personal knowledge and are true and correct.
2.

I am a healthcare consultant and have more than 35 years of experience in home

health and physician billing, collections, medical compliance, appeals, provider education, and
legal defense. I was the founder of MJS & Associates, L.L.C., a Texas healthcare consulting
firm, with knowledgeable staff certified in many different healthcare areas, such as CPT and
ICD-10 coding, Medicare Reimbursement rules, Medicaid regulations, and other critical
healthcare areas. MJS & Associates assists providers and practitioners in nearly every aspect of
billing and account recovery, with specific expertise in the healthcare delivery system,
specializing in medical billing, coding, education, and infusion services for physicians, home
health, hospice, and other providers.
3.

In addition, I have acted as an expert witness and testified in various criminal,

civil and administrative cases on Medicare, Medicaid, home health operations, and other

App. 152

reimbursement and payment issues. Details of my experience can be found in my curriculum
vitae (A true and correct copy is attached hereto as Exhibit A).
4.

I am familiar with the operations of Abet Life, Inc. (Abet Life), a home care

provider that services patients in the greater-Houston-area. I am aware it employs some 30
bilingual caregivers and has a diverse census of approximately 35 patients, and I understand that
the provider derives approximately 90% of its revenue from Medicare payments.
5.

Typically, home health patients have recently experienced hospitalization or

frequent emergent care treatment before their admission to the provider. These are patients
suffering from serious and chronic conditions such as heart disease, lung disease (COPD),
hypertension, diabetes, cancer, neurological diseases (strokes) and other serious illnesses
complicated by the presence of other co-morbidities that require monitoring by skilled
professionals. Interventions performed by the home health team often include procedures that
were previously performed only in institutional care settings, but now are provided to the patient
within the home setting. Examples of these are complex wound care treatments, medications
administered through IV therapy and other invasive procedures.
6.

In my role as a healthcare consultant, I became aware in January 2020 of the novel

Coronavirus outbreak and the ensuing COVID-19 epidemic that began to impact the United States,
as well as the State of Texas, and the greater-Houston area.
7.

A national emergency because of the COVID-19 pandemic was declared by

President Donald Trump March 13, 2020
8.

Governor Gregg Abbott also declared a state of disaster in Texas due to COVID-

19 on March 13, 2020.

Page 2 of 6
App. 153

9.

I am familiar with the U.S. Government COVID-19 Response Plan that was issued

when the national emergency was declared outlining the coordinated federal response activities
for COVID-19. The Government's response plan makes two things clear: (1) the pandemic "will
last 18 months or longer" and (2) the COVID-19 outbreak will result in the implementation of
drastic measures to contain its spread throughout the nation. In fact, society as a whole is now
faced with strict containment and social distancing measures for an extended period of time.
10.

Recently, Dr. Deborah Birx, White House Coronavirus Response Coordinator, has

reported that U.S. deaths cause by COVID-19 may be catastrophic. She said that Dr. Anthony
Fauci, National Institute of Allergies and Infectious Diseases, has predicted U.S. deaths could
range from 1.6 to 2.2 million in a worst case scenario and projects 100,000 to 200,000 in a best
case scenario. With the surge of confirmed coronavirus cases, America’s hospitals are being
overwhelmed, and hospitalization for non-COVID-19 patients is greatly limited. The pandemic
is having a cascading effect on ancillary providers and practitioners, including home health
agencies.
11.

I was informed by Abet Life that on March 17, 2020, Qlarant issued the provider a

notice of suspension of Medicare payments. (A true and correct copy is attached hereto as Exhibit
B). The suspension action was brought under 42 C.F.R. §405.371(a)(2) and alleges a “credible
allegation of fraud.” As a result of the suspension action, all Medicare payments owed to the
provider are being withheld pending resolution of the ongoing investigation.
12.

In my experience, the underlying reason for Medicare payment suspension of home

health agencies is typically deficient documentation. The CMS notice letter indicated that it based
its decision to suspend upon its belief that “the documentation you submitted to support the claims
did not support that the services provided were of an inherent complexity that they could have only

Page 3 of 6
App. 154

been performed safely and/or effectively by or under the general supervision of a skilled nurse
and/or therapist.” In fact, the list of sample claims that illustrate the basis for the payment
suspension states: “Documentation does not support the services billed met criteria for skilled
nursing services.”
13.

Having been advised that approximately 90% of Plaintiff’s revenues are from

Medicare, it is clear to me that the provider cannot sustain operations, and the impact of the
Medicare payment suspension threatens to force Plaintiff’s closure.
14.

CMS should have found good cause exists not to suspend Plaintiff’s Medicare

payments because beneficiary access to items or services would be so jeopardized by a payment
suspension as to cause a danger to life or health.

The federal regulation at 42 C.F.R.

§405.371(b)(1)(ii) provide that CMS may find that good cause exists not to suspend payments or
not to continue to suspend payments to an entity against which there is a credible allegation of
fraud if it is “determined that beneficiary access to items or services would be so jeopardized
because such a payment suspension in whole or part as to cause danger to life or health.” (A true
and correct copy is attached hereto as Exhibit C).
15.

I strongly believe that good cause exists to not impose the suspension against Abet

Life, because the COVID-19 pandemic and the surge of confirmed coronavirus cases is having an
overwhelming impact on America’s healthcare system, including Texas home health agencies,
especially those servicing the great-Houston area which has the highest rate of confirmed COVID19 cases in the state. The home health industry, particularly in the greater Houston area (Harris,
Montgomery, Fort Bend, Austin, Brazoria, Waller, and Wharton Counties), has seen a significant
uptick in the number of positive COVID-19 cases in both the patient communities and the agency’s
staff. As of July 18, 2020, the number of cases in these counties has now reached 23,600 confirmed

Page 4 of 6
App. 155

with the most of these cases occurring since June 1, 2020. The Houston area has been designated
by the governor as a “hot spot” for spread of the virus. The governor has issued a state-wide order
for face coverings and has restricted elective surgeries in Harris county due to the overflow of
COVID-19 cases placing extreme hardship on Houston hospitals. Texas is now ranked fourth
among the states for total number of COVID-19 cases.
16.

While Abet Life has informed me that that the government’s Medicare payment

suspension will force the provider to shut down very soon, I believe such action places an even
greater burden on the greater-Houston healthcare community. Home health services are especially
important now when patients are being encouraged to stay in their homes during the COVID-19
pandemic and not seek hospital services, if possible.
17.

It is my opinion that CMS has imposed the suspension even though its impact will

force Abet Life’s closure and despite the fact it jeopardizes the health and safety of patients of the
provider and their access to essential healthcare services.
18.

I am especially concerned that during the current COVID-19 outbreak, Abet Life’s

patients may only be able to access essential healthcare under the Medicare program through their
present home health agency. I am aware that healthcare access is now more limited and homecare
providers (as well as physicians) are reticent to accept new or transferred patients. Access is a
larger issue that the number of home health agencies licensed in an area. It involves all aspects of
care, from hospital to physician to non-facility-based providers, such as home health. Even if a
transfer could be arranged for Abet’s patients, the patients and families are reluctant to try a
different agency for fear of exposure to COVID-19. There is security in knowing the company, its
policies and its staff that contributes to the mental and physical well-being of the patients during
this highly stressful time. As of the date of this declaration, Abet Life, Inc. continues to provide

Page 5 of 6
App. 156

care to approximately 15 patients. Those remaining are unwilling or unable to be transferred due
to the patient’s condition and/or refusal to transfer in accordance with the patient’s rights and their
fear of unknown relationships with new providers in the pandemic era. This information was
provided by the owner of the facility on 07/20/2020. The agency continues to employ
approximately 30 caregivers at this time. Consequently, I believe that the government’s Medicare
payment suspension will force the provider’s closure and jeopardizes the health and safety of
Plaintiff’s patients and their access to essential healthcare services.
I declare under penalty of perjury that the foregoing is true and correct.

EXECUTED on July 22, 2020.

JAN SPEARS

Page 6 of 6
App. 157

Via FedEx Delivery
March 27, 2020
Qlarant Integrity Solutions, LLC
ATTN: Rebuttal and Suspension Department
14643 Dallas Parkway, Suite 400
Dallas, TX 75254

RE:

Rebuttal to Suspension of Medicare Payments
Provider Medicare ID Number: 747811
Provider NPI: 141723 9682
Record Identifier: PSP-200305-00002

Dear Sir or Madam:
Our firm represents Abet Life, Inc. (hereinafter "Abet Life"), a Medicare home care provider
located in Missouri City, Texas. We have been retained to respond to the March 17, 2020 Notice of
Suspension of Medicare payment that became effective on March 12, 2020. A copy is enclosed. We also
enclose an Appointment of Representative. This is a rebuttal to the suspension of Medicare payments.
As explained below, we request that HHS temporarily rescind the payment suspension during the
COVID-19 national emergency. Due to the exigent circumstances caused by the COVID-19 pandemic,
we will be forced to file a lawsuit in federal district court asserting the collateral constitutional claim and
seeking injunctive and declaratory relief on Monday, March 30, 2020. However, we are presenting this
rebuttal in our hope of obtaining an amicable resolution and your agreement to temporarily rescind the
suspension during the COVID-19 national emergency.

Background Information
On March 17, 2020, CMS issued its Notice of Suspension of Medicare Payments. The
suspension took effect on March 12, 2020. The suspension was brought under 42 C.F.R. §405.37l(a)(2)
and alleges a "credible allegation of fraud." However, the list of sample claims indicates that the basis for
the payment suspension is that "Documentation does not support the services billed met criteria for
skilled nursing services." The garbled recitation apparently indicates insufficient documentation as the

reason for the action. As a result of the suspension action, all Medicare payments owed to the provider
are being withheld pending resolution of the ongoing investigation.
Unfortunately, the suspension action could not come at a worse time. President Donald Trump
declared a national emergency over the COVID-19 outbreak on March 13, 2020. The surge in confirmed
coronavirus cases is overwhelming our nation's hospitals. And it is having a cascading effect on ancillary
providers and practitioners as well. Recently, CMS issued Guidance for Infection Control and Prevention
Concerning Coronavirus Disease 2019 (COVID-19) in Home Health Agencies (HHAs). Suffice it to say,
Medicare home care providers will face tremendous challenges as they attempt to treat an ever-growing
patient base and at the same time screen patients at risk for having COVID-19 infection.
The impact of the Medicare payment suspension threatens the very viability of Abet Life. The
provider derives almost some 90% of its revenues from treating sick and elderly Medicare patients.
Obviously, if the provider is not paid for these home health services, it cannot pay its employees, the care
givers to these very needy patients. Consequently, Abet Life will soon be forced to shut down and file
bankruptcy.

12222 Merit Drive, Suite 1750

•

Dallas, Texas 75251

•

markkennedylaw.com

App. 158

ph. 214.445.0740

•

fx. 972.661.9320

If Abet Life is forced to close, the home care provider's patients will have to obtain home health
services elsewhere. Due to the COVID-19 outbreak securing such services is an uncertainty. In fact,
home care agencies in Texas are now in crisis due to the pandemic. Recently, National Association for
Home Care & Hospice President William Dom bi commented that "This is one of those times when the

home health agencies have to figure out where the balance is to be struck between the safety of their staff
and caring for the patients that they have." Indeed, with the prospect of burgeoning post-hospital
coronavirus stays combined with an agency's achieving this perfect balance, it will undoubtedly result in
a scramble to obtain home care services because of COVID-19.

Issues & Contentions
At issue in this case is HHS's improper use of suspension under 42 C.F.R. §405.371(a)(2). We
contend that HHS's use of suspension in the midst of the national COVID-19 emergency is improper for
the following reasons:
1.

Payment suspension is improper in the midst of the COVID-19 outbreak because it threatens
the viability of Abet Life and jeopardizes the health and safety of its patients. It is especially
so where the basis for the suspension is insufficient documentation. At this time, home health
services are especially critical to patients confined to their homes during the ongoing
COVID-19 pandemic because it may become the only mode of healthcare for such patients
due to the shelter in place restrictions and limited access to hospitals as well as other
providers and practitioners.

2.

Importantly, Federal regulations provide that CMS may find good cause exists not to suspend
a provider's Medicare payments over credible allegations of fraud where it is determined that
beneficiary access to items or services would be so jeopardized by a payment suspension in
whole or in part as to cause a danger to life or health. 42 C.F.R. §405.371(b)(l )(ii). It is a
clear abuse of discretion for CMS to not find that good cause exists here where the COVID19 pandemic and the surge of confirmed coronavirus cases will soon overwhelm our nation's
hospitals and have a cascading effect on ancillary providers, including home health agencies
like Abet Life. Indeed, it not only will force Abet Life to shut down, it will place an even
greater burden on our healthcare community that is already on the brink of collapse.

3.

Abet Life has a constitutional right in payments for services rendered and now indefinitely
suspended. HHS violates Due Process of law by imposing the action during the COVID-19
pandemic and emergency without extending to the provider notice and a right to a hearing to
contest the Medicare payment suspension. There is a high risk that Abet Life will be
erroneously deprived of its property interest in Medicare payments it has earned for services
rendered and indefinitely withheld by suspension, pursuant to 42 C.F.R. §405.37l (a)(2),
because the provider is not entitled under the available process to notice and an opportunity
for hearing to dispute and contest the suspension, and there is absolutely no established time
frame for resolving the investigation of the claims underlying its imposition.

4.

Patients at Abet Life have a constitutional right to access safe and reliable services under the
federal Medicare program. HHS violates these patients' right to access such healthcare by
imposing the suspension during the COVID-19 pandemic. Since President Donald Trump
declared a national emergency because of COVID-19 on March 13, 2020, the surge of
confirmed coronavirus cases is overwhelming our nation's hospitals. And it is having a
cascading effect on ancillary providers and practitioners as well. The government's ill­
advised suspension will essentially deprive Abet Life's patients of their constitutional right to
access healthcare.

21Page

App. 159

Conclusion
For these reasons, we are presenting this rebuttal to the suspension of Medicare payments.

Critically, the ultra vires actions of HHS threaten the very viability of the home care provider. It also
jeopardizes the health and safety of the provider's patients as well as deprives them of their constitutional
right to access healthcare. Accordingly, we request that HHS immediately temporarily rescind the
Medicare payment suspension and place the provider in payment status during the COVID-19 national
emergency. Home care providers are a crucial component in responding to this health emergency, and
imposing suspension based on allegations of insufficient documentation only exacerbates the existing
crisis. Indeed, 42 C.F.R. §405.371(b)(ii) contemplates that suspension should not be imposed under these
circumstances. Due to the exigent circumstances caused by the COVID-19 pandemic, we will be filing a
lawsuit in federal district court asserting our collateral constitutional and statutory claims and seeking
injunctive and declaratory relief on Monday, March 30, 2020. Again, we are presenting this rebuttal in
our hope of obtaining an amicable resolution and your agreement to temporarily rescind the suspension
during the COVID-19 national emergency.
Please contact my office immediately so that we can amicably resolve this matter. We look
forward to your prompt response.
Sincerely,

A)(�/
Mark S. Kennedy
Enclosures
cc:

Abet Life, Inc.

3IPage

App. 160

DEPARTMENT

Form Approved
No. 0938-0950

OF HEALTH ANO HUMAN SERVICES
l MEDICAID SERVICES

OMB

CENTERS fOR MEDICARE

APPOINTMENT OF REPRESENTATIVE
Medicare Num ber (beneficiary as party) or National Provider Identifier
Number (p rovider as party)

Name of Party

1417239682

Abet Life, Inc.
Section 1: Appointment of Representative
To be completed by the part

..

I appoint this individual.

Medicare be eficiary, the provider or the supplier):

(i.e

.

to act as my representative in connection with my

claim or asserted right under Title XVIII of the Social Security

ct (the

H

Act"} and related provisions of Title XI of the Act. I

authorize this individual to make any request; to present or to elicit evidence; to obtain appeals information; and to receive
any notice in connection with my appeal, wholly in my stead. I understand that personal medical information related to my
appeal may be disclosed to the representative indicated below.

2-02-D

Phone Number (with Area Code)
City

State

Missouri City

TX

Zip Code

77459

Section 2: Acceptance of Appointment
To be

rep

by

sentative:

·

disqualified, suspended, or prohibited fro

, hereby accept the above appointment. I certify that I have not been
practice before the Department of Health and Human Services (DHHS); that I am

not, as a current or former employee of

United States, disqualified from acting as the party's representative; and that I

I,

recognize that any fee may be subject to review and approval by the Secretary.
1 am a I an

attorney

ip to the party, e.g. attorney. relati11e, etc.)

j

oate
Street Address

�� ;}-()

Phone Number (with Area Code)

12222 Merit Dr., Suite 1750

(214) 445-0740

City

State

Dallas

TX

Zip Code

75251

Section 3: Waiver of Fee for Repres.entation
Instructions: This section must be completed if the represen ative is required to, or chooses to waive their fee for
representation. (Note that providers or suppliers that are representing a beneficiary and furnished the items or services may
not charge a fee for representation and must complete this section.)
I waive my right to charge and collect a fee for representing

before the Secretary of

DHHS.

Date

Signature

Section 4: Waiver of Payment for Items or Services at Issue
Instructions: Providers or suppliers serving as a representative for a beneficiary to whom they provided Items or services
must complete this section if the appeal involves a question of liability under section 1879(a)(2) of the Act. (Section 1879(a)
(2) generally addresses whether a provider/supplier or beneficiary did not know, or could not reasonably be expected to
know. that the items or services at issue would not be covered by Medicare.)
1 waive my right to collect payment from the beneficiary for the items or services at issue in this appeal if a determination of
liability under §1879(a)(2) of the Act is at issue.

Date

Signature

form CMS-1696 (11/1S}

App. 161

--

~ MS

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CENTERS FOR MfDICAIE & MEDICAID SERVICES

March 17, 2020
Abet Life, Inc.

4502 Riverstone Blvd, Suite 502

Missouri City, TX 77459-5200
Re:

Notice of Suspension of Medicare Payments
Provider Medicare JD Number: 747811
Provider NPT: 1417239682
Record Identifier: PSP-200305-00002

Dear Abet Lite, Inc.:
The purpose of this letter is to notify you of our dete1mination to suspend your Medicare payments
pursuant to 42 C.F.R. § 405.37l (a)(2).

The suspension of your Medicare payments took effect on

March I 2, 2020. Prior notice of this suspension was not provided, because giving prior notice would
place additional Medicare funds at risk and hinder our ability to recover any determined overpayment.
See 42 C.F.R. § 405.372(a)(3).
The decision to suspend your Medicare payments was made by the Centers for Medicare & Medicaid
Services (CMS) through its Central Office. 42 C.F.R. § 405. 372(a)(4)(iii). This suspension is based on
credible allegations of fraud. CMS regulations define credible allegations of fraud as an allegation from
any source including, but not limited to, Fraud hotline complaints, claims data mining, patterns
identified through audits, civil false claims cases, and law enforcement investigations. Allegations are
considered to be credible when they have indicia of reliability. 42 C. F. R. § 405.370. This suspension
may last until resolution of the investigation as defined under 42 C.F. R. § 405 .370 and may be extended
under certain circumstances.

42 C.F.R. § 405.372(d)(3)(i) (ii).
-

Specifically, the suspension of your

Medicare payments is based on, but not limited to, information that you misrepresented services billed
to the Medicare program by submitting claims that did not meet the criteria for skilled nursing care.
More particularly, the documentation you submitted to support the claims did not support that the
services provided were of an inherent complexity that they could have only been performed safely
and/or effectively by or under the general supervision of a skilled nurse and/or therapist.
The following list of sample claims provide evidence of our findings and serve as a basis for the
determination to suspend your Medicare payments:
Claim Control

Date(s) of Service

Number (CCN)

2 I 6221042 I 8207TXR

Amount

Basis for Selected Claim

Paid
$1,646.53

0512912016-

Documentation does not support
the services billed met criteria for

07/27/2016

skilled nursing care.
21628801324507TXR

$1,646.53

0712812016-

Qlarant=:

Documentation does not support
the services billed met criteria for

09/25/2016

Suite 400
App.
162

14643 Dallas Parkway.

•

Dallas, Texas 75254-1613

•

www.qlarant.com

------------

rcMs
.

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CElllTERS f-OR MEDICARE & MEDICAID SERVICES

skilled nursing care.

21806104303107TXR

12/14/20 I 7-

$2, 180.92

1

!

skilled nursing care.

2 t 8 l 2903346207TXR

$2,180.92

02/ 12/201804/12/2018

21817100750607TXR

Documentation does not support
the services billed met crite1ia for

02/11/2018

j

0411312018-

!

Documentation does not support

the services billed met criteria for
skilled nursing care.

$1,593.06

I

Documentation does not support
the services billed met criteria for

06/1112018

skilled nursing care.

This list is not exhaustive or complete in any sense, as the investigation into this matter is continuing.
The info1mation is provided by way of example in order to furnish you with adequate notice of the basis
for the payment suspension noticed herein.
Pursuant to 42 C.F.R. § 405. 372(b)(2), you have the right to submit a rebuttal statement in writing to us
indicating why you believe the suspension should be removed. We request that you submit this rebuttal
statement to us within 15 days. You should include with this statement any evidence you believe is
pertinent to your reasons why the suspension should be removed.

Your rebuttal statement and any

pertinent evidence should be sent to:
Qlarant [ntegrity Solutions, LLC
Attn: Rebuttal and Suspension Department
14643 Dallas Parkway, Suite 400
Dallas, TX 75254
If you submit a rebuttal statement, we will review that statement (and any supporting documentation)
along with other materials associated with the case. Based on a careful review of the information you
submit and all other relevant information known to us, we will dete1mine whether the suspension should
be removed, modified, or should remain in effect within 15 days of receipt of the complete rebuttal
package. However, the suspension of your Medicare funds will continue while your rebuttal package is
being reviewed. Thereafter, we will notify you in writing of our determination to continue or remove
the suspension and provide specific findings on the conditions upon which the suspension may be
continued or removed, as well as an explanatory statement of the determination. 42 C.F.R. §
405.375(b)(2). This determination is not administratively appealable. 42 C.F.R. § 405.375(c).

If the suspension is continued, we will review additional evidence during the suspension period to
determine whether claims are payable and/or whether an overpayment exists and, if so, the amount of
the overpayment. See 42 C.F.R. § 405.372(c). We may need to contact you with specific requests for
further information.

You will be informed of developments and will be promptly notified of any

overpayment dete1111ination. Claims will continue to be processed during the suspension period, and

Olarant::

App. 163

l4643 Dallas Parkway, Suite 400

•

Dallas, Texas 75254-1613

•

www.qlarant.com

--

fcM S

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CENTERS FOii MEDIG\RE & MEOICAID SERVICES

you will be notified about bill/claim deten11inations, including appeal rights regarding any bills/claims
that are denied. The payment suspension applies to both cun-ent and future payments.
In the event that an overpayment is determined and it is dete1mined that a recoupment of payments
under 42 C.F.R. § 405.371(a)(3) should be put into effect, you will receive a separate written notice of
the intention to recoup and the reasons.

You will be given an opportunity for rebuttal in accordance with

42 C.F. R. § 405.374 from Palmetto GBA. When the payment suspension has been removed, any money
withheld as a result of this action shall be first be applied to reduce or eliminate the determined
overpayment and then to reduce any other obligation to CMS or to the U.S. Department of Health anc
Human Services in accordance with 42 C.F.R. § 405.372(e). In the absence of a legal requirement that
the excess be paid to another entity, the excess will be released to you.
Should you have any questions, please contact Patrick Hughes in writing or via telephone at 972-3830000.
Sincerely,

S. Scott Ward, CFE. AHFT
Program Director
Qlarant Integrity Solutions, LLC
cc: Centers for Medicare & Medicaid Services

Olarant::

14643 Dallas Parkway,
Suite
400
App.
164

•

Dallas, Texas 75254-1613

•

www.qlarant.com

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CENTERS FOR MED ICA RE & MEDICAID SERVICES

April 28, 2020
Mark Kennedy, Esq.
Kennedy Attorneys & Counselors at Law
12222 Merit Drive, Suite 1750
Dallas, TX 75251
Re:

Abet Life, Inc.
Provider Medicare ID Number(s): 747811
Provider NPI: 1417239682
Record Identifier: PSP-200305-00002
Rebuttal Response

Dear Mr. Kennedy:
Thi s letter is in response to the suspension rebuttal statement (rebuttal), dated March 27, 2020, you
submitted to Qlarant Integrity Solutions, LLC (Qlarant), the Unified Program Integrity Conu·actor
(UPIC) for Medicare Program Integrity in Texas, tegarding the suspension of Medicare payments to
Abet Life, Inc. (Abet Life), which took effect on March 12, 2020. Prior notice of the suspension was not
provided because giving prior notice would place additional Medicare funds at risk and hinder the
ability of the Centers for Medicare & Medicaid Services (CMS) to recover any determined
overpayment. See 42 C.F.R. § 405.372(a)(3). On March 27, 2020, Qlarant received Abet Life's rebuttal
and forwarded it to CMS for review. CMS is responsible for determining if a suspension of Medicare
payments is warranted under applicable federal regulations and, as appropriate, whether and when a
suspension may be rescinded. See 42 C.F.R. § 405.375.
As stated in the Notice of Suspension (Notice), dated March 17, 2020, the suspension of Abet Life' s
Medicare payments is based on credible allegations of fraud. See 42 C.F.R. § 405.371(a)(2).
Specifically, the suspension of your Medicare payments is based on , but not limited to, information that
Abet Life misrepresented services billed to the Medicare program by submitting claims that did not meet
the criteria for skilled nursing care. More particularly, the documentation Abet Life submitted to
support its claims did not support that the services provided were of an inherent complexity that they
could have only been performed safely and/or effectively by or under the general supervision of a skilled
nurse and/or therapist.
In your rebuttal, you assert, on behalf of Abet Life, the following statements for consideration:

1. "The impact of the Medicare payment suspension threatens the very viability of Abet Life. The
provider derives almost some 90% of its revenues from treating sick and elderly Medicare
patients . .. .ifthe provider is not paid for these home health services, it cannot pay its
employees .... Consequently, Abet Life will soon be forced to shut down and file bankruptcy."
While we understand the operational difficulties that CMS's decision to suspend Medicare payments
may cause to providers, once it is determined that credible allegations of fraud exist, and that an
investigation is therefore warranted, payment suspension enables CMS to protect

profoftr~tlkw
JI\W' ~

•

Qlarant=·

A(

APR :i S 2020

14643 Dallas Parkway,
App.Suite
165400 • Dallas, Texas 75254 -1613 • www.qlarant.com

I

BY: ....... ~ ..... . . "·············

~ MS

CENTERS FOR MED ICARE & MEDICAID SERVICES

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

the government completes its investigation. Because of the potential impact of a payment suspension,
CMS takes great care when assessing whether to impose or continue a payment suspension. CMS has
determined that the continued suspension of Abet Life's Medicare payments is warranted during the
ongoing investigation.
2. "If Abet Life is forced to close, the home care provider's patients will have to obtain home health
services elsewhere. Due to the COVID-19 outbreak securing such services is an
uncertainty .. ..Indeed, with the prospect of burgeoning post-hospital coronavirus stays combined
with an agency's achieving this perfect balance { 'between the safety of their staff and caring for
the patients that they have'b it will undoubtedly result in a scramble to obtain home health
services because of COVID-19."
"At this time, home health services are especially critical to patients ... because it may become the
only mode of healthcare for such patients due to the shelter in place restrictions and limited
access to hospitals as well as other providers and practitioners."
" .. .Federal regulations provide that CMS may find good cause exists not to suspend a provider's
Medicare payments over credible allegations of fraud where it is determined that beneficiary
access to items or services would be so jeopardized by a payment suspension in whole or in part as
to cause a danger to life or health. 42 C.F.R. § 405.371 (b )(1 )(ii). It is a clear abuse of discretion
for CMS to not find that good cause exists here where the COVID-19 pandemic and the surge of
confirmed coronavirus cases will soon overwhelm our nation 's hospitals and have a cascading
effect on ancillary providers, including home health agencies like Abet Life."
"Patients at Abet Life have a constitutional right to access safe and reliable services under the
federal Medicare program. ... The government's ill-advised suspension will essentially deprive
Abet Life's patients of their constitutional right to access healthcare."

CMS is very sensitive to the needs of Medicare beneficiaries and has reviewed beneficiary access to
home health care services in the areas served by Abet Life. Abet Life is a home health agency located in
Missouri City, Texas, which is in Fort Bend County. The home health market area consists of Fort Bend
County and its adjacent counties (Austin, Brazoria, Harris, Waller and Wharton County in Texas).
There are 510 similar providers active in the market area. There are 384 similar providers located within
a 20-mile, straight-line radius of Abet Life, Inc. Abet Life, Inc. had 0.15 % of beneficiaries, 0.15 % of
claims, and 0.1 6% of payments for home health market share in the market area. Based on CMS's
assessment of access to care due to the operation of other home health care agencies in the areas served
by Abet Life, CMS has determined that the payment suspension will not jeopardize the ability of Abet
Life's patients to obtain home health care services from other providers in the market area if Abet Life is
unable to provide beneficiaries with services. Therefore, CMS declines to find good cause to terminate
the suspension under 42 C.F.R. § 405.37 l(b)(l )(ii).
3. "Payment suspension is improper in the midst of the COVID-19 outbreak because it threatens the
viability of Abet Life and jeopardizes the health and safety ofits patients. It is especially so where
the basis for the suspension is insufficient documentation. "

Qlarant~:

14 643 Dallas Parkway,
App.Suite
166400 • Dallas, Texas 75254 -1613 • www.qlarant. com

CENTERS FOR MEDICARE& MEDICAID SERVICES

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CMS has used its authority granted under section 1812(f) of the Social Security Act to take proactive
steps respond to the 2019 Novel Coronavirus Disease (COVID-1 9) emergency. CMS has issued
waivers allowing regulatory flexibilities to help healthcare providers contain the spread of COVID- 19. 1
CMS has also issued blanket waivers that relax certain requirements for Medicare providers and
suppliers - including home health providers - from March 1, 2020 through the end of the COVID-19
emergency declaration. 2 While CMS has issue waivers regardjng home health requests for anticipated
payments, reporting, initial assessments, and onsite aide supervision to respond to COVID-1 9, 3 CMS
has not issued waivers that eliminate the statutory and regulatory requirements for home health services
or stopped home health payment suspensions based on credible a11egations of frau d.
CMS can only pay for home health services that comply with Medicare statutes and regulations. Those
statutes and regul ations require that the documentation provided to support claims demonstrate that the
services provided were reasonable and necessary and met Medicare criteria for coverage. Ql arant' s
review indicates that there have been ongoing concerns related to Abet Life's documentation of services
billed to Medicare. The Medicare administrative contractor first denied claims foll owing its review
because documentation did not support the medical necessity for therapy services and/or the Plan of
Care (POC) was not submitted with the requested documentation in 2016 and 201 9. Abet Life
subsequently received education on appropriate billing on May 1, 201 6, and again , on May 10, 20 19.
Qlarant's subsequent post-payment review of claims in 201 9 also indicated that, with respect to billed
skilled nursing services, the documentation did not support the services billed or meet the criteria for
skilled nursing care, and, with respect to billed therapy services, documentation received did not meet
the guidelines for continued therapeutic acti vity that required the skills of a qualified therapist.
Qlarant conducted a second post-pay medical review in January 2020 for ten (1 0) beneficiaries and 44
claims were reviewed, of which 43 were denied resulting in a 97.7% error rate. Ql arant's reviewers
found that the documentation submitted did not support that the services billed met Medicare guidelines
for home health services. Specific examples of these findings are as follows:
The signatures of the home health agency employees, therapist and beneficiaries were
reported to be saved electronically; however, there were no time stamps to support lhat
the signatures on the maj ority of the documentation was an electronically saved
signature. Electronic signatures did not include an e-signature declaration statement;
The skilled nurse visit forms contained check boxes, which were observed to be the
same/redundant information with the maj ority of the visit. Much of the additional
information recorded did not change from one visit to the next, per benefi ciary record,
related to their diagnosis and assessment comments.
Home health aide notes were in a check box format without additional comments added;

1
Information regarding CMS ' s COVID-19 waivers and flex ibilities can be viewed at https://www.cms.gov/aboutc ms/emergency-prepared ness-response-operatio ns/current-emergencies/corona virus-waivers.
2
A list of CMS's blanket waivers as of April 9, 2020 can be viewed at https://www.cms.gov/files/document/summary-covid19-emergency-declaration-waivers.pdf.
3
See https://www.cms.gov/files/document/summary-covid- 19-emergency-declaration-waivers.pdf at page 14.

Qlarant=:

14 643 Dallas Parkway,
App.Suite
167400 • Dallas, Texas 75254- 1613 • www. qlarant. co m

CENTERS FOR ME DICARE & MEDICAID SERVICES

Unifi ed Program Integrity Cont ractor
South Western Jurisdiction (UPICSW)

The documentation did not clearly indicate the beneficiary had a recent exacerbation of a
chronic illness, decline in function and/or an inpatient stay that required additional
observation, monitoring or education ;
The documentation did not support the services were of an inherent complexity that they
could have only been performed safely and/or effectivel y onl y by or under the general
supervision of a skilled nurse and/or therapist;
Many of the beneficiary records did not include required face-to-face documentation to
support the home health services or the beneficiary was eligible to receive services under
the Medicare home health benefit, or the records did contain face-to-face encounter
forms, but the documents did not include a brief narrative describing how the patient's
clinical condition, as seen during that encounter, supported the patient's need for skilled
services;
The majority of the records did not include documentation from the certifying physician
to corroborate the need for the home health services nor did the records include additional
information related to the most recent hospitalization or decline in health/function to
support the services as billed; and
Multiple inconsistencies related to the beneficiaries' functional abilities were found
throughout the review where the OASIS, physician/hospital documentation, nursing notes
and therapy documentation were not consistent with ability to ambulate, transfer or
bedbound status. For example, a beneficiary was noted to be unable to ambulate or was
bedbound, yet therapy evaluation or nursing notes woul d document ability to
walk/transfer/toilet oneself with use of a rolling walker and supervision.
The nursing notes included in the records, related to wound care, did not include up to
date measurements for the wounds;
When the beneficiaries had diagnosis of heart and/or kidney disease, with or without
diuretics, the nursing notes did not regularly include current weight for the date of
service. It was noted many times throughout multiple records that the beneficiary was
unable to stand on the scale so the home health staff was unable to obtain a weight.
The maj ority of the nursing notes included a statement of "progressing, but behind
schedule", yet did not include an explanation of the lack of progress or plateau in
progression toward the goals; and
Multiple electroni c physician visit/encounter notes did not include a signature or
electronic signature on the record.

Qlarant=:

14643 Dallas Parkway,
App.Suite
168400 • Dallas, Texas 75254-1613 • www.qlarant. com

CENTERS FOR MEDICARE & MEDICAID SERVICES

Unified Program Integrity Contractor
South Western Jurisdiction (UP ICSW)

Furthermore, CMS received an OIG fraud hotline complaint against Abet Life alleging that Abet Life
misrepresented services billed to Medicare by fal sifying documents related to home health claims.
Accordingly, CMS has determined that it will continue the payment suspension because it has received
credible allegations of fraud that Abet Life misrepresented services that it billed to the Medicare
program from a fraud hotline complaint, claims data mining and patterns identified through provider
audits.

4. "Abet Life has a constitutional right in payments for services rendered and now indefinitely
suspended. HHS violates Due Process oflaw by imposing the action during the COVID-19
pandemic and emergency without extending the provider notice and a right to a hearing to contest
the Medicare payment suspension. There is a high risk that Abet Life will be erroneously deprived
of its property interest in Medicare payments it has earned for services rendered and indefinitely
withheld by suspension, ... because the provider is not entitled under the available process to
notice and an opportunity for hearing to dispute and contest the suspension, and there is
absolutely no established time frame for resolving the investigation of the claims underlying its
imposition."
It is the Medicare Act, and not the U.S . Constitution that authorizes CMS to pay Abet Life for home
health services rendered to Medicare beneficiaries. The Medicare Act authorizes payment for home
health services only if those services meet the requirements of 42 U. S.C. § 1395f(a)(2)(C). To receive
payment for home health services, that statute requires that a physician has a face- to-face encounter with
the beneficiary and documents the need for home health services, those services are provided under the
care of the physician and that the beneficiary receives skilled nursing care. As explained above, we have
credible allegations that the home health services that Abet Life is currently providing do not meet the
statutory requirements.
The Medicare Act also allows CMS to suspend Medicare payments to Abet Life until the government
completes its fraud investigation. Pursuant to 42 U.S.C. § 1395y(o), if CMS receives a credible
allegation of fraud, it may suspend payments to a provider pending an investigation of a credible
a11egation of fraud. Payment suspension is authorized to enable CMS to protect Medicare program
funds while the government completes its investigation of providers for which credible allegations of
fraud exist. Pursuant to 42 C.F.R. § 405.372(a)(3), a payment suspension may be imposed without prior
notice if CMS, the intermediary, or carrier determines that the Medicare Trust Fund would be harmed by
giving prior notice. While the payment suspension action is not appealable, if CMS ultimately
determines that Abet Life has received an overpayment, Abet Life has the opportunity to appeal the
overpayment determination through five levels of administrative adjudication as well as judicial review.
Also, payment suspension terms, where there are credible allegations of fraud , are not indefinite, as you
have asserted. Payment suspensions are temporary and do not continue if CMS finds good cause not to
continue the suspension under 42 C.F.R. § 405.371 (b), or after the resolution of an investigation as
defined in 42 C.F.R. § 405. 370.
5. " ... we request that HHS temporarily rescind the payment suspension during the COVID-19
national emergency."

Qlarant=:

14643 Dallas Parkway,
App.Suite
169400 • Dallas, Texas 75254 -1613 • www.qlarant. com

Unified Program Integrity Contractor
South Western Jurisdiction (UPICSW)

CENTERS FOR MEDICARE & MEDICAID SERVICES

As CMS is aware of credible allegations of fraud related to Medicare claims submitted by Abet Life,
CMS must exercise its authority to protect the Medicare program funds and conduct further
investigation of Abet Life's Medicare billing, and has determined that suspension of Abet Life's
Medicare payments is warranted during the ongoing investigation.

6. "Due to the exigent circumstances caused by the COVID-19 pandemic, we will be tiling a lawsuit
in federal district court asserting our collateral constitutional and statutory claims and seeking
iniunctive and declaratory relief. ... "
Your assertions regarding the potential impact on Abet Life due to the COVID-19 national emergency
may be considered within the ongoing investigation into Abet Life's billing. However, the COVID-19
national emergency does not justify terminating the suspension. Particularly, when the suspension is
based on credible allegations of fraud. CMS has determined that in order to protect the Medicare Trust
Fund, suspension of Abet Life's Medicare payments is necessary during the ongoing investigation into
these credible allegations of fraud.
In conclusion, after a careful review of Abet Life 's rebuttal, consideration of the documents submitted, the
OIG fraud hotline complaint, Abet Life' s billing history, prior education and the absence of access to care
issues, CMS has decided to continue the suspension of Abet Life' s Medicare payments due to credible
allegations of fraud. See 42 C.F.R. § 405.375. While CMS's determination to conti nue the suspension is
not appealable, CMS will consider any additional information and/or evidence Abet Life may submit.

Please contact the undersigned in writing should you have any questions about this matter.

d~

Sincerely,

S. Scott Ward, CFE, AHFI
Program Director
Qlarant Integrity Solutions, LLC

Qlarant=:

14643 Dallas Parkway,
Suite
400 • Dallas, Texas 75254-1613 • www.qlarant.com
App.
170

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 1 of 25

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
ABET LIFE, INC.,
Plaintiff,
vs.
ALEX M. AZAR II, Secretary,
UNITED STATES
DEPARTMENT OF HEALTH
AND HUMAN SERVICES,
Defendant.

§
§
§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 4:20-cv-1169

VERIFIED COMPLAINT FOR INJUNCTIVE
AND DECLARATORY RELIEF AND ATTORNEY'S FEES

COMES NOW, Abet Life, Inc. (the "Plaintiff' or "Abet Life") and files this its Verified
Complaint for Injunctive and Declaratory Relief and Attorney's Fees against Alex M. Azar II,
Secretary of the United States Department of Health and Human Services (the "Defendant"), and
alleges and avers as follows:
INTRODUCTION

1.

Abet Life is a Medicare home care provider that delivers home health services to

patients in their homes in the greater-Houston area. Such care is critical, especially to elderly
patients, that require assistance or have conditions that make leaving their homes a considerable
and taxing effort. Home health services are covered by Medicare only if furnished by a home
health agency participating in the Medicare program and acting on a physician's certification that
the patient is confined to home, needs intermittent skilled nursing care or physical or
occupational therapy or speech-language pathology services, and is under the care of a physician
who has established a plan of care. In effect, physicians determine whether a patient is eligible

App. 171

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 2 of 25

for home health services, and the home care provider furnishes services in accordance with their
plans of care.
2.

On March 17, 2020, Defendant noticed the imposition of a Medicare payment

suspension of Plaintiffs Medicare payments. The suspension was brought under 42 C.F.R.
§405.37l (a)(2) based upon a "credible allegation of fraud." However, the list of sample claims
indicates that the basis for the payment suspension is that "Documentation does not support the
services billed met criteria for skilled nursing services." The garbled recitation indicates
inadequate documentation as the reason for the action. As a result of the suspension action, all
Medicare payments owed to the provider are being withheld pending resolution of the ongoing
investigation.
3.

Unfortunately, the suspension action could not have come at a worse time.

President Donald Trump declared a national emergency over the COVID-19 outbreak on March
13, 2020. Dr. Deborah Birx, White House Coronavirus Response Coordinator, has reported that
U.S. deaths cause by COVID-19 may be catastrophic. She said that Dr. Anthony Fauci, National
Institute of Allergies and Infectious Diseases, has predicted U.S. deaths could range from 1.6 to
2.2 million in a worst case scenario and projects 100,000 to 200,000 in a best case scenario. The
surge in confirmed coronavirus cases is overwhelming our nation's hospitals. And it is having a
cascading effect on ancillary providers and practitioners as well.

1

In fact, CMS recently issued

Guidance for Infection Control and Prevention Concerning Coronavirus Disease 2019 (COVID19) in Home Health Agencies (HHAs). Suffice it to say, Medicare home care providers will face

1

The Trump Administration has recently announced a wide array of temporary regulatory waivers and new rules to

equip the American health care system, including home care providers, with maximum flexibility to respond to the
COVID-19 pandemic.

2

App. 172

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 3 of 25

tremendous challenges as they attempt to treat an ever-growing patient base and at the same time
screen patients at risk for having COVID-19 infection.
Impact of the Medicare payment suspension threatens to force Plaintiffs closure

4.

and filing of bankruptcy. The provider derives approximately 90% of its revenues from treating
sick and elderly Medicare patients. Obviously, if the provider is not paid for these home health
services, it cannot pay its employees, the care givers to these very needy patients.
5.

If Plaintiff is forced to close, Plaintiffs patients will have to obtain their home

health services elsewhere. Due to the COVID-19 outbreak securing such services is an
uncertainty. In fact, home care agencies in Texas are now in crisis due to the pandemic.
Recently, National Association for Home Care & Hospice President William Dombi commented
that "This is one of those times when the home health agencies have to figure out where the
balance is to be struck between the safety of their staff and caring for the patients that they
have."

2

With the prospect of burgeoning coronavirus visits combined with the agency's

achieving this perfect balance, it will undoubtedly result in a scramble to obtain home care
services because of COVID-19.
6.

Had Defendant acted properly, it would not have imposed the suspension.

Federal regulations provide that CMS may fmd good cause exists not to suspend a provider's
Medicare payments where it is determined that beneficiary access to items or services would be
so jeopardized by a payment suspension in whole or in part as to cause a danger to life or health.
42 C.F.R. §405.371(b)(l)(ii). It is a clear abuse of discretion for CMS to not find that good
cause exists here when the COVID-19 pandemic and the surge of confirmed coronavirus cases

2https://homehealthcarenews.com/2020/03/nahcs-dombi-agencies-arent-panicking-in-the-streets-over-pdgm/

3

App. 173

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 4 of 25

will soon overwhelm America's healthcare system, including home health agencies.

3

Not only

will Plaintiff be forced to shut down, the government's suspension action places an even greater
burden on a healthcare community that soon may be on the brink of collapse. 4
7.

Notwithstanding the abuse of discretion, Abet Life has a constitutional property

interest in payments for services rendered and now indefinitely suspended during the
investigation into the adequacy of its documentation. Defendant violates Due Process of law by
imposing the adverse action during the COVID-19 pandemic and national emergency when it
fails to give notice and an opportunity for a hearing to contest the Medicare payment suspension.
Indeed, the provider has no administrative appeal rights to contest the suspension. Clearly, there
is a high risk that Plaintiff will be erroneously deprived of its property interest in earned
Medicare payments withheld by suspension, pursuant to 42 C.F.R. §405.371(a)(2), because the
provider is not entitled to an administrative appeal to dispute and contest the adverse action,
HHS has abused its discretion and not found good cause to not impose the adverse action, and
there is absolutely no established time frame for resolving the investigation of its documentation.
8.

Moreover, patients at Abet Life have a constitutional Due Process right

(consistent with principles of equal protection) to access safe and reliable services under a
federal Medicare program. HHS violates the patients' right to access such healthcare by

3

Aside from the jeopardy to patients, the impact of the suspension is at odds with the coronavirus stimulus package.

On March 27, 2020, the Coronavirus Aid, Relief, and Economic Security (CARES) Act was enacted, an economic
relief package in response to the COVID-19 pandemic. The CARES Act provides economic support at the federal
level to the business sector, employees, individuals and families, and specific industries that have been impacted,
including air transportation, healthcare, and education. Key provisions providing for loan forgiveness require that
workers need to remain employed.
4

HHS's Office oflnspector General issued a message on minimizing burdens to provider on March 30, 2020. It

stated that the OIG places a high priority on providing the health care community with the flexibility to provide
needed care during this emergency. The delivery of patient care during this public health emergency must be the
primary focus of the health care industry. For any conduct during this emergency that may be subject to OIG
administrative enforcement, OIG will carefully consider the context and intent of the parties when assessing whether
to proceed with any enforcement action. In view of the consequences, a review that is primarily focused on
documentation that allegedly failed to support the complexity of claimed services does not warrant suspension of
Medicare payments during the COVID-19 pandemic and national emergency.

4

App. 174

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 5 of 25

imposing the suspension during the COVID-19 pandemic and national emergency. Due to the
COVID-19 outbreak securing such essential healthcare services is an uncertainty. In fact, during
the crisis, these patients may only be able to access essential healthcare through Plaintiffs home
health agency. Clearly, good cause exists for Defendant not to suspend the provider's Medicare
payments where, as here, the beneficiary's access to items or services are jeopardized and the
risk of patient abandonment causes a danger to life or health. See 42 C.F.R. §405.371(b)(l)(ii).
9.

Plaintiff is entitled to injunctive relief that requires Defendant to temporarily

rescind the Medicare payment suspension during the COVID-19 pandemic and national
emergency, and release all suspended payments, until the national emergency is lifted or
Defendant otherwise gives notice and an opportunity for a hearing on the adverse action in
conformance with Due Process of Law. Clearly, the government's ill-advised Medicare payment
suspension during the COVID-19 pandemic and national emergency will irreparably harm
Plaintiff by destroying its business and forcing its closure, and it jeopardizes the health and
safety of the provider's patients and violates their Due Process right (consistent with principles
of equal protection) to access essential healthcare services. Moreover, the government's action
will place an even greater burden on area providers and practitioners. Defendant's egregious

ultra vires conduct can only be remedied by an order for injunctive relief otherwise unavailable
through the administrative process. Accordingly, Plaintiff is entitled to injunctive relief that
requires Defendant to temporarily rescind the Medicare payment suspension during the COVID19 pandemic and national emergency, as well as release all suspended payments, until the
emergency ends or Defendant can otherwise give notice and a hearing in conformance with Due
Process of law.

5

5

Recently, in Family Rehabilitation, Inc.

v.

Azar, 886 F.3d 496 (5th Cir. 2018), the Fifth Circuit held the trial court

had jurisdiction under the collateral-claim exception to the administrative exhaustion requirement over a provider's

5

App. 175

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 6 of 25

PARTIES

10.

Abet Life, Inc., is a Texas corporation that has its principle place of business in Fort

Bend County, Texas, and it provides home health services in the greater-Houston area.
11.

Defendant, Alex M. Azar II, in his official capacity, is the Secretary of the United

States Department of Health and Human Services ("HHS"), the governmental department which
contains the Centers for Medicare and Medicaid Services ("CMS"), the agency within HHS that
is responsible for administration of the Medicare and Medicaid programs. He may be served with
process in accordance with Rule 4 of the Federal Rules of Civil Procedure by serving the U.S.
Attorney for the district where the action is brought, serving the Attorney General of the United
States in Washington, D.C., by certified mail, and by serving the United States Department of
Health and Human Services, by certified mail.
JURISDICTION

12.

The Court has jurisdiction pursuant to 28 U.S.C. §1331 under the

entirely collateral Constitutional claim exception to the Medicare exhaustion requirement
established by Mathews v. Eldridge, 424 U.S. 319 (1976). Defendant's imposition of the Medicare
payment suspension during the COVID-19 pandemic and national emergency without giving
notice and an opportunity for a hearing to contest the adverse action violates Due Process of Law.
There is a high risk that Plaintiff will be erroneously deprived of its property interest in Medicare
payments it has earned for services rendered and withheld indefinitely by the suspension, pursuant
to 42 C.F.R. §405.37l (a)(2), because the provider is not entitled to notice and opportunity for a
hearing to dispute and contest the suspension, and there is absolutely no established time frame for
resolving the investigation. Thus, Plaintiff is deprived of an administrative appeal and that

due process and ultra vires claims. The provider brought an action to prevent recoupment until a hearing could be
provided in accordance with 42 U.S.C. § 1395ff(d) and in conformance with Due Process of law.

6

App. 176

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 7 of 25

effectively prevents the provider from exhausting administrative remedies to challenge the
payment suspension.

No administrative or judicial review is otherwise available to contest

Defendant's ultra vires actions. Such failure violates Plaintiffs constitutional right of Due Process
guaranteed by U.S. CONST. amend. V, §1. Moreover, the Medicare payment suspension and the
request to temporarily rescind the action is not a benefits determination, but an otherwise
unreviewable procedural issue. Jurisdiction is based upon Plaintiffs constitutional claim that is
collateral to a substantive claim for benefits. Likewise, Defendant violates Plaintiffs patients'
right to access such healthcare by imposing the suspension during the COVID-19 pandemic and
national emergency.
13.

Additionally, the Court has jurisdiction over the lawsuit pursuant to 42 U.S.C.

§§405(g), 1395ii and 1395ff(b), and on the authority of Shalala v. Illinois Council on Long Term

Care, Inc., 529 U.S. 1 (2000). Defendant's failure to extend to Plaintiff an administrative appeal
to contest the Medicare payment suspension violates Due Process of law. Thus, Plaintiff is
deprived of an administrative appeal and that effectively prevents the provider from exhausting
administrative remedies to challenge the payment suspension. No administrative or judicial review
is otherwise available to contest Defendant's ultra vires actions. Section 405 of the
statute "would not simply channel review through the agency, but would mean no review at all."

Illinois Council, 529 U.S. at 17. Therefore, the exhaustion requirement is excepted under Bowen
v. Michigan Academy ofFamily Physicians, 476 U.S. 667 (1986). This exception was explicitly
reaffinned by Illinois Council, 529 U.S. at 19-23. The amount in controversy exceeds the $1,000
jurisdictional limit.
VENUE

14.

Venue is proper in this Court under 42 U.S.C. §§505(g), 1395ii and 1395ff(b),

7

App. 177

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 8 of 25

and 28 U.S.C. §§139 l (b) and (e), and 5 U.S.C. §703.
APPLICABLE MEDICARE LAWS
The Medicare Program

15.

As part of the Social Security Amendments of 1965, Congress established the

Medicare program: a national health insurance plan to cover the cost of medical care for the
elderly and disabled. See 42 U.S.C. §1395 et seq. Officially known as "Health Insurance Benefits
for the Aged and Disabled," it provides basic protection against the costs of inpatient hospital
and other institutional provider care. It also covers the costs of physician and other healthcare
practitioner services and items not covered under the basic program. In 1997, beneficiaries were
extended the option of choosing a managed care plan. More recently, in 2006, the program was
expanded further to include a prescription drug benefit.
Home Health Services

16.

Medicare covers home health services furnished to beneficiaries by home health

agencies participating in the program. See 42 U.S.C. §1395x(m); 42 C.F.R. §409.40 et seq. A
provider must act on a physician's certification that the individual is confined to the home, needs
skilled nursing care on an intermittent basis or is in need of physical or occupational therapy, or
speech-language pathology service, and is under the care of a physician who has established a
plan of care. 42 C.F.R. §409.42. If the patient does not need therapy, skilled nursing care must be
needed at least once every 60 days. Id.
Payment and Audit Functions

17.

Medicare's payment and audit functions are performed by various federal

contractors. For instance, the payment of home health claims at issue in this case was made by

8

App. 178

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 9 of 25

Palmetto GBA, LLC. Various other contractors, like Qlarant, a Unified Program Integrity
Contractor ("UPIC"), investigate instances of suspected fraud, waste, and abuse as well as identify
any improper payments that are to be collected by Administrative Contractors.
Appeal Process

18.

Home health agencies participating in the Medicare program are entitled to appeal

the initial determination. See 42 U.S.C. §1395ff. Federal regulations establish an elaborate
administrative appeal process to review the adverse action. See 42 C.F .R. Subpart I Determination, Redeterminations, and Appeals Under Original Medicare. A provider dissatisfied
with an initial determination may request a Redetermination by a contractor in accordance with
42 C.F.R. §§405.940-405.958. The Redetermination must be issued within sixty (60) calendar
days. If a provider is dissatisfied with a Redetermination decision, it may request a Reconsideration
by a Qualified Independent Contractor ("QIC") in accordance with 42 C.F.R. §§405.960-405.986.
The Reconsideration must be issued within sixty (60) calendar days. In the event the provider is
dissatisfied with the Reconsideration decision, it may request an ALJ hearing in accordance with
42 C.F.R. §§405.1000-405.1054. The ALJ must issue a decision within ninety (90) calendar days.
The provider may request review of the ALJ's decision by the Medicare Appeals Council in
accordance with 42 C.F.R. §§405.1100-405.1140. The Council must issue a decision within ninety
(90) calendar days. The Council's decision is the final agency action, and it is subject to judicial
review. See 42 U.S.C. §1395ff; 42 C.F.R. §§405.1130, 405.1132, 405.1134; see also 42 U.S.C.
§405(g).
Suspension of Medicare Payments

19.

Medicare payments to providers may be suspended, in whole or in part, by CMS

or its contractors, if there is "reliable information that an overpayment exists." 42 C.F.R.

9

App. 179

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 10 of 25

§405.371(a)(l ).
20.

In

cases of suspected fraud, CMS or its contractors may suspend Medicare

payments where there is a "credible allegation of fraud" against the provider, unless there is good
cause not to suspend payments. 42 C.F.R. §405.371(a)(2).
21.

CMS may find that good cause exists not to suspend a provider's payments

where, among other things, it is determined that beneficiary access to services would be so
"jeopardized by a payment suspension" as to cause a "danger to life or health." 42 C.F.R.
§405.37 l (b)(ii).
22.

Every 180 days after the initiation of a suspension of payments based on a

credible allegation of fraud, CMS will evaluate whether there is good cause to extend the
suspension. 42 C.F.R. §405.371(b)(2). Good cause to not continue a suspension is deemed to
exist if it has been in effect for 18 months and there has not been a resolution of the
investigation. 42 C.F.R. §405.371(b)(3). However, the suspension can be continued indefinitely
if the case has been referred to OIG for enforcement action or DOJ requests that it be continued
based on the ongoing investigation and anticipated filing of criminal or civil action or both. 42
C.F.R. §§405.37l(b)(3)(i), (ii).
Rebuttal Statement

23.

A provider whose payments are suspended without notice, as in this case, is given

by the Medicare contractor an opportunity to submit a rebuttal statement as to why the
suspensions should be removed. 42 C.F.R. §405.372(b)(2). See also 42 C.F.R. §405.374. When
a rebuttal statement is submitted, CMS, or its contractor, must within 15 days from the date of its

10

App. 180

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 11 of 25

receipt must issue written notice the determination. The rebuttal determination is not an
appealable decision. 42 C.F.R. §§405.375(a)-(c). 6
CONDITIONS PRECEDENT

24.

All conditions precedent have been performed or have occurred.
FACTS
Medicare Home Care Provider

25.

Abet Life, Inc., is a home health agency located

m

Missouri City, Texas,

participating in the Medicare program.
26.

Plaintiff has been in operation in the Houston-area for over seven years. It employs

some 30 bilingual care givers and has a diverse census of approximately 35 patients. The provider
derives approximately 90% of its revenue from Medicare payments, and it has an estimated value
of approximately $2.1 million.
27.

Many of Plaintiffs home health patients have recently experienced hospitalization

or frequent emergent care treatment before admission to home health. These are patients suffering
from serious and chronic conditions such as heart disease, lung disease (COPD), hypertension,
diabetes, cancer, neurological diseases (strokes) and other serious illnesses complicated by the
presence of other co-morbidities that require monitoring by skilled professionals. Interventions
performed by the home health team often include procedures that were previously performed only
in institutional care settings, but now are provided to the patient within the home setting. Examples
of these are complex wound care treatments, medications administered through IV therapy and
other invasive procedures.

6

The suspension is not considered an "initial determination" and no appeal rights, including right to ALJ hearing,

are extended to a provider to contest the adverse action.

11

App. 181

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 12 of 25

Qlarant On-site Records Request

28.

On October 7, 2019, Qlarant, a UPIC, issued its letter informing Plaintiff it would

be conducting a review of selected claims it had submitted to Medicare and/or Medicaid. The letter
explained that the records it was requesting include any and all documentation to support the
medical necessity of services billed for the specified dates of service on an attached list plus the
proceeding 60 days. Essentially, the request asked Plaintiff to produce all records that related to
and supported the subject Medicare claims, including records maintained by the patient's physician
or hospital documentation (during the qualifying period). Indeed, documents that a home health
agency is not required or otherwise does not possess in the ordinary course of business.
29.

On or about November 1, 2019, Plaintiff produced all pertinent records available

to the provider that were responsive to Qlarant's records request.
Medicare Payment Suspension

30.

On March 17, 2020, Qlarant issued to Plaintiff a notice of suspension of Medicare

payments. The suspension took effect on March 12, 2020 because CMS had asserted that prior
notice would have placed additional Medicare funds at risk. The suspension action was brought
under 42 C.F.R. §405.371(a)(2) and alleges a "credible allegation of fraud." As a result of the
suspension action, all Medicare payments owed to the provider are being withheld pending
resolution of the ongoing investigation.
31.

CMS based its decision to suspend upon its belief that "the documentation you

submitted to support the claims did not support that the services provided were of an inherent
complexity that they could have only been performed safely and/or effectively by or under the
general supervision of a skilled nurse and/or therapist." However, the list of sample claims
indicates that the basis for the payment suspension is that "Documentation does not support the

12

App. 182

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 13 of 25

services billed met criteria for skilled nursing services."

The garbled recitation apparently

indicates insufficient documentation as the reason for the action.
Suspension Will Force Plaintiff to Shutdown and File Bankruptcy

32

Impact of the Medicare payment suspension threatens to force Plaintiffs closure

and filing of bankruptcy.
CMS Abused its Discretion in Not Exercising Good Cause Exception to Suspension

33.

Had Defendant acted properly, it would not have imposed the suspension. CMS

may find good cause exists not to suspend a provider's Medicare payments where it is determined
that beneficiary access to items or services would be so jeopardized by a payment suspension as
to cause a danger to life or health. 42 C.F.R. §405.37l (b)(l )(ii). It is a clear abuse of discretion
for CMS to not find that good cause exists here when the COVID-19 pandemic and the surge of
confirmed coronavirus cases will soon overwhelm America's healthcare system, including home
health agencies. Not only will Plaintiff be forced to shut down, the government's suspension
action places an even greater burden on a healthcare community that soon may be on the brink of
collapse.
Sale of Home Health Agency

34.

Abet Life, Inc. was sold to its current ownership who acquired all of the stock of

the corporation on May 31, 2018, and substantially all claims reviewed by Qlarant concerned dates
of service that occurred prior to the acquisition of the provider.
COVID-19 Pandemic and National Emergency

35.

President Donald Trump declared on March 13, 2020 a national emergency because

of the COVID-19 pandemic.

13

App. 183

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 14 of 25

36.

Governor Gregg Abbott also declared a state of disaster in Texas due to COVID-

19 on March 13, 2020.
37.

When the national emergency was declared, the U.S. Government COVID-19

Response Plan was issued outlining the coordinated federal response activities for COVID-19. 7
The Government's response plan makes two things clear: (1) the pandemic "will last 18 months
or longer" and (2) the COVID-19 outbreak will result in the implementation of drastic measures
to contain its spread throughout the nation. Society as a whole may soon be faced with strict
containment and social distancing measures for an extended period of time.
38.

Dr. Deborah Birx, White House Coronavirus Response Coordinator, has reported

that U.S. deaths cause by COVID-19 may be catastrophic.8 She said that Dr. Anthony Fauci,
National Institute of Allergies and Infectious Diseases, has predicted U.S. deaths could range from
1.6 to 2.2 million in a worst case scenario and projects 100,000 to 200,000 in a best case scenario.
With the surge of confirmed coronavirus cases, America' s hospitals are being overwhelmed. And
it is having a cascading effect on ancillary providers and practitioners, including home health
agencies.
Violation of Plaintiff's Due Process Rights

39.

Plaintiff has a constitutional property interest in payments for services rendered and

now indefinitely suspended during the investigation into the adequacy of its documentation.
Defendant violates Due Process of law by imposing the adverse action during the COVID-19
pandemic and national emergency without extending to the provider notice and an opportunity for
a hearing to contest the Medicare payment suspension. Clearly, there is a high risk that Plaintiff

7

https://int.nvt.com/data/documenthelper/6819-covid-l 9-responseplan/d367f7 58bec4 7cad36 l

floptimized/full.pdf#page=1
8

Interview with TODAY Show on Monday, March 30, 2020.

14

App. 184

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 15 of 25

will be erroneously deprived of its property interest in Medicare payments it has earned for services
rendered and indefinitely withheld by suspension, pursuant to 42 C.F.R. §405.371(a)(2), because
the provider is not entitled under the available process to an administrative appeal to dispute and
contest the suspension, and there is absolutely no established time frame for resolving the
investigation of its documentation.
Violation of Plaintiff's Patients' Due Process Rights

40.

Patients at Abet Life have a constitutional Due Process right (consistent with

principles of equal protection) to access safe and reliable services under the federal Medicare
program. HHS violates the patients' right to access such healthcare by imposing the suspension
during the COVID-19 pandemic and national emergency. Again, due to the COVID-19 outbreak
securing such services are an uncertainty. Clearly, good cause exists not to suspend the provider's
Medicare payments where, as here, the beneficiary's access to items or services are jeopardized
by the payment suspension and cause a danger to life or health. See 42 C.F.R. §405.37l (b)(l)(ii).
Plaintiff is not entitled to an administrative appeal to contest the suspension or HHS' s abuse of
discretion in not finding good cause to not impose the adverse action.
Rebuttal Statement

41.

A Rebuttal Statement was presented by Plaintiff to Qlarant on March 27, 2020

informing the UPIC that the Medicare suspension during the COVID-19 epidemic and national
emergency was improper because, among other things, (1) it violates Plaintiffs constitutional right
in payments for services rendered by failing to give notice and an opportunity for a hearing while
payments are indefinitely suspended during the pendency of an investigation into the adequacy of
its documentation, and (2) it violates the provider's patients' constitutional right to access essential
healthcare services.

15

App. 185

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 16 of 25

Presentment of Claim

42.

On March 27, 2020, Plaintiff gave formal Presentment of its Claim to Defendant

informing HHS that imposing the Medicare suspension during the COVID-19 epidemic and
national emergency was improper because, among other things, (1) it violates Plaintiffs
constitutional right in payments for services rendered by failing to give notice and an opportunity
for a hearing while payments are indefinitely suspended during the pendency of an investigation
into the adequacy of its documentation, and (2) it violates the provider's patients' constitutional
right to access essential healthcare services.
EXHAUSTION OF ADMINISTRATIVE REMEDIES

43.

Defendant's failure to give notice and an opportunity for hearing to dispute and

contest the March 12, 2020 suspension of Medicare payments violates constitutionally required
procedures. Plaintiff is deprived of an administrative process that conforms to the concept of Due
Process of law and that effectively prevents the provider from exhausting administrative remedies
to challenge the illegal action. No administrative or judicial review is otherwise available to
contest Defendant's adverse action. Such failure violates Plaintiffs constitutional right of Due
Process of Law guaranteed by the U.S. CONST. amend. V, § 1. Under these facts, the
administrative exhaustion requirement is excused.
CLAIMS FOR RELIEF
Count 1

44.

-

Violation of Procedural Due Process of Law

Plaintiff hereby incorporates by reference all preceding paragraphs of this complaint

as if fully set forth herein.
45.

The Fifth Amendment to the U.S. Constitution guarantees that no person shall be

deprived of life, liberty, or property without Due Process of Law.

16

App. 186

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 17 of 25

46.

Plaintiff has a constitutional property right in earned payments for services rendered

and now indefinitely suspended during the pendency of the investigation into the adequacy of its
documentation.
47.

Defendant's failure to give meaningful notice and an opportunity for a hearing to

dispute and contest the March 12, 2020 suspension of Plaintiffs Medicare payments violates Due
Process of law.
48.

Despite the lack of appeal rights to challenge the adverse action, Defendant initiated

100% suspension of the provider's Medicare payments for an indefinite period of time, which will
irreparably harm the provider by forcing its closure and filing of bankruptcy.
49.

Indeed, Defendant's failings have essentially denied to Plaintiff the fundamental

requisites of Due Process, notice and an opportunity to be heard.
50.

Accordingly, Plaintiff is entitled to injunctive relief that reqmres Defendant to

temporarily rescind the Medicare payment suspension during the pendency of the COVID-19
pandemic and national emergency or until it can provide a hearing and decision in conformance with
constitutionally required procedures.
Count 2

51.

-

Violation of Patients' Due Process Right of Access to Healthcare

Plaintiff hereby incorporates by reference all preceding paragraphs of this complaint

as if fully set forth herein.
52.

Patients at Abet Life have a Due Process right (consistent with principles of equal

protection) to access safe and reliable services under the federal Medicare program.
53.

Defendant violates these patients' right to access such healthcare by imposing the

suspension during the COVID-19 pandemic and national emergency.
54.

Due to the COVID-19 outbreak securing such home health services is an uncertainty.

17

App. 187

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 18 of 25

55.

Defendant jeopardizes the health and safety of Plaintiffs patient by suspending the

provider's Medicare payments when the availability of alternative services are unsure and access to
home health services is at risk during the COVID-19 pandemic and national emergency.
56.

Defendant's ill-advised suspension of Plaintiffs Medicare payments will ultimately

deprive the provider's patients of their constitutional right to access essential healthcare services.
57.

Accordingly, Plaintiff is entitled to injunctive relief that requires Defendant to

temporarily rescind the Medicare payment suspension during the pendency of the COVID-19
pandemic and national emergency or until it can provide a hearing and decision in conformance with
constitutionally required procedures.
Count 3

58.

-

Defendant's Suspension of Payments is Arbitrary and Capricious

Plaintiff hereby incorporates by reference all preceding paragraphs of this

complaint as if fully set forth herein.
59.

The Federal regulations 42 C.F.R. §405.371(b)(l ) (ii) provide that Defendant may

find good cause exists not to suspend a provider's Medicare payments over credible allegations of
fraud where it is determined that beneficiary access to items or services would be so jeopardized
by a payment suspension in whole or in part as to cause a danger to life or health.
60.

Due to the COVID-19 outbreak securing such home health services is an

uncertainty.
61.

Defendant jeopardizes the health and safety of Plaintiffs patient by suspending the

provider's Medicare payments when the availability of alternative services are unsure and access
to home health services is at risk during the COVID-19 pandemic and national emergency.
62.

It is

a clear abuse of discretion for Defendant to not find that good cause exists here

where the COVID-19 pandemic and the surge of confirmed coronavirus cases will soon
overwhelm America's healthcare system, including home health agencies like Abet Life.
18

App. 188

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 19 of 25

63.

Defendant's ill-advised action not only will force Plaintiff to shut down its

operation, it will place an even greater burden on a healthcare community that may soon be on the
brink of collapse in the COVID-19 epidemic and national emergency.
64.

Accordingly, Plaintiff is entitled to injunctive relief that requires Defendant to

temporarily rescind the Medicare payment suspension during the pendency of the COVID-19
pandemic and national emergency or until it can provide a hearing and decision in conformance
with constitutionally required procedures.
Count 4
65.

-

Ultra Vires

Plaintiff hereby incorporates by reference all preceding paragraphs of this

complaint as if fully set forth herein.
66.

Defendant acts ultra vires in failing to give notice and an opportunity for a hearing

to dispute and contest the adverse action in conformance with Due Process of law yet imposing
Medicare payment suspension during the COVID-19 pandemic and national emergency.
67.

Despite the failure to give notice and an opportunity for hearing to dispute and

contest the adverse action, Defendant has suspended 100% of Plaintiff's payments, which will
irreparably harm the provider by forcing it to close and file bankruptcy.
68.

Indeed, Defendant's failings effectively deprive Plaintiff of the fundamental

requisites of Due Process, notice and an opportunity to be heard.
69.

Accordingly, Plaintiff is entitled to injunctive relief that requires Defendant to

temporarily rescind the Medicare payment suspension during the pendency of the COVID-19
pandemic and national emergency or until it can provide a hearing and decision in conformance
with constitutionally required procedures.

19

App. 189

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 20 of 25

REQUEST FOR PRELIMINARY INJUNCTION

70.

Plaintiff will suffer irreparable injury if Defendant is not required to temporarily

rescind the Medicare payment suspension during the pendency of the COVID-19 pandemic and
national emergency or until it can provide a hearing and decision in conformance with
constitutionally required procedures. Defendant's failure to give meaningful notice and an
opportunity for a hearing to dispute and contest the March 12, 2020 suspension of Plaintiff's
Medicare payments violates Due Process of law. Also, Plaintiffs patients have a Due Process right
(consistent with principles of equal protection) to access safe and reliable services under the federal
Medicare program, and Defendant violates these patients' right to access essential healthcare by
imposing the suspension during the COVID-19 pandemic and national emergency. The
government's egregious ultra vires conduct can only be remedied by a form of injunctive relief
otherwise unavailable through the administrative process. Clearly, the combined threats of Plaintiff
going out of business and its patients' loss of access to essential healthcare services are sufficient
for irreparable harm. Family Rehabilitation, Inc. v. Azar, 886 F.3d at 506.
71.

There is no adequate remedy at law to contest and dispute the Medicare payments

suspension imposed during the COVID-19 pandemic and national emergency.

See Family

Rehabilitation, Inc. v. Azar, 886 F.3d at 504 (jurisdiction to hear procedural due process and ultra
vires claims). Indeed, when the administrative process is not accessible, extraordinary relief is
available. See US. Ex Rel. Rahman v. Oncology Associates, P.C., 198 F.3d 502 (4th Cir. 1999)
(mandamus available when HHS failed to make overpayment determinations).
72.

There is a substantial likelihood that Plaintiff will prevail on the merits because

Defendant's failure to give notice and an opportunity for hearing to contest the suspension imposed

20

App. 190

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 21 of 25

during the COVID-19 pandemic and national emergency violates Due Process of law. Plaintiff
seeks only to temporarily rescind the Medicare payment suspension until the COVID-19 national
emergency ends or until Defendant can provide a hearing and decision in conformance with
constitutionally required procedures.

Procedural due process protects against governmental

deprivation of a property interest, such as Plaintiffs interest in receiving Medicare payments
earned for services rendered. See Adams, No. 4:18-cv-01422 (S.D. Tex. July 11, 2018); Family

Rehabilitation, Inc. v. Azar, 2018 WL 2670730, *5-6 (N.D. Tex. June 4, 2018). See also Furlong
v. Shalala, 156 F.3d 384 (2d Cir. 1998) and Oberlander v. Perales, 740 F.2d 116 (2d Cir. 1984)
(property interest in "earned" Medicaid payments). This is derivative of the protected property
interest recognized in one's ownership of money. See Board of Regents v. Roth, 408 U.S. 564,
571-72 (1971). Accordingly, Plaintiff has a property interest in receiving the Medicare payments
it has earned for services rendered and that interest is violated by Defendant's imposition of the
Medicare payment suspension during the COVID-19 pandemic and national emergency, and
where it fails to give notice and an opportunity for hearing to dispute and contest the adverse
action. Inasmuch as Defendant has failed to give notice and an opportunity for hearing to contest the
Medicare payments suspension, and Defendant violates Plaintiff's patients' right to access essential
healthcare by imposing the suspension during the COVID-19 pandemic, Plaintiff demonstrates a
substantial likelihood of success on the merits of its procedural due process claim.
73.

The harm faced by Plaintiff outweighs the harm that would be sustained by

Defendant if injunctive relief is not granted. The provider will be forced to close its doors and file
bankruptcy because of Defendant's ultra vires acts and its patients will be forced to secure
alternative services during in the midst of the COVID-19 pandemic and national emergency when
such essential healthcare services is at risk of being unavailable. Defendant, on the other hand,

21

App. 191

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 22 of 25

will only be required to pay for the current claims of Medicare beneficiaries that it is otherwise
obligated to reimburse under law.
74

Issuance of a preliminary injunction would not adversely affect the public interest.

On the contrary, such relief ensures that Defendant will continue to provide essential healthcare to
Medicare program beneficiaries during the COVID-19 pandemic and national emergency.
75.

Plaintiff is willing to post a bond in the amount the Court deems appropriate, but it

should not be required to do so on the facts on this case because Defendant is otherwise obligated
to pay for home health services for Medicare beneficiaries under its care.
76.

Plaintiff asks the Court to set its application for preliminary injunction for hearing

at the earliest possible time and, after hearing the request, to issue a preliminary injunction.
REQUEST FOR PERMANENT INJUNCTION

77.

Plaintiff asks the Court to set its application for injunctive relief for a full trial on

the issues in this application and, after the trial, to issue a permanent injunction against Defendant.
REQUEST FOR DECLARATORY RELIEF

78.
U.S.C. 2201

Plaintiff asks the Court for declaratory relief in accordance with Rule 57 and 28
that declares Defendant's March 12, 2020 Medicare payment suspension during the

COVID-19 pandemic and national emergency ( 1) violates Plaintiffs constitutional right in
payments for services rendered and now indefinitely suspended during the pendency of an
investigation into the adequacy of its documentation, (2) and violates the provider's patients'
constitutional right to access essential healthcare services, and (3) is arbitrary and capricious and
a clear abuse of discretion for Defendant to not find good cause exists not to suspend the provider's
Medicare payments when the beneficiary's access to items or services is jeopardized by the
payment suspension and it causes a danger to life or health.

22

App. 192

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 23 of 25

ATTORNEY FEES & COSTS

79.

Plaintiff is entitled to an award of attorney fees and costs under the Equal Access

to Justice Act, 28 U.S.C. §2412, upon showing the applicant is a "prevailing party;" a showing
that the applicant is "eligible to receive an award; and a statement of "the amount sought, including
an itemized statement from any attorney . . . stating the actual time expended and the rate: charged.
The prevailing party is entitled to such attorney fees unless the government's position was
"substantially justified" or special circumstances make an award unjust.
PRAYER

80.

For these reasons, Plaintiff asks for judgment against Defendant for the following:
a.

Mandatory injunctive relief that requires Defendant to temporarily rescind
the Medicare payment suspension during the pendency of the COVID-19
pandemic and national emergency or until HHS can provide a hearing and
decision in conformance with constitutionally required procedures.

b.

Declare that Defendant's March 12, 2020 Medicare payment suspension
violates Plaintiffs constitutional right to notice and an opportunity for
hearing to contest the adverse action.

c.

Declare that Defendant's March 12, 2020 Medicare payment suspension
violates Plaintiff's patients' constitutional right to access essential
healthcare services.

d.

Declare that Defendant's March 12, 2020 Medicare payment suspension is
arbitrary and capricious and a clear abuse of discretion for Defendant to not
find good cause exists not to suspend the provider's Medicare payments

23

App. 193

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 24 of 25

when the beneficiary's access to items or services is jeopardized by the
payment suspension and it causes a danger to life or health.
e.

Reasonable attorney fees.

f.

Court costs.

g.

All other relief the Court deems appropriate.
Respectfully submitted,
KENNEDY
Attorneys and Counselors at Law
Isl Mark Kennedy
MARK S. KENNEDY
State Bar of Texas No. 24000122
Southern District Bar No. 435115
LURESE TERRELL
State Bar of Texas No. 24008139
Southern District Bar No. 33360
12222 Merit Drive, Suite 17500
Dallas, TX 75251
Telephone: (214) 445-0740
Fax: (972) 661-9320

markskennedylaw@msn.com

ATTORNEYS FOR PLAINTIFF

24

App. 194

Case 4:20-cv-01169 Document 1 Filed on 04/01/20 in TXSD Page 25 of 25

IN THE UNITED STA TES DISTRICT COURT
FOR THE SOURTHER DISTRICT OF TEXAS
ABET L I FE, INC.

Plaintit!,
vs.
ALEX M. AZAR II, Secretary,
UNITED STATES
DEPARTMENT OF HEALTH
AND H UMAN SERVICES,
Defendant.

§
§
§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 4:20-cv-1 1 69

VERIFICATION

"I, Binny Oonnoony, declare from my personal knowledge that the foJlowing facts are true:
l.

I,

2.

I have read the Verified Complaint for Injunctive and Declaratory Relief and

Binny Oonnoonny, am the President o f Abet Life, Inc.

Attorney' s Fees.

3.

The facts stated in that complaint are withi n my personal knowledge and are true and
correct.

I verify under penalty of pe1j ury that the foregoing i s true and correct.
Executed on March 3 1 , 2020."

25

App. 195

Case: 20-20399

Document: 00515504823

Page: 1

Date Filed: 07/27/2020

Docket No. 20-20399
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

ABET LIFE, INC.,
P la inti.ff-Appel!ant,
V.

ALEX M. AZAR II, SECRETARY, UNITED STATES DEPARTMENT
OF HEAL TH AND HUMAN SERVICES,
Defendant-Appellee.

Pending Appeal from the United States District Court
for the Southern District of Texas, Houston Division,
No. 4:20-cv-1169
Hon. Gray H. Miller
APPELLANT'S OPPOSED MOTION FOR INJUNCTION PENDING APPEAL

Mark S. Kennedy, Esq.

KENNEDY,ATTORNEYS&
COUNSELORS AT LAW

12222 Merit Drive, Suite 1750
Dallas, TX 75251
Telephone: (214) 445-0740
Facsimile: (972) 661-9320
markskennedylaw@msn.com
Counsel for Appellant
Abet Life, Inc.

App. 196

Case: 20-20399

Document: 00515504823

Page: 2

Date Filed: 07/27/2020

CERTIFICATE OF INTERESTED PERSONS
The undersigned counsel of record for Appellant certified that the following
listed persons and entities as described in the fourth sentence of Fifth Circuit Rule
28.2.1 have an interest in the outcome of this case. These representations are made
in order that the judges of this Court may evaluate possible disqualification or
recusal.

Appellant
Abet Life, Inc.

Appellee
Alex M. Azar II, Secretary
United States Department of Health and Human Services

Counsel for Appellant
Mark S. Kennedy
Kennedy Attorneys & Counselors at Law
L urese A. Terrell
Kennedy Attorneys & Counselors at Law
Calvin Trey Scott
Kennedy Attorneys & Counselors at Law
Joanna Martin
Kennedy Attorneys & Counselors at Law (formerly)

Counsel for Appellee
William Bar
U.S. Attorney General
Ryan Patrick
U.S. Attorney for Southern District of Texas

11

App. 197

Case: 20-20399

Document: 00515504823

Page: 3

Jose Vela Jr.
Assistant U.S. Attorney for Southern District of Texas

/s/ Mark S. Kennedy
MARKS. KENNEDY

lll

App. 198

Date Filed: 07/27/2020

Case: 20-20399

Document: 00515504823

Page: 4

Date Filed: 07/27/2020

TABLE OF CONTENTS

Page
CERTIFICATE OF INTERESTED PERSONS ......................................... ii
TABLE OF CONTENTS ....................................... ............................. iv
TABLE OF AUTHORITIES ............... ................................................ v
INTRODUCTION ........................................................................... 1
FACTS AND PROCEDURAL HISTORY ............................................... 2
ARGUMENT ................................................................................. 6
I.

Moving for an Injunction in District Court Would be
Impracticable .................................................................. 7

II.

Appellant is Entitled to an Injunction Pending Appeal .................. 8
A. Likelihood of Success ............................. ................ . .... . 9
B. Irreparable Injury if the Injunction is Denied .. ...................... 16
C. Injunction Would Not Substantially Harm HHS ..... ........ ... .... 17
D. Public Interest Would Not be Dis served by the Injunction ...... .. 18

III.

Appellant Presents a Substantial Case on Serious Legal Questions .. 18

CONCLUSION ............................................................................. 20
CERTIFICATE OF CONFERENCE ............................... .. ................... 22
CERTIFICATE OF COMPLIANCE ................................................... 23
CERTIFICATE OF SERVICE ...........................................................24
EXHIBITS:
Exhibit 1 - Order/ Judgment
Exhibit 2 -Declaration of Binny Oonnoonny
Exhibit 3 - Declaration of Jan Spears
Exhibit 4 -Declaration of Emergency March 13, 2020
Exhibit 5 - Complaint

iv

App. 199

Case: 20-20399

Document: 00515504823

Page: 5

Date Filed: 07/27/2020

TABLE OF AUTHORITIES
Cases
Adams EMS, Inc. v. Azar, No. H-18-1443, 2018 WL 5264244 (S.D. Tex. Oct. 23, 2018) ............ 11
Earwood, Inc. v. District of Columbia, 202 F.3d 290 (D.C. Cir. 2000) .......................................... 7
Baylor v. Univ. Med. Ctr., 711 F.2d 38 (5th Cir. 1983) ................................................................. 19
Belcher v. Birmingham Trust National Bank, 95 F.2d 685 (5th Cir. 1968) ..................................... 9
Board ofRegents ofState Colleges v. Roth, 408 U.S. 564 (1972) ................................................. 10
Bollingv. Sharpe, 347 U.S. 497 (1954) ......................................................................................... 15
Canal Authority ofState ofFla. v. Callaway, 489 F.2d 567 (5th Cir. 1974) ................................... 9
Coastal States Gas Corp. v. Dept. ofEnergy, 609 F.2d 736 (5th Cir. 1979) ................................... 8
Family Rehab., Inc. v. Azar, 886 F.3d 496 (5th Cir. 2018) ................................................... 6, 14, 16
Family Rehabilitation, Inc. v. Azar, No. 3:17-CV-3008-K, 2018 WL 3155911 (N.D. Tex. June
28, 2018) ........................................................................................................................ 16, 17, 18
Family Rehab., Inc. v. Azar, No. 3:17-CV-3008-K, 2020 WL 230615 (N.D. Tex. Jan. 15, 2020)
............................................................................................................... 10, 11, 12, 13, 14, 15, 18
Fortune v. Molpus, 431 F.2d 799 (5th Cir. 1970)............................................................................. 8
Home Health Innovations, Inc. v. Azar, No. 5:18-CV-00601 (W.D. Tex. July 7, 2019) .............. 11
Mathews v. Eldridge, 424 U.S. 319, 326-32 (1976) .................................................................... 5, 9
Med-Cert Home Health Care, LLC v. Azar, 365 F. Supp. 3d 742 .................................... 10, 17, 18
Nat 'l Athletic Trainers' Ass 'n, Inc. v. US. Dept. ofHealth & Human Servs., No.3:05-CV-1098G, 2005 WL 1923566 (N.D. Tex. Aug 11, 2005) ........................................................................ 7
Pers. Care Prods., Inc. v. Hawkins, 635 F.3d 155 (5th Cir. 2011) .......................................... 10, 12
Planned Parenthood of Greater Tex. Surgical Health Servs. v. Abbott, 734 F.3d 406 (5th Cir.
2013) ............................................................................................................................................ 8
Providence Journal Co. v. Federal Bureau ofInvestigation, 595 F.2d 889 (1st Cir. 1979) .......... 20
Ruiz v. Estelle, 650 F.2d 555 (5th Cir. 1981) (Ruiz I) .......................................... 8, 9, 16, 17, 18, 20
Shala/av. fl!. Council on Long Term Care, Inc., 529 U.S. 1 (2000) ............................................... 5
Singleton v. Wulff, 428 U.S. 106 (1976) ........................................................................................ 15
Tropfv. Fidelity Nat'! Title Ins. Co., 289 F.3d 929 (6th Cir. 2002) ................................................. 7
True Health Diagnostics, LLC v. Azar, 392 F.Supp.3d 666 (E.D. Tex. 2019) ................................ 6
Washington Metropolitan Area Transit Commission v. Holiday Tours, Inc. , 559 F.2d 841 (D.C.
Cir. 1997) ................................................................................................................................... 20
Wildman v. Berwick Universal Pictures, 983 F.2d 21 (5th Cir. 1992) ........................................... 19
Woljf v. McDonnell, 418 U.S. 539 (1974) ..................................................................................... 13

Statutes
28 U.S.C. § 1331 .............................................................................................................................. 5
42 U.S.C. § 1395ff......................................................................................................................... 14

Other Authorities
Henry J. Friendly, Some Kind of Hearing, 123 U. Pa. L. Rev. 1267 (1975) ................................. 13

Rules
Fed. R. App. P. 8(a)(l)(C) ............................................................................................................... 7
Fed. R. App. P. 8(a)(2) ............................................................................................. ....................... 1
V

App. 200

Case: 20-20399

Document: 00515504823

Page: 6

Date Filed: 07/27/2020

Fifth Circuit Rule 27.3 ..................................................................................................................... 1
Regulations
42 C.F.R. § 405.370 ................................................................................................................... 2, 12
42 C.F.R. § 405.371(a) .................................................................................................................. 13
42 C.F.R. § 405.371(a)(2) ............................................................................................................ 2, 5
42 C.F.R. § 405.371(b)(l)(ii) ........................................................................................................... 5
42 C.F.R. § 405.371(b)(3)(i) .......................................................................................................... 12
42 C.F.R. § 405.371(b)(3)(ii) ......................................................................................................... 12
42 C.F.R. § 405.372(e) .................................................................................................................. 12
42 C.F.R. § 405.374 ....................................................................................................................... 13
42 C.F.R. § 405.375(c) .................................................................................................................. 13
42 C.F.R. § 405.372(b) .................................................................................................................. 13
42 C.F .R. Subpart I ........................................................................................................................ 14

Vl

App. 201

Case: 20-20399

Document: 00515504823

Page: 7

Date Filed: 07/27/2020

APPELLANT'S OPPOSED MOTION FOR INJUNCTION PENDING APPEAL

Abet Life, Inc. (Appellant), pursuant to Fed. R. App. P. 8(a)(2), files its
Motion for Injunction Pending Appeal against Alex M. Azar II, Secretary, United
States Department of Health and Human Services (hereinafter Appellee).
Although it is not an emergency motion covered by Fifth Circuit Rule 27.3,
Appellant has a serious need for the Court to act within 21 days of filing, or by
August 17, 2020. Appellant seeks an injunction to stop Appellee's Medicare
payment suspension that will otherwise force the healthcare provider' s closure on
or about that date.
INTRODUCTION

Appellant, a Medicare certified homecare provider, moves to temporarily
enjoin Appellee's "suspension" of its Medicare payments during the COVID-19
emergency or until the government provides a hearing on the adverse action in
conformance with Due Process of Law. The suspension will irreparably harm
Appellant by forcing it out of business and into bankruptcy, and it jeopardizes the
health and safety of the provider's patients by disrupting their services and
requiring that they obtain them elsewhere in the Houston-area, a "hot spot" of the
COVID-19 outbreak. The provider has no right to administratively appeal or
otherwise obtain a hearing to challenge Appellee's suspension action.

1

App. 202

Case: 20-20399

Document: 00515504823

Page: 8

Date Filed: 07/27/2020

FACTS AND PROCEDURAL IDSTORY
Appellee issued a notice of suspension of Medicare payments on March 17,
2020. 1 See Appendix, Exhibit 2, Ex. B. The suspension was brought under 42
C.F.R. § 405.371(a)(2) and based upon a "credible allegation of fraud." Critically,
the provider has not been charged with fraud by the government; the allegation
may be made by "any source." 42 C.F.R. § 405.370 (definitions). 2 The
preliminary findings merely state that "Documentation does not support the
services billed met criteria for skilled nursing services." As a result of the
suspension action, all Medicare payments owed to the provider are being withheld
pending resolution of the ongoing investigation, and they will be applied to
liquidate any subsequently determined overpayment.
Unfortunately, the suspension action could not come at a worse time.
President Donald Trump declared a national emergency over the COVID-19
outbreak on March 13, 2020. See Appendix, Exhibit 4. Dr. Deborah Birx, White
House Coronavirus Response Coordinator, has reported that U.S. deaths cause by
COVID-19 may be catastrophic. She stated that Dr. Anthony Fauci, National

A suspension of payment means "the withholding of payment by a Medicare contractor from a
provider or supplier of an approved Medicare payment amount before a determination of the
overpayment exists, or until the resolution of an investigation of a credible allegation of fraud."
42 C.F.R. §405.370 (definitions).
2
Unfortunately, healthcare is a competitive business and it is not uncommon for competing home
health agencies or disgruntled employees to make such allegations to obtain a competitive
advantage or as a means of personal vengeance.
1

2

App. 203

Case: 20-20399

Document: 00515504823

Page: 9

Date Filed: 07/27/2020

Institute of Allergies and Infectious Diseases, has predicted U.S. deaths could
range from 1.6 to 2.2 million in a worst-case scenario and projects 100,000 to
200,000 in a best-case scenario. To date, there are 142,755 COVID-19 related
deaths. 3 The surge in confirmed coronavirus cases is overwhelming our nation's
hospitals. And it is having a cascading effect on ancillary providers and
practitioners as well.
In a Declaration Under Penalty ofPerjury ofBinny Oonnoonny, the
provider's President and owner averred that the suspension will force Appellant to
shut down its business and file bankruptcy. ~16. See Appendix, Exhibit 2. When it
filed suit, the provider employed some 30 bilingual care givers and had a diverse
census of approximately 3 5 patients. Id., at ~3. Due to the payment suspension,
Appellant has been forced to lower its census to ensure quality care, and it now
provides care to 15 patients. Id., at ~28. The provider derives approximately 90%
of its revenue from Medicare, and it has an estimated value is $2.1 million. Id., at
~3. Despite obtaining funding through the Paycheck Protection Program, 4 the
provider will soon deplete it business and all personal resources, and it will only be able to
survive for another two to three weeks. Id, at ff26-34. Because the provider is not being

Reported by the Centers for Disease Control and Prevention as of July 23, 2020, at
www.cdc.gov.
4
In March 2020, U.S. lawmakers agreed on the passage of a $2 trillion stimulus bill called
the CARES (Coronavirus Aid, Relief, and Economic Security) Act to blunt the impact of an
economic downturn set in motion by the global coronavirus pandemic.
3

3

App. 204

Case: 20-20399

Document: 00515504823

Page: 10

Date Filed: 07/27/2020

paid for the home health services it provides to Medicare program beneficiaries, it
will soon be compelled to terminate its employees as well as cease operations. Id
If Appellant is forced to close, the provider's patients will have to obtain
their home health services elsewhere. In a Declaration Under Penalty ofPerjury

of Jan Spears, the healthcare consultant with over 35 years' experience opined that

"CMS has imposed the suspension even though its impact will force Abet Life's
closure and despite the fact it jeopardizes the health and safety of patients of the
provider and their access to essential healthcare services." Id., at ~17. See

Appendix, Exhibit 3. She explained that the Houston-area was a "hot spot" of the
COVID-19 outbreak. Id., at ~15. Because of the overwhelming impact of the
virus on the Houston-area healthcare community, she expressed concern that these
patients may only be able to access essential healthcare under the Medicare
program through Appellant's agency. Id., at ff15-16, and 18. Noting that most of
the provider's patients are unwilling or unable to be transferred due to their
condition and/or refusal (in accordance with Patient Rights) because of a fear of
developing new relationships in the midst of the COVID-19 outbreak, she pointed
out that homecare providers are also reticent to accept new or transferred patients. 5

5

Recently, National Association for Home Care & Hospice President William Dombi
commented that "This is one of those times when the home health agencies have to figure out
where the balance is to be struck between the safety of their staff and caring for the patients that
they have." https://homehealthcarenews.com/2020/03/nahcs-dombi-agencies-arent-panicking-inthe-streets-over-pdgm/
4

App. 205

Case: 20-20399

Document: 00515504823

Page: 11

Date Filed: 07/27/2020

Id.
On March 27, 2020, Appellant submitted a rebuttal to Appellee opposing the
suspension. See Appendix, Exhibit 2, Ex. D. It explained that the suspension
would force the provider to close and file bankruptcy, and doing so in the midst of
the COVID-19 epidemic jeopardized the provider's patients and was a danger to
their life and health. 6 Subsequently, on April 28, 2020, Appellee reply that
continued the suspension essentially because there are numerous other Medicare
homecare providers in the Houston-area. See Appendix, Exhibit 2, Ex. E.
On April 1, 2020, Appellant filed suit alleging procedural Due Process and

ultra vires claims. See Appendix, Exhibit 5. The provider asserted that its Due
Process and ultra vires claims are collateral to the Appellee's administrative
process, invoking Mathews v. Eldridge, 424 U.S. 319, 326-32 (1976).
Additionally, Appellant relies on Sha/ala v. Ill. Council on Long Term Care, Inc.,
529 U.S. 1, 19 (2000), to assert that jurisdiction lies because §405 "would not
simply channel review through the agency, but would mean no review at all." In
such situation jurisdiction is available under 28 U.S.C. § 1331. Id., at 19.

Appellee may suspend Medicare payments where there is a "credible allegation of fraud"
against the provider, unless there is good cause not to suspend payments. 42 C.F.R. §
405.371(a)(2). The regulation provides that good cause may exist not to suspend a provider's
payments if, among other things, it is determined that beneficiary access to services would be so
'jeopardized by a payment suspension," in whole or in part, as to cause a "danger to life or
health." 42 C.F.R. § 405.371(b)(l)(ii). Clearly, the application of this exception focuses on the
impact of suspension as it relates to the delivery of services by a particular provider, and not
whether services otherwise exist in the healthcare community at large.
6

5

App. 206

Case: 20-20399

Document: 00515504823

Page: 12

Date Filed: 07/27/2020

On June 26, 2020, the trial court and dismissed the case for lack of subject
matter jurisdiction. See Appendix, Exhibit 1. Judge Miller relied heavily on True

Health Diagnostics, LLC v. Azar, 392 F. Supp.3d 666 (E.D. Tex. 2019), in
deciding the case. Unlike True Health Diagnostics, Appellant only seeks to

temporarily enjoin the Medicare payment suspension during the COVID-19
emergency or until a hearing is provided on the adverse action in conformance
with Due Process of Law. Appellant does not seek a determination that the
suspension is wrongful under the Medicare Act. Indeed, this is quite different from
a request for permanent reinstatement of benefits. See Family Rehab., Inc. v. Azar
886 F.3d 496, 503 (5th Cir. 2018). In True Health Diagnostics, the plaintiff
actually sought such permanent relief in contending that the claims being
suspended in 2019 were part of an earlier 2017 suspension. True Health

Diagnostics, 392 F.Supp.3d at 680-81. Clearly, Judge Miller failed to recognize
this distinction and wrongly applied True Health Diagnostics in dismissing
Appellant's case.
ARGUMENT
Appellant is entitled to an injunction pending appeal of the government's
suspension action. In asserting its entitlement to injunctive relief, the motion
addresses three contentions. First, moving for an injunction in district court would
be impracticable. Second, Appellant is entitled to an injunction pending appeal
6

App. 207

Case: 20-20399

Document: 00515504823

Page: 13

Date Filed: 07/27/2020

because it establishes all of the requisites for the injunction. Third, in the event it
has not shown a probability of success on the merits, Appellant has presented a
substantial case on the merits when a serious legal question is involved and shown
that the balance of the equities weighs heavily in favor of granting the injunction.

I.

Moving for an Injunction in District Court Would be Impracticable
Under Fed. R. App. P. 8(a)(l)(C), a party must ordinarily seek an injunction

pending appeal in the first instance in district court. However, parties may move
directly in the courts of appeal, if "moving first in the district court would be
impracticable." Under the circumstances of this case, moving first in the trial court
would be impracticable for two reasons.
First, given the trial court's conclusion that it lacked subject-matter
jurisdiction over Appellant's claims, it appears that the district court lacks
jurisdiction to issue an injunction. See Nat' l Athletic Trainers ' Ass 'n, Inc. v. U.S.
Dept. ofHealth & Human Servs., No. CN.A. 3:05CV1098-G, 2005 WL 1923566,

at *2 (N.D. Tex. Aug 11, 2005); accord Tropf v. Fidelity Nat 'l Title Ins. Co., 289
F.3d 929, 942 (6th Cir. 2002); Earwood, Inc. v. District of Columbia, 202 F.3d 290,
294-95 (D.C. Cir. 2000).
Second, Appellant did, in fact, file in the trial court its Motion and
Application for Temporary Restraining Order (Doc. 7), which was accompanied by
a Memorandum of Law in Support of Motion and Application for Temporary
7

App. 208

Case: 20-20399

Document: 00515504823

Page: 14

Date Filed: 07/27/2020

Restraining Order (Doc. 8-2). In fact, the trial court ordered that an affidavit
specifically stating, under penalty of perjury, the substantial threat of irreparable
injury Abet Life faces if immediate relief is not granted (Doc. 18). Nevertheless,
the trial court issued its Memorandum Opinion and Order rejecting Appellant's
claims as not being collateral constitutional claims and dismissed the case for lack
of subject-matter jurisdiction without ruling on the request for injunctive relief
(Doc. 20). Moreover, given Appellee's opposition to the injunction filed in the
trial court as well as in the Family Rehabilitation line of cases,7 moving first in the
district court would needlessly compound the briefing and waste time. See, e.g.,

Planned Parenthood of Greater Tex. Surgical Health Servs. v. Abbott, 734 F.3d
406,410 (5th Cir. 2013). Clearly, moving for an injunction in the district court
would be impracticable.

II.

Appellant is Entitled to an Injunction Pending Appeal
To be entitled to an injunction pending appeal, a movant must show (1) a

likelihood of success on the merits; (2) irreparable harm if an injunction is not
granted; (3) that the issuance of an injunction will not substantially harm the other
party; and (4) whether granting the injunction would serve the public interest. Ruiz

v. Estelle, 650 F.2d 555,565 (5 1h Cir. 1981) (Ruiz I); Coastal States Gas Corp. v.

The government vigorously opposes not only the merits of Appellant's Due Process and ultra
vires claims, but the underlying jurisdictional basis for challenging the Medicare payment
suspension.
7

8

App. 209

Case: 20-20399

Document: 00515504823

Page: 15

Date Filed: 07/27/2020

Dept. ofEnergy, 609 F.2d 736, 737 (5th Cir. 1979); Fortune v. Molpus, 431 F.2d
799, 804 (5th Cir. 1970); and Belcher v. Birmingham Trust National Bank, 95 F.2d
685 (5th Cir. 1968). The injunctive relief is "preventive or protective in that it
seeks to maintain the status quo" during the appeal. The status quo is the last
actual, peaceable, non-contested status that preceded the pending controversy.
Accordingly, this Court should order that Appellee cease its suspension of the
provider's payments and return those being withheld to the Appellant. 8 As shown
below, Appellant meets all of these factors and is entitled to an injunction pending
appeal.

A.

Likelihood of Success

Appellant is likely to prevail on its underlying procedural due process
claim. See, Ruiz, 650 F.2d at 565 (factor one). "Procedural due process protects
against governmental deprivation of a liberty or property interest." Mathews v.

Eldridge, 424 U.S. at 332. When analyzing whether a party's procedural Due
Process rights have been violated, courts weigh three factors:
First, the private interest that will be affected by the
official action; second, the risk of an erroneous
deprivation of such interest through the procedures used,
This Court has long recognized that there is no particular magic in the phrase "status quo."
The focus of injunctive relief is on the prevention of injury by a proper order, not merely on
preservation of the status quo. If the currently existing status quo itself is causing one of the
parties irreparable injury, it is necessary to alter the situation so as to prevent the injury, either by
returning to the last uncontested states quo between the parties or by allowing the parties to take
proposed action that will minimize the irreparable injury. See Canal Authority ofState of Fla. v.
Callaway, 489 F.2d 567 (5th Cir. 1974).
8

9

App. 210

Case: 20-20399

Document: 00515504823

Page: 16

Date Filed: 07/27/2020

and the probable value, if any, of additional or substitute
procedural safeguards, and finally, the Government's
interest, including the function involved and the fiscal
administrative burdens that the additional or substitute
procedural requirements would entail.
Id. at 335. (emphasis added).
Under the first Mathews factor, the Court determines whether there is a
private interest that will be affected by the government's action. The evolving
precedent in this jurisdiction holds that Medicare providers have a legitimate
claim of entitlement to payment for services that are covered under the Medicare
Act and actually rendered. See, e.g., Family Rehabilitation, Inc. v. Azar, No.
3:17-CV-3008-K, 2020 WL 230615 at *5 (N.D. Tex. 2020). To have a property
interest in a benefit, a person clearly must have more than an abstract need or
desire for it. He must have more than a unilateral expectation of it. He must
instead have a "legitimate claim of entitlement to it. " Board ofRegents of State
Colleges v. Roth, 408 U.S. 564, 577 (1972). Thus, property interests are created
and their dimensions defined by existing rules or understandings that stem from
an independent source such as state law rules or understandings that secure
certain benefits and support claims of entitlement to those benefits. Pers. Care
Prods., Inc. v. Hawkins, 635 F.3d 155, 158 (5 1h Cir. 2011) (citing Roth, 408 U.S.
at 577). In Med-Cert Home Care, LLC v. Azar, the Honorable Judge Fish
presiding in the Northern District of Texas analyzed this issue and found that
10

App. 211

Case: 20-20399

Document: 00515504823

Page: 17

Date Filed: 07/27/2020

"precedent makes clear that [the provider] has a valid property interest in
receiving Medicare payments for services rendered." 365 F. Supp. 3d 742, 751
(N.D. Tex. 2019); see Family Rehabilitation, WL 2020 WL 230615 at *4
(concluding a Medicare-certified home health agency whose Medicare payments
were being withheld had a property interest in the Medicare payments for
services rendered); Adams EMS, Inc. v. Azar, No. H-18-1443, 2018 WL 5264244,
at* 10 (S.D. Tex. Oct. 23, 2018) (Ambulance supplier had "a property interest in
receiving and retaining the Medicare payments it has earned."). Indeed, district
courts throughout the Fifth Circuit have found that providers do, in fact, have a
valid property interest in earned Medicare payments. See also Home Health

Innovations, Inc. v. Azar, Civil Action No. 5:18-CV-00601 (W.D. Tex. July 7,
2019) (The Court granted the TRO "finding the Appellant had met its burden of
persuasion on all four factors").
When addressing the government's contention that providers have no
property interest in Medicare payments, Judge Kinkeade asserted the "position
was so ludicrous as to be specious." Family Rehabilitation, WL 2020 WL
230615 at *5. He stated, "[i]f there were no recognized property interest,
providers would be expected to treat every patient as a charity case where
reimbursement would just be a nice bonus." He concluded that "Medicare
providers would not provide service to Medicare patients without the reasonable
11

App. 212

Case: 20-20399

Document: 00515504823

Page: 18

Date Filed: 07/27/2020

expectation of payment, [and] the Medicare statute constitutes an 'independent
source' that 'support[s] claims of entitlement filed by Medicare providers. Id.
Because the Medicare statute outlines a program for reimbursement, a provider
who renders service to Medicare patients has more than a unilateral expectation."
Id. Thus, Appellant has a substantial interest in the receipt of Medicare payments
for covered services it has rendered that ultimately affects its private interest in the
survival of the business." Id., at *4. Similarly, Appellant has a property interest
in suspended Medicare payments under 42 C.F.R. § 405.371(a)(2). 9
Under the second Mathews factor, the Court determines whether the
procedures used protect the private interest. See Family Rehabilitation, 2020
WL 230615 at *8. Not only is the provider not extended administrative appeal
rights or otherwise provided a hearing to challenge the suspension, Appellant's
Medicare payments are suspended for an indefinite period because there is no
established time frame for resolving the investigation. 10 Thus, it cannot be
disputed there is a high risk that Appellant will be erroneously deprived of its
9

The suspension withholds approved Medicare payments that are "applied to reduce or
liquidate any overpayment." 42 C.F.R. § 405.372(e). See also 42 C.F.R. § 405.370 (definition
of "suspension of payment"). This is distinguishable from the situation where a State imposes
a "payment hold" on current claims because of "prima facie evidence of fraud" on past claims.
See Pers. Care Prods. , Inc. v. Hawkins, 635 F.3d 155, 157 (5th Cir. 2011).
Under the regulations, good cause not to continue to suspend payments is deemed to exist if a
payment suspension has been in effect for 18 months and there has not been a resolution of the
investigation, but Appellee may extend the suspension beyond that point when the case has been
referred to and sanctions are being considered by the OIG or DOI has an ongoing investigation.
See 42 C.F.R. §§ 405.371(b)(3)(i) and 405.371(b)(3)(ii).
10

12

App. 213

Case: 20-20399

Document: 00515504823

Page: 19

Date Filed: 07/27/2020

property interest in Medicare payments suspended in accordance with 42 C.F .R.

§ 405.371(a). Judge Kinkeade recognized that a hearing is the essential step to
"decreasing the risk of erroneous deprivation." See Family Rehabilitation, 2020
WL 230615 at *9.
Moreover, it cannot be argued that the opportunity for rebuttal satisfies the
requirement for "some kind of hearing." See 42 C.F.R. § 405.372(b). See also

Woljf v. McDonnell, 418, U.S. 539, 557-58 (1974). While providers are
instructed they may "submit any statement (to include any pertinent information)
as to why" the suspension should not be put into effect," see 42 C.F.R. §
405.374, they also are informed the suspension is "not an initial determination
and not appealable." See 42 C.F.R. § 405.375(c).
Indeed, the rebuttal process is nothing more than a unilateral review of the
suspension. Judge Friendly's influential article "Some Kind of Hearing," created
a list of basic due process rights. See Henry J. Friendly, Some Kind ofHearing,

123 U. Pa. L. Rev. 1267 (1975). The opportunity for rebuttal fails to satisfy
almost all of these. The rebuttal process is not before an unbiased tribunal; there is
no right to know the opposing evidence; there is no right to cross examine; the
decision is not based only on the evidence presented; and the decision is not
reviewable. The provider is essentially given an opportunity to complain, but it
does so to CMS who imposed the adverse action, and though the agency considers
13

App. 214

Case: 20-20399

Document: 00515504823

Page: 20

Date Filed: 07/27/2020

the rebuttal, it does so without any standard of review or right to a hearing. 11
Clearly, there is a high risk of deprivation under the rebuttal process used by
Appellee that is void of the most basic Due Process rights as to the suspension of
Appellant's Medicare payments.
The third Mathews factor weighs the fiscal and administrative burdens that
the additional or substitute procedural requirement would entail. Appellee cannot
hide behind the contention it has an interest in protecting the Medicare Trust
Funds and administering it efficiently. While the government may contend it has
a right to suspend payments because of a "credible allegation of fraud," it does not
have a right to make such allegations and deny the provider Due Process and a
hearing to challenge the adverse action. Because the suspension would force the
provider's closure prior to a hearing, Appellant's interest is greater that the
government's interest in protecting the Medicare Trust Fund and administering it
efficiently. Indeed, the quandary that Appellee finds itself arises from inefficient
administration. See Family Rehab., 2020 WL 230615, at *10. Clearly, Appellee's

While Appellee may argue a hearing is made available to the provider, it only is offered qfter an
overpayment isdetennined. See 42 U.S.C. § 1395ff; 42 C.F.R. Subpart I. The provider must wait
until the completion of the investigation, which lasts for an indefinite period of time, and the
issuance of an overpayment determination, that is, if one ever is issued. It is not uncommon for
such investigations to take more than a year or longer to complete before the overpayment
determination is made. Only then can the provider pursue an administrative appeal of the
overpayment. As this Court is well aware, the provider may then have to wait for as long as five
years for a hearing, and while the government is recouping its Medicare payments. See Family
Rehab., 886 F.3d at 500. Under the agency's scheme, the Medicare payment suspension
essentially escapes any meaningful review.
11

14

App. 215

Case: 20-20399

Document: 00515504823

Page: 21

Date Filed: 07/27/2020

hypothetical risk of loss to Defendant does not outweigh Plaintiffs ongoing
deprivation of its property interest without Due Process. Family Rehab., 2020
WL 230615, at* 11 (Going out of business outweighs the burden of delayed
recoupment).
Likewise, the patients at Abet Life have a constitutional Due Process right
(consistent with principles of equal protection) to access safe and reliable
services under the federal Medicare program.

12

In fact, it has been a

longstanding core value of Medicare that the program should provide equal
access to appropriate and high-quality health services for all beneficiaries,
including those with chronic, long-term, and mental health conditions.

13

See

Bolling v. Sharpe, 347 U.S. 497, 499 (1954) (But the concepts of equal
protection and due process, both stemming from our American ideal of fairness,
are not mutually exclusive. The equal protection of the laws is a more explicit
safeguard of prohibited unfairness than due process oflaw, and, therefore, we do

12

A patient cannot secure Medicare home health services without the aid of a certified
provider, and a Medicare beneficiary cannot secure home care without the provider being paid
by the Medicare program. Clearly, a patient's right to access safe and reliable hospice care under
the federal Medicare program is at stake here. Moreover, the patient's constitutional right to
access is one in which the provider is intimately involved. See Singleton v. Wulff, 428 U.S. 106
(1976). Therefore, Appellant is uniquely qualified to litigate the constitutionality of the
government's interference with, or discrimination against, such access, and the provider
appropriately asserts the rights of beneficiaries against governmental interference with access to
home care.
13

See www.medicareadvocacy.org/medicare-info/medicare-and-health-care-reform
15

App. 216

Case: 20-20399

Document: 00515504823

Page: 22

Date Filed: 07/27/2020

not imply that the two are always interchangeable phrases. But, as this Court has
recognized, discrimination may be so unjustifiable as to be violative of due
process). Appellee discriminates against the class of Medicare beneficiaries
entitled to medically necessary home health services by imposing suspension
under circumstances that place in jeopardy their health and safety and will deny
to them access to essential healthcare. Spears Declaration, ififl5-18. See

Appendix, Exhibit 3. Clearly, Appellant has established that there is a substantial
likelihood of success on the merits.

B.

Irreparable Injury if the Injunction is Denied

Imminent and irreparable injury will occur if this Court does not grant
Appellant's motion for injunction and order the requisite injunctive relief. See,

Ruiz, 650 F .2d at 565 (factor two). To establish irreparable injury, Appellant must
establish "a significant threat of injury from the impending action, that the injury is
imminent, and that money damages would not fully repair the harm." Family

Rehabilitation, Inc. v. Azar, No. 3:17-CV-3008-K, 2018 WL3155911, at *6 (N.D.
Tex. June 28. 2018) (quotation omitted). The suspension will force Appellant to
shut down its business and file bankruptcy. Oonnoonny Declaration ,II 6. See

Appendix, Exhibit 2. Going out of business is an irreparable injury. Family
Rehab., 886 F.3d. at 504. ("The combined threats of going out business and
disruption to Medicare patients are sufficient for irreparable injury."). Likewise,
16

App. 217

Case: 20-20399

Document: 00515504823

Page: 23

Date Filed: 07/27/2020

the suspension jeopardizes the patients' access to home health services provided by
Appellant, and doing so in the midst ofthe COVID-19 emergency poses a danger to their
life or health. Spears Declaration, 1115-18. See Appendix, Exhibit 3. Clearly,
there is irreparable injury if the injunction is denied.

C.

Injunction Would Not Substantially Harm HHS

The threatened injury faced by Appellant outweighs the harm that would
be sustained by Appellee if the injunction is not granted. See, Ruiz, 650 F.2d at
565 (factor three). Without injunctive relief, Appellant will be forced to shutter its
doors and close down its business, and the Medicare beneficiaries relying on the
provider must seek to obtain essential home care services elsewhere during the
COVID-19 emergency when access to such services is uncertain during this
crisis. On the other hand, Appellee will not suffer harm from granting the
injunctive relief sought because the government will always have the opportunity
to later collect its payments for services if an overpayment is ultimately
determined. See Family Rehabilitation, 2018 WL 315 5911, at *7; see Med-Cert,

365 F. Supp. 3d at 757. The government will only be required to do what it is
otherwise obligated to do under law, pay for the current claims of Medicare
beneficiaries. Indeed, the only harm posed here is to Appellant as it will go out
of business and file bankruptcy if the injunction is denied. This harm will have a
cascading effect. Employees will lose their jobs. Medicare beneficiaries that rely
17

App. 218

Case: 20-20399

Document: 00515504823

Page: 24

Date Filed: 07/27/2020

on Appellant will have their essential healthcare services disrupted in the midst of the
pandemic. Clearly, the injunction would not substantially harm Appellee.

D.

Public Interest Would Not be Disserved by the Injunction

Issuance of the injunction would not adversely affect the public interest.

See, Ruiz, 650 F.2d at 565 (factor four). The quality of home care provided by
Appellant is not at issue, only the reimbursement for the home health services.
No public interest would be adversely affected by granting injunctive relief. If
anything, the public would benefit from continued access to Appellant's services.

See Family Rehabilitation, 2020 WL 230615, at *11; Med-Cert, 365 F. Supp. 3d
at 757 (Not disserve the public interest by conflicting with Congress' statutory
scheme). 14 Clearly, granting the injunction does not disserve the public interest.

III.

Appellant Presents a Substantial Case on Serious Legal Questions
Although Appellant contends that it has made the requisite showing of likely

success on the merits of its case, it need only satisfy the less stringent "substantial
case" standard. In Ruiz v. Estelle, the Fifth Circuit held that a movant "need only
present a substantial case on the merits when a serious legal question is involved
and show that the balance of equities weighs heavily in favor" of granting relief.

Appellant should not be required to post a bond because Appellee is obligated to pay for the
home health services of the Medicare beneficiaries on service at the provider. See Family
Rehab., 2018 WL 3155911 , at *7 (In its discretion, the Court waived the bond requirement upon
issuance of preliminary injunction).
14

18

App. 219

Case: 20-20399

Document: 00515504823

Page: 25

Date Filed: 07/27/2020

650 F.2d at 565. Thus, if the last three factors weigh heavily in Appellant's favor,
the provider need not show "probability of success on the merits." Id.
Here, Appellant clearly satisfies the "substantial case" standard. A serious
legal question is posed when the issue could have a broad impact or otherwise farreaching effect of public concern. Wildman v. Berwick Universal Pictures, 983
F.2d 21, 24 (5th Cir. 1992). For example, the Fifth Circuit determined in Baylor v.

Univ. Med. Ctr., 711 F.2d 38 (5th Cir. 1983), that "the serious legal question
involved was whether Medicare and Medicaid payments constitute federal
financial assistance within the meaning of the Rehabilitation Act because 'that
could have a broad impact on federal/state relations' which could open 'the door of
private institutions to the probing tools of an HHS investigation." Id. (quoting

Baylor, 711 F.2d at 40). Clearly, this case addresses a serious legal question of
similar import in considering whether a Medicare certified home health agency has
a property interest in earned Medicare payments and if there is a high risk of
deprivation when a hearing is not available to challenge their suspension for an
indefinite period of time.
Without doubt, the latter three factors are heavily tilted in Appellant's
favor, and especially in light of cited precedent where trial courts have
considered essentially the same issues and held in favor of the provider. See,

e.g., Family Rehabilitation, Med-Cert, and Adams EMS, Home Health
19

App. 220

Case: 20-20399

Document: 00515504823

Page: 26

Date Filed: 07/27/2020

Innovations, supra. Appellant has established there is irreparable injury if the
injunction is denied. See Part II, B. Appellant has established that the injunction
would not substantially harm Appellee. See Part II, C. Appellant has established
that granting the injunction does not disserve the public interest. See Part II, D.
Thus, Appellant has shown that the balance of the equities weighs heavily in
favor of granting the injunction. Where, as here, the denial of an injunction "will
utterly destroy the status quo," irreparably harming the provider, but the granting
of the injunction will cause relatively slight harm to the government, Appellant
need not show an absolute probability of success in order to be entitled to an
injunction. See Ruiz, 650 F.2d at 565 (citing Providence Journal Co. v. Federal

Bureau ofInvestigation, 595 F.2d 889, 890 (1st Cir. 1979)). See also Washington
Metropolitan Area Transit Commission v. Holiday Tours, Inc., 559 F.2d 841, 843
(D.C. Cir. 1997). Clearly, Appellant has satisfied the less stringent "substantial
case" standard.

CONCLUSION
For these reasons, Appellant respectfully requests that this Court grant its
motion for injunction pending appeal.
Respectfully submitted,
KENNEDY
Attorneys and Counselors at Law

20
App. 221

Case: 20-20399

Document: 00515504823

Page: 27

Date Filed: 07/27/2020

/s/ Mark S. Kennedy
MARK S. KENNEDY
State Bar of Texas No. 24000122
LURESE A. TERRELL
State Bar of Texas No. 24008139
CALVIN TREY SCOTT
State Bar of Texas No.24083821
12222 Merit Drive, Suite 1750
Dallas, TX 75251
Telephone: (214) 445-0740
Fax: (972) 661-9320
markskennedylaw@msn.com
ATTORNEYS FOR APPELLANT

21

App. 222

Case: 20-20399

Document: 00515504823

Page: 28

Date Filed: 07/27/2020

CERTIFICATE OF CONFERENCE
I hereby certify that on July 24, 2020, we attempted to confer with Assistant
U.S. Attorney Jose Vela Jr. concerning Appellee's position on this motion. Mr.
Vela did not respond to our several attempted communications and, consequently,
we assume that the government opposes this motion and will file a response.

/s/ Mark S. Kennedy
MARK S. KENNEDY

22
App. 223

Case: 20-20399

Document: 00515504823

Page: 29

Date Filed: 07/27/2020

CERTIFICATE OF COMPLIANCE
Pursuant to Federal Rule of Appellate Procedure 32(g)(l ), I hereby certify
that this document complies with Rule 27(d)(2)(A). It is printed in Times New
Roman, a proportionally spaced font, and includes 5,113 words, excluding items
enumerated in Rule 32(±) and Fifth Circuit Rule 32.2. I relied on my word
processor, Microsoft Word, to obtain the count.

Isl Mark S. Kennedy
MARK S. KENNEDY

23

App. 224

Case: 20-20399

Document: 00515504823

Page: 30

Date Filed: 07/27/2020

CERTIFICATE OF SERVICE

I hereby certify that on July 27, 2020, an electronic copy of the foregoing
motion was filed with the Clerk of the Court for the United States Court of Appeal
for the Fifth Circuit using the appellate CM/EFC filing system and that service will
be accomplished using the appellate CM/ECF system.
/s/ Mark S. Kennedy
MARK S. KENNEDY

24

App. 225

Al/JHINTJCATW~
U.9
,00YUN WNT
Nl'DIMATION

GPO

RIGHTS OF PERSONS
FIFTH AMENDMENT

No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of
a Grand Jury, except in cases arising in the land or naval forces,
or in the Militia, when in actual service in time of War or public danger; nor shall any person be subject for the same offence
to be twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.

1463

App. 226

Page 339
Sec.
1360.

1361.
1362.
1363.
1364.
1365.
1366.
1367.
1368.
1369.

TITLE 28----JUDICIARY AND JUDICIAL PROCEDURE

State civil jurisdiction in actions to which
Indians are parties.
Action to compel an officer of the United
States to perform his duty.
Indian tribes.
Jurors' employment rights.
Direct actions against insurers of members of
diplomatic missions and their families.
Senate actions.
Construction of references to laws of the
United States or Acts of Congress.
Supplemental jurisdiction.
Counterclaims in unfair practices in international trade.
Multiparty, multiforum jurisdiction.
AMENDMENTS

2002-Pub. L. 107-273, div. C, title I, §11020(b)(l)(B),
Nov. 2, 2002, 116 Stat. 1827, added item 1369.
1999-Pub. L. 106--113, div. B, §1000(a)(9) [title m,
§3009(2)], Nov. 29, 1999, 113 Stat. 1536, 1501A--552, substituted "trademarks" for "trade-marks" in item 1338.
1998-----Pub. L. 105-304, title V, §503(b)(2)(B), Oct. 28,
1998, 112 Stat. 2917, inserted "designs," after "mask
works," in item 1338.
1995-Pub. L. 104-88, title III, §305(a)(4), Dec. 29, 1995,
109 Stat. 944, substituted "Surface Transportation
Board's" for "Interstate Commerce Commission's" in
item 1336.
1994-Pub. L. 103--465, title Ill, §32l(b)(3)(B), Dec. 8,
1994, 108 Stat. 4947, added item 1368.
1990---Pub. L. 101-650, title III, §310(b), Dec. 1, 1990, 104
Stat. 5114, added item 1367.
1988-----Pub. L. 100--702, title X, §1020(a)(7), Nov. 19, 1988,
102 Stat. 4672, substituted "Actions" for "Action" in
item 1330, inserted a period after "question" in item
1331, substituted "plant variety protection, copyrights,
mask works, trade-marks," for "copyrights, and trademarks" in item 1338, and inserted "and elective franchise" in item 1343.
1986-Pub. L. 99---336, §6(a)(l)(A), June 19, 1986, 100
Stat. 638, renumbered item 1364 "Senate actions" and
item 1364 "Construction of references to laws of the
United States or Acts of Congress" as items 1365 and
1366, respectively.
1984-Pub. L. 98-353, title I, § lOl(b), July 10, 1984, 98
Stat. 333, substituted "cases" for "matters" in item
1334.
1980--Pub. L. 96--486, §2(b), Dec. 1, 1980, 94 Stat. 2369,
struck out "; amount in controversy; costs." after
"question" in item 1331.
1978-Pub. L. 95--598, title II, §238(b), Nov. 6, 1978, 92
Stat. 2668, directed the substitution of "Bankruptcy appeals" for "Bankruptcy matters and proceedings" in
item 1334, which amendment did not become effective
pursuant to section 402(b) of Pub. L. 95--598, as amended,
set out as an Effective Date note preceding section 101
of Title 11, Bankruptcy.
Pub. L. 95--572, §6(b)(2), Nov. 2, 1978, 92 Stat. 2457,
added item 1363 and redesignated former item 1363
"Construction of references to laws of the United
States or Acts of Congress'', as 1364.
Pub. L. 95--521, title VII, §705(f)(2), Oct. 26, 1978, 92
Stat.1880, added item 1364 "Senate actions".
Pub. L. 95-486, §9(c), Oct. 20, 1978, 92 Stat. 1634, substituted "Commerce and antitrust regulations; amount
in controversy, costs" for "Commerce and antitrust
regulations" in item 1337.
Pub. L. 95--393, §§7(b), 8(a)(2), Sept. 30, 1978, 92 Stat.
810, substituted "Consuls, vice consuls, and members of
a diplomatic mission as defendant" for "Consuls and
vice consuls as defendants" in item 1351 and added item
1364 "Direct actions against insurers of members of diplomatic missions and their families".
1976-Pub. L. 94--583, §2(b), Oct. 21, 1976, 90 Stat. 2891,
added item 1330.
1970---Pub. L. 91--358, title I, §172(c)(2), July 29, 1970, 84
Stat. 591, added item 1363.
1966-Pub. L. 89--635, §2, Oct. 10, 1966, 80 Stat. 880,
added item 1362.

§1331

1962-Pub. L. 87-748, §l(b), Oct. 5, 1962, 76 Stat. 744,
added i tern 1361.
1958-Pub. L. 85-554, §4, July 25, 1958, 72 Stat. 415, inserted "costs" in items 1331 and 1332.
1953-Act Aug. 15, 1953, ch. 505, §3, 67 Stat. 589, added
item 1360.
§ 1330.

Actions against foreign states
(a) The district courts shall have original jurisdiction without regard to amount in controversy of any nonjury civil action against a
foreign state as defined in section 1603(a) of this
title as to any claim for relief in personam with
respect to which the foreign state is not entitled
to immunity either under sections 1605-1607 of
this title or under any applicable international
agreement.
(b) Personal jurisdiction over a foreign state
shall exist as to every claim for relief over
which the district courts have jurisdiction under
subsection (a) where service has been made
under section 1608 of this title.
(c) For purposes of subsection (b), an appearance by a foreign state does not confer personal
jurisdiction with respect to any claim for relief
not arising out of any transaction or occurrence
enumerated in sections 1605-1607 of this title.
(Added Pub. L. 94-583, § 2(a), Oct. 21, 1976, 90 Stat.
2891.)
EFFECTIVE DATE
Section effective 90 days after Oct. 21, 1976, see section 8 of Pub. L. 94-583, set out as a note under section
1602 of this title.
§ 1331.

Federal question

The district courts shall have original jurisdiction of all civil actions arising under the Constitution, laws, or treaties of the United States.
(June 25, 1948, ch. 646, 62 Stat. 930; Pub. L. 85-554,
§1, July 25, 1958, 72 Stat. 415; Pub. L. 94-574, §2,
Oct. 21, 1976, 90 Stat. 2721; Pub. L. 96--486, § 2(a),
Dec. 1, 1980, 94 Stat. 2369.)
HISTORICAL AND REVISION NOTES

Based on title 28, U.S.C., 1940 ed., §41(1) (Mar. 3, 1911,
ch. 231, §24, par. l, 36 Stat. 1091; May 14, 1934, ch. 283, §1,
48 Stat. 775; Aug. 21, 1937, ch. 726, §1, 50 Stat. 738; Apr.
20, 1940, ch. 117, 54 Stat. 143).
Jurisdiction of federal questions arising under other
sections of this chapter is not dependent upon the
amount in controversy. (See annotations under former
section 41 of title 28, U.S.C.A., and 35 C.J.S., p. 833 et
seq., §§ 30--43. See, also, reviser's note under section 1332
of this title.)
Words "wherein the matter in controversy exceeds
the sum or value of $3,000, exclusive of interest and
costs," were added to conform to rulings of the Supreme Court. See construction of provision relating to
jurisdictional amount requirement in cases involving a
Federal question in United States v. Sayward, 16 S.Ct.
371, 160 U.S. 493, 40 L.Ed. 508; Fishback v. Western Union
Tel. Co., 16 S.Ct. 506, 161 U.S. 96, 40 L.Ed. 630; and Halt
v. Indiana Manufacturing Co., 1900, 20 S.Ct. 272, 176 U.S.
68, 44 L.Ed. 374.
Words "all civil actions" were substituted for "all
suits of a civil nature, at common law or in equity" to
conform with Rule 2 of the Federal Rules of Civil Procedure.
Words "or treaties" were substituted for "or treaties
made, or which shall be made under their authority,"
for purposes of brevity.
The remaining provisions of section 41(1) of title 28,
U.S.C., 1940 ed., are incorporated in sections 1332, 1341,
1342, 1345, 1354, and 1359 of this title.

App. 227

§1332

TITLE 28--JUDICIARY AND JUDICIAL PROCEDURE

Changes were made in arrangement and phraseology.
AMENDMENTS
1980--Pub. L. 96-486 struck out "; amount in controversy; costs" in section catchline, struck out minimum amount in controversy requirement of $10,000 for
original jurisdiction in federal question cases which necessitated striking the exception to such required minimum amount that authorized original jurisdiction in
actions brought against the United States, any agency
thereof, or any officer or employee thereof in an official capacity, struck out provision authorizing the district court except where express provision therefore
was made in a federal statute to deny costs to a plaintiff and in fact impose such costs upon such plaintiff
where plaintiff was adjudged to be entitled to recover
less than the required amount in controversy, computed without regard to set-off or counterclaim and exclusive of interests and costs, and struck out existing
subsection designations.
1976-Subsec. (a). Pub. L. 94-574 struck out $10,000 jurisdictional amount where action is brought against
the United States, any agency thereof, or any officer or
employee thereof in his official capacity.
1958-Pub. L. 85--554 included costs in section catchline, designated existing provisions as subsec. (a), substituted "$10,000" for "$3,000", and added subsec. (b).
EFFECTIVE DATE OF 1980 AMENDMENT; APPLICABILITY
Pub. L. 96-486, § 4, Dec. 1, 1980, 94 Stat. 2370, provided:
"This Act [amending this section and section 2072 of
Title 15, Commerce and Trade, and enacting provisions
set out as a note under section 1 of this title] shall
apply to any civil action pending on the date of enactment of this Act [Dec. 1, 1980]."
EFFECTIVE DATE OF 1958 AMENDMENT
Pub. L. 85--554, §3, July 25, 1958, 72 Stat. 415, provided
that: "This Act [amending this section and sections
1332 and 1345 of this title] shall apply only in the case
of actions commenced after the date of the enactment
of this Act [July 25, 1958]."
§ 1332.

Diversity of citizenship; amount in con•
troversy; costs

(a) The district courts shall have original jurisdiction of all civil actions where the matter
in controversy exceeds the sum or value of
$75,000, exclusive of interest and costs, and is between(1) citizens of different States;
(2) citizens of a State and citizens or subjects of a foreign state, except that the district courts shall not have original jurisdiction under this subsection of an action between citizens of a State and citizens or subjects of a foreign state who are lawfully admitted for permanent residence in the United
States and are domiciled in the same State;
(3) citizens of different States and in which
citizens or subjects of a foreign state are additional parties; and
(4) a foreign state, defined in section 1603(a)
of this title, as plaintiff and citizens of a State
or of different States.
(b) Except when express provision therefor is
otherwise made in a statute of the United
States, where the plaintiff who files the case
originally in the Federal courts is finally adjudged to be entitled to recover less than the
sum or value of $75,000, computed without regard
to any setoff or counterclaim to which the defendant may be adjudged to be entitled, and exclusive of interest and costs, the district court

Page 340

may deny costs to the plaintiff and, in addition,
may impose costs on the plaintiff.
(c) For the purposes of this section and section
1441 of this title(1) a corporation shall be deemed to be a citizen of every State and foreign state by which
it has been incorporated and of the State or
foreign state where it has its principal place of
business, except that in any direct action
against the insurer of a policy or contract of
liability insurance, whether incorporated or
unincorporated, to which action the insured is
not joined as a party-defendant, such insurer
shall be deemed a citizen of(A) every State and foreign state of which
the insured is a citizen;
(B) every State and foreign state by which
the insurer has been incorporated; and
(C) the State or foreign state where the insurer has its principal place of business; and
(2) the legal representative of the estate of a
decedent shall be deemed to be a citizen only
of the same State as the decedent, and the
legal representative of an infant or incompetent shall be deemed to be a citizen only of
the same State as the infant or incompetent.
(d)(l) In this subsection(A) the term "class" means all of the class
members in a class action;
(B) the term "class action" means any civil
action filed under rule 23 of the Federal Rules
of Civil Procedure or similar State statute or
rule of judicial procedure authorizing an action to be brought by 1 or more representative
persons as a class action;
(C) the term "class certification order"
means an order issued by a court approving
the treatment of some or all aspects of a civil
action as a class action; and
(D) the term "class members" means the
persons (named or unnamed) who fall within
the definition of the proposed or certified class
in a class action.
(2) The district courts shall have original jurisdiction of any civil action in which the matter in controversy exceeds the sum or value of
$5,000,000, exclusive of interest and costs, and is
a class action in which-,(A) any member of a class of plaintiffs is a
citizen of a State different from any defendant;
(B) any member of a class of plaintiffs is a
foreign state or a citizen or subject of a foreign state and any defendant is a citizen of a
State; or
(C) any member of a class of plaintiffs is a
citizen of a State and any defendant is a foreign state or a citizen or subject of a foreign
state.
(3) A district court may, in the interests of
justice and looking at the totality of the circumstances, decline to exercise jurisdiction
under paragraph (2) over a class action in which
greater than one-third but less than two-thirds
of the members of all proposed plaintiff classes
in the aggregate and the primary defendants are
citizens of the State in which the action was
originally filed based on consideration of(A) whether the claims asserted involve matters of national or interstate interest;

App. 228

§1631

TITLE 28-JUDICIARY AND JUDICIAL PROCEDURE

state shall be immune from attachment and
from execution in an action brought under section 302 of the Cuban Liberty and Democratic
Solidarity (LIBERTAD) Act of 1996 to the extent
that the property is a facility or installation
used by an accredited diplomatic mission for official purposes.
(Added Pub. L. 94-583, § 4(a), Oct. 21, 1976, 90 Stat.
2897; amended Pub. L. 104-114, title III, §302(e),
Mar. 12, 1996, 110 Stat. 818.)
REFERENCES IN TEXT
The International Organizations Immunities Act, referred to in subsec. (a), is title I of act Dec. 29, 1945, ch.
652, 59 Stat. 669, as amended, which is classified principally to subchapter XVIII (§ 288 et seq.) of chapter 7 of
Title 22, Foreign Relations and Intercourse. For complete classification of this Act to the Code, see Short
Title note set out under section 288 of Title 22 and
Tables.
Section 302 of the Cuban Liberty and Democratic Solidarity (LIBERTAD) Act of 1996, referred to in subsec.
(c), is section 302 of Pub. L. 104-114, which amended this
section and enacted section 6082 of Title 22, Foreign Relations and Intercourse.
AMENDMENTS
1996-Subsec. (c). Pub. L. 104-114 added subsec. (c).
EFFECTIVE DATE OF 1996 AMENDMENT
Amendment by Pub. L. 104-114 effective Aug. 1, 1996,
or date determined pursuant to suspension authority of
President under section 6085(b) or (c) of Title 22, Foreign Relations and Intercourse, see section 6085 of Title
22.
EFFECTIVE DATE
Section effective 90 days after Oct. 21, 1976, see section 8 of Pub. L. 94-583, set out as a note under section
1602 of this title.

CHAPTER 99-GENERAL PROVISIONS
Sec.

1631.

Transfer to cure want of jurisdiction.

§ 1631.

Transfer to cure want of jurisdiction
Whenever a civil action is filed in a court as
defined in section 610 of this title or an appeal,
including a petition for review of administrative
action, is noticed for or filed with such a court
and that court finds that there is a want of jurisdiction, the court shall, if it is in the interest
of justice, transfer such action or appeal to any
other such court (or, for cases within the jurisdiction of the United States Tax Court, to that
court) in which the action or appeal could have
been brought at the time it was filed or noticed,
and the action or appeal shall proceed as if it
had been filed in or noticed for the court to
which it is transferred on the date upon which it
was actually filed in or noticed for the court
from which it is transferred.
(Added Pub. L. 97-164, title III, §301(a), Apr. 2,
1982, 96 Stat. 55; amended Pub. L. 115-332, § 2,
Dec. 19, 2018, 132 Stat. 4487.)
AMENDMENTS
2018-Pub. L. 115--332 inserted "(or, for cases within
the jurisdiction of the United States Tax Court, to that
court)" after "any other such court".
EFFECTIVE DATE
Section effective Oct. 1, 1982, see section 402 of Pub.
L. 97-164, set out as an Effective Date of 1982 Amendment note under section 171 of this title.

Page 410

PART V-PROCEDURE
Chap.

111.
113.
114.
115.
117.
119.
121
123.
125.
127.
129.
131.
133.

General Provisions ............................ .
Process .................................................. .
Class Actions ........................................
Evidence; Documentary ....................
Evidence; Depositions ........................
Evidence; Witnesses ...........................
Juries; Trial by Jury ..........................
Fees and Costs .................................... .
Pending Actions and Judgments ... .
Executions and Judicial Sales ....... ..
Moneys Paid into Court .................. ..
Rules of Courts ....................................
Review-Miscellaneous Provisions

Sec.

1651
1691
1711
1731
1781
1821
1861
1911
1961
2001
2041
2071
2101

AMENDMENTS
2005---Pub. L. 109-2, § 3(b), Feb. 18, 2005, 119 Stat. 9,
added item for chapter 114.

CHAPTER Ill-GENERAL PROVISIONS
Sec.

1651.
1652.
1653.
1654.
1655.
1656.
1657.
1658.
1659.

Writs.
State laws as rules of decision.
Amendment of pleadings to show jurisdiction.
Appearance personally or by counsel.
Lien enforcement; absent defendants.
Creation of new district or division or transfer of territory; lien enforcement.
Priority of civil actions.
Time limitations on the commencement of
civil actions arising under Acts of Congress.
Stay of certain actions pending disposition of
related proceedings before the United
States International Trade Commission.
AMENDMENTS

1994-Pub. L. 103-465, title III, §321(b)(l)(B), Dec. 8,
1994, 108 Stat. 4946, added item 1659.
1990-Pub. L. 101--Q50, title III, § 313(b), Dec. 1, 1990, 104
Stat. 5115, added item 1658.
1984-Pub. L. 9~20, title IV, §401(b), Nov. 8, 1984, 98
Stat. 3357, added item 1657.
§ 1651.

Writs

(a) The Supreme Court and all courts established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective jurisdictions and agreeable to the usages
and principles oflaw.
(b) An alternative writ or rule nisi may be issued by a justice or judge of a court which has
jurisdiction.
(June 25, 1948, ch. 646, 62 Stat. 944; May 24, 1949,
ch. 139, § 90, 63 Stat. 102.)
HISTORICAL AND REVISION NOTES
1948 ACT
Based on title 28, U.S.C., 1940 ed., §§342, 376, 377 (Mar.
3, 1911, ch. 231, §§ 234, 261, 262, 36 Stat. 1156, 1162).
Section consolidates sections 342, 376, and 377 of title
28, U.S.C., 1940 ed., with necessary changes in phraseology.
Such section 342 provided:
"The Supreme Court shall have power to issue writs
of prohibition to the district courts, when proceeding
as courts of admiralty and maritime jurisdiction; and
writs of mandamus, in cases warranted by the principles and usages of law, to any courts appointed under
the authority of the United States, or to persons holding office under the authority of the United States,
where a State, or an ambassador, or other public minister, or a consul, or vice consul is a party."

App. 229

Page 411

TITLE 28-JUDICIARY AND JUDICIAL PROCEDURE

Such section 376 provided:
"Writs of ne exeat may be granted by any justice of
the Supreme Court, in cases where they might be
granted by the Supreme Court; and by any district
judge, in cases where they might be granted by the district court of which he is a judge. But no writ of ne
exeat shall be granted unless a suit in equity is commenced, and satisfactory proof is made to the court or
judge granting the same that the defendant designs
quickly to depart from the United States."
Such section 377 provided:
"The Supreme Court and the district courts shall
have power to issue writs of scire facias. The Supreme
Court, the circuit courts of appeals, and the district
courts shall have power to issue all writs not specifically provided for by statute, which may be necessary
for the exercise of their respective jurisdictions, and
agreeable to the usages and principles of law."
The special provisions of section 342 of title 28,
U.S.C., 1940 ed., with reference to writs of prohibition
and mandamus, admiralty courts and other courts and
officers of the United States were omitted as unnecessary in view of the revised section.
The revised section extends the power to issue writs
in aid of jurisdiction, to all courts established by Act
of Congress, thus making explicit the right to exercise
powers implied from the creation of such courts.
The provisions of section 376 of title 28, U.S.C., 1940
ed., with respect to the powers of a justice or judge in
issuing writs of ne exeat were changed and made the
basis of subsection (b) of the revised section but the
conditions and limitations on the writ of ne exeat were
omitted as merely confirmatory of well-settled principles oflaw.
The provision in section 377 of title 28, U.S.C., 1940
ed., authorizing issuance of writs of scire facias, was
omitted in view of rule Bl(b) of the Federal Rules of
Civil Procedure abolishing such writ. The revised section is expressive of the construction recently placed
upon such section by the Supreme Court in U.S. Alkalt
Export Assn. v. U.S., 65 S.Ct. 1120, 325 U.S. 196, 89 L.Ed.
1554, and De Beers Consol. Mines v. U.S., 65 S.Ct. 1130, 325
U.S. 212, 89 L.Ed. 1566.
1949 ACT
This section corrects a grammatical error in subsection (a) of section 1651 of title 28, U.S.C.
AMENDMENTS
1949---Subsec. (a). Act May 24, 1949, inserted "and"
after "jurisdictions".

§ 1652.

§ 1653.

Amendment of pleadings to show jurisdiction

Defective allegations of jurisdiction may be
amended, upon terms, in the trial or appellate
courts.
(June 25, 1948, ch. 646, 62 Stat. 944.)
HISTORICAL AND REVISION NOTES
Based on title 28, U.S.C., 1940 ed., §399 (Mar. 3, 1911,
ch. 231, §274c, as added Mar. 3, 1915, ch. 90, 38 Stat. 956).
Section was extended to permit amendment of all jurisdictional allegations instead of merely allegations of
diversity of citizenship as provided by section 399 of
title 28, U.S.C., 1940 ed.
Changes were made in phraseology,
§ 1654.

State laws as rules of decision

The laws of the several states, except where
the Constitution or treaties of the United States
or Acts of Congress otherwise require or provide,
shall be regarded as rules of decision in civil actions in the courts of the United States, in cases
where they apply.
(June 25, 1948, ch. 646, 62 Stat. 944.)
HISTORICAL REVISION NOTES
Based on title 28, U.S.C., 1940 ed., §725 (R.S. §721).
"Civil actions" was substituted for "trials at common law" to clarify the meaning of the Rules of Decision Act in the light of the Federal Rules of Civil Procedure. Such Act has been held to apply to suits in equity.
Changes were made in phraseology.

Appearance personally or by counsel

In all courts of the United States the parties
may plead and conduct their own cases personally or by counsel as, by the rules of such
courts, respectively, are permitted to manage
and conduct causes therein.
(June 25, 1948, ch. 646, 62 Stat. 944; May 24, 1949,
ch. 139, §91, 63 Stat. 103.)
HISTORICAL REVISION NOTES
1948 ACT
Based on title 28, U.S.C., 1940 ed., §394 (Mar. 3, 1911,
ch. 231, § 272, 36 Stat. 1164).
Words "as, by the rules of the said courts respectively, are permitted to manage and conduct causes
therein," after "counsel," were omitted as surplusage.
The revised section and section 2071 of this title effect
no change in the procedure of the Tax Court before
which certain accountants may be admitted as counsel
for litigants under Rule 2 of the Tax Court.
Changes were made in phraseology.
1949 ACT
This section restores in section 1654 of title 28, U.S.C.,
language of the original law.
AMENDMENTS
1949---Act May 24, 1949, inserted "as, by the rules of
such courts, respectively, are permitted to manage and
conduct causes therein".
§ 1655.

WRIT OF ERROR
Act Jan. 31, 1928, ch. 14, §2, 45 Stat. 54, as amended
Apr. 26, 1928, ch. 440, 45 Stat. 466; June 25, 1948, ch. 646,
§23, 62 Stat. 990, provided that: "All Acts of Congress
referring to writs of error shall be construed as amended to the extent necessary to substitute appeal for writ
of error."

§1655

Lien enforcement; absent defendants

In an action in a district court to enforce any
lien upon or claim to, or to remove any incumbrance or lien or cloud upon the title to, real or
personal property within the district, where any
defendant cannot be served within the State, or
does not voluntarily appear, the court may
order the absent defendant to appear or plead by
a day certain.
Such order shall be served on the absent defendant personally if practicable, wherever
found, and also upon the person or persons in
possession or charge of such property, if any.
Where personal service is not practicable, the
order shall be published as the court may direct,
not less than once a week for six consecutive
weeks.
If an absent defendant does not appear or
plead within the time allowed, the court may
proceed as if the absent defendant had been
served with process within the State, but any
adjudication shall, as regards the absent defendant without appearance, affect only the property which is the subject of the action. When a

App. 230

Page 3277

TITLE 42-THE PUBLIC HEALTH AND WELFARE

Subsec. (c). Pub. L. 108-173, §942(a)(4), redesignated
subsec. (c) as par. (3) of subsec. (a).
TERMINATION OF ADVISORY COUNCILS

Advisory councils established after Jan. 5, 1973, to
terminate not later than the expiration of the 2-year
period beginning on the date of their establishment,
unless, in the case of a council established by the President or an officer of the Federal Government, such
council is renewed by appropriate action prior to the
expiration of such 2-year period, or in the case of a
council established by Congress, its duration is otherwise provided by law. See sections 3(2) and 14 of Pub. L.
92-463, Oct. 6, 1972, 86 Stat. 770, 776, set out in the Appendix to Title 5, Government Organization and Employees.
§ 1395ff.

Determinations; appeals

(a) Initial determinations
(1) Promulgations of regulations
The Secretary shall promulgate regulations
and make initial determinations with respect
to benefits under part A or part B in accordance with those regulations for the following:
(A) The initial determination of whether
an individual is entitled to benefits under
such parts.
(B) The initial determination of the
amount of benefits available to the individual under such parts.
(C) Any other initial determination with
respect to a claim for benefits under such
parts, including an initial determination by
the Secretary that payment may not be
made, or may no longer be made, for an item
or service under such parts, an initial determination made by a quality improvement
organization under section 1320c-3(a)(2) of
this title, and an initial determination made
by an entity pursuant to a contract (other
than a contract under section 1395w-22 of
this title) with the Secretary to administer
provisions of this subchapter or subchapter
XI.
(2) Deadlines for making initial determinations
(A) In general
Subject to subparagraph (B), in promulgating regulations under paragraph (1), initial
determinations shall be concluded by not
later than the 45-day period beginning on the
date the fiscal intermediary or the carrier,
as the case may be, receives a claim for benefits from an individual as described in paragraph (1). Notice of such determination shall
be mailed to the individual filing the claim
before the conclusion of such 45-day period.
(B) Clean claims
Subparagraph (A) shall not apply with respect to any claim that is subject to the requirements
of section
1395h(c)(2)
or
1395u(c)(2) of this title.
(3) Redeterminations
(A) In general
In promulgating regulations under paragraph (1) with respect to initial determinations, such regulations shall provide for a
fiscal intermediary or a carrier to make a
redetermination with respect to a claim for
benefits that is denied in whole or in part.

(B)

§1395ff

Limitations

(i) Appeal rights

No initial determination may be reconsidered or appealed under subsection (b)
unless the fiscal intermediary or carrier
has made a redetermination of that initial
determination under this paragraph.
(ii) Decisionmaker
No redetermination may be made by any
individual involved in the initial determination.
(C) Deadlines
(i) Filing for redetermination
A redetermination under subparagraph
(A) shall be available only if notice is filed
with the Secretary to request the redetermination by not later than the end of the
120-day period beginning on the date the
individual receives notice of the initial determination under paragraph (2).
(ii) Concluding redeterminations
Redeterminations shall be concluded by
not later than the 60-day period beginning
on the date the fiscal intermediary or the
carrier, as the case may be, receives a request for a redetermination. Notice of such
determination shall be mailed to the individual filing the claim before the conclusion of such 60-day period.
(D) Construction
For purposes of the succeeding provisions
of this section a redetermination under this
paragraph shall be considered to be part of
the initial determination.
(4) Requirements of notice of determinations
With respect to an initial determination insofar as it results in a denial of a claim for
benefits(A) the written notice on the determination shall include(i) the reasons for the determination, including whether a local medical review
policy or a local coverage determination
was used;
(ii) the procedures for obtaining additional information concerning the determination, including the information described in subparagraph (B); and
(iii) notification of the right to seek a
redetermination or otherwise appeal the
determination and instructions on how to
initiate such a redetermination under this
section;
(B) such written notice shall be provided
in printed form and written in a manner calculated to be understood by the individual
entitled to benefits under part A or enrolled
under part B, or both; and
(C) the individual provided such written
notice may obtain, upon request, information on the specific provision of the policy,
manual, or regulation used in making the
redetermination.
(5) Requirements of notice of redeterminations
With respect to a redetermination insofar as
it results in a denial of a claim for benefits-

App. 231

§ 1395ff

TITLE 42-THE PUBLIC HEALTH AND WELFARE

(A) the written notice on the redetermination shall include(i) the specific reasons for the redetermination;
(ii) as appropriate, a summary of the
clinical or scientific evidence used in making the redetermination;
(iii) a description of the procedures for
obtaining additional information concerning the redetermination; and
(iv) notification of the right to appeal
the redetermination and instructions on
how to initiate such an appeal under this
section;
(B) such written notice shall be provided
in printed form and written in a manner calculated to be understood by the individual
entitled to benefits under part A or enrolled
under part B, or both; and
(C) the individual provided such written
notice may obtain, upon request, information on the specific provision of the policy,
manual, or regulation used in making the
redetermination.
(b) Appeal rights
(1) In general

(A) Reconsideration of initial determination
Subject to subparagraph (D), any individual dissatisfied with any initial determination under subsection (a)(l) shall be entitled
to reconsideration of the determination,
and, subject to subparagraphs (D) and (E), a
hearing thereon by the Secretary to the
same extent as is provided in section 405(b)
of this title and, subject to paragraph (2), to
judicial review of the Secretary's final decision after such hearing as is prov-ided in section 405(g) of this title. For purposes of the
preceding sentence, any reference to the
"Commissioner of Social Security" or the
"Social Security Administration" in subsection (g) or (l) of section 405 of this title
shall be considered a reference to the "Secretary" or the "Department of Health and
Human Services", respectively.
(B) Representation by provider or supplier
(i) In general

Sections 406(a), 1302, and 1395hh of this
title shall not be construed as authorizing
the Secretary to prohibit an individual
from being represented under this section
by a person that furnishes or supplies the
individual, directly or indirectly, with
services or items, solely on the basis that
the person furnishes or supplies the individual with such a service or item.
(ii) Mandatory waiver of right to payment

from beneficiary
Any person that furnishes services or
items to an individual may not represent
an individual under this section with respect to the issue described in section
1395pp(a)(2) of this title unless the person
has waived any rights for payment from
the beneficiary with respect to the services or items involved in the appeal.

Page 3278

(iii) Prohibition on payment for represen-

tation
If a person furnishes services or items to

an individual and represents the individual
under this section, the person may not impose any financial liability on such individual in connection with such representation.
(iv) Requirements for representatives of a
beneficiary
The provisions of section 405(j) of this
title and of section 406 of this title (other
than subsection (a)(4) of such section) regarding representation of claimants shall
apply to representation of an individual
with respect to appeals under this section
in the same manner as they apply to representation of an individual under those
sections.
(C) Succession of rights in cases of assignment
The right of an individual to an appeal
under this section with respect to an item or
service may be assigned to the provider of
services or supplier of the item or service
upon the written consent of such individual
using a standard form established by the
Secretary for such an assignment.
(D) Time limits for filing appeals
(i) Reconsiderations
Reconsideration under subparagraph (A)
shall be available only if the individual described in subparagraph (A) files notice
with the Secretary to request reconsideration by not later than the end of the 180day period beginning on the date the individual receives notice of the redetermination under subsection (a)(3), or within such
additional time as the Secretary may
allow.
(ii) Hearings conducted by the Secretary
The Secretary shall establish in regulations time limits for the filing of a request
for a hearing by the Secretary in accordance with provisions in sections 405 and 406
of this title.
(E) Amounts in controversy
(i) In general
A hearing (by the Secretary) shall not be
available to an individual under this section if the amount in controversy is less
than $100, and judicial review shall not be
available to the individual if the amount
in controversy is less than $1,000.
(ii) Aggregation of claims
In determining the amount in controversy, the Secretary, under regulations,
shall allow two or more appeals to be aggregated if the appeals involve(!) the delivery of similar or related
services to the same individual by one or
more providers of services or suppliers,
or
(II) common issues of law and fact arising from services furnished to two or
more individuals by one or more providers of services or suppliers.

App. 232

Page 3279

TITLE 42-THE PUBLIC HEALTH AND WELFARE

(iii) Adjustment of dollar amounts

For requests for hearings or judicial review made in a year after 2004, the dollar
amounts specified in clause (i) shall be
equal to such dollar amounts increased by
the percentage increase in the medical
care component of the consumer price
index for all urban consumers (U.S. city
average) for July 2003 to the July preceding the year involved. Any amount determined under the previous sentence that is
not a multiple of $10 shall be rounded to
the nearest multiple of $10.
(F) Expedited proceedings
(i) Expedited determination
In the case of an individual who has received notice from a provider of services
that such provider plans-.(!) to terminate services provided to an
individual and a physician certifies that
failure to continue the provision of such
services is likely to place the individual's health at significant risk, or
(II) to discharge the individual from
the provider of services,
the individual may request, in writing or
orally, an expedited determination or an
expedited reconsideration of an initial determination made under subsection (a)(l),
as the case may be, and the Secretary
shall provide such expedited determination
or expedited reconsideration.
(ii) Reference to expedited access to judicial review
For the provision relating to expedited
access to judicial review, see paragraph (2).
(G) Reopening and revision of determinations
The Secretary may reopen or revise any
initial determination or reconsidered determination described in this subsection under
guidelines established by the Secretary in
regulations.
(2) Expedited access to judicial review
(A) In general
The Secretary shall establish a process
under which a provider of services or supplier that furnishes an item or service or an
individual entitled to benefits under part A
or enrolled under part B, or both, who has
filed an appeal under paragraph (1) (other
than an appeal filed under paragraph
(l)(F)(i)) may obtain access to judicial review when a review entity (described in subparagraph (D)), on its own motion or at the
request of the appellant, determines that the
Departmental Appeals Board does not have
the authority to decide the question of law
or regulation relevant to the matters in controversy and that there is no material issue
of fact in dispute. The appellant may make
such request only once with respect to a
question of law or regulation for a specific
matter in dispute in a case of an appeal.
(B) Prompt determinations
If, after or coincident with appropriately
filing a request for an administrative hear-

§1395ff

ing, the appellant requests a determination
by the appropriate review entity that the
Departmental Appeals Board does not have
the authority to decide the question of law
or regulations relevant to the matters in
controversy and that there is no material
issue of fact in dispute, and if such request
is accompanied by the documents and materials as the appropriate review entity shall
require for purposes of making such determination, such review entity shall make a
determination on the request in writing
within 60 days after the date such review entity receives the request and such accompanying documents and materials. Such a
determination by such review entity shall be
considered a final decision and not subject
to review by the Secretary.
(C) Access to judicial review
(i) In general
If the appropriate review entity(!) determines that there are no material issues of fact in dispute and that the
,only issues to be adjudicated are ones of
law or regulation that the Departmental
Appeals Board does not have authority
to decide; or
(II) fails to make such determination
within the period provided under subparagraph (B),
then the appellant may bring a civil action
as described in this subparagraph.
(ii) Deadline for filing
Such action shall be filed, in the case described in(!) clause (i)(I), within 60 days of the
date of the determination described in
such clause; or
(II) clause (i)(II), within 60 days of the
end of the period provided under subparagraph (B) for the determination.
(iii) Venue
Such action shall be brought in the district court of the United States for the judicial district in which the appellant is located (or, in the case of an action brought
jointly by more than one applicant, the judicial district in which the greatest number of applicants are located) or in the District Court for the District of Columbia.
(iv) Interest on any amounts in controversy
Where a provider of services or supplier
is granted judicial review pursuant to this
paragraph, the amount in controversy (if
any) shall be subject to annual interest beginning on the first day of the first month
beginning after the 60-day period as determined pursuant to clause (ii) and equal to
the rate of interest on obligations issued
for purchase by the Federal Supplementary Medical Insurance Trust Fund for
the month in which the civil action authorized under this paragraph is commenced, to be awarded by the reviewing
court in favor of the prevailing party. No
interest awarded pursuant to the preceding
sentence shall be deemed income or cost
for the purposes of determining reimburse-

App. 233

§ 1395ff

TITLE 42-THE PUBLIC HEALTH AND WELFARE

ment due providers of services or suppliers
under this subchapter.
(D) Review entity defined
For purposes of this subsection, the term
"review entity" means an entity of up to
three reviewers who are administrative law
judges or members of the Departmental Appeals Board selected for purposes of making
determinations under this paragraph.
(S) Requiring full and early presentation of evidence by providers
A provider of services or supplier may not
introduce evidence in any appeal under this
section that was not presented at the reconsideration conducted by the qualified independent contractor under subsection (c), unless there is good cause which precluded the
introduction of such evidence at or before
that reconsideration.
(c) Conduct of reconsiderations by independent
contractors
(1) In general
The Secretary shall enter into contracts
with qualified independent contractors to conduct reconsiderations of initial determinations made under subparagraphs (B) and (C) of
subsection (a)(l). Contracts shall be for an initial term of three years and shall be renewable
on a triennial basis thereafter.
(2) Qualified independent contractor
For purposes of this subsection, the term
"qualified independent contractor" means an
entity or organization that is independent of
any organization under contract with the Secretary that makes initial determinations
under subsection (a)(l), and that meets the requirements established by the Secretary consistent with paragraph (3).
(3) Requirements
Any qualified independent contractor entering into a contract with the Secretary under
this subsection shall meet all of the following
requirements:
(A) In general
The qualified independent contractor shall
perform such duties and functions and assume such responsibilities as may be required by the Secretary to carry out the provisions of this subsection, and shall have sufficient medical, legal, and other expertise
(including knowledge of the program under
this subchapter) and sufficient staffing to
make reconsiderations under this subsection.
(B) Reconsiderations
(i) In general
The qualified independent contractor
shall review initial determinations. Where
an initial determination is made with respect to whether an item or service is reasonable and necessary for the diagnosis or
treatment of illness or injury (under section 1395y(a)(l)(A) of this title), such review shall include consideration of the
facts and circumstances of the initial determination by a panel of physicians or

Page 3280

other appropriate health care professionals
and any decisions with respect to the reconsideration shall be based on applicable
information, including clinical experience
(including the medical records of the individual involved) and medical, technical,
and scientific evidence.
(ii) Effect of national and local coverage
determinations
(I) National coverage determinations
If the Secretary has made a national
coverage determination pursuant to the
requirements established under the third
sentence of section 1395y(a) of this title,
such determination shall be binding on
the qualified independent contractor in
making a decision with respect to a reconsideration under this section.
(II) Local coverage determinations
If the Secretary has made a local coverage determination, such determination
shall not be binding on the qualified
independent contractor in making a decision with respect to a reconsideration
under this section. Notwithstanding the
previous sentence, the qualified independent contractor shall consider the
local coverage determination in making
such decision.
(III) Absence of national or local coverage determination
In the absence of such a national coverage determination or local coverage
determination, the qualified independent
contractor shall make a decision with
respect to the reconsideration based on
applicable information, including clinical experience and medical, technical,
and scientific evidence.
(C) Deadlines for decisions
(i) Reconsiderations
Except as provided in clauses (iii) and
(iv), the qualified independent contractor
shall conduct and conclude a reconsideration under subparagraph (B), and mail the
notice of the decision with respect to the
reconsideration by not later than the end
of the 60-day period beginning on the date
a request for reconsideration has been
timely filed.
(ii) Consequences of failure to meet deadline
In the case of a failure by the qualified
independent contractor to mail the notice
of the decision by the end of the period described in clause (i) or to provide notice by
the end of the period described in clause
(iii), as the case may be, the party requesting the reconsideration or appeal may request a hearing before the Secretary, notwithstanding any requirements for a reconsidered determination for purposes of
the party's right to such hearing.
(iii) Expedited reconsiderations
The qualified independent contractor
shall perform an expedited reconsideration
under subsection (b)(l)(F) as follows:

App. 234

Page 3281

TITLE 42---THE PUBLIC HEALTH AND WELFARE

(I) Deadline for decision

Notwithstanding section 416(j) of this
title and subject to clause (iv), not later
than the end of the 72-hour period beginning on the date the qualified independent contractor has received a request for
such reconsideration and has received
such medical or other records needed for
such reconsideration, the qualified independent contractor shall provide notice
(by telephone and in writing) to the individual and the provider of services and
attending physician of the individual of
the results of the reconsideration. Such
reconsideration shall be conducted regardless of whether the provider of services or supplier will charge the individual for continued services or whether the
individual will be liable for payment for
such continued services.
(II) Consultation with beneficiary
In such reconsideration, the qualified
independent contractor shall solicit the
views of the individual involved.
(III) Special rule for hospital discharges
A reconsideration of a discharge from
a hospital shall be conducted under this
clause in accordance with the provisions
of paragraphs (2), (3), and (4) of section
1320c-3(e) of this title as in effect on the
date that precedes December 21, 2000.
(iv) Extension
An individual requesting a reconsideration under this subparagraph may be
granted such additional time as the individual specifies (not to exceed 14 days) for
the qualified independent contractor to
conclude the reconsideration. The individual may request such additional time orally or in writing.
(D) Qualifications for reviewers
The requirements of subsection (g) shall be
met (relating to qualifications of reviewing
professionals).
(E) Explanation of decision
Any decision with respect to a reconsideration of a qualified independent contractor
shall be in writing, be written in a manner
calculated to be understood by the individual entitled to benefits under part A or enrolled under part B, or both, and shall include (to the extent appropriate) and shall
include 1 a detailed explanation of the decision as well as a discussion of the pertinent
facts and applicable regulations applied in
making such decision, and 2 a notification of
the right to appeal such determination and
instructions on how to initiate such appeal
under this section a and a in the case of a determination of whether an item or service is
reasonable and necessary for the diagnosis
or treatment of illness or injury (under section 1395y(a)(l)(A) of this title) a an expla1 So

in original.
•so in original. The word "and" probably should not appear.
a So in original. A comma probably should appear.

§1395ff

nation of the medical and scientific rationale for the decision.
(F) Notice requirements
Whenever a qualified independent contractor makes a decision with respect to a reconsideration under this subsection, the qualified independent contractor shall promptly
notify the entity responsible for the payment of claims under part A or part B of
such decision.
(G) Dissemination of decisions on reconsiderations
Each qualified independent contractor
shall make available all decisions with respect to reconsiderations of such qualified
independent contractors to fiscal intermediaries (under section 1395h of this title),
carriers (under section 1395u of this title),
quality improvement organizations (under
part B of subchapter XI), Medicare+Choice
organizations
offering
Medicare+Choice
plans under part C, other entities under contract with the Secretary to make initial determinations under part A or part B or subchapter XI, and to the public. The Secretary
shall establish a methodology under which
qualified independent contractors shall
carry out this subparagraph.
(H) Ensuring consistency in decisions
Each qualified independent contractor
shall monitor its decisions with respect to
reconsiderations to ensure the consistency
of such decisions with respect to requests for
reconsideration of similar or related matters.
(I) Data collection
(i) In general
Consistent with the requirements of
clause (ii), a qualified independent contractor shall collect such information relevant to its functions, and keep and maintain such records in such form and manner
as the Secretary may require to carry out
the purposes of this section and shall permit access to and use of any such information and records as the Secretary may require for such purposes.
(ii) Type of data collected
Each qualified independent contractor
shall keep accurate records of each decision made, consistent with standards established by the Secretary for such purpose. Such records shall be maintained in
an electronic database in a manner that
provides for identification of the following:
(I) Specific claims that give rise to appeals.
(II) Situations suggesting the need for
increased education for providers of services, physicians, or suppliers.
(III) Situations suggesting the need for
changes in national or local coverage determination.
(IV) Situations suggesting the need for
changes in local coverage determinations.
(iii) Annual reporting
Each qualified independent contractor
shall submit annually to the Secretary (or

App. 235

§1395ff

TITLE 42-THE PUBLIC HEALTH AND WELFARE

otherwise as the Secretary may request)
records maintained under this paragraph
for the previous year.
(J) Hearings by the Secretary
The qualified independent contractor shall
(i) submit such information as is required
for an appeal of a decision of the contractor,
and (ii) participate in such hearings as required by the Secretary.
(K) Independence requirements
(i) In general
Subject to clause (ii), a qualified independent contractor shall not conduct any
activities in a case unless the entity(!) is not a related party (as defined in
subsection (g)(5));
(II) does not have a material familial,
financial, or professional relationship
with such a party in relation to such
case; and
(III) does not otherwise have a conflict
of interest with such a party.
(ii) Exception for reasonable compensation
Nothing in clause (i) shall be construed
to prohibit receipt by a qualified independent contractor of compensation from the
Secretary for the conduct of activities
under this section if the compensation is
provided consistent with clause (iii).
(iii) Limitations on entity compensation
Compensation provided by the Secretary
to a qualified independent contractor in
connection with reviews under this section
shall not be contingent on any decision
rendered by the contractor or by any reviewing professional.
(4) Number of qualified independent contrac•
tors
The Secretary shall enter into contracts
with a sufficient number of qualified independent contractors (but not fewer than 4 such
contractors) to conduct reconsiderations consistent with the timeframes applicable under
this subsection.
(5) Limitation on qualified independent contractor liability
No qualified independent contractor having
a contract with the Secretary under this subsection and no person who is employed by, or
who has a fiduciary relationship with, any
such qualified independent contractor or who
furnishes professional services to such qualified independent contractor, shall be held by
reason of the performance of any duty, function, or activity required or authorized pursuant to this subsection or to a valid contract
entered into under this subsection, to have
violated any criminal law, or to be civilly liable under any law of the United States or of
any State (or political subdivision thereof)
provided due care was exercised in the performance of such duty, function, or activity.
(d) Deadlines for hearings by the Secretary; notice
(1) Hearing by administrative law judge
(A) In general
Except as provided in subparagraph (B), an
administrative law judge shall conduct and

Page 3282

conclude a hearing on a decision of a qualified independent contractor under subsection (c) and render a decision on such
hearing by not later than the end of the 90day period beginning on the date a request
for hearing has been timely filed.
(B) Waiver of deadline by party seeking hearing
The 90-day period under subparagraph (A)
shall not apply in the case of a motion or
stipulation by the party requesting the hearing to waive such period.
(2) Departmental Appeals Board review
(A) In general
The Departmental Appeals Board of the
Department of Health and Human Services
shall conduct and conclude a review of the
decision on a hearing described in paragraph
(1) and make a decision or remand the case
to the administrative law judge for reconsideration by not later than the end of the 90day period beginning on the date a request
for review has been timely filed.
(B) DAB hearing procedure
In reviewing a decision on a hearing under
this paragraph, the Departmental Appeals
Board shall review the case de nova.
(3) Consequences of failure to meet deadlines
(A) Hearing by administrative law judge
In the case of a failure by an administrative law judge to render a decision by the
end of the period described in paragraph (1),
the party requesting the hearing may request a review by the Departmental Appeals
Board of the Department of Health and
Human Services, notwithstanding any requirements for a hearing for purposes of the
party's right to such a review.
(B) Departmental Appeals Board review
In the case of a failure by the Departmental Appeals Board to render a decision
by the end of the period described in paragraph (2), the party requesting the hearing
may seek judicial review, notwithstanding
any requirements for a hearing for purposes
of the party's right to such judicial review.
(4) Notice
Notice of the decision of an administrative
law judge shall be in writing in a manner calculated to be understood by the individual entitled to benefits under part A or enrolled
under part B, or both, and shall include(A) the specific reasons for the determination (including, to the extent appropriate, a
summary of the clinical or scientific evidence used in making the determination);
(B) the procedures for obtaining additional
information concerning the decision; and
(C) notification of the right to appeal the
decision and instructions on how to initiate
such an appeal under this section.
(e) Administrative provisions
(1) Limitation on review of certain regulations
A regulation or instruction that relates to a
method for determining the amount of pay-

App. 236

Page 3283

TITLE 42---THE PUBLIC HEALTH AND WELFARE

ment under part B and that was initially issued before January 1, 1981, shall not be subject to judicial review.
(2) Outreach
The Secretary shall perform such outreach
activities as are necessary to inform individuals entitled to benefits under this subchapter
and providers of services and suppliers with respect to their rights of, and the process for,
appeals made under this section. The Secretary shall use the toll-free telephone number
maintained by the Secretary under section
1395b-2(b) of this title to provide information
regarding appeal rights and respond to inquiries regarding the status of appeals.
(3) Continuing education requirement for
qualified independent contractors and administrative law judges
The Secretary shall provide to each qualified
independent contractor, and, in consultation
with the Commissioner of Social Security, to
administrative law judges that decide appeals
of reconsiderations of initial determinations
or other decisions or determinations under
this section, such continuing education with
respect to coverage of items and services
under this subchapter or policies of the Secretary with respect to part B of subchapter XI
as is necessary for such qualified independent
contractors and administrative law judges to
make informed decisions with respect to appeals.
(4) Reports
(A) Annual report to Congress
The Secretary shall submit to Congress an
annual report describing the number of appeals for the previous year, identifying issues that require administrative or legislative actions, and including any recommendations of the Secretary with respect to such
actions. The Secretary shall include in such
report an analysis of determinations by
qualified independent contractors with respect to inconsistent decisions and an analysis of the causes of any such inconsistencies.
(B) Survey

Not less frequently than every 5 years, the
Secretary shall conduct a survey of a valid
sample of individuals entitled to benefits
under this subchapter who have filed appeals
of determinations under this section, providers of services, and suppliers to determine
the satisfaction of such individuals or entities with the process for appeals of determinations provided for under this section
and education and training provided by the
Secretary with respect to that process. The
Secretary shall submit to Congress a report
describing the results of the survey, and
shall include any recommendations for administrative or legislative actions that the
Secretary determines appropriate.
(f) Review of coverage determinations
(1) National coverage determinations
(A) In general
Review of any national coverage determination shall be subject to the following
limitations:

§1395ff

(i) Such a determination shall not be reviewed by any administrative law judge.
(ii) Such a determination shall not be
held unlawful or set aside on the ground
that a requirement of section 553 of title 5
or section 1395hh(b) of this title, relating
to publication in the Federal Register or
opportunity for public comment, was not
satisfied.
(iii) Upon the filing of a complaint by an
aggrieved party, such a determination
shall be reviewed by the Departmental Appeals Board of the Department of Health
and Human Services. In conducting such a
review, the Departmental Appeals Board(!) shall review the record and shall
permit discovery and the taking of evidence to evaluate the reasonableness of
the determination, if the Board determines that the record is incomplete or
lacks adequate information to support
the validity of the determination;
(II) may, as appropriate, consult with
appropriate scientific and clinical experts; and
(III) shall defer only to the reasonable
findings of fact, reasonable interpretations of law, and reasonable applications
of fact to law by the Secretary.
(iv) The Secretary shall implement a decision of the Departmental Appeals Board
within 30 days of receipt of such decision.
(v) A decision of the Departmental Appeals Board constitutes a final agency action and is subject to judicial review.
(B) Definition of national coverage determination
For purposes of this section, the term "national coverage determination" means a determination by the Secretary with respect
to whether or not a particular item or service is covered nationally under this subchapter, but does not include a determination of what code, if any, is assigned to a
particular item or service covered under this
subchapter or a determination with respect
to the amount of payment made for a particular item or service so covered.
(2) Local coverage determination
(A) In general
Review of any local coverage determination shall be subject to the following limitations:
(i) Upon the filing of a complaint by an
aggrieved party, such a determination
shall be reviewed by an administrative law
judge. The administrative law judge(!) shall review the record and shall
permit discovery and the taking of evidence to evaluate the reasonableness of
the determination, if the administrative
law judge determines that the record is
incomplete or lacks adequate information to support the validity of the determination;
(II) may, as appropriate, consult with
appropriate scientific and clinical experts; and
(III) shall defer only to the reasonable
findings of fact, reasonable interpreta-

App. 237

§1395ff

TITLE 42-THE PUBLIC HEALTH AND WELFARE

tions of law, and reasonable applications
of fact to law by the Secretary.
(ii) Upon the filing of a complaint by an
aggrieved party, a decision of an administrative law judge under clause (i) shall be
reviewed by the Departmental Appeals
Board of the Department of Health and
Human Services.
(iii) The Secretary shall implement a decision of the administrative law judge or
the Departmental Appeals Board within 30
days of receipt of such decision.
(iv) A decision of the Departmental Appeals Board constitutes a final agency action and is subject to judicial review.
(B) Definition of local coverage determination
For purposes of this section, the term
"local coverage determination" means a determination by a fiscal intermediary or a
carrier under part A or part B, as applicable,
respecting whether or not a particular item
or service is covered on an intermediary- or
carrier-wide basis under such parts, in accordance with section 1395y(a)(l)(A) of this
title.
(C) Local coverage determinations for clini•
cal diagnostic laboratory tests
For provisions relating to local coverage
determinations for clinical diagnostic laboratory tests, see section 1395m-l(g) of this
title.
(3) No material issues of fact in dispute
In the case of a determination that may
otherwise be subject to review under paragraph (l)(A)(iii) or paragraph (2)(A)(i), where
the moving party alleges that(A) there are no material issues of fact in
dispute, and
(B) the only issue of law is the constitutionality of a provision of this subchapter,
or that a regulation, determination, or ruling by the Secretary is invalid,
the moving party may seek review by a court
of competent jurisdiction without filing a
complaint under such paragraph and without
otherwise exhausting other administrative
remedies.
(4) Pending national coverage determinations
(A) In general
In the event the Secretary has not issued
a national coverage or noncoverage determination with respect to a particular type
or class of items or services, an aggrieved
person (as described in paragraph (5)) may
submit to the Secretary a request to make
such a determination with respect to such
items or services. By not later than the end
of the 90-day period beginning on the date
the Secretary receives such a request (notwithstanding the receipt by the Secretary of
new evidence (if any) during such 90-day period), the Secretary shall take one of the following actions:
(i) Issue a national coverage determination, with or without limitations.
(ii) Issue a national noncoverage determination.

Page 3284

(iii) Issue a determination that no national coverage or noncoverage determination is appropriate as of the end of such 90day period with respect to national coverage of such items or services.
(iv) Issue a notice that states that the
Secretary has not completed a review of
the request for a national coverage determination and that includes an identification of the remaining steps in the Secretary's review process and a deadline by
which the Secretary will complete the review and take an action described in
clause (i), (ii), or (iii).
(B) Deemed action by the Secretary
In the case of an action described in subparagraph (A)(iv), if the Secretary fails to
take an action referred to in such clause by
the deadline specified by the Secretary
under such clause, then the Secretary is
deemed to have taken an action described in
subparagraph (A)(iii) as of the deadline.
(C) Explanation of determination
When issuing a determination under subparagraph (A), the Secretary shall include
an explanation of the basis for the determination. An action taken under subparagraph (A) (other than clause (iv)) is deemed
to be a national coverage determination for
purposes of review under paragraph (l)(A).
(5) Standing
An action under this subsection seeking review of a national coverage determination or
local coverage determination may be initiated
only by individuals entitled to benefits under
part A, or enrolled under part B, or both, who
are in need of the items or services that are
the subject of the coverage determination.
(6) Publication on the Internet of decisions of
hearings of the Secretary
Each decision of a hearing by the Secretary
with respect to a national coverage determination shall be made public, and the Secretary
shall publish each decision on the Medicare 4
Internet site of the Department of Health and
Human Services. The Secretary shall remove
from such decision any information that
would identify any individual, provider of
services, or supplier.
(7) Annual report on national coverage determinations
(A) In general
Not later than December 1 of each year,
beginning in 2001, the Secretary shall submit
to Congress a report that sets forth a detailed compilation of the actual time periods
that were necessary to complete and fully
implement national coverage determinations that were made in the previous fiscal
year for items, services, or medical devices
not previously covered as a benefit under
this subchapter, including, with respect to
each new ·item, service, or medical device , a
statement of the time taken by the Secretary to make and implement the necessary
' So in original. Probably should not be ce.pite.l!zed.

App. 238

Page 3285

TITLE 42-THE PUBLIC HEALTH AND WELFARE

coverage, coding, and payment determinations, including the time taken to complete
each significant step in the process of making and implementing such determinations.
(B) Publication of reports on the Internet

The Secretary shall publish each report
submitted under clause (i) on the medicare
Internet site of the Department of Health
and Human Services.

(8) Construction

Nothing in this subsection shall be construed as permitting administrative or judicial review pursuant to this section insofar as
such review is explicitly prohibited or restricted under another provision of law.

(g) Qualifications of reviewers
(1) In general

In reviewing determinations under this section, a qualified independent contractor shall
assure that(A) each individual conducting a review
shall meet the qualifications of paragraph
(2);

(B) compensation provided by the contractor to each such reviewer is consistent with
paragraph (3); and
(C) in the case of a review by a panel described in subsection (c)(3)(B) composed of
physicians or other health care professionals
(each in this subsection referred to as a "reviewing professional"), a reviewing professional meets the qualifications described in
paragraph (4) and, where a claim is regarding the furnishing of treatment by a physician (allopathic or osteopathic) or the provision of items or services by a physician
(allopathic or osteopathic), a reviewing professional shall be a physician (allopathic or
osteopathic).

(2) Independence
(A) In general

Subject to subparagraph (B), each individual conducting a review in a case shall(i) not be a related party (as defined in
paragraph (5));
(ii) not have a material familial, financial, or professional relationship with such
a party in the case under review; and
(iii) not otherwise have a conflict of interest with such a party.
(B) Exception

Nothing in subparagraph (A) shall be construed to(i) prohibit an individual, solely on the
basis of a participation agreement with a
fiscal intermediary, carrier, or other contractor, from serving as a reviewing professional if(I) the individual is not involved in the
provision of items or services in the case
under review;
(II) the fact of such an agreement is
disclosed to the Secretary and the individual entitled to benefits under part A
or enrolled under part B, or both, or such
individual's authorized representative,
and neither party objects; and

§1395ff

(III) the individual is not an employee
of the intermediary, carrier, or contractor and does not provide services exclusively or primarily to or on behalf of
such intermediary, carrier, or contractor;
(ii) prohibit an individual who has staff
privileges at the institution where the
treatment involved takes place from serving as a reviewer merely on the basis of
having such staff privileges if the existence of such privileges is disclosed to the
Secretary and such individual (or authorized representative), and neither party objects; or
(iii) prohibit receipt of compensation by
a reviewing professional from a contractor
if the compensation is provided consistent
with paragraph (3).
For purposes of this paragraph, the term
"participation agreement" means an agreement relating to the provision of health care
services by the individual and does not include the provision of services as a reviewer
under this subsection.

(3) Limitations on reviewer compensation

Compensation provided by a qualified independent contractor to a reviewer in connection with a review under this section shall not
be contingent on the decision rendered by the
reviewer.
(4) Licensure and expertise

Each reviewing professional shall be(A) a physician (allopathic or osteopathic)
who is appropriately credentialed or licensed
in one or more States to deliver health care
services and has medical expertise in the
field of practice that is appropriate for the
items or services at issue; or
(B) a health care professional who is legally authorized in one or more States (in
accordance with State law or the State regulatory mechanism provided by State law) to
furnish the health care items or services at
issue and has medical expertise in the field
of practice that is appropriate for such items
or services.

(5) Related party defined

For purposes of this section, the term "related party" means, with respect to a case
under this subchapter involving a specific individual entitled to benefits under part A or
enrolled under part B, or both, any of the following:
(A) The Secretary, the medicare administrative contractor involved, or any fiduciary, officer, director, or employee of the
Department of Health and Human Services,
or of such contractor.
(B) The individual (or authorized representative).
(C) The health care professional that provides the items or services involved in the
case.
(D) The institution at which the items or
services (or treatment) involved in the case
are provided.
(E) The manufacturer of any drug or other
item that is included in the items or services
involved in the case.

App. 239

§1395ff

TITLE 42-THE PUBLIC HEALTH AND WELFARE

(F) Any other party determined under any
regulations to have a substantial interest in
the case involved.
(h) Prior determination process for certain items
and services
(1) Establishment of process

(A) In general
With respect to a medicare administrative
contractor that has a contract under section
1395kk-l of this title that provides for making payments under this subchapter with respect to physicians' services (as defined in
section 1395w-4(j)(3) of this title), the Secretary shall establish a prior determination
process that meets the requirements of this
subsection and that shall be applied by such
contractor in the case of eligible requesters .
(B) Eligible requester
For purposes of this subsection, each of
the following shall be an eligible requester:
(i) A participating physician, but only
with respect to physicians' services to be
furnished to an individual who is entitled
to benefits under this subchapter and who
has consented to the physician making the
request under this subsection for those
physicians' services.
(ii) An individual entitled to benefits
under this subchapter, but only with respect to a physicians' service for which the
individual receives, from a physician, an
advance beneficiary notice under section
1395pp(a) of this title.
(2) Secretarial flexibility
The Secretary shall establish by regulation
reasonable limits on the physicians' services
for which a prior determination of coverage
may be requested under this subsection. In establishing such limits, the Secretary may consider the dollar amount involved with respect
to the physicians' service, administrative
costs and burdens, and other relevant factors.
(3) Request for prior determination
(A) In general
Subject to paragraph (2), under the process
established under this subsection an eligible
requester may submit to the contractor a request for a determination, before the furnishing of a physicians' service, as to whether the physicians' service is covered under
this subchapter consistent with the applicable requirements of section 1395y(a)(l)(A) of
this title (relating to medical necessity).
(B) Accompanying documentation
The Secretary may require that the request be accompanied by a description of the
physicians' service, supporting documentation relating to the medical necessity for
the physicians' service, and any other appropriate documentation. In the case of a request submitted by an eligible requester who
is described in paragraph (l)(B)(ii), the Secretary may require that the request also be
accompanied by a copy of the advance beneficiary notice involved.

Page 3286

(4) Response to request
(A) In general
Under such process, the contractor shall
provide the eligible requester with written
notice of a determination as to whether(i) the physicians' service is so covered;
(ii) the physicians' service is not so covered; or
(iii) the contractor lacks sufficient information to make a coverage determination
with respect to the physicians' service.
(B) Contents of notice for certain determina-

tions

(i) Noncoverage

If the contractor makes the determination described in subparagraph (A)(ii), the
contractor shall include in the notice a
brief explanation of the basis for the determination, including on what national or
local coverage or noncoverage determination (if any) the determination is based,
and a description of any applicable rights
under subsection (a).
(ii) Insufficient information

If the contractor makes the determination described in subparagraph (A)(iii), the
contractor shall include in the notice a description of the additional information required to make the coverage determination.

(C) Deadline to respond
Such notice shall be provided within the
same time period as the time period applicable to the contractor providing notice of initial determinations on a claim for benefits
under subsection (a)(2)(A).
(D) Informing beneficiary in case of physician request
In the case of a request by a participating
physician under paragraph (l)(B)(i), the
process shall provide that the individual to
whom the physicians' service is proposed to
be furnished shall be informed of any determination described in subparagraph (A)(ii)
(relating to a determination of non-coverage) and the right (referred to in paragraph (6)(B)) to obtain the physicians' service and have a claim submitted for the physicians' service.
(5) Binding nature of positive determination
If the contractor makes the determination
described in paragraph (4)(A)(i), such determination shall be binding on the contractor in
the absence of fraud or evidence of misrepresentation of facts presented to the contractor.
(6) Limitation on further review
(A) In general
Contractor determinations described in
paragraph (4)(A)(ii) or (4)(A)(iii) (relating to
pre-service claims) are not subject to further
administrative appeal or judicial review
under this section or otherwise.

App. 240

Page 3287

TITLE 42-THE PUBLIC HEALTH AND WELFARE

(B) Decision not to seek prior determination
or negative determination does not impact right to obtain services, seek reimbursement, or appeal rights
Nothing in this subsection shall be construed as affecting the right of an individual
who(i) decides not to seek a prior determination under this subsection with respect to
physicians' services; or
(ii) seeks such a determination and has
received a determination described in
paragraph (4)(A)(ii),
from receiving (and submitting a claim for)
such physicians' services and from obtaining
administrative or judicial review respecting
such claim under the other applicable provisions of this section. Failure to seek a prior
determination under this subsection with respect to physicians' service shall not be
taken into account in such administrative
or judicial review.
(C) No prior determination after receipt of
services
Once an individual is provided physicians'
services, there shall be no prior determination under this subsection with respect to
such physicians' services.
(i) Mediation process for local coverage determinations
(1) Establishment of process
The Secretary shall establish a mediation
process under this subsection through the use
of a physician trained in mediation and employed by the Centers for Medicare & Medicaid
Services.
(2) Responsibility of mediator
Under the process established in paragraph
(1), such a mediator shall mediate in disputes
between groups representing providers of services, suppliers (as defined in section 1395x(d) of
this title), and the medical director for a
medicare administrative contractor whenever
the regional administrator (as defined by the
Secretary) involved determines that there was
a systematic pattern and a large volume of
complaints from such groups regarding decisions of such director or there is a complaint
from the co-chair of the advisory committee
for that contractor to such regional administrator regarding such dispute.
(Aug. 14, 1935, ch. 531, title XVIII, §1869, as added
Pub. L. 89-97, title I, § 102(a), July 30, 1965, 79
Stat. 330; amended Pub. L. 92-603, title II,
§2990(a), Oct. 30, 1972, 86 Stat. 1464; Pub. L.
98-369, div. B, title III, § 2354(b)(35) , July 18, 1984,
98 Stat. 1102; Pub. L. 99-509, title IX, §§ 9313(a)(l),
(b)(l), 9341(a)(l), Oct. 21, 1986, 100 Stat. 2002, 2037;
Pub. L. 100-93, §B(e), Aug. 18, 1987, 101 Stat. 694;
Pub. L. 100-203, title IV, §§4082(a), (b), 4085(i)(l8),
(19), Dec. 22, 1987, 101 Stat. 1330-128, 1330-133;
Pub. L. 103-296, title I, § 108(0)(5), Aug. 15, 1994,
108 Stat. 1485; Pub. L. 105--33, title IV, § 4611(c),
Aug. 5, 1997, 111 Stat. 473; Pub. L. 106-554, §l(a)(6)
[title V, §§521(a), 522(a)], Dec. 21, 2000, 114 Stat.
2763, 2763A-534, 2763A-543; Pub. L. 108-173, title
IX, §§931(d), 932(a), 933(a)(l), (b)-(d)(3), 938(a),

§1395ff

940(a), (b)(l), 940A(a), 948(b)(l), (c), Dec. 8, 2003,
117 Stat. 2399, 2402-2406, 2413, 2416, 2417, 2426; Pub.
L. 112-40, title II, § 26l(a)(3)(A), (F), Oct. 21, 2011,
125 Stat. 423; Pub. L. 113-93, title II, §216(b)(2),
Apr. 1, 2014, 128 Stat. 1060.)
AMENDMENTS

2014-Subsec. (f)(2)(C). Pub. L. 113-93 added subpar.

(C).

2011-Subsec. (a)(l)(C). Pub. L. 112--40, §261(a)(3)(A),
substituted "quality improvement" for "utilization
and quality control peer review" .
Subsec. (c)(3)(G). Pub. L. 112--40, §261(a)(3)(F), substituted "quality improvement organizations" for
"peer review organizations" .
2003-Subsec. (a)(3)(C)(ii). Pub. L. 108---173, §940(a)(l),
substituted "60-day period" for "30-day period" in two
places.
Subsec. (a)(4), (5). Pub. L. 108---173, §933(c)(l), added
pars. (4) and (5).
Subsec. (b)(l)(A). Pub. L. 108-173, §932(a)(l)(A), inserted ", subject to paragraph (2)," before "to judicial
review of the Secretary's final decision" .
Subsec. (b)(l)(E)(iii). Pub. L. 108---173, §940(b)(l), added
cl. (iii).
Subsec. (b)(l)(F)(ii). Pub. L. 108-173, §932(a)(2), amended heading and text of cl. (ii) generally. Prior to
amendment, text read as follows: "In a hearing by the
Secretary under this section, in which the moving
party alleges that no material issues of fact are in dispute, the Secretary shall make an expedited determination as to whether any such facts are in dispute and, if
not, shall render a decision expeditiously."
Subsec. (b)(2). Pub. L. 108-173, §932(a)(l)(B), added par.
(2).

Subsec. (b)(3). Pub. L . 108-173, §933(a)(l), added par.

(3).

Subsec. (c)(3)(A). Pub. L. 108---173, §933(d)(l)(A), substituted " sufficient medical, legal, and other expertise
(including knowledge of the program under this subchapter) and sufficient staffing" for "sufficient training and expertise in medical science and legal matters" .
Subsec. (c)(3)(B)(i). Pub. L . 108-173, §933(b), inserted
"(including the medical records of the individual involved)" after "clinical experience".
Subsec. (c)(3)(C)(i). Pub. L. 108---173, §940(a)(2), substituted "60-day period" for "30-day period".
Subsec. (c)(3)(D). Pub. L. 108-173, §933(d)(2)(A), amended heading and text of subpar. (D) generally, substituting provisions directing that subsec. (g) requirements
be met for provisions prohibiting a physician or health
care professional from reviewing a determination
where such physician or health care professional had
been directly responsible for furnishing services or had
had a significant financial interest in the institution,
organization, or agency which provided the services.
Subsec. (c)(3)(E). Pub. L . 108-173, §933(c)(2), inserted
"be written in a manner calculated to be understood by
the individual entitled to benefits under part A or enrolled under part B, or both, and shall include (to the
extent appropriate)" after "in writing," and "and a notification of the right to appeal such determination and
instructions on how to initiate such appeal under this
section" after "such decision,".
Subsec. (c)(3)(I)(ii)(III). Pub. L. 108-173, §948(b)(l)(A),
substituted "determination" for "policy" .
Subsec. (c)(3)(I)(ii)(IV). Pub. L. 108-173, §948(b)(l)(B),
substituted "coverage determinations" for "medical review policies".
Subsec. (c)(3)(J)(i). Pub. L. 108-173, §933(c)(4), substituted "submit" for "prepare" and struck out "with
respect to a reconsideration to the Secretary for a
hearing, including as necessary, explanations of issues
involved in the decision and relevant policies" after
" decision of the contractor".
Subsec. (c)(3)(K). Pub. L. 108---173, §933(d)(l)(B), added
subpar. (K).
Subsec. (c)(4). Pub. L . 108-173, §933(d)(3), substituted
"a sufficient number of qualified independent contrac-

App. 241

§

I395ff

TITLE 42-THE PUBLIC HEALTH AND WELFARE

tors (but not fewer than 4 such contractors) to conduct
reconsiderations consistent with the timeframes applicable under this subsection" for "not fewer than 12
qualified independent contractors under this subsection".
Subsec. (d). Pub. L. 108--173, § 933(c)(3)(A), inserted
"; notice" after "Secretary" in heading.
Subsec. (d)(4). Pub. L. 108--173, §933(c)(3)(B), added par.
(4).

Subsec. (f)(2)(A)(i). Pub. L. 108--173, §931(d), struck out
"of the Social Security Administration" after "an administrative law judge" in introductory provisions.
Subsec. (f)(4)(A)(iv). Pub. L. 108-173, §948(c)(l), substituted "clause (i), (ii), or (iii)" for "subclause (I), (II),
or (III)".
Subsec. (f)(4)(B). Pub. L. 108-173, §948(c)(2), substituted "subparagraph (A)(iv)" for "clause (i)(IV)" and
"subparagraph (A)(iii)" for "clause (i)(III)".
Subsec. (f)(4)(C). Pub. L. 108--173, §948(c)(3), substituted "subparagraph (A)" for "clause (i)" in two
places, "clause (iv)" for "subclause (IV)", and "paragraph (l)(A)" for "subparagraph (A)".
Subsec. (g). Pub. L. 108--173, §933(d)(2)(B), added subsec. (g).
Subsec. (h). Pub. L. 108--173, §938(a), added subsec. (h).
Subsec. (i). Pub. L. 108--173, §940A(a), added subsec. (1).
2000-Pub. L. 106-554, §l(a)(6) [title V, §521(a)], amended section generally, completely revising and expanding provisions relating to determinations with respect
to benefits under part A or part B of this subchapter,
changing the structure of the section from two subsecs.
lettered (a) and (b) to five subsecs. lettered (a) to (e).
Subsec. (f). Pub. L. 106-554, §l(a)(6) [title V, §522(a)],
added subsec. (f).
1997-Subsec. (b)(2)(B). Pub. L. 105---33 inserted "(or
$100 in the case of home health services)" after "$500".
1994---Subsec. (b)(l). Pub. L. 103-296 inserted", except
that, in so applying such sections and in applying section 405(!) of this title thereto, any reference therein to
the Commissioner of Social Security or the Social Security Administration shall be considered a reference
to the Secretary or the Department of Health and
Human Services, respectively" after "section 405(g) of
this title" in closing provisions.
1987-Subsec. (a). Pub. L. 100-203, § 4085(1)(18), inserted
"or a claim for benefits with respect to home health
services under part B of this subchapter" before
"shall".
Subsec. (b)(2). Pub. L. 100-203, §4085(1)(19), inserted
"and (l)(D)" after "paragraph (l)(C)" in two places.
Subsec. (b)(3)(B). Pub. L. 100-203, § 4082(a), substituted
"section 553" for "chapter 5".
Subsec. (b)(5). Pub. L. 100-203, §4082(b), added par. (5).
Subsec. (c). Pub. L. 100-93 struck out subsec. (c)
which read as follows: "Any institution or agency dissatisfied with any determination by the Secretary that
it is not a provider of services, or with any determination described in section 1395cc(b)(2) of this title, shall
be entitled to a hearing thereon by the Secretary (after
reasonable notice and opportunity for hearing) to the
same extent as is provided in section 405(b) of this title,
and to judicial review of the Secretary's final decision
after such hearing as is provided in section 405(g) of
this title."
1986--Subsec. (a). Pub. L. 99-509, §9341(a)(l)(A), inserted "or part B" after "amount of benefits under part
A".
Pub. L. 99-509, §9313(b)(l)(A), inserted "and any other
determination with respect to a claim for benefits
under part A of this subchapter" before "shall".
Subsec. (b)(l). Pub. L. 99-509, §9313(a)(l), in concluding provisions, inserted at end "Sections 406(a), 1302,
and 1395hh of this title shall not be construed as authorizing the Secretary to prohibit an individual from
being represented under this subsection by a person
that furnishes or supplies the individual, directly or indirectly, with services or items solely on the basis that
the person furnishes or supplies the individual with
such a service or item. Any person that furnishes services or items to an individual may not represent an in-

Page 3288

dividual under this subsection with respect to the issue
described in section 1395pp(a)(2) of this title unless the
person has waived any rights for payment from the
beneficiary with respect to the services or items involved in the appeal. If a person furnishes services or
items to an individual and represents the individual
under this subsection, the person may not impose any
financial liability on such individual in connection
with such representation."
Subsec. (b)(l)(C). Pub. L. 99-509, §934l(a)(l)(B), inserted "or part B".
Subsec. (b)(l)(D). Pub. L. 99-509, §9313(b)(l)(B), added
subpar. (D).
Subsec. (b)(2). Pub. L. 99...,509, §934l(a)(l)(C), amended
par. (2) generally. Prior to amendment, par. (2) read as
follows: "Notwithstanding the provisions of subparagraph (C) of paragraph (1) of this subsection, a hearing
shall not be available to an individual by reason of such
subparagraph (C) if the amount in controversy is less
than $100; nor shall judicial review be available to an
individual by reason of such subparagraph (C) if the
amount in controversy is less than $1,000."
Subsec. (b)(3), (4). Pub. L. 99-509, §9341(a)(l)(D), added
pars. (3) and (4).
1984-Subsec. (b)(l)(B). Pub. L. 98--369 struck out the
comma before "or section 13951-2" and struck out ", or
section 1819" after "section 13951-2 of this title".
1972-Subsec. (b). Pub. L. 92---003 redesignated existing
provisions as par. (1), generally amended conditions
under which a dissatisfied individual shall be entitled
to a hearing by Secretary and to judicial review of final
decision of Secretary after such hearing, and added par.
(2).

CHANGE OF NAME
References to Medicare+Choice deemed to refer to
Medicare Advantage or MA, subject to an appropriate
transition provided by the Secretary of Health and
Human Services in the use of those terms, see section
201 of Pub. L. 108-173, set out as a note under section
1395w-21 of this title.
EFFECTIVE DATE OF 2011 AMENDMENT
Amendment by Pub. L. 112--40 applicable to contracts
entered into or renewed on or after Jan. 1, 2012, see section 261(e) of Pub. L. 112--40, set out as a note under section 1320c of this title.
EFFECTIVE DATE OF 2003 AMENDMENT
Amendment by section 932(a) of Pub. L. 108-173 applicable to appeals filed on or after Oct. 1, 2004, see section
932(d) of Pub. L. 108-173, set out as a note under section
1395i-3 of this title.
Pub. L. 108-173, title IX, §933(a)(2), Dec. 8, 2003, 117
Stat. 2402, provided that: "The amendment made by
paragraph (1) [amending this section] shall take effect
on October 1, 2004."
Pub. L. 108-173, title IX, §933(d)(4), Dec. 8, 2003, 117
Stat. 2406, provided that: "The amendments made by
paragraphs (1) and (2) [amending this section] shall be
effective as if included in the enactment of the respective provisions of subtitle C of title V of BIPA [the
Medicare, Medicaid, and SCRIP Benefits Improvement
and Protection Act of 2000, H.R. 5661, as enacted by section l(a)(6) of Public Law 106-554) (114 Stat. 2763A-,534)."
Pub. L. 108-173, title IX, §938(b), Dec. 8, 2003, 117 Stat.
2415, provided that:
"(l) EFFECTIVE DATE.-The Secretary [of Health and
Human Services] shall establish the prior determination process under the amendment made by subsection
(a) [amending this section] in such a manner as to provide for the acceptance of requests for determinations
under such process filed not later than 18 months after
the date of the enactment of this Act [Dec. 8, 2003].
"(2) SUNSET.-Such prior determination process shall
not apply to requests filed after the end of the 5-year
period beginning on the first date on which requests for
determinations under such process are accepted.
"(3) TRANSPrION.-During the period in which the
amendment made by subsection (a) [amending this sec-

App. 242

Page 3289

TITLE 42-THE PUBLIC HEALTH AND WELFARE

tion] has become effective but contracts are not provided under section 1874A of the Social Security Act [42
U.S.C. 1395kk-1] with medicare administrative contractors, any reference in section 1869(g) [probably should
be 1869(h)] of such Act [42 U.S.C. 1395ff(h)] (as added by
such amendment) to such a contractor is deemed a reference to a fiscal intermediary or carrier with an
agreement under section 1816, or contract under section
1842, respectively, of such Act [42 U.S.C. 1395h, 1395u].
"(4) LIMITATION ON APPLICATION TO SGR.-For purposes
of applying section 1848(f)(2)(D) of the Social Security
Act (42 U.S.C. 1395\V-4(f)(2)(D)), the amendment made by
subsection (a) [amending this section] shall not be considered to be a change in law or regulation."
Amendment by section 948(b)(l), (c) of Pub. L. 108-173
effective, except as otherwise provided, as if included in
the enactment of BIPA [the Medicare, Medicaid, and
SCHIP Benefits Improvement and Protection Act of
2000, H.R. 5661, as enacted by section l(a)(6) of Public
Law 106----554], see section 948(e) of Pub. L. 108-173, set
out as a note under section 1314 of this title.
EFFECTIVE DATE OF 2000 AMENDMENT
Amendment by section §l(a)(6) [title V, §521(a)] of
Pub. L. 106--554 applicable with respect to initial determinations made on or after Oct. 1, 2002, see section
l(a)(6) [title V, §52l(d)] of Pub. L. 106----554, set out as a
note under section 1320c-3 of this title.
Amendment by section l(a)(6) [title V, § 522(a)] of Pub.
L. 106--554 applicable with respect to a review of any national or local coverage determination filed, a request
to make such a determination made, and a national
coverage determination made, on or after Oct. 1, 2001,
see section l(a)(6) [title V, §522(d)] of Pub. L. 106----554,
set out as a note under section 1314 of this title.
EFFECTIVE DATE OF 1997 AMENDMENT
Amendment by Pub. L. 105--33 applicable to services
furnished on or after Jan. 1, 1998, and for purposes of
applying such amendment, any home health spell of illness that began, but did not end, before such date, to
be considered to have begun as of such date, see section
461l(f) of Pub. L. 105--33, set out as a note under section
1395d of this title.
EFFECTIVE DATE OF 1994 AMENDMENT
Amendment by Pub. L. 103--296 effective Mar. 31, 1995,
see section llO(a) of Pub. L. 103--296, set out as a note
under section 401 of this title.
EFFECTIVE DATE OF 1987 AMENDMENT
Pub. L. 100-203, title IV, §4082(e)(l), (2), Dec. 22, 1987,
101 Stat. 1330-128, provided that:
"(1) The amendment made by subsection (a) [amending this section] shall take effect on the date of the enactment of this Act [Dec. 22, 1987].
"(2) The amendment made by subsection (b) [amending this section] shall apply to requests for hearings
filed after the end of the 60-day period beginning on the
date of the enactment of this Act."
Amendment by Pub. L. 100-93 effective at end of fourteen-day period beginning Aug. 18, 1987, and inapplicable to administrative proceedings commenced before
end of such period, see section 15(a) of Pub. L. 100-93,
set out as a note under section 1320a-7 of this title.
EFFECTIVE DATE OF 1986 AMENDMENT
Pub. L. 99-509, title IX, § 9313(b)(2), Oct. 21, 1986, 100
Stat. 2003, provided that: "The amendments made by
this subsection [amending this section] take effect on
the date of the enactment of this Act [Oct. 21, 1986]."
Pub. L. 99-509, title IX, §934l(b), Oct. 21, 1986, 100 Stat.
2038, provided that: "The amendments made by subsection (a) [amending this section and sections 1395u
and 1395pp of this title] shall apply to items and services furnished on or after January 1, 1987."
EFFECTIVE DATE OF 1984 AMENDMENT
Amendment by Pub. L. 98-369 effective July 18, 1984,
but not to be construed as changing or affecting any

§1395ff

right, liability, status, or interpretation which existed
(under the provisions of law involved) before that date,
see section 2354(e)(l) of Pub. L. 98-369, set out as a note
under section 1320a.-1 of this title.
EFFECTIVE DATE OF 1972 AMENDMENT
Pub. L. 92-603, title II, §2990(b), Oct. 30, 1972, 86 Stat.
1465, provided that:
"(1) The provisions of subparagraphs (A) and (B) of
section 1869(b)(l) of the Social Security Act [42 U.S.C.
1395ff(b)(l)(A), (B)], as amended by subsection (a) of this
section, shall be effective on the date of enactment of
this Act [Oct. 30, 1972].
"(2) The provisions of paragraph (2) and subparagraph
(C) of paragraph (1) of section 1869(b) of the Social Security Act [42 U.S.C. 1395ff(b)(2), (b)(l)(C)], as amended
by subsection (a) of this section, shall be effective with
respect to any claims under part A of title XVIII of
such Act [42 U.S.C. 1395c et seq.], filed"(A) in or after the month in which this Act is enacted [Oct. 1972], or
"(B) before the month in which this Act is enacted
[Oct. 1972], but only if a civil action with respect to
a final decision of the Secretary of Health, Education, and Welfare on such claim has not been commenced under such section 1869(b) [42 U.S.C. 1395ff(b)J
before such month."
TRANSFER OF RESPONSIBILITY FOR MEDICARE APPEALS
Pub. L. 108-173, title IX, §931(a)-(c), Dec. 8, 2003, 117
Stat. 2396--2398, provided that:
"(a) TRANSITION PLAN."(l) IN GENERAL.-Not later than April 1, 2004, the
Commissioner of Social Security and the Secretary
[of Health and Human Services] shall develop and
transmit to Congress and the Comptroller General of
the United States a plan under which the functions of
administrative law judges responsible for hearing
cases under title XVIII of the Social Security Act [42
U.S.C. 1395 et seq.] (and related provisions in title XI
of such Act [42 U.S.C. 1301 et seq.]) are transferred
from the responsibility of the Commissioner and the
Social Security Administration to the Secretary and
the Department of Health and Human Services.
"(2) CONTENTS.-The plan shall include information
on the following:
"(A) WORKLDAD.-The number of such administrative law judges and support staff required now and
in the future to hear and decide such cases in a
timely manner, taking into account the current
and anticipated claims volume, appeals, number of
beneficiaries, and statutory changes.
"(B) COST PROJECTIONS AND FINANCING.-Funding
levels required for fiscal year 2005 and subsequent
fiscal years to carry out the functions transferred
under the plan.
"(C) TRANSITION TIMETABLE.-A timetable for the
transition.
"(D) REGULATIONS.-The establishment of specific
regulations to govern the appeals process.
"(E) CASE TRACKING.-The development of a unified case tracking system that will facilitate the
maintenance and transfer of case specific data
across both the fee-for-service and managed care
components of the medicare program.
"(F) FEASIBILITY OF PRECEDENTIAL AUTHORITY.The feasibility of developing a process to give decisions of the Departmental Appeals Board in the Department of Health and Human Services addressing
broad legal issues binding, precedential authority.
"(G) ACCESS TO ADMINISTRATIVE LAW JUDGES.-The
feasibility of"(i) filing appeals with administrative law
judges electronically; and
"(ii) conducting hearings using tele- or videoconference technologies.
"(H) INDEPENDENCE OF ADMINISTRATIVE LAW
JUDGES.-The steps that should be taken to ensure
the independence of administrative law judges consistent with the requirements of subsection (b)(2).

App. 243

§1395ff

TITLE 42-THE PUBLIC HEALTH AND WELFARE

"(I) GEOGRAPHIC DISTRIBUTION.-The steps that
should be taken to provide for an appropriate geographic distribution of administrative law judges
throughout the United States to carry out subsection (b)(3).
"(J) HIRING.-The steps that should be taken to
hire administrative law judges (and support staff)
to carry out subsection (b)(4).
"(K) PERFORMANCE STANDARDS.-The appropriateness of establishing performance standards for administrative law Judges with respect to timelines
for decisions in cases under title xvm of the Social
Security Act [42 U.S.C. 1395 et seq.] taking into account requirements under subsection (b)(2) for the
independence of such judges and consistent with
the applicable provisions of title 5, United States
Code[,] relating to impartiality.
"(L) SHARED RESOURCES.-The steps that should
be taken to carry out subsection (b)(6) (relating to
the arrangements with the Commissioner of Social
Security to share office space, support staff, and
other resources, with appropriate reimbursement).
"(M) TRAINING.-The training that should be provided to administrative law judges with respect to
laws and regulations under title XVIII of the Social
Security Act [42 U.S.C. 1395 et seq.].
"(3) ADDITIONAL INFORMATION.-The plan may also
include recommendations for further congressional
action, including modifications to the requirements
and .deadlines established under section 1869 of the
Social Security Act (42 U.S.C. 1395ff) (as amended by
this Act).
"(4) GAO EVALUATION.-The Comptroller Genera.I of
the United States shall evaluate the plan and, not
later than the date that is 6 months after the date on
which the plan is received by the Comptroller General, shall submit to Congress a report on such evaluation.
"(b) TRANSFER OF ADJUDICATION AUTHORITY."(!) IN GENERAL.-Not earlier than July 1, 2005, and
not later than October 1, 2005, the Commissioner of
Social Security and the Secretary shall implement
the transition plan under subsection (a) and transfer
the administrative law judge functions described in
such subsection from the Social Security Administration to the Secretary.
"(2) ASSURING INDEPENDENCE OF JUDGES.-The Secretary shall assure the independence of administrative law judges performing the administrative law
judge functions transferred under paragraph (1) from
the Centers for Medicare & Medicaid Services and its
contractors. In order to assure such independence,
the Secretary shall place such judges in an administrative office that is organizationally and functionally separate from such Centers. Such judges shall report to, and be under the general supervision of, the
Secretary, but shall not report to, or be subject to supervision by, another officer of the Department of
Health and Human Services.
"(3) GEOGRAPHIC DISTRIBUTION.-The Secretary shall
provide for an appropriate geographic distribution of
administrative law judges performing the administrative law judge functions transferred under paragraph
(1) throughout the United States to ensure timely access to such judges.
"(4) HmING AUTHORITY.-Subject to the amounts
provided in advance in appropriations Acts, the Secretary shall have authority to hire administrative
law judges to hear such cases, taking into consideration those judges with expertise in handling medicare appeals and in a manner consistent with paragraph (3), and to hire support staff for such judges.
"(5) FINANCING.-Amounts payable under law to the
Commissioner for administrative law judges performing the administrative law judge functions transferred under paragraph (1) from the Federal Hospital
Insurance Trust Fund and the Federal Supplementary Medical Insurance Trust Fund shall become
payable to the Secretary for the functions so transferred.

Page 3290

"(6) SHARED RESOURCES.-The Secretary shall enter
into such arrangements with the Commissioner as
may be appropriate with respect to transferred functions of administrative law judges to share office
space, support staff, and other resources, with appropriate reimbursement from the Trust Funds described
in paragraph (5).
"(c) INCREASED FINANCIAL SUPPORT.-ln addition to
any amounts otherwise appropriated, to ensure timely
action on appeals before administrative law judges and
the Departmental Appeals Board consistent with section 1869 of the Social Security Act (42 U.S.C. 1395ff) (as
amended by this Act), there are authorized to be appropriated (in appropriate part from the Federal Hospital
Insurance Trust Fund, established under section 1817 of
the Social Security Act (42 U.S .C. 1395i), and the Federal Supplementary Medical Insurance Trust Fund, established under section 1841 of such Act (42 U.S.C.
1395t)) to the Secretary such sums as are necessary for
fiscal year 2005 and each subsequent fiscal year to"(1) increase the number of administrative law
judges (and their staffs) under subsection (b)(4);
"(2) improve education and training opportunities
for administrative law judges (and their staffs); and
"(3) increase the staff of the Departmental Appeals
Board."
TRANSITION
Pub. L. 108--173, title IX, §933(d)(5), Dec. 8, 2003, 117
Stat. 2406, provided that: "In applying section 1869(g) of
the Social Security Act [42 U.S.C. 1395ff(g)] (as added by
paragraph (2)), any reference to a medicare administrative contractor shall be deemed to include a reference
to a fiscal intermediary under section 1816 of the Social
Security Act (42 U.S.C. 1395h) and a carrier under section 1842 of such Act (42 U.S.C. 1395u)."
PROCESS FOR CORRECTION OF MINOR ERRORS AND
OMISSIONS WITHOUT PURSUING APPEALS PROCESS
Pub. L. 108--173, title IX, §937, Dec. 8, 2003, 117 Stat.
2412, provided that:
"(a) CLAIMS.-The Secretary [of Health and Human
Services] shall develop, in consultation with appropriate medicare contractors (as defined in section
1889(g) of the Social Security Act [42 U.S.C. 1395zz(g)],
as inserted by section 301(a)(l) [probably should be
921(0(1)]) and representatives of providers of services
and suppliers, a process whereby, in the case of minor
errors or omissions (as defined by the Secretary) that
are detected in the submission of claims under the programs under title XVIII of such Act [42 U.S.C. 1395 et
seq.], a provider of services or supplier is given an opportunity to correct such an error or omission without
the need to initiate an appeal. Such process shall include the ability to resubmit corrected claims.
"(b) DEADLINE.-Not later than 1 year after the date
of the enactment of this Act [Dec. 8, 2003], the Secretary shall first develop the process under subsection
(a)."

STUDY OF AGGREGATION RULE FOR CLAIMS FOR
SIMILAR PHYSICIANS' SERVICES
Pub. L. 101--508, title IV, §4113, Nov. 5, 1990, 104 Stat.
1386-{i4, directed Secretary of Health and Human Services to carry out a study of the effects of permitting
the aggregation of claims that involve common issues
of law and fact furnished in the same carrier area to
two or more individuals by two or more physicians
within the same 12-month period for purposes of appeals provided for under subsec. (b)(2) of this section,
and to report on the results of such study and any recommendations to Congress by Dec. 31, 1992.
MEDICARE HEARINGS AND APPEALS
Pub. L. 100-203, title IV, §4037, Dec. 22, 1987, 101 Stat.
1330-80, provided that:
"(a) MAINTAINING CURRENT SYSTEM FOR HEARINGS AND
APPEALS.-Any hearing conducted under section
1869(b)(l) of the Social Security Act [42 U.S.C.

App. 244

Page 3291

TITLE 42-THE PUBLIC HEALTH AND WELFARE

1395ff(b)(l)J prior to the earliest of the date on which
the Secretary of Health a.nd Human Services submits
the report required to be submitted by the Secretary
under subsection (b)(l) or September l shall be conducted by Administrative Law Judges of the Office of
Hearings and Appeals of the Social Security Administration in the same manner as are hearings conducted
under section 205(b)(l) of such Act [42 U.S.C. 405(b)(l)].
"(b) STUDY AND REPORT ON USE OF TELEPHONE HEAR-

INGS.-

"(1) The Secretary of Health and Human Services
and the Comptroller General of the United States
shall each conduct a study on holding hearings under
section 1869(b)(l) of the Social Security Act [42 U.S.C.
1395ff(b)(l)] by telephone and shall each report the results of the study not later than 6 months after the
date of enactment of this Act [Dec. 22, 1987].
"(2) The studies under paragraph (1) shall focus on
whether telephone hearings allow for a full and fair
evidentiary hearing, in general, or with respect to
any particular category of claims and shall examine
the possible improvements to the hearing process
(such as cost-effectiveness, convenience to the claimant, and reduction in time under the process) resulting from the use of such hearings as compared to the
adoption of other changes to the process (such as expansions in staff and resources)."

§ 1395gg.

Overpayment on behalf of individuals
and settlement of claims for benefits on behalf of deceased individuals

(a) Payments to providers of services or other
person regarded as payment to individuals
Any payment under this subchapter to any
provider of services or other person with respect
to any items or services furnished any individual shall be regarded as a payment to such individual.
(b) Incorrect payments on behalf of individuals;
payment adjustment
Where(!) more than the correct amount is paid
under this subchapter to a provider of services
or other person for items or services furnished
an individual and the Secretary determines
(A) that, within such period as he may specify,
the excess over the correct amount cannot be
recouped from such provider of services or
other person, or (B) that such provider of services or other person was without fault with respect to the payment of such excess over the
correct amount, or
(2) any payment has been made under section 1395f(e) of this title to a provider of services or other person for items or services furnished an individual,

proper adjustments shall be made, under regulations prescribed (after consultation with the
Railroad Retirement Board) by the Secretary,
by decreasing subsequent payments(3) to which such individual is entitled under
subchapter II of this chapter or under the
Railroad Retirement Act of 1974 [45 U.S.C. 231
et seq.], as the case may be, or
(4) if such individual dies before such adjustment has been completed, to which any other
individual is entitled under subchapter II of
this chapter or under the Railroad Retirement
Act of 1974 [45 U.S.C. 231 et seq.], as the case
may be, with respect to the wages and self-employment income or the compensation constituting the basis of the benefits of such de-

§1395gg

ceased individual under subchapter II of this
chapter.
As soon as practicable after any adjustment
under paragraph (3) or (4) is determined to be
necessary, the Secretary, for purposes of this
section, section 1395i(g) of this title, and section
1395t(f) of this title, shall certify (to the Railroad Retirement Board if the adjustment is to
be made by decreasing subsequent payments
under the Railroad Retirement Act of 1974 [45
U.S.C. 231 et seq.]) the amount of the overpayment as to which the adjustment is to be made.
For purposes of clause (B) of paragraph (1), such
provider of services or such other person shall,
in the absence of evidence to the contrary, be
deemed to be without fault if the Secretary's determination that more than such correct
amount was paid was made subsequent to the
fifth year following the year in which notice was
sent to such individual that such amount had
been paid; except that the Secretary may reduce
such five-year period to not less than one year if
he finds such reduction is consistent with the
objectives of this subchapter.
(c) Exception to subsection (b) payment adjustment

There shall be no adjustment as provided in
subsection (b) (nor shall there be recovery) in
any case where the incorrect payment has been
made (including payments under section 1395f(e)
of this title) with respect to an individual who is
without fault or where the adjustment (or recovery) would be made by decreasing payments to
which another person who is without fault is entitled as provided in subsection (b)(4), if such adjustment (or recovery) would defeat the purposes of subchapter II or subchapter XVIII or
would be against equity and good conscience.
Adjustment or recovery of an incorrect payment
(or only such part of an incorrect payment as
the Secretary determines to be inconsistent
with the purposes of this subchapter) against an
individual who is without fault shall be deemed
to be against equity and good conscience if (A)
the incorrect payment was made for expenses incurred for items or services for which payment
may not be made under this subchapter by reason of the provisions of paragraph (1) or (9) of
section 1395y(a) of this title and (B) if the Secretary's determination that such payment was
incorrect was made subsequent to the fifth year
following the year in which notice of such payment was sent to such individual; except that
the Secretary may reduce such five-year period
to not less than one year if he finds such reduction is consistent with the objectives of this
subchapter.
(d) Liability of certifying or disbursing officer
for failure to recoup
No certifying or disbursing officer shall be
held liable for any amount certified or paid by
him to any provider of services or other person
where the adjustment or recovery of such
amount is waived under subsection (c) or where
adjustment under subsection (b) is not completed prior to the death of all persons against
whose benefits such adjustment is authorized.

App. 245

9/9/2020

Title 42 Part 405 Subpart I - Code of Federal Regulations

Title 42
PART 405 SUBPART I
CFR (https:1/ecfr.lo/) > / Tille 42 (https://ecfr.iomtle-42) > / Volume 2 (https://ecfr.iomHe-42Nolume-2) > /

Chapter IV (https://ecfr.ioffitle-42/Chapter-lV) >

Subchapter B (https://ecfr.ioffitle-42/Chapter-lV/Subchapter-B) > / Part 405 (https://ecfr.lomtle-42/Part-405) >
Subpart I (https://ecfr.iomtle-42/Part-405/Subpart-l)

Subpart I - Determinations, Redeterminations, Reconsiderations, and Appeals Under Original Medicare
(Part A and Part B) Source:70 FR 11472, Mar. 8, 2005, unless otherwise noted.
• 42 U.S.C. 263a, 405(a), 1302, 1320b-12, 1395x, 1395y(a), 1395ft, 1395hh, 1395kk, 1395rr, and 1395ww(k).
• Source:
42:2.0.1 .2.5.8.25

SUBJGRP 25

42:2.0.1.2.5.8.25.1

SECTION
405.900

405.900 Basis and scope. (mtle-42/Section-405.900)

42:2.0.1.2.5.8.25.2

SECTION
405.902

405.902 Definitions. (ffitle-42/Section-405.902)

42:2.0.1.2.5.8.25.3

SECTION
405.904

405.904 Medicare initial determinations, redeterminations and appeals: General description. (ffitle-42/Section-405.904)

42:2.0.1 .2.5.8.25.4

SECTION
405.906

405.906 Parties to the initial determinations, redeterminatlons, reconsiderations, hearings. and reviews. (mtle-42/Section405.906)

42:2.0.1.2.5.8.25.5

SECTION
405.908

405.908 Medicaid State agencies. (mtle-42/Section-405.908)

42:2.0.1.2.5.8.25.6

SECTION
405.910

405.910 Appointed representatives. (ffitle-42/Section-405.910)

42:2.0.1.2.5.8.25.7

SECTION
405.912

405.912 Assignment of appeal rights . (mtle-42/Section-405.912)

42:2.0.1.2.5.8.25.8

SECTION
405.920

405.920 Initial determinations. (/Title-42/Section-405.920)

42:2.0.1 .2.5.8.25.9

SECTION
405.921

405.921 Notice of initial determination . (mtle-42/Section-405.921)

42:2.0.1.2.5.8.25.10

SECTION
405.922

405.922 Time frame for processing initial determinations. (mtle-42/Section-405.922)

42:2.0.1.2.5.8.25.11

SECTION
405.924

405.924 Actions that are initial determinations. (ffitle-42/Section-405.924)

42:2.0.1.2.5.8.25.12

SECTION
405.925

405.925 Decisions of utilization review committees . (/Title-42/Sectlon-405.925)

42:2.0.1.2.5.8.25.13

SECTION
405.926

405.926 Actions that are not initial determinations. (mtle-42/Section-405.926)

42:2.0.1.2.5.8.25.14

SECTION
405.927

405.927 Initial determinations subject to the reopenlngs process . (/Tltle-42/Section-405.927)

42:2.0.1.2.5.8.25.15

SECTION
405.928

405.928 Effect of the initial determination . (/Title-42/Section-405.928)

42:2.0.1.2.5.8.26

SUBJGRP 26

Initial Determinations

Redeterminations

https://ecfr.ioffitle42/Part-405/Subpart-l

App. 246

1/5

9/9/2020

-- -- -- -- -

Title 42 Part 405 Subpart I - Code of Federal Regulations

--·-

42:2.0.1.2.5.6.26.16

SECTION
405.940

405.940 Right to a redetermination. {mtle-42/Section-405.940)

42:2.0.1.2.5.6.26.17

SECTION
405.942

405.942 Time frame for filing a request for a redetermination. (mtle-42/Section-405.942)

42:2.0.1.2.5.6.26.16

SECTION
405.944

405.944 Place and method of filing a request for a redetermination. {mtle-42/Section-405.944)

42:2.0.1.2.5.6.26.19

SECTION
405.946

405.946 Evidence to be submitted with the redetermination request. (mtle-42/Section-405.946)

42:2.0.1.2.5.6.26.20

SECTION
405.947

405.947 Notice to the beneficiary of applicable plan's request for a redetermination. (mtle-42/Section-405.947)

42:2.0.1.2.5.6.26.21

SECTION
405.946

405.948 Conduct of a redetermination. (mtle-42/Section-405.948)

42:2.0.1.2.5.6.26.22

SECTION
405.950

405.950 Time frame for making a redetermination. (mtle-42/Section-405.950)

42:2.0.1.2.5.6.26.23

SECTION
405.952

405.952 Withdrawal or dismissal of a request for a redetermination. (mtle-42/Section-405.952)

42:2.0.1.2.5.6.26.24

SECTION
405.954

405.954 Redetermination. (/Title-42/Section-405.954)

42:2.0.1.2.5.6.26.25

SECTION
405.956

405.956 Notice of a redetermination. (mtle-42/Section-405.956)

42:2.0.1.2.5.6.26.26

SECTION
405.956

405.958 Effect of a redetermination. {mtle-42/Section-405.958)

42:2.0.1.2.5.6.27

SUBJGRP 27

42:2.0.1.2.5.6.27 .27

SECTION
405.960

405.960 Right to a reconsideration. (mtle-42/Section-405.960)

42:2.0.1.2.5.6.27.26

SECTION
405.962

405.962 Timeframe for filing a request for a reconsideration. (/Title-42/Section-405.962)

42:2.0.1.2.5.6.27 .29

SECTION
405.964

405.964 Place and method of filing a request for a reconsideration. (mtle-42/Section-405.964)

42:2.0.1.2.5.6.27 .30

SECTION
405.966

405.966 Evidence to be submitted with the reconsideration request. (mtle-42/Section-405.966)

42:2.0.1.2.5.8.27.31

SECTION
405.968

405.968 Conduct of a reconsideration. (mtle-42/Section-405.968)

42:2.0.1.2.5.6.27.32

SECTION
405.970

405.970 Timeframe for making a reconsideration following a contractor redetermination. (mtle-42/Section-405.970)

42:2.0.1.2.5.8.27.33

SECTION
405.972

Reconsideration

405.972 Withdrawal or dismissal of a request for reconsideration or review of a contractor's dismissal of a request for
redetermination. (mtle-42/Section-405.972)

42:2.0.1.2.5.8.27.34

SECTION
405.974

405.974 Reconsideration and review of a contractor's dismissal of a request for redetermination. (mtle-42/Section-405.974)

42:2.0.1.2.5.8.27.35

SECTION
405.976

405.976 Notice of a reconsideration. (mtle-42/Section-405.976)

42:2.0 .1.2.5.8.27.36

SECTION
405.978

405.976 Effect of a reconsideration . (mtle-42/Section-405.976)

42:2.0.1.2.5.6.26

SUBJGRP 28

Reopenlngs

42:2.0 .1.2.5.8 .28.37

SECTION
405.980

405.980)

405.980 Reopening of initial determinations, redeterminations, reconsiderations, decisions, and reviews. (mtle-42/Section-

42:2.0.1.2.5.8.28.38

SECTION
405.982

405.982 Notice of a revised determination or decision. (/Title-42/Section-405.982)

42:2.0.1.2.5.6.28.39

SECTION
405.984

405.984 Effect of a revised determination or decision . (mtle-42/Sectlon-405.984)

https://ecfr.io/Title-42/Part-405/Subpart- l

App. 247

2/5

9/9/2020

Title 42 Part 405 Subpart I - Code of Federal Regulations

42:2.0.1 .2.5.8.28.40

SECTION
405.986

42:2.0.1 .2.5.8.29

SUBJGRP 29

42:2.0.1 .2.5.8.29.41

SECTION
405.990

42:2.0.1.2.5.8.30

SUBJGRP 30

42:2.0.1.2.5.8.30.42

SECTION
405.1000

405.1000 Hearing before an ALJ and decision by an ALJ or attorney adjudicator: General rule. (ffitie-42/Section-405.1000)

42:2.0.1.2.5.8.30.43

SECTION
405.1002

405.1002 Right to an ALJ hearing. (ffitle-42/Section-405.1002)

42:2.0.1.2.5.8.30.44

SECTION
405.1004

405.1004 Right to a review of QIC notice of dismissal. (ffitle-42/Section-405.1004)

42:2.0.1.2.5.8.30.45

SECTION
405.1006

405.1006 Amount in controversy required for an ALJ hearing and judicial review. (ffiUe-42/Section-405.1006)

42:2.0.1.2.5.8.30.46

SECTION
405.1008

405.1008 Parties to the proceedings on a request for an ALJ hearing. (ffitle-42/Section-405.1008)

42:2.0.1.2.5.8.30.47

SECTION
405.1010

42:2.0.1.2.5.8.30.48

SECTION
405.1012

405.1012 When CMS or its contractors may be a party to a hearing. (ffitle-42/Section-405.1012)

42:2.0.1 .2.5.8.30.49

SECTION
405.1014

405.1014 Requestfor an ALJ hearing or a review of a QIC dismissal. (/Title-42/Section-405.1014)

-----

405.986 Good cause for reopening. (mtle-42/Sectlon-405.986)

Expedited Access to Judicial Review
405.990 Expedited access to judicial review. (ffitie-42/Section-405.990)

ALJ Hearings

405.1010 When CMS or its contractors may participate in the proceedings on a request for an ALJ hearing . (ffitle-42/Section405.1010)

405.1016 Time frames for deciding an appeal of a QIC reconsideration or escalated request for a QIC reconsideration. (ffitle42/Section-405.1016)

42:2 .0.1.2.5.8.30 .50

SECTION
405.1016

42:2.0.1.2.5.8.30.51

SECTION
405.1018

405.1018 Submitting evidence . (/Title-42/Sectlon-405.1018)

42:2.0.1.2.5.8.30.52

SECTION
405.1020

405.1020 Time and place for a hearing before an ALJ. (ffitle-42/Section-405.1020)

42:2.0.1.2.5.8.30.53

SECTION
405.1022

405.1022 Notice of a hearing before an ALJ . (/TiUe-42/Section-405.1022)

42:2.0 .1.2.5.8.30.54

SECTION
405.1024

405.1024 Objections to the issues. (/Title-42/Section-405.1024)

42:2.0.1 .2.5.8.30.55

SECTION
405.1026

405.1026 Disqualification of the ALJ or attorney adjudicator. (/Title-42/Section-405.1026)

42:2.0.1.2.5.8.30.56

SECTION
405.1028

405.1028 Review of evidence submitted by parties. (/Title-42/Section-405.1028)

42:2.0.1.2.5.8.30.57

SECTION
405.1030

405.1030 ALJ hearing procedures. (ffitle-42/Section-405.1030)

42:2.0.1.2.5.8.30.58

SECTION
405.1032

405.1032 Issues before an ALJ or attorney adjudicator. (ffitle-42/Section-405.1032)

42:2.0.1.2.5.8.30.59

SECTION
405.1034

405.1034 Requesting Information from the QIC. (ffitle-42/Sectlon-405.1034)

42:2.0.1.2.5.8.30.60

SECTION
405.1036

405.1036 Description of an ALJ hearing process. (/Title-42/Section-405.1036)

42:2.0 .1.2.5.8.30.61

SECTION
405.1037

405. 1037 Discovery. (/Title-42/Sectlon-405.1037)

42:2.0.1.2.5.8.30.62

SECTION
405.1038

405.1038 Deciding a case without a hearing before an ALJ . (ffitle-42/Section-405.1038)

42:2.0.1.2.5.8.30.63

SECTION
405.1040

405.1040 Prehearlng and posthearing conferences. (/Title-42/Sectlon-405.1040)

https:l/ecfr.iofritle-42/Part-405/Subpart-l

App. 248

3/5

Title 42 Part 405 Subpart I - Code of Federal Regulations

9/9/2020
42:2.0.1.2.5.8.30.64

SECTION
405.1042

405.1042 The administrative record. (mtle-42/Section-405.1042)

42:2.0.1.2.5.8.30.65

SECTION
405.1044

405.1044 Consolidated proceedings. (mtle-42/Section-405.1044)

42:2.0.1.2.5.8.30.66

SECTION
405.1046

405.1046 Notice of an ALJ or attorney adjudicator decision. (mtle-42/Section-405.1046)

42:2.0.1.2.5.8.30.67

SECTION
405.1048

405.1048 The effect of an ALJ's or atlorney adjudicator's decision. {mtle-42/Section-405.1048)

42:2.0.1.2.5.8.30.68

SECTION
405.1050

405.1050 Removal of a hearing request from OMHA to the Council. {mtle-42/Section-405.1050)

42:2.0.1.2.5.8.30.69

SECTION
405.1052

42:2.0.1.2.5.8.30.70

SECTION
405.1054

405.1054 Effect of dismissal of a request for a hearing or request for review of QIC dismissal. {mtle-42/Section-405.1054)

42:2.0.1.2.5.8.30.71

SECTION
405.1056

405.1056 Remands of requests for hearing and requests for review. (mtle-42/Section-405.1056)

42:2 .0.1.2.5.8.30. 72

SECTION
405.1058

405.1058 Effect of a remand. (mtle-42/Section-405.1058)

42:2.0.1.2.5.8.31

SUBJGRP 31

42:2.0.1.2.5.8.31.73

SECTION
405.1060

42:2.0.1.2.5.8.31.74

SECTION
405.1062

42:2.0.1.2.5.8.31.75

405.1052 Dismissal of a request for a hearing before an ALJ or request for review of a QIC dismissal. (mtle-42/Section405.1052)

Applicability of Medicare Coverage Policies

405.1060 Applicability of national coverage determinations (NCDs). (mtle-42/Section-405.1060)

405.1062 Applicability of local coverage determinations and other policies not binding on the ALJ or attorney adjudicator and
Council. {mtle-42/Section-405.1062)

SECTION

405.1063 Applicability of laws, regulations, CMS Rulings, and precedential decisions. (mtle-42/Section-405.1063)

405.1063
42:2.0.1.2.5.8.32

SUBJGRP 32

42:2.0.1.2.5.8.32.76

SECTION
405.1100

405.1100 Medicare Appeals Council review: General. (mtle-42/Section-405.1100)

42:2.0.1.2.5.8.32.77

SECTION
405.1102

405.1102 Request for Council review when ALJ or attorney adjudicator issues decision or dismissal. (mtle-42/Section-405.1102)

42:2.0.1.2.5.8.32.78

SECTION
405.1106

405.1106 Where a request for review or escalation may be filed. (mtle-42/Section-405.1106)

42:2.0.1.2.5.8.32.79

SECTION
405.1108

405.1108 Council actions when request for review or escalation is filed. {mtle-42/Section-405.11 OB)

42:2.0.1.2.5.8.32.80

SECTION
405.1110

405.1110 Council reviews on its own motion. (mtle-42/Section-405.1110)

42:2.0.1.2.5.8.32.81

SECTION
405.1112

405.1112 Content of request for review. (mtle-42/Section-405.1112)

42:2.0.1.2.5.8.32.82

SECTION
405.1114

405.1114 Dismissal of request for review. (mtle-42/Section-405.1114)

42:2.0.1 .2.5.8.32.83

SECTION
405.1116

405.1116 Effect of dismissal of request for Council review or request for hearing. (mtle-42/Section-405.1116)

42:2.0.1.2.5.8.32.84

SECTION
405.1118

405.1118 Obtaining evidence from the Council. (mtle-42/Section-405.1118)

42:2 .0.1 .2.5.8.32.85

SECTION
405.1120

405.1120 Filing briefs with the Council. (mtle-42/Section-405.1120)

-

Medicare Appeals Council Review

.........................,-..........~·····"-""'" .......................... ........ ........~~

42:2 .0.1.2.5.8.32.86

SECTION
405.1122

405.1122 What evidence may be submitted to the Council. (/Title-42/Section-405.1122)

42:2.0.1.2.5.8.32.87

SECTION
405.1124

405.1124 Oral argument . (mtie-42/Section-405.1124)

https:l/ecfr.iomtle-42/Part-405/Subpart-1

App. 249

4/5

9/9/2020

Title 42 Part 405 Subpart I - Code of Federal Regulations

42:2.0.1.2.5.8.32.88

SECTION
405.1126

405.1126 Case remanded by the Council. (mtle-42/Section-405.1126)

42:2.0.1.2.5.8 .32.89

SECTION
405.1128

405.1128 Action of the Council. (mtle-42/Section-405.1128)

42:2.0.1.2.5.8.32.90

SECTION
405.1130

405.1130 Effect of the Council's decision. (mtle-42/Section-405.1130)

42:2.0.1 .2.5.8.32.91

SECTION
405.1132

405.1132 Request for escalation to Federal court. (mtle-42/Section-405.1132)

42:2.0.1 .2.5.8.32 .92

SECTION
405.1134

405.1134 Extension of time to file action in Federal district court. (mtle-42/Section-405.1134)

42:2.0.1.2.5.8.32.93

SECTION
405.1136

405.1136 Judicial review. (mtle-42/Section-405.1136)

42:2.0.1 .2.5.8.32.94

SECTION
405.1138

405.1138 Case remanded by a Federal district court. (rntle-42/Section-405.1138)

42:2.0.1.2.5.8.32.95

SECTION
405.1140

405.1140 Council review of ALJ decision in a case remanded by a Federal district court. (rntle-42/Section-405.1140)

© e-CFR (https://ecfr.io) 2020 I Privacy Policy (/privacy_policy.php)
SPONSORED SEARCHES

( ·
(

·

medicare._i_n_m
_e
_d_i-cal billing
find attorney case history

https://ecfr.iomtle-42/Part-405/Subpart-1

·

Q. l
Q.J (

code of federal regulations book 2019
list of compliance requi rements

App. 250

rnedicare part b
Q.

(

problems medicare

5/5

U.S. GOVERNMEN;J
INFORMATION

GPO

42 CFR Ch. IV (10-1-19 Edition)

§405.358
amount of payment has been made, notice of the provisions of section 1870(c)
of the Act regarding waiver of adjustment or recovery shall be sent to the
overpaid individual and to any other
individual against whom adjustment or
recovery of the overpayment is to be
effected (see § 405.358).
[61 FR 49271, Sept. 19, 1996]
§ 405.358

When waiver of adjustment
or recovery may be applied.

Section 1870(c) of the Act provides
that there shall be no adjustment or
recovery in any case where an incorrect payment under title XVIII (hospital and supplementary medical insurance benefits) has been made (including a payment under section 1814(e) of
the Act with respect to an individual:
(a) Who is without fault, and
(b) Adjustment or recovery would either:
(1) Defeat the purposes of title II or
title XVIII of the Act, or
(2) Be against equity and good conscience.
[61 FR 49271, Sept. 19, 1996]
§ 405.359

Liability of certifying or disbursing officer.

No certifying or disbursing officer
shall be held liable for any amount certified or paid by him to any provider of
services or other person:
(a) Where the adjustment or recovery
of such amount is waived (see §405.355),
or
(b) Where adjustment (see §405.352) or
recovery is not completed prior to the
death of all persons against whose benefits such adjustment is authorized.
SUSPENSION AND RECOUPMENT OF PAYMENT TO PROVIDERS AND SUPPLIERS
AND COLLECTION AND COMPROMISE OF
OVERPAYMENTS

§ 405.370

Definitions.

(a) For purposes of this subpart, the
following definitions apply:
Credible allegation of fraud. A credible
allegation of fraud is an allegation
from any source, including but not limited to the following:
(1) Fraud hotline complaints.
(2) Claims data mining.
(3) Patterns identified through provider audits, civil false claims cases,

and law enforcement investigations.
Allegations are considered to be credible when they have indicia of reliability.
Medicare contractor. Unless the context otherwise requires, includes, but is
not limited to the any of following:
(1) A fiscal intermediary.
(2) A carrier.
(3) Program safeguard contractor.
(4) Zone program integrity contractor.
(5) Part A/Part B Medicare administrative contractor.
Offset. The recovery by Medicare of a
non-Medicare debt by reducing present
or future Medicare payments and applying the amount withheld to the indebtedness. (Examples are Public
Health Service debts or Medicaid debts
recovered by CMS).
Recoupment. The recovery by Medicare of any outstanding Medicare debt
by reducing present or future Medicare
payments and applying the amount
withheld to the indebtedness.
Resolution of an investigation. An investigation of credible allegations of
fraud will be considered resolved when
legal action is terminated by settlement, judgment, or dismissal, or when
the case is closed or dropped because of
insufficient evidence to support the allegations of fraud.
Suspension of payment. The withholding of payment by a Medicare contractor from a provider or supplier of
an approved Medicare payment amount
before a determination of the amount
of the overpayment exists, or until the
resolution of an investigation of a credible allegation of fraud.
(b) For purposes of §§405.378 and
405.379, the following terms apply:
Appellant means the beneficiary, assignee or other person or entity that
has filed and pursued an appeal concerning a particular initial determination. Designation as an appellant does
not in itself convey standing to appeal
the determination in question.
Fiscal intermediary means an organization that has entered into a contract
with CMS in accordance with section
1816 of the Act and is authorized to
make determinations and payments for
Part A of title XVIII of the Act, and
Part B provider services as specified in
§421.5(c) of this chapter.

130

App. 251

Centers for Medicare & Medicaid Services, HHS
Medicare Appeals Council means the
council within the Departmental Appeals Board of the U.S. Department of
Health and Human Services.
Medicare contractor, unless the context otherwise requires, includes, but is
not limited to, a fiscal intermediary,
carrier, recovery audit contractor, and
Medicare administrative contractor.
Party means an individual or entity
listed in §405.906 that has standing to
appeal an initial determination and/or
a subsequent administrative appeal determination.
Qualified Independent Contractor (QIC)

Qualified Independent Contractor (QIC)
means an entity which contracts with
the Secretary in accordance with section 1869 of the Act to perform reconsiderations under §405.960 through
§405.978.
Remand means to vacate a lower level
appeal decision, or a portion of the decision, and return the case, or a portion of the case, to that level for a new
decision.
Vacate means to set aside a previous
action.
[61 FR 63745, Dec. 2, 1996, as amended at 74
FR 47468, Sept. 16, 2009; 76 FR 5961, Feb. 2,
2011]
§ 405.371

Suspension,
offset,
and
recoupment of Medicare payments
to providers and suppliers of services.
(a) General rules. Medicare payments

to providers and suppliers, as authorized under this subchapter (excluding
payments to beneficiaries), may be(1) Suspended, in whole or in part, by
CMS or a Medicare contractor if CMS
or the Medicare contractor possesses
reliable information that an overpayment exists or that the payments to be
made may not be correct, although additional information may be needed for
a determination;
(2) In cases of suspected fraud, suspended, in whole or in part, by CMS or
a Medicare contractor if CMS or the
Medicare contractor has consulted
with the OIG, and, as appropriate, the
Department of Justice, and determined
that a credible allegation of fraud exists against a provider or supplier, unless there is good cause not to suspend
payments; or

§405.371

(3) Offset or recouped, in whole or in
part, by a Medicare contractor if the
Medicare contractor or CMS has determined that the provider or supplier to
whom payments are to be made has
been overpaid.

(b) Good cause exceptions applicable to
payment suspensions. (1) CMS may find

that good cause exists not to suspend
payments or not to continue to suspend payments to an individual or entity against which there are credible allegations of fraud if(i) OIG or other law enforcement
agency has specifically requested that
a payment suspension not be imposed
because such a payment suspension
may compromise or jeopardize an investigation;
(ii) It is determined that beneficiary
access to items or services would be so
jeopardized by a payment suspension in
whole or part as to cause a danger to
life or health;
(iii) It is determined that other available remedies implemented by CMS or
a Medicare contractor more effectively
or quickly protect Medicare funds than
would implementing a payment suspension; or
(iv) CMS determines that a payment
suspension or a continuation of a payment suspension is not in the best interests of the Medicare program.
(2) Every 180 days after the initiation
of a suspension of payments based on
credible allegations of fraud, CMS
will-

(i) Evaluate whether there is good
cause to not continue such suspension
under this section; and
(ii) Request a certification from the
OIG or other law enforcement agency
that the matter continues to be under
investigation warranting continuation
of the suspension.
(3) Good cause not to continue to suspend payments to an individual or entity against which there are credible allegations of fraud must be deemed to
exist if a payment suspension has been
in effect for 18 months and there has
not been a resolution of the investigation, except CMS may extend a payment suspension beyond that point if(i) The case has been referred to, and
is being considered by, the OIG for administrative action (for example, civil

131

App. 252

U.S. COVERNMEN9
IN FORMATION

GPO

§405.372

42 CFR Ch. IV (10-1-19 Edition)

money penalties); or such administrative action is pending or
(ii) The Department of Justice submits a written request to CMS that the
suspension of payments be continued
based on the ongoing investigation and
anticipated filing of criminal or civil
action or both or based on a pending
criminal or civil action or both. At a
minimum, the request must include
the following:
(A) Identification of the entity under
suspension.
(B) The amount of time needed for
continued suspension in order to conclude the criminal or civil proceeding
or both.
(C) A statement of why or how criminal or civil action or both may be affected if the requested extension is not
granted.

(c) Steps necessary for suspension of
payment, offset, and recoupment. (1) Ex-

cept as provided in paragraphs (d) and
(e) of this section, CMS or the Medicare contractor suspends payments
only after it has complied with the procedural requirements set forth at
§405.372.
(2) The Medicare contractor offsets or
recoups payments only after it has
complied with the procedural requirements set forth at § 405.373.

(d) Suspension of payment in the case
of untiled cost reports. (1) If a provider

has failed to timely file an acceptable
cost report, payment to the provider is
immediately suspended in whole or in
part until a cost report is filed and determined by the Medicare contractor
to be acceptable.
(2) In the case of an unfiled cost report, the provisions of §405.372 do not
apply. (See § 405.372(a)(2) concerning
failure to furnish other information.)

(e) Suspension of payment in the case of
untiled hospice cap determination reports.
(1) If a provider has failed to timely file

an acceptable hospice cap determination report, payment to the provider is
immediately suspended in whole or in
part until a cap determination report
is filed and determined by the Medicare
contractor to be acceptable.
(2) In the case of an unfiled hospice
cap determination report, the provisions of §405.372 do not apply. (See

§ 405.372(a)(2) concerning failure to furnish other information.)
[76 FR 5961, Feb. 2, 2011, as amended at 79 FR
50509, Aug. 22, 2014]
EFFECTIVE DATE NOTE: At 84 FR 47852,
Sept. 10, 2019, §405.371 was amended by revising paragraph (a) introductory text, in paragraph (a)(l) by removing the semicolon at
the end of the paragraph, adding in its place
a period, in paragraph (a)(2) by removing "
or" at the end of paragraph and adding in its
place a period and adding paragraph (a)(4),
effective Nov. 4. 2019. For the convenience of
the user, the added and revised text is set
forth as follows:
§ 405.371

Suspension,
offset,
and
recoupment of Medicare payments to providers and suppliers of services.
(a) General rules-Medicare payments to
providers and suppliers, as authorized under
this subchapter (excluding payments to
beneficiaries), may be one of the following:

*

*

*

*

*

(4) Suspended, in whole or in part, by CMS
or a Medicare contractor if the provider or
supplier has been subject to a Medicaid payment suspension under §455.23(a)(l) of this
chapter.
§ 405.372

Proceeding for suspension of
payment.
(a) Notice of intention to suspend-(!)
General rule. Except as provided in

paragraphs (a)(2) through (a)(4) of this
section, if the Medicare contractor, or
CMS has determined that a suspension
of payments under §405.371(a)(l) should
be put into effect, the Medicare contractor must notify the provider or
supplier of the intention to suspend
payments, in whole or in part, and the
reasons for making the suspension.
(2) Failure to furnish information. The
notice requirement of paragraph (a)(l)
of this section does not apply if the
Medicare contractor suspends payments to a provider or supplier in accordance with section 1815(a) or section
1833(e) of the Act, respectively, because
the provider or supplier has failed to
submit information requested by the
Medicare contractor that is needed to
determine the amounts due the provider or supplier. (See § 405.371(c) concerning failure to file timely acceptable cost reports.)
(3) Harm to trust funds. A suspension
of payment may be imposed without
prior notice if CMS, the intermediary,

132

App. 253

Centers for Medicare & Medicaid Services, HHS
or carrier determines that the Medicare Trust Funds would be harmed by
giving prior notice. CMS may base its
determination on an intermediary's or
carrier's belief that giving prior notice
would hinder the possibility of recovering the money.
(4) Fraud. If the intended suspension
of payment involves credible allegations of fraud under § 405.371(a)(2),
CMS(i) In consultation with OIG and, as
appropriate, the Department of Justice, determines whether to impose the
suspension and if prior notice is appropriate;
(ii) Directs the Medicare contractor
as to the timing and content of the notification to the provider or supplier;
and
(iii) Is the real party in interest and
is responsible for the decision.
(b) Rebuttal-'-(!) If prior notice is required. If prior notice is required under

paragraph (a) of this section, the Medicare contractor must give the provider
or supplier an opportunity for rebuttal
in accordance with § 405.374. If a rebuttal statement is received within the
specified time period, the suspension of
payment goes into effect on the date
stated in the notice, and the procedures and provisions set forth in
§405.375 apply. If by the end of the period specified in the notice no statement has been received, the suspension
goes into effect automatically, and the
procedures set forth in paragraph (c) of
this section are followed.
(2) If prior notice is not required. If,
under the provisions of paragraphs
(a)(2) through (a)(4) of this section, a
suspension of payment is put into effect without prior notice to the provider or supplier, the Medicare contractor must, once the suspension is in
effect, give the provider or supplier an
opportunity to submit a rebuttal statement as to why the suspension should
be removed.
(c) Subsequent action. (1) If a suspension of payment is put into effect under
§ 405.371(a)(l), CMS or the Medicare
contractor takes timely action after
the suspension to obtain the additional
information it may need to make a determination as to whether an overpayment exists or the payments may be
made.

§405.372

(i) CMS or the Medicare contractor
makes all reasonable efforts to expedite the determination.
(ii) As soon as the determination is
made, CMS or the Medicare contractor
informs the provider or supplier and, if
appropriate, the suspension is rescinded or any existing recoupment or
offset is adjusted to take into account
the determination.
(2)(i) If a suspension of payment is
based upon credible allegations of
fraud in accordance with § 405.371(a)(2),
subsequent action must be taken by
CMS or the Medicare contractor to
make a determination as to whether an
overpayment exists.
(ii) The rescission of the suspension
and the issuance of a final overpayment determination to the provider or
supplier may be delayed until resolution of the investigation.

(d) Duration of suspension of payment-(!) General rule. Except as pro-

vided in paragraphs (d)(2) and (d)(3) of
this section, a suspension of payment
is limited to 180 days, starting with the
date the suspension begins.
(2) 180-day extension. (i) An intermediary, a carrier, or, in cases of fraud
and misrepresentation, OIG or a law
enforcement agency, may request a
one-time only extension of the suspension period for up to 180 additional
days if it is unable to complete its examination of the information or investigation, as appropriate, within the 180day time limit. The request must be
submitted in writing to CMS.
(ii) Upon receipt of a request for an
extension, CMS notifies the provider or
supplier of the requested extension.
CMS then either extends the suspension of payment for up to an additional
180 days or determines that the suspended payments are to be released to
the provider or supplier.
(3) Exceptions to the time limits. (i) The
time limits specified in paragraphs
(d)(l) and (d)(2) of this section do not
apply if the suspension of payments is
based upon credible allegations of
fraud under § 405.371(a)(2).
(ii) Although the time limits specified in paragraphs (d)(l) and (d)(2) of
this section do not apply to suspensions based on credible allegations of
fraud, all suspensions of payment in accordance with §405.37l(a)(2) will be

133

App. 254

§405.373

42 CFR Ch. IV (10-1-19 Edition)

temporary and will not continue after
the resolution of an investigation, unless a suspension is warranted because
of reliable evidence of an overpayment
or that the payments to be made may
not be correct, as specified in
§ 405.37l(a)(l).
(e) Disposition of suspended payments.

Payments suspended under the authority of §405.371(a) are first applied to reduce or eliminate any overpayments
determined by the Medicare contractor, or CMS, including any interest
assessed under the provisions of
§ 405.378, and then applied to reduce any
other obligation to CMS or to HHS. In
the absence of a legal requirement that
the excess be paid to another entity,
the excess is released to the provider or
supplier.
[61 FR 63746, Dec. 2, 1996, as amended at 76
FR 5962, Feb. 2, 2011]
§ 405.373

Proceeding for offset or
recoupment.
(a) General rule. Except as specified in

paragraphs (b) and (f) of this section, if
the Medicare Administrative Contractor or CMS has determined that an
offset or recoupment of payments
under §405.371(a)(3) should be put into
effect, the Medicare Administrative
Contractor must(1) Notify the provider or supplier of
its intention to offset or recoup payment, in whole or in part, and the reasons for making the offset or
recoupment; and
(2) Give the provider or supplier an
opportunity for rebuttal in accordance
with § 405.374.
(b) Exception

to recouping payment.

Paragraph (a) of this section does not
apply if the Medicare Administrative
Contractor, after furnishing a provider
a written notice of the amount of program reimbursement in accordance
with §405.1803, recoups payment under
paragraph (c) of §405.1803. (For provider
rights in this circumstance, see
§§ 405.1809, 405.1811, 405.1815, 405.1835, and
405.1843.)

(c) Actions following receipt of rebuttal
statement. If a provider or supplier sub-

mits, in accordance with §405.374, a
statement as to why an offset or
recoupment should not be put into effect on the date specified in the notice,
the Medicare contractor must comply

with the time limits and notification
requirements of §405.375.
(d) No rebuttal statement received. If,

by the end of the time period specified
in the notice, no statement has been
received, the recoupment or offset goes
into effect automatically.
(e) Duration of recoupment or offset.

Except as provided in § 405.379, if a
recoupment or offset is put into effect,
it remains in effect until the earliest of
the following:
(1) The overpayment and any assessed interest are liquidated.
(2) The Medicare contractor obtains a
satisfactory agreement from the provider or supplier for liquidation of the
overpayment.
(3) The Medicare contractor, on the
basis of subsequently acquired evidence
or otherwise, determines that there is
no overpayment.

(f) Exception to offset or recoupment of
payments for shared Taxpayer Identification Number. Paragraph (a) of this sec-

tion does not apply in instances where
the Medicare Administrative Contractor intends to offset or recoup payments to the applicable provider of
services or supplier to satisfy an
amount due from an obligated provider
of services or supplier when the applicable and obligated provider of services
or supplier share the same Taxpayer
Identification Number.
[61 FR 63747, Dec. 2, 1996, as amended at 74
FR 47468, Sept. 16, 2009; 81 FR 80551, Nov. 15,
2016]
§ 405.374

Opportunity for rebuttal.

(a) General rule. If prior notice of the
suspension of payment, offset, or
recoupment is given under § 405.372 or
§405.373, the Medicare contractor must
give the provider or supplier an opportunity, before the suspension, offset, or
recoupment takes effect, to submit any
statement (to include any pertinent information) as to why it should not be
put into effect on the date specified in
the notice. Except as provided in paragraph (b) of this section, the provider
or supplier has at least 15 days following the date of notification to submit the statement.
(b) Exception. The Medicare contractor may for cause(1) Impose a shorter period for rebuttal; or

134

App. 255

Centers for Medicare & Medicaid Services, HHS
(2) Extend the time within which the
statement must be submitted.
[61 FR 63747, Dec. 2, 1996]
§ 405.375

Time limits for, and notification of, administrative determination after receipt of rebuttal statement.

(a) Submission and disposition of evidence. If the provider or supplier sub-

mits a statement, under §405.374, as to
why a suspension of payment, offset, or
recoupment should not be put into effect, or, under § 405.372(b)(2) , why a suspension should be terminated, CMS,
the intermediary, or carrier must within 15 days, from the date the statement
is received, consider the statement (including any pertinent evidence submitted), together with any other material bearing upon the case, and determine whether the facts justify the suspension, offset, or recoupment or, if already initiated, justify the termination
of
the
suspension,
offset,
or
recoupment. Suspension, offset, or
recoupment is not delayed beyond the
date stated in the notice in order to review the statement.
(b) Notification of determination. The
Medicare contractor must send written
notice of the determination made
under paragraph (a) of this section to
the provider or supplier. The notice
must(1) In the case of offset or
recoupment, contain rationale for the
determination; and
(2) In the case of suspension of payment, contain specific findings on the
conditions upon which the suspension
is initiated, continued, or removed and
an explanatory statement of the determination.
(c) Determination is not appealable. A
determination made under paragraph
(a) of this section is not an initial determination and is not appealable.
[61 FR 63747, Dec. 2, 1996]
§ 405.376

Suspension and termination
of collection action and compromise
of claims for overpayment.
(a) Basis and purpose. This section
contains requirements and procedures
for the compromise of, or suspension or
termination of collection action on,
claims for overpayments against a provider or a supplier under the Medicare

§405.376

program. It is adopted under the authority of the Federal Claims Collection Act (31 U.S.C. 3711). Collection and
compromise of claims against Medicare
beneficiaries are explained at 20 CFR
404.515.
(b) Definitions. As used in this section, debtor means a provider of services or a physician or other supplier of
services that has been overpaid under
title XVIII of the Social Security Act.
It includes an individual, partnership,
corporation, estate, trust, or other
legal entity.
(c) Basic conditions. A claim for recovery of Medicare overpayments against
a debtor may be compromised, or collection action on it may be suspended
or terminated, by the Centers for Medicare & Medicaid Services (CMS) if;
(1) The claim does not exceed $100,000,
or such higher amount as the Attorney
General may from time to time prescribe, exclusive of interest; and
(2) There is no indication of fraud,
the filing of a false claim, or misrepresentation on the part of the debtor or
any director, partner, manager, or
other party having an interest in the
claim. ·
(d) Basis for compromise . A claim may
be compromised for one or more of the
following reasons:
(1) The debtor, or the estate of a deceased debtor, does not have the
present or prospective ability to pay
the full amount within a reasonable
time;
(2) The debtor refuses to pay the
claim in full and the United States is
unable to collect the full amount within a reasonable time by legal proceedings;
(3) There is real doubt the United
States can prove its case in court; or
(4) The cost of collecting the claim
does not justify enforced collection of
the full amount.
(e) Basis for termination of collection
action. Collection action may be termi-

nated for one or more of the following
reasons:
(1) The United States cannot enforce
collection of any significant sum;
(2) The debtor cannot be located,
there is no security to be liquidated,
the statute of limitations has run, and
the prospects of collecting by offset are

135

App. 256

9/9/2020

<<Prev Rule

TITLE 1
PART 15
CHAPTER371
SUBCHAPTER G
DIVISION 3
RULE §371.1703

Texas Administrative Code

Texas Administrative Code

Next Rule>>

ADMINISTRATION
TEXAS HEALTH AND HUMAN SERVICES COMMISSION
MEDICAID AND OTHER HEALTH AND HUMAN SERVICES FRAUD AND
ABUSE PROGRAM INTEGRITY
ADMINISTRATIVE ACTIONS AND SANCTIONS
ADMINISTRATIVE ACTIONS AND SANCTIONS
Termination of Enrollment or Cancellation of Contract

(a) The OIG may terminate the enrollment or cancel the contract of a person by debarment, suspension,
revocation, or other deactivation of participation, as appropriate. The OIG may terminate or cancel a person's
enrollment or contract if it determines that the person committed an act for which a person is subject to
administrative actions or sanctions.
(b) When the OIG establishes the following by prima facie evidence, the OIG must terminate or cancel the
enrollment or contract from the Medicaid program or any other HHS program of:
(1) a provider or any person with an ownership interest in the provider has been convicted of a criminal
offense related to that person's involvement with the Medicare, Medicaid, or CHIP program in the last ten
years;
(2) a provider that is terminated or revoked for cause, excluded, or debarred under Title XVIII of the Social
Security Act or under the Medicaid program or CHIP program of any other state;
(3) a provider that fails to permit access to any and all provider locations for unannounced or announced onsite inspections required during the provider screening process as provided by rule;
(4) a provider when any person with an ownership or control interest or who is an agent or managing
employee of the provider fails to submit timely and accurate information, including fingerprints if required by
CMS or state rule, and cooperate with any and all screening methods required during the provider screening
process as provided by rule, statute, rule, or regulation;
(5) a provider that fails to submit sets of fingerprints in a form and manner to be provided by rule;
(6) a person that fails to repay overpayments under the Medicaid program or CHIP;
(7) a person that owns, controls, manages, or is otherwise affiliated with and has financial, managerial, or
administrative influence over a provider who has been suspended or prohibited from participating in Medicare,
Medicaid, or CHIP;
(8) a provider that fails to identify or disclose in the provider screening process for any HHS program:
(A) all persons with a direct or indirect ownership or control interest, as defined by 42 C.F.R. §455.101;
(B) all information required to be disclosed in accordance with 42 C.F.R. § 1001.1101, 42 C.F.R. chapter 455,
or other by statute, rule, or regulation; or
(C) all agents or subcontractors of the provider:
(i) if the provider or a person with an ownership interest in the provider has an ownership interest in the
agent or subcontractor; or
257 _tloc=&p_ploc=&pg= 1&p_tac::::&ti= 1&pt=- 15&ch::::371 &rl=1703
https://texreg.sos.state.tx.us/public/readtac$ext.TacPage?sl=R&app=9&pApp.
_dir=&p_rloc=&p

1/4

9/9/2020

Texas Administrative Code

(ii) if the provider engages in a business transaction with the agent or subcontractor that meets the criteria
specified by 42 C.F.R. §455.105; or
(9) a provider that has been excluded or debarred from participation in a state or federally funded health care
program as a result of:
(A) a criminal conviction or finding of civil or administrative liability for committing a fraudulent act, theft,
embezzlement, or other financial misconduct under a state or federally funded health care program; or
(B) a criminal conviction for committing an act under a state or federally funded health care program that
caused bodily injury to:
(i) a person who is 65 years of age or older;
(ii) a person with a disability; or
(iii) a person under 18 years of age.
(c) When the OIG establishes the following by prima facie evidence, the OIG may terminate or cancel the
enrollment or contract from Medicaid, CHIP, or any other HHS program of:
( 1) a provider if a criminal history check reveals a prior criminal conviction;
(2) a provider that has failed to bill for medical assistance or refer clients for medical assistance within a 12month period;
(3) a provider that has been excluded or debarred from participation in any federally funded health care
program not described in subsection (b)(2) of this section;
(4) a provider that has falsified any information on its application for enrollment as determined by the OIG;
(5) a provider whose identity on an application for enrollment cannot be verified by the OIG;
(6) a person that commits a program violation;
(7) a person that is affiliated with a person who commits a program violation;
(8) a person that commits an act for which sanctions, damages, penalties, or liability could be or are assessed
by the OIG; or
(9) a person whose contract may be cancelled for any other reason specified by statute or regulation.
(d) Exceptions.
(1) The OIG need not terminate participation if the person or provider voluntarily resigned from participation
under Title XVIII of the Social Security Act or under the Medicaid program or CHIP program of any other
state, and the resignation was not in lieu of or to avoid exclusion, termination, or any other sanction.
(2) The OIG need not terminate participation based on a conviction described in subsection (b)(l) of this
section, a termination described in subsection (b)(2) of this section, or a failure to allow access described in
subsection (b)(3) of this section if the OIG:
(A) determines that termination is not in the best interests of the Medicaid program; and
(B) documents that determination and the rationale in writing.

258 _tloc=&p_ploc=&pg=1 &p_tac=&ti= 1&pt=15&ch=371 &rl= 1703
https://texreg .sos.state.tx.us/public/readtac$ext.TacPage?sl=R&app=9&pApp.
_dir=&p_rloc=&p

2/4

9/9/2020

Texas Administrative Code

(e) Notice. Notice of termination includes:
(1) a description of the termination;
(2) the basis for the termination;
(3) the effect of the termination;
(4) the duration of the termination;
(5) whether re-enrollment will be required after the period of termination; and
(6) a statement of the person's right to request an informal resolution meeting or an administrative hearing
regarding the imposition of the termination unless the termination is required under 42 C.F.R. §455.416.

(t) Due process.
(1) After receiving a notice of termination, a person has a right to the informal resolution process in
accordance with §371.1613 of this subchapter (relating to Informal Resolution Process) unless the termination
is required under 42 C.F.R. §455.416.
(2) A person may request an administrative hearing after receipt of a final notice of termination in accordance
with §371.1615 of this subchapter (relating to Appeals) unless the termination is required under 42 C.F.R.
§455.416. The OIG must receive the written request for a hearing no later than the 15 days after the date the
person receives the notice.
(g) Scope and effect of termination.
(1) A person's enrollment agreement or contract is nullified on the effective date of the termination.
(2) Once a person's enrollment agreement or contract is terminated or cancelled, no items or services furnished
are reimbursed by the Medicaid or other HHS program during the period of termination or cancellation.
(3) Following termination, the person must re-enroll in order to participate as a provider in the Medicaid or
other HHS program, if the person was terminated for any grounds in subsection (b) or (c)(l) - (3) of this
section. Re-enrollment requires the provider to meet all applicable screening requirements, including the
payment of any application fees.
(4) A person may be terminated from participation in the Medicare program and in the Medicaid program of
every other state as a result of the termination.
(5) If, after the effective date of the termination or cancellation, a person submits or causes to be submitted
claims for services or items furnished within the period of termination or cancellation, the person may be liable
to repay any submitted claims or subject to civil monetary penalty liability under §1128A(a)(l)(D), and
criminal liability under§ 1128B(a)(3) of the Social Security Act in addition to sanctions or penalties by the
OIG.
(6) The termination or cancellation may, as determined by the OIG, become immediately effective and final on
the date reflected on the notice of cancellation in the following circumstances:
(A) the person subject to termination or cancellation may be placing at risk the health or safety of persons
receiving services under Medicaid;
(B) the person who is subject to termination or cancellation fails:
(i) to grant immediate access to the OIG or to a requesting agency upon reasonable request;

App.
259
https://texreg .sos.state.tx.us/public/readtac$ext.TacPage?sl=R&app=9&p
_d ir=&p_rloc=&p_tloc=&p
_ploc=&pg=1 &p_ tac=&ti=1 &pt=15&ch=371 &rl=1703

3/4

9/9/2020

Texas Administrative Code

(ii) to allow the OIG or a requesting agency to conduct any duties that are necessary to the performance of
their official functions; or
(iii) to provide to the OIG or a requesting agency as requested copies or originals of any records,
documents, or other items, as determined necessary by the OIG or the requesting agency.
(7) If the person timely filed a written request for an administrative hearing, the effective date of termination is
the date the hearing officer's or administrative law judge's decision to uphold the termination becomes final;
however, if the administrative law judge upholds a termination for grounds described in paragraph (6) of this
subsection, the effective date is made retroactive to the date of the notice of termination.
(8) Unless otherwise provided in this section, the termination becomes final as provided in §371.1617(a) of
this subchapter (relating to Finality and Collections).
(h) Reinstatement.
(1) The OIG may reinstate a provider's enrollment if the OIG finds:
(A) good cause to determine that it is in the best interest of the medical assistance program; and
(B) the person has not committed an act that would require revocation of a provider's enrollment or denial of
a person's application to enroll since the person's enrollment was revoked.
(2) The OIG must support a determination made under this section with written findings of good cause for the
determination.

·- - - - -- -- - -- - - - -- - -- - -- - - - ---Source Note: The provisions of this §371.1703 adopted to be effective October 14, 2012, 37 TexReg 7989;
amended to be effective April 15, 2014, 39 TexReg 2833; amended to be effective May 1, 2016, 41 TexReg
2941

=.=J

List of Titles

TEXAS REGISTER

Back to List

TEXAS ADMINISTRATIVE CODE

OPEN MEETINGS

260 _tloc=&p_ploc=&pg::1&p_tac::::&ti=1 &pt=15&ch=371 &rl::::1703
https://texreg .sos.state.tx.us/public/readtac$ext.TacPage?sl=R&app=9&pApp.
_dir-&p_rloc=&p

4/4

